NO. 19-__

In the
Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
V.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FEDERAL CIRCUIT

APPENDIX VOLUME II OF III

DAVID J. LISSON
DAVIS POLK & WARDWELL
LLP
1600 El Camino Real
Menlo Park, CA 94025

DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
1155 F Street NW 7th Floor
Washington, D.C. 20004
(202) 220-1100
Donald.Verrilli@MTO.com
BRIAN J. SPRINGER
MUNGER, TOLLES & OLSON LLP
350 S. Grand Ave., 50th Floor
Los Angeles, CA 90071

Counsel for the Comcast petitioners
(Additional counsel listed on inside cover)

PAUL M. BARTKOWSKI
ADDUCI, MASTRIANI &
SCHAUMBERG LLP
1133 Connecticut Ave. NW,
12th Floor
Washington, D.C. 20036
Counsel for the Technicolor
Petitioners

MITCHELL G. STOCKWELL
MICHAEL J. TURTON
JOSHUA H. LEE
KILPATRICK TOWNSEND &
STOCKTON LLP
1100 Peachtree St. NE,
Ste. 2800
Atlanta, GA 30309
JOSHUA B. POND
KILPATRICK TOWNSEND &
STOCKTON LLP
607 14th St NW, Ste. 900
Washington, D.C. 20005
Counsel for the ARRIS
Petitioners

TABLE OF CONTENTS
Volume I
Appendix A: Opinion of the United States
Court of Appeals for the Federal Circuit
(March 2, 2020) ......................................................... 1a
Appendix B: Opinion of the United States
International Trade Commission
(December 6, 2017) ................................................. 18a
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) ................................... 75a
Volume II
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 343a
Volume III
Appendix C: Initial Determination of the
United States International Trade
Commission (May 26, 2017) (continued).............. 693a
Appendix D: Relevant Cease and Desist and
Limited Exclusion Orders of the United States
International Trade Commission ........................ 950a
Appendix E: Statutory Provisions...................... 1016a

343a
bidirectional remote access link.” The construction
comports with the plain purpose of the “remote . . .
device” and also accounts for the additional words (e.g.,
interactive television) in this term. See CAE
Screenplates, 224 F.3d at 1317 (“In the absence of any
evidence to the contrary, we must presume that the
use of these different terms in the claims connotes
different meanings.”).
(6) User television equipment
This term appears in claims 1, 2, 6, 9, 12, 15, and
18, and it is used many times in the specification. See
generally JX-0002. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

any equipment capable of Comcast does not clearly
use by a user to display present a construction in
program listings and to its post-hearing brief.
record television
programs
See Rovi Br. at 49; Resps. Br. at 81-82.
Rovi’s opening argument for this term follows:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“any equipment capable of
use by a user to display program listings
and to record television programs.” CX0002C (Shamos WS) at Q/A 112. The
specifications make clear that “user
television equipment” is a broad term.
Id.; JX-0002 (’263 Patent) at col. 6, ln. 64

344a
- col. 7, ln. 1. Further, Figs. 3 and 4 of the
’263 Patent show the user television
equipment as including a television 36,
remote control 40, secondary storage
device 32, set-top box 28, digital storage
device 31, user interface 46, digital
storage device 49, secondary storage
device 47, communications device 51 and
display device 45. JX-0002 (’263 Patent)
at Figs. 3-4. In the Patents, the recited
purpose of the “user television
equipment” is to display program listing
and record television programs. CX0002C (Shamos WS) at Q/A 112. What
records television programs thus falls
within
the
scope
of
“television
equipment.” CX-1901C (Shamos RWS) at
Q/A 37 (discussing additional intrinsic
evidence
in
support
of
Rovi’s
construction).
Rovi Br. at 49.
Comcast’s argument for this term follows:
The party’s [sic] proposed construction
[sic] of “user television equipment” are
provided in RDX-0842. Comcast’s
proposed construction is consistent with
the plain and ordinary meaning of this
limitation to one of ordinary skill in the
art in light of the intrinsic evidence. RX0007C at Q/A 174.
There are two problems with Rovi’s
construction. First, it is overbroad
because it would read the word
“television” out of the claims. For

345a
example, Rovi’s construction would cover
a personal computer, which is capable of
being configured to display program
listings and record television programs
but is inarguably not a “television” as a
POSITA would understood. RX-0007C at
Q/A 175. Second, Rovi’s construction
leads to the absurd result that the agreed
construction for “user site” would no
longer be limited to the site of the user
when Rovi’s construction of “user
television equipment” is combined with
the other agreed constructions. Because
“user television equipment” would no
longer be limited to a television in Rovi’s
construction, the equipment would not
need to be in the user’s home. But the
parties have agreed that “user site”
means “location of the user equipment”
and that “user equipment” means “user
television equipment.” Thus, “user site”
means “location of the [user television
equipment].” Under Rovi’s overbroad
construction
of
“user
television
equipment” this would mean that “user
site” is no longer limited to a fixed point,
like the user’s home. This would render
the “user site” limitation meaningless.
This problem is averted by adopting
Comcast’s construction which would lead
to a “user site” construction of “location
of the television equipment associated
with the user.” This construction makes
sense and is consistent with the plain
and ordinary meaning.

346a
Rovi criticizes Comcast’s construction by
arguing that “associated with a user” is
unclear. See CX-0002C (Shamos WS) at
Q/A 113. Dr. Shamos’s hypothetical
where a television could potentially be
associated with users A, B, and C does
not present a problem. It would not be
difficult for a POSITA to determine that
the television equipment is associated
with a single subscriber whether or not
it is available to multiple individuals
within that household. See RX-0007C at
Q/A 179.
Resps. Br. at 81-82.
Rovi replies:
Respondents misrepresent the scope of
the inventions and the specifications,
stating: “Rovi’s construction [of user
television equipment] would cover a
personal computer, which is capable of
being configured to display program
listings and record television programs
but is inarguably not a ‘television’ as a
POSITA would understood [sic].” Resps.
Br. at 81. The specifications of the
Asserted Patents explicitly state that
“user television equipment” includes a
personal computer: “[o]ther suitable
types of user television equipment may
be based on personal computer
televisions (PC/TVs). . .” JX-0003 (’801
Patent) at 4:17-20, 11:59-62, 31:61-65.
Thus,
Respondents’
argument
is
unpersuasive.

347a
Rovi Reply at 32.
The administrative law judge construes the term
“user television equipment” to mean “equipment for
displaying television program listings information and
other program guide data using a local interactive
television program guide.” See JX-0002 at 7:61-64
(“Each user has user television equipment 22 for
displaying the television program listings information
and other program guide data using a local interactive
television program guide.”). Further, this construction
is consistent with the specification, and it also allows
for other uses such as the display of programming (e.g.,
watching television shows).
Rovi’s construction is overly broad to the extent it
seeks to encompass “any equipment.” Conversely,
Rovi’s construction is overly narrow to the extent it
requires the user television equipment “to record.”
While the preamble of claim 1 indicates that the
claimed system is “for recording,” the body of the claim
indicates that “the local interactive television program
guide . . . records the television program . . . using the
local interactive television program guide equipment.”
See JX-0002 at 28:59-63.
(7) Generates[/ing] . . . a display
Claim 1 of the ’263 Patent utilizes the term
“generates a display” twice. See JX-0002 at 28:35,
28:44 (“Generates a display” only appears in claims 5,
8, 11, 14, and 17. It does not appear in the
specification). The parties have proposed the following
constructions:

348a
Rovi’s Proposed
Construction
Generates[/ing] data
representing a display

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in its
post-hearing brief.

Rovi Br. at 49; Resps. Br. at 82-83.
Rovi’s opening argument for this phrase follows:
One of ordinary skill in the art would
agree
with
Rovi’s
construction—
“generates[/ing] data representing a
display.” CX-0002C (Shamos WS) at Q/A
114. This straightforward construction
explains what generating a display
means and is consistent with the
disclosure in the specifications. See JX0002 (’263 Patent) at col. 6, lns. 1-8, col.
9, lns. 15-19, col. 14, lns. 2-19, col. 20, lns.
1-5.
Respondents’ proposed construction
requires that what does the “generating”
also “create[s] data sufficient to provide
a display” and “provide[s] that data to a
display device.” Resps. P.H. Br. at 199200. As with the “local interactive
television program guide” term, this is
another attempt by Respondents to limit
the local guide to equipment within the
user’s
home
that
must—under
Respondents’ construction—“create data
sufficient to provide a display” and
“provide that data to a display device.” If
something other than the television

349a
equipment in the user’s home “creates
the data,” then, under Respondents’
construction, that would be excluded
from the scope of the claims. However,
and as discussed previously, the
specifications contemplate a clientserver based program guide where the
program guide server generates program
guide display screens as digital frames
and distributes the frames to user
television equipment 22 of Figure 2d. JX0003 (’801 Patent) at col. 8, ln. 52 - col. 9,
ln. 60, col. 10, lns. 2-9, col. 40, lns. 6-30,
col. 41, lns. 6-32, Fid. 2d. As Dr. Wigdor
testified at the hearing, this embodiment
would be excluded under Respondents’
construction. Wigdor Tr. 895. In a cable
system, consistent with the disclosed
embodiments, the user television
equipment (inside the home) works with
portions of the cable network outside the
home to receive data needed to generate
a display on the user’s television
equipment. CX-0002C (Shamos WS) at
Q/A 115 (discussing other intrinsic
evidence supporting Rovi’s construction).
Rovi Br. at 49-50.
Comcast’s opening argument for this phrase follows:
The party’s [sic] proposed construction
[sic] of “generates[/ing] . . . a display” are
provided in RDX-0843. Comcast’s
construction is supported by the
specification,
which
recognizes
a
difference between the generating of a

350a
display screen and the displaying of that
screen to the user. For example, the
patents describe an embodiment where
the local guide receives communications
from a remote device, generates “the
appropriate program guide display
screen,” and “send[s] the program guide
display screen back” to the remote device
“for display on [a] user interface.” JX0002 (’263 Patent) at 14:11-19. Thus the
specifications show that there is a
distinction between generating the
display screen and displaying it.
Rovi
mischaracterizes
Comcast’s
proposed construction as requiring that
“the element that generates the display
must talk directly to the display device.”
CX-0002C (Shamos WS) at Q/A 115.
Under Comcast’s construction, the same
element could both generate and display
or one element could generate the
display screen and indirectly pass it to
the display device. Either scenario would
be included in Comcast’s construction.
Dr. Shamos constructs a hypothetical
involving a browser. rendering an HTML
file and incorrectly suggests that the
browser “generates” the display by
rendering the HTML file. This
hypothetical
demonstrates
a
misunderstanding of Comcast’s proposed
construction. Rendering an HTML file,
or similar types of data, is not generating
a display. On the contrary, creating the
HTML file and passing it to a browser is

351a
“generating” a display because it “creates
data sufficient to provide a display [the
HTML file] and provides that data to a
display device [browser] to create
[render] the display.” RX-0007C (Wigdor
WS) at Q/A 186.
Resps. Br. at 82-83.
Comcast replies:
There is nothing to add over
Respondents post-hearing brief (Resp.
PoHB at 81-82) other than to note Rovi
offers no criticisms of Respondents’
construction. See Compl. PoHB at 49.
Resps. Reply at 19.
The administrative law judge construes the term
“generates a display” to mean “creates a display.” 80
Rovi’s construction simply adds the words “data
representing” without any substantive development of
the concept; Rovi does not explain why “data
According to Rovi, this construction is superfluous because the
parties do not dispute that the X1 system generates a display
under either party’s construction. See Rovi Reply at 35, which
argues:
80

Based on Respondents’ admission, the parties agree that
the X1 system generates a display of one or more
program listings as required by the Asserted Claims
under Rovi’s construction or under Respondents’
construction without the “in the user’s home”
requirement. See Compls. Br. at 43-46 (discussing the
construction of local interactive television program
guide) and 66-70 (discussing infringement by the X1
system, of the Asserted Claims). Thus, the only dispute
between the parties is whether the X1 system contains a
local guide.

352a
representing” is a necessary addition or why “data” is
not otherwise inherent in the plain language itself.
(8) Wherein the display of the plurality of
program listings is generated based on
a user profile stored at a location
remote from the remote program guide
access device
This phrase appears in claims 1 and 5 of the ’263
Patent. The parties have proposed the following
constructions:
Rovi’s Proposed
Construction
No further construction
necessary, plain and
ordinary meaning.

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

Rovi Br. at 51-52; Resps. Br. at 78.
Rovi argues:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“No further construction
necessary, plain and ordinary meaning.”
CX-0002C (Shamos WS) at Q/A 116, 119.
The meaning of the “wherein” clauses is
clear from the text of the claim
limitations themselves. The parties
agree that the display must be based on
a user profile stored somewhere other
than on the remote program guide access
device. Indeed, the claim language states
“a user profile stored at a location remote
from the remote interactive television

353a
program guide access device.” JX-0002
(’263 Patent) at col. 31, lns. 1-31. In the
face of the plain meaning of this term,
Respondents’ proposed construction
adds
the
unsupported
additional
requirement that the user profile be
“stored, and used, other than on the
remote interactive television program
guide access device.” Resps. P.H. Br. at
192-96 (emphasis added).
Respondents’ construction is expressly
contradicted by the specifications, for
example, JX-0002 (’263 Patent) at col. 17,
lns. 4-18. Respondents’ expert, Dr.
Wigdor, admits he is improperly reading
in a “use” limitation from one of the
disclosed
embodiments.
RX-0007C
(Wigdor WS) at Q/A 161. Within the
scope of the asserted claims, the user
profile information could be stored on a
server (i.e., not on the remote access
device), transmitted to the device over
the Internet, and then used on the device
to generate display of the remote
interactive television program guide.
CX-0002C (Shamos WS) at Q/A 116-18
(explaining additional intrinsic evidence
in support of Rovi’s construction);
Shamos Tr. 250-54 (same).
Rovi Br. at 51-52. Rovi then provides examples of “user
profile” information in a footnote. Id. at 52 n.9.
Comcast argues that its “constructions are
consistent with the intrinsic evidence. The only
specification disclosure of generating a display for a

354a
remote device using a user profile, discloses that the
profile is stored and used somewhere other than the
remote device in order to reduce the amount of data
that needs to be sent to the remote device.” Resps. Br.
at 78. Comcast cites three lines of the specification, a
complaint from a different lawsuit, inventor
testimony, and expert testimony that dovetails with
Comcast’s argument. Id. The specification text that
Comcast cites explains:
User preference profiles may also be
used to limit the amount of data provided
to remote program guide access device 24
and thereby tend to minimize the
bandwidth requirements of remote
access link 19.
Id. (citing JX-0002 at 17:37-40 (emphasis added by
Comcast)).
The administrative law judge has determined that
it is not necessary to construe this phrase. The
meaning of the phrase is clear and self-explanatory,
and the parties agree that the display must be based
on a user profile stored somewhere other than on the
remote program guide access device.
(9) Wherein the remote interactive
television program guide access device
generates a display of a plurality of
program listings based on a user
profile stored at a location remote from
the remote interactive television
program guide access device
This phrase appears in claims 14 and 17 of the ’263
Patent. The parties have proposed the following
constructions:

355a
Rovi’s Proposed
Construction
No further construction
necessary, plain and
ordinary meaning.

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

Rovi Br. at 51-52; Resps. Br. at 78.
The parties do not present independent argument
with relation to this phrase. Rather, the parties
present argument for this phrase along with the
“wherein the display of the plurality of program
listings is generated based on a user profile stored at
a location remote from the remote program guide
access device” phrase discussed above. Accordingly,
the administrative law judge has determined that it is
not necessary to construe this phrase for the reasons
provided in the above subsection.
(10) Recording
by
[a/the]
local
interactive television program guide
The phrases “recording by a local interactive
television program guide” and “recording by the local
interactive television program guide” appear in claims
1, 5, 8, and 11 of the ’263 Patent. JX-0002 at 28:52-53;
29:26-27; 30:4-5; 30:42-43. The parties have proposed
the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

recording by the local
Comcast does not clearly
interactive television
present a construction in
program guide equipment its post-hearing brief.
on which the local
interactive television

356a
program guide is
implemented
See Rovi Br. at 52; Resps. Br. at 79-80.
Rovi argues:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“recording by the local
interactive television program guide
equipment on which the local interactive
television
program
guide
is
implemented.” CX-0002C (Shamos WS)
at Q/A 121, 123. As discussed above at
Sections V(C)(2)(b)-(d), there is no
geographic limitation regarding the local
guide. Rovi’s construction for this term is
consistent with its use in the
specifications of the Patents. See JX0002 (’263 Patent) at col. 11, lns. 4-44,
col. 12, lns. 10-13, col. 17, lns. 48-50, col.
24, lns. 36-39.
As with the “local” interactive television
program guide term, Respondents’
proposed construction again imposes a
geographical limitation by limiting the
recording to being “initiated” by the local
interactive program guide (which in
turn, according to Respondents, must be
located solely inside a user’s home).
Resps. P.H. Br. at 196-98. The word
“initiates” does not appear anywhere in
the intrinsic record of the Patents.
Moreover, there is no requirement that

357a
the equipment within the users’ home
initiate the recording as Respondents’
construction would require. Within the
claims, it is: (a) the user of the remote
guide who requests a recording; (b) the
remote guide which communicates the
recording request to the local guide; and
(c) the local guide which records the
television program. See CX-0002C
(Shamos WS) at Q/A 122 (explaining
additional intrinsic evidence in support
of Rovi’s construction). Respondents are
improperly attempting to introduce
causal and geographical limitations into
the claims.
Rovi Br. at 53-54.
Comcast’s argument, which is comingled with five
other disputed phrases, follows:
Comcast’s proposed constructions are
consistent with the intrinsic evidence. In
every embodiment disclosed in the
patent specification, it is the guide
software that initiates the recording.
See, e.g., JX-0002 (’263 Patent) at 12:1922, 17:54-59, 24:36-39, and 24:44-51.
This repeated aspect of the specification
is recognized in Comcast’s proposed
constructions.
Rovi takes issue with the word “initiates”
in Comcast’s constructions and argues
that the remote guide could also be said
to “initiate” a recording when it remotely
requests a recording. See, e.g, CX-0002C
(Shamos WS) at Q/A 122. While it is true

358a
that the remote guide communicates a
scheduling request, in every embodiment
in the patent it is the local guide which
receives this request from the remote
guide and it is the local guide that
actually initiates the recording. See, e.g,
JX-0002 at 12:19-22, 17:54-59, 24:36-39,
and 24:44-51.
Rovi’s constructions, on the other hand,
do nothing more than rearrange the
words of the limitation and, therefore, do
not explain their meaning. Further, for
the “recording by [a/the] local interactive
television program guide,” limitation
Rovi inserts the concept of the local guide
equipment to a limitation that otherwise
did not contain it. By inserting the local
guide equipment into this construction,
Rovi excludes an embodiment described
in the specification where the local guide
records a program on a program guide
server. See id. at 24:44-51.
Furthermore, by changing the claim
term to only require that equipment
perform the recording, Rovi would
remove the local guide entirely from the
process of recording. In other words,
under Rovi’s construction, the local guide
need not be involved at all in the
recording, only the equipment on which
the local guide is implemented. This
changes the meaning of the claim term.

359a
Resps. Br. at 79-81. 81
The administrative law judge has determined that
the phrase “recording by a local interactive television
program guide” does not need construction.
The disputed phrase is a portion of a “wherein”
clause that modifies “the remote access interactive
television program guide.” The relevant claim
language follows:
[the remote access interactive television
program guide] . . . receives a selection of
a program listing of the plurality of
program listings in the display, wherein
the selection identifies a television
program corresponding to the selected
program listing for recording by the
local interactive television program
guide[.]
JX-0002 at 28:42-53 (emphasis added on disputed
phrase). In general terms, the claim then provides that
the selection is transmitted to the local interactive
The six terms to which this argument applies are: “(1)
‘recording by [a / the] local interactive television program guide,’
(2) ‘records the television program corresponding to the selected
program listing responsive to the communication using the local
interactive television program guide equipment,’ (3) ‘records the
television program corresponding to the selected television
program listing using the local interactive television program
guide equipment,’ (4) ‘recording by the local guide,’ (5) ‘responsive
to the communication, scheduling, with the local guide, the
program corresponding to the selected program listing for
recording by the user equipment,’ and (6) ‘responsive to the
communication, schedules the program corresponding to the
selected program listing for recording at the appropriate time
using the television equipment’ [which] are provided in RDX-0839
to RDX-0841.”).

81

360a
television program guide and that the local interactive
television program guide records the selected program.
See JX-0002 at 28:54-58 (inter alia, transmitting) and
28:59-63 (inter alia, recording). Within this context,
the claim denotes that the system “recording” occurs
after the system “receives a selection of a program
listing[.]” Id. at 28:49.
In using the present tense “records,” Rovi’s proposed
construction upsets the system’s ordered logic.
Further, Rovi’s proposed construction introduces a
“using” requirement that already appears at the end of
claim 1. See JX-0002 at 28:59-63 (“the local interactive
television program guide receives the communication
and records the television program corresponding to
the selected program listing responsive to the
communication using the local interactive television
program guide equipment.”).
Comcast’s arguments about the construction also
upset the system’s ordered logic insofar as the
argument requires the local interactive program guide
to initiate a recording before it has even received the
communication identifying the selected program. See
JX-0002 at 28:54-58 (transmitting). Furthermore, the
word “initiates” does not appear in the ’263 Patent. See
generally JX-0002; CX-0002C at Q/A 127. While it
makes sense that the recording does not initiate on its
own, there is no reason to construe the disputed phrase
to require initiation.
(11) Records the television program
corresponding to the selected
program listing responsive to the
communication using the local
interactive television program guide
equipment

361a
The phrase “records the television program
corresponding to the selected program listing
responsive to the communication using the local
interactive television program guide equipment”
appears only in claims 1 and 14 of the ’263 Patent. 82
JX-0002 at 28:60-63; 31:28-31 (The phrase “the
television program corresponding to the selected
program listing” appears in claims 1-3 and 5-17.). The
parties propose the following construction:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

records the television
Comcast does not clearly
program corresponding to present a construction in
the selected program
its post-hearing brief.
listing identified in the
communication using the
local interactive television
program guide equipment
The parties brief this phrase along with the phrases
“recording by [a/the] local interactive television
program guide” and “recording by the local guide.” See
Rovi Br. at 53-54 (Section V(C)(2)(h)); Resps. Br. at 7981 (Section VIII.B.3.c).
The administrative law judge construes the phrase
“records the television program corresponding to the
selected program listing responsive to the
communication using the local interactive television
program guide equipment” to mean “records the
television program corresponding to the selected
Rovi’s Brief indicates that this phrase appears in claims 1 and
10 of the ’413 Patent.
82

362a
program listing identified in the communication using
the local interactive television program guide
equipment.”
Apart from replacing “responsive to” with
“identified in,” Rovi’s proposed construction simply
repeats the claim language. The construction is
consistent with other terminology used in the claim
and clarifies any ambiguity (if any existed) that
attached to the words “responsive to.”
Comcast’s proposed construction, which largely
reorders words in the phrase, introduces an'
“initiation” requirement. As noted above, the word
“initiates” does not appear in the ’263 Patent. While it
makes sense that the recording does not initiate on its
own, there is no reason to construe the disputed phrase
to require initiation.
(12) Communication
This term appears in the ’263 Patent (claims 1, 14,
and 17), the ’801 Patent (claims 1, 5, and 10), and the
’413 Patent (claims 1 and 10). The parties have
proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

No further construction
Comcast does not clearly
necessary, plain and
present a construction in
ordinary meaning which is its post-hearing brief.
“message”
See Rovi Br. at 54-55; Resps. Br. at 83-84 (citing RDX0844).
Rovi’s argument follows:

363a
The parties agree that the plain and
ordinary meaning of this term applies.
Resps. P.H. Br. at 200. However, the
parties
apparently
dispute
the
application of the plain meaning of this
claim term—Respondents’ expert, Dr.
Wigdor, asserts that the plain meaning
of “communication” additionally requires
that the format and content of the
communication to be identical from start
to finish. Wigdor Tr. 906 (testifying that
“it is a necessary but not sufficient
condition” that the “format of the
communication ha[s] to stay the same
from the time that communication is
transmitted
to
the
time
that
communication is received.”). There is no
such additional requirement. Dr.
Wigdor’s application of the term is
inconsistent with the plain meaning and
excludes the very activity disclosed in
the specifications of the Patents, which
includes passing on a communication
from one device (such as a remote access
device) to another device (such as the
local guide or television equipment)
wherein the communication contains
information “identifying the television
program corresponding to the selected
program listing.” JX-0002 (’263 Patent)
at col. 17, lns. 48-62, col. 28, lns. 27-64;
CX-0002C (Shamos WS) at Q/A 125.
Indeed, under Dr. Wigdor’s alleged plain
meaning, an email would not be a
“communication” because an email

364a
“communication” goes through many
formats (and arguably) content changes
as it traverses the Internet. Wigdor Tr.
905-12.
Rovi Br. at 54-55.
Comcast’s argument follows:
The party’s [sic] proposed construction
[sic] of “communication” are provided in
RDX-0844. Both parties say that no
construction is necessary, yet Rovi tries
to backdoor a construction of “message.”
This construction is improper because
“communication”
does
not
mean
“message” to a POSITA and Rovi has not
identified any portion of the intrinsic
evidence that would support this
construction.
Dr. Shamos’s analogy of relaying a
message to his spouse through his
daughter (see CX-0002C at Q/A 125) is a
good example of why Rovi’s construction
is wrong. While the meaning of his
“message” might be ultimately received
by his spouse, the “communication” from
Dr. Shamos to his daughter is clearly
different from the “communication” from
his daughter to his spouse. RX-0007C
(Wigdor WS) at Q/A 191.
Comcast’s construction is also confirmed
by the plain language of the claims
themselves.
In
the
claims,
the
“communication” that is sent by the
remote guide must be the same

365a
communication received by the local
guide
because
the
first
time
“communication” is used in the claims it
is referred to as “a communication,” and
any subsequent times it is used in the
same claim, it is referred to as “the
communication” meaning that ‘the
communication” takes its antecedent
basis from “a communication,” which
means both “communications” are
exactly the same. Id. at Q/A 192; Tr.
225:4-8 (Dr. Shamos admitting same).
For example, ’801 claim 1 recites
“transmitting, with the remote guide, a
communication to the local guide” and
“receiving the communication with the
local guide.” Similar recitations are
found in every asserted independent
claim of all three patents.
Resps. Br. at 83-84.
The
administrative
law
judge
“communication” to mean “message.”

construes

The claims and specification generally use the term
“communication” in an ordinary manner. See JX-0002
at 10: 41-43 (“Remote program guide access device 24
may communicate with interactive television program
guide equipment 17 using any suitable scheme.”).
While specific examples of communication protocols
are provided, see JX-0002 at 10:29-40, the specification
typically uses generalized “communication” terms:
• FIGS. 6a, 6b, and 6c are schematic block
diagrams of illustrative arrangements for
supporting communications between a
remote program guide access device and

366a
interactive television program guide equipment
over an Internet link in accordance with the
principles of the present invention. See JX-0002
at 4:60-64 (emphasis added).
• Requests, commands, or other suitable
communications may be provided by remote
program guide access device 24 to user
television equipment 22 and then forwarded by
user television equipment 22 to program guide
server 25. See JX-0002 at 6:18-22 (emphasis
added).
• As shown in FIGS. 1 and 2a-2d, interactive
television program guide equipment 17
communicates with remote program guide
access device 24 via remote access link 19. In
practice, remote program guide access device 24
may be connected to user television equipment
(as shown in FIGS. 2a and 2c), television
distribution facility 16 (as shown in FIG. 2b),
connected to both (as indicated in FIG. 1), or
may communicate with remote program guide
server 25 (as shown in FIG. 2d) via remote
access link 19. Remote access link 19 may be
any
suitable
wired
or
wireless
communications path or paths over which
digital or analog communications may take
place between interactive television program
guide equipment 17 and remote program guide
access device 24. See JX-0002 at 6:48-60
(emphasis added).
• In still another approach, user interface 52 may
include an alphanumeric pager (among other
suitable devices for providing bi-directional
communications with the program guide via

367a
remote access link 19). See JX-0002 at 16:11-14
(emphasis added).
• Access communicators may include any clientserver or peer-to-peer communication
construct suitable for providing program guide
information across remote access link 19.
Access communications may include, for
example, requests, commands, messages, or
remote procedure calls, as indicated by substeps
1204, 1205, 1206, and 1207, respectively. See
JX-0002 at 22:15-21 (emphasis added).
Comcast’s argument about the proposed construction
adds an exact-identity requirement that is not
supported by the claim language or the specification.
The claims, however, are not written with the level of
detail that appears in Comcast’s argument.
3. Represented Products
Rovi argues:
Each of the Accused Products falls into
one of two groups: (a) the “Legacy Guide
Accused Products” and (b) the “X1
Accused Products.” All of the products in
each group are “representative” of that
group with respect to the Asserted
Claims. CX-0002C (Shamos WS) at Q/A
28. Based on this, the AX013ANC is
representative of all Comcast X1
products and the DCX35001M is
representative of all Comcast Legacy
products. Id. . . .
Rovi Br. at 57. Rovi relies upon Dr. Shamos’s
testimony and Comcast, ARRIS, and Technicolor
technical documents to show how the X1 and Legacy

368a
systems operate in the same manner in terms of
infringement with respect to the ’263, ’413 and ’801
Patents. See id. (citing at CX-0002C (Shamos WS) at
Q/A 167-69). Rovi argues that Comcast’s expert, Dr.
Wigdor, relied on the same documents in describing
how the products operate and that Dr. Wigdor “did not
distinguish amongst DVR, non-DVR, or ‘cloud’ subcategories” of the accused products. Id. At 57-58. Rovi
then argues that Dr. Wigdor’s testimony confirms that
the analysis for the X1 and Legacy systems does not
change based on components within a set-top box
having a particular model number. Id. at 58-59 (“. . .
for every asserted claim, some of the infringing
functionality may be on the set-top box, and some of
the functionality may be on a different set-top box with
a DVR or on a server within Comcast’s “cloud.” CX0002C (Shamos WS) at Q/A 149-52; CX-1901C
(Shamos RWS) at Q/A 25-29.”). Rovi then argues:
Comcast’s corporate witnesses testified
repeatedly
that
the
recording
functionality of the X1 system does not
change based on RF front end, SoC,
manufacturer, cloud DVR, non-DVR, etc.
Peter Nush, John McCann, Stephen
Allinson, John Robinson, and Sean
Brown testified that there is no
difference in functionality in the X1
system or the STBs based on RF front
end, SoC, manufacturer, cloud DVR,
non-DVR, etc. McCann Tr. 759-60
(testifying that the [ ] source code does
not change based on model or vendor of a
set-top box and all X1 devices connect to
the same pool of [
] JX-0109C (Nush
Dep. Tr.) 130; JX-0105C (McCann Dep.

369a
Tr.) 87-88, 121; JX-0086C (Allinson Dep.
Tr.) 23, 44, 78, 84-85, 93-96, 133-134; JX0113C (Robinson Dep. Tr.) 91-98; JX0090C (Brown Dep. Tr.) 65-68; JX-0097C
(Garcia Dep. Tr.) 146-147; JX-0093C
(Day Dep. Tr.) 40-41, 70, 91, 101-102,
149, 150; JX-0092C (Davis Dep. Tr.) 172.
Id. at 59-60.
Comcast’s argument is:
The STBs that Rovi accuses patents are
listed in JX-0084C.000014-15. Comcast’s
proposed representative products are set
forth in the charts below. See RX0870C.0007-8[:]

Comcast has divided up the products up
by whether they have DVR functionality
and whether that DVR functionality is
local or cloud-only because all of the
asserted claims have elements requiring
either scheduling a recording or actually
performing the recording. Neither
limitation would be met by a system that

370a
does not have DVR functionality. RX0850C (Wigdor RWS) at Q/A 22-23.
Rovi’s proposal to group all of these
products together, whether or not the
products include DVR functionality, is
unreasonable. Id.
Additional Legacy STBs have been
classified by Comcast as “end of life” and
“proactive swap.” Rovi has failed to
demonstrate
why
their
proposed
representative
products
are
representative for these products. See
JX-0084C.000016-19.
Resps. Br. at 69.
Rovi replies that it has met its burden and that
Rovi’s expert, Respondents’ experts,
Comcast’s
engineers,
Comcast’s
corporate representatives, Comcast’s
technical documents, and Comcast’s
source code all indicate that the remote
recording functionality accused of
infringement
is
performed
in
substantially the same way across all of
the X1 and Legacy Accused Products
regardless of model number and
irrespective of any immaterial difference
in hardware among the Accused
Products” and that Dr. Wigdor “grouped
each of his non-infringement assertions
by Accused Product group—either X1 or
Legacy.”
Rovi Reply at 22-23.

371a
The administrative law judge has determined that
the products Rovi identified, the ARRIS XG1 v3 (X1)
AX013ANC for all Comcast X1 products, and the
Motorola DCX3501/M for all Comcast Legacy
products, are representative products for purposes of
the ’263, ’801, and ’413 Patents. Rovi’s allegations are
supported by evidence, and Comcast has not
sufficiently pointed to differences between the product
groups it has identified.
4. Literal Infringement
Rovi asserts claims 1, 2, 14, and 17 of the ’263
Patent against the X1 and Legacy systems. See Rovi
Br. at 42, 60-87. Rovi argues that Comcast “directly
infringes based on its testing and use of the Accused
Products within the United States after importation.”
Rovi Br. at 60. Comcast’s post-hearing brief contends
that it does not infringe any of the asserted claims. See
Resps. Br., Section VIII(C)(2).
a) Claim 1
Rovi divides its analysis for claim 1 in seven
alphanumeric limitations (1pre, 1a, 1b, 1c, 1d, 1e, and
1f). See Rovi Br., Section V(E)(1). The subparts are
presented, as follows:
[1pre] 1. A system for selecting television
programs over a remote access link
comprising an Internet communications
path for recording, comprising:
[1a] a local interactive television
program guide equipment on which a
local interactive television program
guide is implemented, wherein the local
interactive television program guide
equipment includes user television

372a
equipment located within a user’s home
and the local interactive television
program guide generates a display of one
or more program listings for display on a
display device at the user’s home; and
[1b] a remote program guide access
device located outside of the user’s home
on which a remote access interactive
television
program
guide
is
implemented, wherein the remote
program guide access device is a mobile
device, and wherein the remote access
interactive television program guide:
[1c] generates a display of a plurality
of program listings for display on the
remote program guide access device,
wherein the display of the plurality of
program listings is generated based on a
user profile stored at a location remote
from the remote program guide access
device;
[1d] receives a selection of a program
listing of the plurality of program
listings in the display, wherein the
selection identifies a television program
corresponding to the selected program
listing for recording by the local
interactive television program guide;
and
[1e] transmits
a
communication
identifying the television program
corresponding to the selected program
listing from the remote access interactive
television program guide to the local

373a
interactive television program guide over
the Internet communications path;
[1f] wherein the local interactive
television program guide receives the
communication
and
records
the
television program corresponding to the
selected program listing responsive to
the communication using the local
interactive television program guide
equipment.
JX-0002 at 28:27-63; see also RX-0007C (Wigdor) at
Q/A104. Each subpart is addressed below.
(1) Limitation 1pre
The text for this limitation is: “A system for
selecting television programs over a remote access link
comprising an Internet communications path for
recording, comprising[.]” See Rovi Br. at 62.
(a) X1 System
Rovi argues that the “Comcast X1 local guide, with
a Comcast Xfrnity AX013ANC set-top box (or
PX011ANM set-top box), and Comcast Xfrnity App
(including the TV App and the TV Remote App),
running on a mobile device, meet this element.” Id. at
62-63 (citing CX-0002C (Shamos WS) at Q/A 218); Tr.
(Wigdor) 863-864 (stating that CX-1570 at 1 is a guide
on the screen); CX-1570 (X1 Screenshots for the ’263,
’413, and ’801 Patents); CX-1558 (Mobile Device TV
Remote App Screenshot) (many additional exhibits are
also cited)). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements

374a
are met by the X1 system: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 5pre, 10pre, 10a, 10c,
15pre, 15a, 15c. CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, - 1641 (X1 Screenshots for the ’801
Patent). CX-0002C (Shamos WS) at Q/A
242, 254, 263, 284, 299, 312, 326, 330,
340, 342, 346.
Rovi Br. at 65.
Comcast does not squarely address the preamble in
its post-hearing brief. See generally Resps. Br. at 86103.
Accordingly, the administrative law judge has
determined that the record evidence demonstrates
that the accused X1 products satisfy this limitation.
(b) Legacy System
Rovi argues that “Comcast Legacy local guide with
a Comcast Xfinity DCX3501M (also referred to as the
ARRIS MOTRNG200BNMR) set-top box, and Comcast
Xfinity TV Remote App, running on a mobile device,
meet this element.” Rovi Br. at 65-66 (citing CX-0002C
(Shamos WS) at Q/A 219; CX-1781 (Legacy Guide
Screenshots for the ’801 Patent); CX-1558 (Mobile
Device TV Remote App Screenshot) (many additional
exhibits are also cited)). Rovi concludes with the
following:
The evidence and arguments made with
respect to ’263 claim element 1pre also

375a
show that the following claim elements
are met by the Legacy system: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 1a, 5pre, 5a, 10pre, 10a,
10c, 15pre, 15a, 15c. CDX-0306C (CX0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent); CX1602 (Legacy Guide Screenshots for the
’801 Patent). CX-0002C (Shamos WS) at
Q/A 242, 255, 263, 284, 299, 302, 312,
314, 324, 326, 330, 340, 342, 346.
Rovi Br. at 66.
Comcast does not squarely address the preamble in
its post-hearing brief. See generally Resps. Br. at 103104.
Accordingly, the administrative law judge has
determined that the record evidence demonstrates
that the accused Legacy products satisfy this
limitation.
(2) Limitation 1a
The text for this limitation is: “a local interactive
television program guide equipment on which a local
interactive television program guide is implemented,
wherein the local interactive television program guide
equipment includes user television equipment located
within a user’s home and the local interactive
television program guide generates a display of one or
more program listings for display on a display device
at the user’s home[.]” See Rovi Br. at 66.
(a) X1 System

376a
Rovi argues that the “Comcast Xfinity AX013ANC
set-top box (or PX011ANM set-top box) running
Comcast X1 local guide meets this element.” Rovi Br.
at 66 (citing CX-0002C (Shamos WS) at Q/A 221, 35860). Rovi further contends that the “Accused Products
satisfy this element under both parties’ proposed
constructions” and that the servers that support the
local guide are part of the local guide equipment. See
id. at 66-67 (citing CX-0002C (Shamos WS) at Q/A 121,
363; Tr. (Shamos) 246-248). Rovi concludes with the
following:
The evidence and arguments made with
respect to ’263 claim element 1a also
show that the following claim elements
are met by -the X1 system: ’263 claim
elements 14a, 14b, 14c, 17a; ’413 claim
elements 1a, 10a; and ’801 claim
elements 1a, 1b, 5a, 5b, 10a, 10b, 10c,
10d, 15a, 15, b, 15c, 15d. CDX-0306C
(CX-0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent). CX-0002C (Shamos WS) at Q/A
244, 246, 250, 257,. 265, 286, 301, 304,
314, 316, 328, 330, 332, 341, 343, 345,
348.
Rovi Br. at 69-70.
Comcast argues that “Comcast’s X1 platform does
not infringe any asserted claim because the X1 does
not have a ‘local guide’ that generates a display of one
or more program listings.” Resps. Br. at 87-92 (citing
RX-0850C (Wigdor RWS) at Q/A 133, which identifies

377a
“local guide” limitations in the asserted claims).
Comcast argues that it does not infringe “for two
reasons. First there is no ‘local guide’ in the X1
platform under Comcast’s correct construction or a
reasonable view of Rovi’s construction. . . . Second,
even if a ‘local guide’ is presumed to exist on the STB,
nothing on the STB can be found to ‘generate a display
of one or more program listings’ in the X1 platform.”
Id. at 88 (citation to RX-0850C (Wigdor RWS) at Q/A
138 omitted).
The evidence of record shows that the accused X1
products satisfy this limitation. Dr. Shamos testified
that the AX013ANC set top box, running a Comcast X1
local guide, generates a display of TV program listings
for display on a TV in the home. See CX-0002C
(Shamos WS) at Q/A 221, 358-60.
(b) Legacy System
Rovi argues that the “Comcast Xfinity DCX3501M
set-top box running Comcast Legacy local guide meets
this element.” Rovi Br. at 70 (citing CX-0002C
(Shamos WS) at Q/A 222). Rovi concludes with the
following:
The evidence and arguments made with
respect to ’263 claim element la also
show that the following claim elements
are met by the Legacy system: ’263 claim
elements 14a, 14b, 14c, 17a; ’413 claim
elements 1a, 10a; and ’801 claim
elements 1a, 1b, 5a, 5b, 10a, 10b, 10c,
10d, 15a, 15b, 15c, 15d. CDX-0306C (CX0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent); CX-

378a
1602 (Legacy Guide Screenshots for the
’801 Patent). CX-0002C (Shamos WS) at
Q/A 245, 248, 250, 257, 265, 286, 302,
304, 314, 316, 326, 328, 330, 332, 342,
344, 346, 348.
Rovi Br. at 70.
Comcast does not argue that the accused Legacy
products do not satisfy this limitation. See generally
Resps. Br., Section VIII(C)(2)(b) (this limitation is not
addressed).
The evidence of record shows that the accused
Legacy products satisfy this limitation. Dr. Shamos
testified that the DCX3501M set top box, running a
Comcast Legacy local guide, generates a display of TV
program listings for display on a TV in the home
generates a display of TV program listings for display
on a TV in the home. See CX-0002C (Shamos WS) at
Q/A 221, 358-60.
(3) Limitation 1b
The text for this limitation is: “a remote program
guide access device located outside of the user’s home
on which a remote access interactive television
program guide is implemented, wherein the remote
program guide access device is a mobile device, and
wherein the remote access interactive television
program guide[.]” See Rovi Br. at 71.
(a) X1 System
Rovi argues that a “mobile device such as an iPhone
or iPad running a Comcast Xfinity App, including the
Xfinity TV APP or Xfinity TV Remote App, meets this
element.” Rovi Br. at 71 (citing CX-0002C (Shamos
WS) at Q/A 224). Rovi concludes with the following:

379a
The evidence and arguments made with
respect to ’263 claim element 1b also
show that the following claim elements
are met by the X1 system: ’263 claim
elements 14c, 17b; ’413 claim elements
1a, 10a, 10b; and ’801 claim elements 1a,
5a, 10a, 10c, 15a, 15c. CDX-0306C (CX0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent); CX-0002C (Shamos WS) at Q/A
250, 259, 265, 286, 288, 301, 326, 330,
342, 346.
Rovi Br. at 71.
Comcast does not dispute that the X1 system meets
this limitation. See generally Resps. Br., Section
VIII(C)(2)(a) (this limitation is not addressed).
The evidence of record shows that the accused X1
products, including the Xfinity TV APP or Xfinity TV
Remote App, satisfy this limitation. Dr. Shamos
testified that a mobile device running Comcast Xfinity
App, including the Xfinity TV APP or Xfinity TV
Remote App, constitutes the claimed remote program
guide access device located outside of the user’s home.
See CX-0002C (Shamos WS) at Q/A 224.
(b) Legacy System
Rovi argues that a “mobile device running the
Comcast Xfinity TV Remote App meets this element.”
Rovi Br. at 72 (citing CX-0002C (Shamos WS) at Q/A
225). Rovi concludes with the following:

380a
The evidence and arguments made with
respect to ’263 claim element 1b also
show the following elements are met by
the Legacy system: ’263 claim elements
14c, 17b; ’413 claim elements 1a, 10a,
10b; and ’801 claim elements 1a, 5a, 10a,
10c, 15a, 15c. CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent); CX1602 (Legacy Guide Screenshots for the
’801 Patent); CX-0002C (Shamos WS) at
Q/A 250, 259,263,286,288, 302, 314, 326,
330, 342, 346.
Rovi Br. at 72.
Comcast does not dispute that the Legacy system
meets this limitation. See generally Resps. Br., Section
VIII(C)(2)(b) (this limitation is not addressed).
The evidence of record shows that the accused
Legacy products, including the Xfinity TV Remote
App, satisfy this limitation. Dr. Shamos testified that
a mobile device running Comcast Xfinity TV Remote
App constitutes the claimed remote program guide
access device located outside of the user’s home. See
CX-0002C (Shamos WS) at Q/A 224.
(4) Limitation 1c
The text for this limitation is: “generates a display
of a plurality of program listings for display on the
remote program guide access device, wherein the
display of the plurality of program listings is
generated based on a user profile stored at a location

381a
remote from the remote program guide access
device[.]” See Rovi Br. at 72.
(a) X1 System
Rovi argues that the “Comcast Xfinity App,
including the TV App and TV Remote App, running on
a mobile device, meets this element.” Rovi Br. at 72
(citing CX-0002C (Shamos WS) at Q/A 227). Rovi
argues that the favorite channels, recording schedule
indicators (i.e., the red dot used to denote a recording
has been scheduled), premium channel purchases, and
parental controls form the foundation of a user profile.
See id. at 72-74. Rovi then points to Comcast’s
engineer’s testimony to show that the user profile is
“stored at a location remote from the remote program
guide access device,” (e.g, in the cloud). Id. at 75 (citing,
inter alia, JX-0090C (Brown Dep. Tr.) 81; CX-1697
(Xfinity DVR Cloud Video)). Rovi concludes with the
following:
The evidence and arguments made with
respect to ’263 claim element 1b [sic, 1c]
also show that the following claim
elements are met by the X1 system: ’263
claim elements 14c, 17b; ’413 claim
elements 1b, 1c, 3, 5, 9, 10b, 10c, 10d, 14,
18; and ’801 claim elements 1a, 5a, 10a,
10c, 10d, 15a, 15c. CDX-0306C (CX0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, 1641 (X1 Screenshots for the ’801
Patent); CX-0002C (Shamos WS) at Q/A
250, 259, 267, 269, 275, 278, 281, 288,

382a
290, 293, 295, 297, 301, 314, 324, 330,
332, 342, 346.
Rovi Br. at 76 (Rovi’s conclusion for the Legacy
products, see Rovi Br. at 77, correlates “to ’263 claim
element 1c” with the same limitations and dependent
claims).
Comcast argues that “Comcast’s X1 platform does
not infringe the limitations of the ’263 and ’413 patent
claims related to the “remote guide” generating a
display of program listings based on a user profile
stored at a remote location. Resps. Br. at 97 (Section
VIII(C)(2)(a)(v)). In particular, Comcast adds, “Rovi’s
‘favorites’ allegation fails because, under either
construction, the client applications do not generate a
display ‘based on a user profile stored at a location
remote from the [remote program guide access
device/mobile device]’” because the “remote application
uses a locally stored favorite channel list,” not a
remotely stored list. Id.
The evidence of record shows that the accused X1
products satisfy this limitation. Dr. Shamos testified
that a mobile device running a Comcast Xfinity App,
including the Xfinity TV APP or Xfinity TV Remote
App, generates program listings based on a user
profile stored at a location remote from the remote
program guide access device. See CX-0002C (Shamos
WS) at Q/A 227. Indeed, Comcast’s engineers testified
that [
] and Comcast’s Xfinity DVR Cloud Video,
which instructs the user to sign into the app with a
username and password, shows program listings
based on user profile information. See JX-0090C
(Brown Dep. Tr.) 81; CX-1697 (Xfinity DVR Cloud
Video) at 0:31-0:44.
(b) Legacy System

383a
Rovi argues that the “Comcast Xfinity TV Remote
App running on a mobile device meets this element.”
Rovi Br. at 76 (citing CX-0002C (Shamos WS) at Q/A
228). Rovi argues that the analysis tracks the X1
analysis:
Just as in the X1 system, the generated
display of program listing information of
filtered favorite channels is based on the
user’s profile stored at a location remote
from the mobile device. JX-0090C
(Brown Dep. Tr.) 65-68, 76-77, 80-82, 8687, JX-0105C (McCann Dep. Tr.) 121-23;
CX-1599 (Legacy Guide Screenshots for
the ’413 Patent) at 9-12 (showing
filtering of listing based on the
“Favorites Channels” filter); CX-1602
(Legacy Guide Screenshots for the ’801
Patent) at 6-12 (recording of a program
from a listing based on the “Favorites
Channels” filter).
Id. at 77. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element lc also show
the following elements are met by the
Legacy system: ’263 claim elements 14c,
17b; ’413 claim elements 1b, 1c, 3, 5, 9,
10b, 10c, 10d, 14, 18; and ’801 claim
elements 1a, 5a, 10a, 10c, 10d, 15a, 15c.
CDX-0306C (CX-0002C (Shamos WS) at
Q/A 216) (demonstrating X1 and Legacy
Guide infringement); CX-1599 (Legacy
Guide Screenshots for the ’413 Patent),
CX-1602 (Legacy Guide Screenshots for
the ’801 Patent); CX-0002C (Shamos

384a
WS) at Q/A 250, 259, 267, 269, 276, 279,
282,.288, 291, 293, 295, 297, 302, 314,
324, 330, 332, 342, 346.
Id.
Comcast’s entire argument is:
Comcast’s Legacy platform does not
infringe any asserted claim of the ’263
and ’413 patents because the client
applications do not generate a display of
program listings based on a user profile
stored at a remote location. The dispute
here is exactly the same as for the X1
platform because the same client
applications are used in both platforms.
See § VIII.C.2.a.v.
Resps. Br. at 103.
The administrative law judge has determined that
the accused X1 products meet this limitation.
Accordingly, the administrative law judge has
determined that the evidence of record shows that the
accused Legacy products satisfy this limitation in light
of Comcast’s acknowledgement that the “dispute here
is exactly the same as for the X1 platform the same
client applications are used in both platforms.” Id.
(5) Limitation 1d
The text for this limitation is: “receives a selection
of a program listing of the plurality of program listings
in the display, wherein the selection identifies a
television program corresponding to the selected
program listing for recording by the local interactive
television program guide[.]” See Rovi Br. at 77.
(a) X1 System

385a
Rovi argues that a “Comcast Xfinity TV Remote App
running on a mobile device meets this element.” Rovi
Br. at 77 (citing CX-0002C (Shamos WS) at Q/A 230).
Rovi adds that
. . . As shown in CX-1633 (X1 Screenshots
for the ’263 Patent) at 3-6, a user may
select “Pit Bulls & Parolees” on the
remote guide for recording; the remote
guide thereby receiving a selection of a
program listing for recording. The red
dot on the remote guide (e.g., the user’s
recorded program preferences) indicates
“Pit Bulls & Parolees” is recording, and
the same is observed thereafter at the
local guide as shown by CX-1633 (X1
Screenshots for the ’263 Patent) at 9-10.
...
Id. at 78. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1d also
show the following claim elements are
met by the X1 system: ’263 claim
elements 14c, 17b; ’413 claim elements
1b, 1c, 10c, 10d; and ’801 claim elements
1b, 5b, 10b, 10d, 15b, 15d. CDX-0306C
(CX-0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent); CX-0002C (Shamos WS) at Q/A
250, 259, 267, 269, 290, 293, 304, 316,
328, 332, 344, 348.
Id.

386a
Comcast argues that its “X1 platform does not
infringe any asserted claim because it does not have a
local guide ‘recording’ television programs.” Resps. Br.
at 95 (Section VIII(C)(2)(a)(iv)). Comcast’s arguments
essentially extend from its claim construction and noninfringement positions regarding the word “local.” Id.
(“As discussed above, the X1 STB does not have a “local
guide” because the software that generates and
navigates a grid of program listings is resident on [a]
server in the cloud.”).
The evidence of record shows that the accused X1
products satisfy this limitation. Dr. Shamos testified
that a mobile device running Comcast Xfinity TV
Remote App receives a show selection from programs
listed in the app, for recording by the local guide. See
CX-0002C (Shamos WS) at Q/A 230; see also CX-1697
(Xfinity DVR Cloud Video).
(b) Legacy System
This is Rovi’s entire argument:
The Comcast Xfinity TV Remote App
running on a mobile device meets this
element. CX-0002C (Shamos WS) at Q/A
231. The screenshots at CX-1598.1-2
(Legacy Guide Screenshots for the ’263
Patent) show “KPIX 5 News at 5PM” on
channel 705 as depicted in both the local
and remote guides. As shown by CX-1598
(Legacy Guide Screenshots for the ’263
Patent) at 3-6, a user may select “KPIX 5
News at 5PM” on the remote guide for
recording; the remote guide thereby
receiving a selection of a program listing
for recording. The red dot on the remote
guide indicates “KPIX 5 News at 5PM” is

387a
recording, and the same is observed
thereafter at the local guide as shown by
CX-1598 (Legacy Guide Screenshots for
the ’263 Patent) at 7-8. The Accused
Products satisfy this element under both
parties’ proposed claim constructions.
JX-0105C (McCann Dep. Tr.) 66-67; JX0090C (Brown Dep. Tr.) 25, 27-28, 71-72;
JX-0093C (Day Dep. Tr.) 151-52.
Rovi Br. at 79. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1d also
show the following elements are met by
the Legacy system: ’263 claim elements
14c, 17b; ’413 claim elements 1b, 1c, 10c,
10d; and ’801 claim elements 1b, 5b, 10b,
10d, 15b, 15d. CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent), CX1602 (Legacy Guide Screenshots for the
’801 Patent); CX-0002C (Shamos WS) at
Q/A 250, 259, 267, 269, 291, 293, 304,
316, 328, 332, 344, 348.
Id.
Comcast does not dispute that the Legacy system
meets this limitation. See generally Resps. Br., Section
VIII(C)(2)(b) (this limitation is not addressed).
The evidence of record shows that the accused
Legacy products satisfy this limitation. Dr. Shamos
testified that the Comcast Xfinity TV Remote App
running on a mobile device receives a show selection

388a
from programs listed in the app, for recording by the
local guide. See CX-0002C (Shamos WS) at Q/A 231.
(6) Limitation 1e
The text for this limitation is: “transmits a
communication identifying the television program
corresponding to the selected program listing from the
remote access interactive television program guide to
the local interactive television program guide over the
Internet communications path[.]” See Rovi Br. at 80.
(a) X1 System
Rovi argues that the “Comcast Xfinity TV Remote
App, running on a mobile device, transmits a
communication identifying the television program
corresponding to the selected program listing from the
remote access interactive television program guide to
the local interactive television program guide over the
Internet communications path.” Rovi Br. at 80 (citing
CX-0002C (Shamos WS) at Q/A 233; JX-0105C
(McCann Dep. Tr.) 66-67 and at JX-0090C (Brown
Dep. Tr.) 25, 27-28, 71-72). Rovi concludes with the
following:
The evidence and arguments made with
respect to ’263 claim element 1e also
show that the following claim elements
are met by the X1 system: ’263 claim
elements 14c, 17b; ’413 claim elements
Id, 10d; and ’801 claim elements 1c, 5c,
10e, 15e. CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801

389a
Patent); CX-0002C (Shamos WS) at Q/A
250, 259, 271, 293, 306, 318, 334, 350.
Rovi Br. at 82.
Comcast argues that its “X1 platform does not
infringe any of the asserted claims because X1 does not
transmit a ‘communication’ identifying the userselected program from the remote guide to the local
guide.” Resps. Br. at 92 (Section VIII(C)(2)(a)(iii)).
Comcast’s argument relies upon a hyper-technical
reading of “communication,” where the communication
sent from the remote guide is identical to the
communication received by the local guide. See id. at
92-93.
The evidence of record shows that the accused X1
products satisfy this limitation. Dr. Shamos testified
that the Comcast Xfinity TV Remote App, running on
a mobile device, transmits a communication, e.g., a
message, that identifies the selection, via the internet.
See CX-0002C (Shamos WS) at Q/A 233; see also CX1697 (Xfinity DVR Cloud Video).
(b) Legacy System
Rovi argues that the “Comcast Xfinity TV Remote
App running on a mobile device meets this element.”
Rovi Br. at 82 (citing CX-0002C (Shamos WS) at Q/A
234). Rovi argues that “[f]or the reasons discussed in
Section V(E)(1)(f)(i) [which addresses infringement of
the X1 system], supra, regarding the communication
between the remote guide and the local guide, the
Legacy system remains infringing.” Id. at 82-83. Rovi
concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1e also
show that the following claim elements

390a
are met by the Legacy system: ’263 claim
elements 14c, 17b; ’413 claim elements
1d, 10d; and ’801 claim elements 1c, 5c,
10e, 15e. CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent), CX1602 (Legacy Guide Screenshots for the
’801 Patent); CX-0002C (Shamos WS) at
Q/A 250, 259, 271, 293, 306, 318, 334,
350.
Id. at 83.
Comcast argues that this limitation is not met, and
acknowledges that the “dispute here is essentially the
same as for the X1 platform.” Resps. Br. at 103.
The evidence of record shows that the accused
Legacy products satisfy this limitation. Dr. Shamos
testified that the Comcast Xfinity TV Remote App,
running on a mobile device, transmits a
communication, e.g., a message, that identifies the
selection, via the internet. See CX-0002C (Shamos WS)
at Q/A 234.
(7) Limitation 1f
The text for this limitation is: “wherein the local
interactive television program guide receives the
communication and records the television program
corresponding to the selected program listing
responsive to the communication using the local
interactive television program guide equipment[.]” See
Rovi Br. at 83.
(a) X1 System

391a
Rovi argues that the “Comcast X1 local guide
running on a Comcast Xfinity AX013ANC set-top box
(or PX011ANM set-top box) meets this element.” Rovi
Br. at 83 (citing CX-0002C (Shamos WS) at Q/A 236).
Rovi cites JX-0105C (McCann Depo. Tr.) 62-63 (“[ ]”)
to support its argument that “recordings are stored on
the hard drive on the set-top box.” Id. Rovi concludes
with the following:
The evidence and arguments made with
respect to ’263 claim element 1f also
show the following elements are met by
the X1 system: ’263 claim elements 2,
14d, 17c; ’413 claim elements le; and ’801
claim elements 1d, 1e, 5d, 5e, 10f, 10g,
15f, 15g. CX-1659 (Xfinity IPG
Screenshots). CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1627, -1633, -1637 (X1
Screenshots for the ’263 Patent); CX1886 (Xfinity TV Remote for Google
Play); CX-1887 (Xfinity TV Remote
Screenshot);
CX-1634,
-1638
(X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent). CX-0002C (Shamos WS) at Q/A
239, 252, 261, 273, 308, 310, 320, 322,
336, 338, 352, 354.
Id. at 83-84.
Comcast’s “communication” argument applies here.
See Resps. Br. at 92 (Section VIII(C)(2)(a)(iii)). The
administrative law judge has already rejected
Comcast’s communication argument. See Section
IV(B)(2)(c)(12).

392a
The evidence of record shows that the accused X1
products satisfy this limitation. Dr. Shamos testified
that a Comcast X1 local guide, running on an
AX013ANC set-top box, receives the record message
and records the selected TV program on memory
within the set-top box. See CX-0002C (Shamos WS) at
Q/A 236; see also CX-1697 (Xfinity DVR Cloud Video).
(b) Legacy System
Rovi argues “Comcast Legacy local guide running on
a Comcast Xfinity DCX3501M set-top box meets this
element.” Rovi Br. at 84 (citing CX-0002C (Shamos
WS) at Q/A 237). Rovi cites to hardware specifications
to support its argument that “Comcast’s legacy
systems store recorded programs on the set-top box.”
Id. (citing CX-1370C (RNG-200 Hardware, Case &
Packaging Spec.); CX-1288 (DCX3501-M Set-Top
Datasheet); CX-1225 (DCX3501-M User Guide)). Rovi
concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1f also
show the following elements are met by
the Legacy system: ’263 claim elements:
2, 14d, 17c; ’413 claim elements 1e; and
’801 claim elements 1d, 1e, 5d, 5e, 10f,
10g, 15f, 15g.CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent), CX1602 (Legacy Guide Screenshots for the
’801 Patent). CX-0002C (Shamos WS) at
Q/A 240, 252, 261, 273, 308, 310, 320,
322, 336, 338, 352, 354.
Id. at 84.

393a
Comcast’s “communication” argument applies here.
See Resps. Br. at 103 (Section VIII(C)(2)(b)(ii)). The
administrative law judge has already rejected
Comcast’s communication argument. See Section
Section IV(B)(2)(c)(12).
The evidence of record shows that the accused
Legacy products satisfy this limitation. A Comcast
Legacy local guide running on a DCX3501M set-top
box receives the record message and records the
selected TV program on memory within the set-top
box. See CX-0002C (Shamos WS) at Q/A 237.
b) Claims 2, 14, and 17
The administrative law judge has determined that
the accused X1 and Legacy products infringe claim 1.
Neither Rovi nor Comcast presents separate,
substantive argument as to whether Comcast does or
does not infringe claims 2, 14, and 17. As an example,
for limitation 1f (immediately above), Rovi concludes
with the following sentence that refers to dependent
claim 2 and independent claims 14 and 17:
The evidence and arguments made with
respect to ’263 claim element If also show
the following elements are met by the X1
system: ’263 claim elements 2, 14d,
17c; ’413 claim elements 1e; and ’801
claim elements 1d, 1e, 5d, 5e, 10f, 10g,
15f, 15g. CX-1659 (Xfinity IPG
Screenshots). CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX-1627, -1633, -1637 (X1
Screenshots for the ’263 Patent); CX1886 (Xfinity TV Remote for Google
Play); CX-1887 (Xfinity TV Remote

394a
Screenshot);
CX-1634,
-1638
(X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent). CX-0002C (Shamos WS) at Q/A
239, 252, 261, 273, 308, 310, 320, 322,
336, 338, 352, 354.
Rovi Br. at 83-84 (emphasis added).
Comcast’s arguments similarly do not distinguish
between discrete claims or claim limitations. For
example, Comcast identifies the three Remote Access
patents in sub-headings and does not identify any
claim numbers or alphanumeric claim limitations in
its subsequent argument. See Resps. Br. at 92-97
(Sections VIII(C)(2)(a)(iii), VIII(C)(2)(a)(iv)). Two
exemplary images follow:

Id. (highlighting added). In reply, Comcast adds:
The entirety of Rovi’s infringement
analysis addresses only claim 1 of the

395a
’263 patent. There is no analysis of any
dependent claim, nor is there any
analysis of any claim of the ’413 or ’801
patents. See Compl. PoHB at 62-84.
While Respondents agree that all of the
independent claims of the ’263 and ’413
patents are essentially identical and
Rovi’s approach is reasonable for those
five claims, Respondents do not agree
this is proper for the remaining claims.
Rovi asserts, without any explanation,
that the evidence presented for . . . ’263
element 1f is sufficient for ’263
dependent claim 2. Compl. PoHB at 69,
71, 76. Respondents disagree. . . . ’263
claim 2 requires that the local guide
record the program on user television
equipment. See JX-0002 (’263 patent) at
28:64-67. This feature is not addressed in
Rovi’s discussion of ’263 element 1f. See
Compl. PoHB at 83-84.
Resps. Reply at 27-28 (emphasis in original).
Dependent claim 2 follows: “2. The system defined
in claim 1 wherein the local interactive television
program guide records the television program
corresponding to the selected program listing on the
user television equipment.” JX-0002 at 28:64-67.
The evidence Rovi cites for limitation 1f is sufficient
to demonstrate infringement for claim 2, and beside
stating that it disagrees, Comcast has not explained
(or cited any evidence demonstrating) how the accused
products do not infringe. Thus, Comcast has not
rebutted Rovi’s showing that claim 2 is infringed.

396a
Accordingly, the administrative law judge finds that
the accused products infringe claims 2, 14 and 17 for
the same reasons they infringe claim 1.
c) Comcast’s
Additional
Infringement Arguments

Non-

Comcast argues that the accused products do not
infringe because they “can be operated in many
different configurations that are not accused by Rovi
of infringement[.]” Resps. Br. at 86 (Section
VIII(C)(2)(a)(i)). Comcast further argues that the
accused products do not infringe because the “TV Go”
and “TV” applications “cannot even generate a display
of program listings by using a user profile[.]” Id. at 9899 (Section VIII(C)(2)(a)(vi).
(1) Comcast’s Different Configurations
Argument
Comcast argues that the accused X1 and Legacy
products do not infringe “any of the asserted claims of
the Remote Access patents because there can be no
direct infringement when an accused product can be
operated in ways that are not accused of infringing the
asserted claims.” Resps. Br. at 86, 103. Comcast,
relying upon Acco Brands v. ABA Locks Manufacturer
Co., 501 F.3d 1307 (Fed. Cir. 2007), argues that nonaccused modes of operation avoid infringement:
any other operation of the accused
products, such as, using “favorites” to
view listings (without selecting a
program for recording) or selecting a
program for recording from a full guide
display without the “favorites” filter
applied,
are
not
accused
of
infringement. Given these non-accused

397a
uses, this case falls squarely within the
Acco Brands decision, and Comcast
does not directly infringe the claims.
Resps. Br. at 87.
Rovi replies that Comcast has misconstrued Rovi’s
proof of infringement and misapplied Acco Brands.
Rovi Reply at 26-29. Rovi argues that Comcast’s
“argument is incorrect, ignores myriad forms of user
profile information established by Rovi, and
misapplies the Acco Brands case, which is not
applicable here.” Id. at 26. Rovi supports it argument
by citing to evidence of direct infringement, by
distinguishing Acco Brands, and by analogizing this
case to Finjan, Inc. v. Secure Computing Corp., 626
F.3d 1197, 1204 (Fed. Cir. 2010) and Toshiba Corp. v.
Imation Corp., 681 F.3d 1358 (Fed. Cir. 2012). Id. at
26-28.
Acco Brands explains that “to prove direct
infringement, a patentee must either point to specific
instances of direct infringement or show that the
accused device necessarily infringes the patent in
suit.” 501 F.3d at 1313. The court did not find
infringement because “ACCO failed to point to specific
instances of direct infringement,” not because there
were non-accused uses, as Comcast contends. Compare
id. with Resps. Br. at 87. Accordingly, the
administrative law judge has determined that
Comcast cannot avoid infringement simply because
there may be alternative ways to use the accused
products.
(2) The “TVGo” and “TV” Applications
Comcast’s entire argument is:

398a
The “TV Go” and “TV” applications
cannot infringe the “user profile”
limitations of all of the asserted claims of
the ’263 and ’413 patents because they
lack the ability to filter a grid by the
user’s favorite channels. RX-0850C
(Wigdor RWS) at Q/A 214-215; Tr.
197:19-198:1.
Resps. Br. at 98-99.
The parties agreed that “user profile” means “user
specific data at least defining preferences.” See Joint
Outline at 4. Comcast has not sufficiently explained
how lacking “the ability to filter a grid by the user’s
favorite channels” is coextensive with the agreed
construction such that evidence would support a noninfringement finding. Further, the evidence shows
that various different types of information may
constitute a user profile. See Rovi Reply at 29 (citing
CX-0002C (Shamos WS) at Q/A 75, 81, 86, 88, 117, 158,
171, 366, and 368). Accordingly, the administrative
law judge has determined that Comcast cannot avoid
infringement simply because certain aspects of the
accused products may lack the ability to filter a grid by
a user’s favorite channels.
5. Indirect Infringement
(a) Knowledge of the ’263 Patent and
Specific Intent to Infringe
As discussed below, Comcast’s actions indicate that
it had specific intent to encourage infringement of the
’263 Patent.
Rovi argues that Comcast has induced its suppliers:

399a
Comcast has induced, and continues to
induce,
its
OEMs,
ARRIS
and
Technicolor, to directly infringe the
Asserted Claims of the Asserted Patents
under 35 U.S.C. § 271(b) by, among other
things: (1) purchasing the accused settop boxes from Arris and Technicolor; (2)
causing
the
manufacture
and
importation of infringing devices to
occur; and (3) requiring the installation
of the relevant software onto the set-top
boxes prior to their importation.
Rovi Br. at 87. Rovi also argues that Comcast has
induced its own customers:
Comcast instructs, directs, or advises its
users on how to carry out direct
infringement of the asserted claims.
Wigdor Tr. 876-79 (testifying that
Comcast promotes, tells, and describes to
its users how to use the remote recording
functionality of the Comcast accused
products, and not disputing that
Comcast promotes the use of the X1
system, including the Xfinity Apps, in
much the same way of the teachings
recited in the Asserted Claims in its
online promotional materials such as
CX-1886 (Xfinity TV Remote for Google
Play Store) and CX-1887 (Xfinity TV
Remote for Apple App Store)); Shamos
Tr. 259-62 (testifying on CX-1697
(Xfinity DVR Cloud Video) which
instructs its customers on how to use the
Xfinity DVR on the cloud using Comcast
Xfinity Apps in a manner that Dr.

400a
Shamos has opined
Asserted Claims).

infringes

the

Id. at 88.
Comcast had actual knowledge of the ’263 Patent at
least since 2014, when Comcast and Rovi held licenserenewal discussions. CX-1725C (Comcast Interrog.
Resp.) at 11-13; see also CDX-0303C (citing CX-0292C,
CX-0272C, CX-1450C); RX-0860C; Resps. Br. at 112.
Comcast does not argue that it did not have knowledge
of the ’263 Patent. See generally Resps. Br., Section
VIII(C)(3). Further, Comcast knew, or was willfully
blind to the high probability that, its actions would
cause its suppliers and its customers to infringe the
’263 Patent. Comcast previously licensed the ’263
Patent (in other words, it paid for the right to infringe
it), it received claim charts articulating Rovi’s
infringement allegations and did not respond to them,
and it has not disclosed any exculpatory opinion of
counsel despite retaining opinion counsel. See CX0001C (Armaly WS) at Q/A 114 (discussing the
licensed patents and the license, JX-0051C), Q/A 12024, 129-30 (discussing claim charts); RX-0860C
(Comcast’s Chief Patent Counsel’s testimonial aid
showing retention of opinion counsel); Suprema, Inc. v.
Int’l Trade Comm’n, 626 F. App’x 273, 282 (Fed. Cir.
2015) (panel remand) (affirming conclusion of specific
intent where the “Commission also found that
Suprema’s failure to obtain an opinion of counsel
constituted an additional fact evidencing Suprema’s
willful blindness.”). 83 Comcast also provided its
To the extent Comcast argues it relied upon an opinion of
counsel, it has not shown it relied upon the opinion. See Bose
Corp. v. SDI Techs., Inc., 558 F. App’x 1012, 1024 (Fed. Cir. 2014)
(“Without proof of good-faith reliance, possession of the opinion
83

401a
customers with instructions on how to use the accused
systems in an infringing manner. See Tr. (Shamos)
259-622 (testifying on CX-1697 (Xfinity DVR Cloud
Video); CX-1886 (Xfinity TV Remote for Google Play
Store) and CX-1887 (Xfinity TV Remote for Apple App
Store)).
Comcast’s assertions that the “reasonable claim
constructions” it developed during the litigation
negate its pre-suit intent do not rebut the facts that
support finding it had the intent to infringe Rovi’s
patents. Additionally, Comcast’s argument, if
accepted, would negate § 271(b), because almost every
accused infringer can advance a reasonable claim
construction or non-infringement argument. See
Certain
Semiconductor
Chips
and
Products
Containing Same, Inv. No. 337-TA-753, USITC Pub.
No. 4386, Comm’n Op. at 41 (Mar. 2013) (affirming
finding of induced infringement where respondents
asserted “they had plausible litigation defenses”
because “[m]any or most accused infringers have such
plausible defenses[.]”).
Finally, Comcast does not rebut Rovi’s argument
that it induces ARRIS and Technicolor to infringe the
asserted claims by purchasing the boxes made by
ARRIS and Technicolor and by causing ARRIS and
Technicolor to import the accused boxes. Compare Rovi
Br. at 87-88 (arguing that ARRIS and Technicolor
“directly infringe the Asserted Claims of the Asserted
Patents under 35 U.S.C. § 271(b)”) with Resps. Br. at
106-112 (Section VIII(C)(3)) (no rebuttal is presented).

alone is hardly dispositive of the state of mind necessary to avoid
liability.”)

402a
b) Indirect Infringement of the ’263
Patent in the United States
(1) Comcast’s Customers
Evidence shows that Comcast’s customers use the
accused X1 and Legacy systems in an infringing
manner in the United States.
Evidence shows that Comcast instructs, directs, or
advises its users on how to carry out direct
infringement of the asserted claims with the accused
products. See Tr. 876-879 (Dr. Wigdor, testifying that
Comcast promotes, tells, and describes to its users how
to use the remote recording functionality of the
Comcast accused products, and not disputing that
Comcast promotes the use of the X1 system, including
the Xfinity Apps, in much the same way of the
teachings recited in the asserted claims in its online
promotional materials such as CX-1886 (Xfinity TV
Remote for Google Play Store) and CX-1887 (Xfinity
TV Remote for Apple App Store)); Tr. 259-262 (Dr.
Shamos, testifying on CX-1697 (Xfinity DVR Cloud
Video) which instructs its customers on how to use the
Xfinity DVR on the cloud using Comcast Xfinity Apps
in a manner that Dr. Shamos has opined infringes the
asserted claims). 84
Using these applications (in connection with the X1
and Legacy set-top boxes) involves using user profile
information to generate the display on the remote
guide. See Tr. 903 (Dr. Wigdor); JX-0090C (Brown Dep.
Tr.) at 65-68, 76-78, 80-82; JX-0105C (McCann Dep.
The Xfinity TV Remote App can be used with the Legacy guides.
See CX-0002C at Q/A 219 (discussing the Legacy guide and the
TV Remote App); CX-1598 (Legacy guide); CX-1781 (additional
evidence pertaining to the Legacy guide).
84

403a
Tr.) at 121-23; Tr. 251 (Dr. Shamos, describing how
favorite channels, recently viewed programs, recently
recorded programs, and parental control information
can all be used to display television program listing on
a mobile device based on user profile information). For
example, CX-1696 (The X1 Platform Video), CX-0456
(X1 Entertainment Operating System Brochure), CX1886 (Xfinity TV Remote for Google Play), CX-1887
(Screenshots - Xfinity TV Remote), CX-1890 (Set Up
Recording Webpg), and CX-1894 (Xfinity TV Remote
App website) all show that Comcast instructs its users
to view remote interactive television program guide on
the user’s smartphone by using the Xfinity X1 App.
CX-0002C (Shamos WS) at Q/A 179. Using this App,
the user can view a remote interactive television
program guide or get “recommendations just for [the
specific user].” CX-1696 (The X1 Platform Video). Once
the user has decided which programs to record, the app
then communicates with the user’s DVR over the
Internet and instructs the DVR to record the selected
programming and displays the programs selected for
recording on the remote guide generated for display to
the user. Id. CX-1886 (Xfinity TV Remote for Google
Play) shows that the Android version of the Xfinity TV
Remote App had “1,000,000 to 5,000,000” installs as of
October 2016. Comcast also provides instructions to its
customers on using cloud-based videos and DVR. CX1692 (How to Get Started with Cloud-Based DVR); CX0002C (Shamos WS) at Q/A 37, 178-79.
Evidence also shows that customers utilize the
Xfinity Apps the way Comcast promotes them. Tr.
(Nush) 731 (agreeing that CX-1894 (Xfinity TV
Remote App website) “provides and informs your users
that you can schedule your DVR when you’re away
from home.”). For example, Mr. Peter Nush testified at

404a
the hearing on the number of remote recording
requests that occurred using the Xfinity Apps in the
United States (including the TV App and Remote TV
App). Tr. (Nush) 732-734. Mr. Nush confirmed CX1515C provides usage data including numbers of
recording requests that occurred for a given month
using the Xfinity Apps. Tr. (Nush) 732. For example,
CX-1515C (Comcast Remote Client Application Usage
Data) at 4 shows that from April through August,
2016, the Xfinity TV Application had between [
]
remote recording requests for a single episode. The
Xfinity TV-Mobile App had between [
] of the same
requests during the same period. Similarly, CX-1515C
at 4 shows that from April through August, 2016, the
Xfinity TV Application had between [
] remote
recording requests for a series recording. The Xfinity
TV-Mobile App had between [ ] of the same requests
during the same period. 85
Mr. Nush also testified that Comcast has
subscribers who use the Legacy guides and that CX1515C includes metrics showing “whether the users

Rovi argues that: “any suggestion from Comcast (or Dr. Wigdor)
that the numbers of remote recordings are not limited to the
accused products is wrong" because “Comcast's Xfinity TV
Remote Application does not work with any Samsung set-top
boxes.” Rovi Br. at 89-90 (citing CX-1894 (Xfinity TV Remote App
website showing set-top boxes that do not support Xfinity TV
Remote app remote functionality)). Comcast critiques Rovi's
reliance on data provided by Peter Nush, a Comcast employee,
and argues that the data does not “show” infringement because
Rovi did not capture a customer using every aspect of the
infringing system (e.g., Rovi did not show a user making a
selection from a mobile display screen). See Resps. Br. at 107-08.
Comcast’s argument demands too much; Rovi is not required to
prove its case beyond a reasonable doubt.
85

405a
have X1 or legacy (‘native’) set-top boxes[.]” RX-0839C
(Nush RWS) at Q/A 38.
(2) Comcast’s Suppliers
Rovi argues that Comcast induces ARRIS and
Technicolor to infringe the asserted claims by
purchasing the boxes made by ARRIS and Technicolor
and by causing ARRIS and Technicolor to import the
accused boxes. See Rovi Br. at 87-88 (arguing that
ARRIS and Technicolor “directly infringe the Asserted
Claims of the Asserted Patents under 35 U.S.C. §
271(b)”).
In reply, Comcast argues:
Rovi’s allegation that Comcast has
induced the infringement of Arris &
Technicolor makes no sense, as Rovi does
not even allege that Arris or Technicolor
directly infringe; they are only alleged to
have contributorily infringed. See
Compl. PoHB at 93-95. One cannot
induce a contributory infringement. See
Limelight Networks, 134 S.Ct. at 2117
(“where there has been no direct
infringement,
there
can
be
no
inducement of infringement”). Moreover,
given the admissions that mobile devices
are necessary for infringement (see, e.g.,
Tr. at 170:12-23) and the fact that Arris
and Technicolor only provide STBs, not
mobile devices, Arris and Technicolor
could not be found to have directly
infringed. Thus, Rovi’s allegations that
Comcast has induced their alleged
infringement must fail.

406a
Resps. Reply at 25. The asserted claims require a
remote access device, which ARRIS and Technicolor do
not provide. Thus, ARRIS and Technicolor do not
directly infringe the ’263 Patent.
Accordingly, the administrative law judge has
determined that Comcast has not induced ARRIS and
Technicolor to infringe the ’263 Patent’s asserted
claims.
c) Contributory Infringement of the ’263
Patent
To prevail on a contributory infringement claim, a
complainant must show that, inter alia, the accused
product is “not a staple article or commodity of
commerce suitable for substantial noninfringing
use[.]” See 35 U.S.C. § 271(c); Fujitsu, 620 F.3d at 1326
(“To establish contributory infringement, the patent
owner must show the following elements relevant to
this appeal: 1) that there is direct infringement, 2) that
the accused infringer had knowledge of the patent, 3)
that the component has no substantial noninfringing
uses, and 4) that the component is a material part of
the invention.”). 86
(1) X1 System
The administrative law judge has determined that
Rovi has fallen short of meeting its burden of showing
that the accused products have no substantial noninfringing uses; rather, the evidence shows that there
are many substantial non-infringing uses of the
accused set-top boxes and their corresponding
See also Section III(C)(2)(b) (general principles of law) and
Section IV(A)(5)(b) (citing In re Bill of Lading Transmission, 681
F.3d at 1338; Vita-Mix Corp. v. Basic Holding, Inc., 581 F.3d at
1327; i4i Ltd. P’ship v. Microsoft Corp., 598 F.3d at 851), supra.
86

407a
ecosystem. Exemplary uses include watching
television programs (e.g., using the boxes with a local
guide), ordering and watching pay per view programs,
watching video on demand programs, or scheduling
recordings through the set-top box. See RX-0850C
(Wigdor RWS) at Q/A 85-86; Tr. 229, 838-839.
Furthermore, the frequency of the use of the remote
recording functionality also indicates that the
infringing use is not a substantial use. See RX-0850C
(Wigdor RWS) at Q/A 86 (“there are over 22 million
Comcast subscribers and no more than [
] of those
users remotely recorded a program”); RX-0839C (Nush
RWS) at Q/A 33-56 (providing Comcast’s usage data).
Thus, the administrative law judge finds that the
accused ARRIS and Technicolor set-top boxes have
substantial non-infringing uses, and accordingly that
ARRIS and Technicolor do not contributorily infringe
the ’263 Patent.
(2) Legacy System
Rovi does not advance a separate argument for the
accused Legacy products. See generally Rovi Br.,
Section V(F). Comcast argues that the accused Legacy
products have the same substantial non-infringing
uses as the X1 products. See generally Resps. Br. at
114. Accordingly, the administrative law judge has
determined that Rovi fell short of meeting its burden
of showing that the accused Legacy products have no
substantial non-infringing uses.
6. Domestic Industry – Technical Prong
a) Claim 1
Rovi divides its analysis for claim 1 in seven claimelement subparts (1pre, 1a, 1b, 1c, 1d, 1e, and 1f). See
Rovi Br. at 60. Each subpart is addressed below. Rovi

408a
has identified its i-Guide and Passport Systems, along
with a Verizon guide, as the domestic industry
products. Id. at 95.
Rovi also refers to the Suddenlink guide. See Rovi
Br. at 95; Joint Outline at 7. This is the entire
reference:
To the extent, [sic] Suddenlink practices
the Asserted Patents by virtue of
implementing
the
i-Guide,
the
Suddenlink products practice the
Asserted Patents in the same way iGuide practices the same. CX-1762
(Suddenlink User Reference Manual);
CX-1242 (i-Guide User Reference
Manual).
Rovi Br. at 95. The issue of whether the Suddenlink
products practice the ’263, ’413, and ’801 Patents is not
listed separately in the Joint Outline. See generally
Joint Outline at 8. The administrative law judge finds
that Rovi has shown the Suddenlink products are
sufficiently similar to the Rovi products, and that
Comcast has not presented sufficient rebuttal.
(1) Limitation 1pre
The text for this limitation is: “A system for
selecting television programs over a remote access link
comprising an Internet communications path for
recording, comprising[.]” See Rovi Br. at 62, 97.
(a) Rovi i-Guide and Passport Systems
Rovi argues that “Rovi’s i-Guide or Rovi’s Passport
running on a [ ] set-top box, and TotalGuide xD App
running on a mobile device meet this element.” Id. at
97 (citing CX-0002C (Shamos WS) at Q/A 387-88;

409a
CDX-0307C (CX-0002C (Shamos WS) at Q/A 383-433))
(additional exhibits are also cited)). Rovi concludes
with the following:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements
are met by the Rovi systems: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 1a, 5 pre, 5a, 10pre, 10a,
10c, 15pre, 15a, 15c. CX-0002C (Shamos
- WS) at Q/A 434-35, 444-45, 452-53, 47475, 488-89, 490-92, 504-07, 516-19, 52223, 532-35, 538-39.
Rovi Br. at 98-99.
Comcast does not squarely address the preamble in
its post-hearing brief. See generally Resps. Br. at 114116 (Section VIII(D)).
Accordingly, the administrative law judge has
determined that the record evidence demonstrates
that the Rovi products satisfy this limitation.
(b) Verizon FiOS System
Rovi argues that [ ] and Verizon FiOS Mobile App,
running on a mobile device, meet this element.” Rovi
Br. at 98 (citing CX-0002C (Shamos WS) at Q/A 391).
Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements
are met by the Verizon system: ’263
claim elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim

410a
elements 1pre, 1a, 5pre, 5a,. [sic] 10pre,
10a, 10c, 15pre, 15a, 15c. CX-0002C
(Shamos WS) at Q/A 434-35, 444-45, 45253, 474-75, 488-89, 490, 495, 504-07, 51619, 522-23, 532-35, 538-39.
Rovi Br. at 98-99.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
Accordingly, the administrative law judge has
determined that the record evidence demonstrates
that the Verizon products satisfy this limitation.
(2) Limitation 1a
The text for this limitation is: “a local interactive
television program guide equipment on which a local
interactive television program guide is implemented,
wherein the local interactive television program guide
equipment includes user television equipment located
within a user’s home and the local interactive
television program guide generates a display of one or
more program listings for display on a display device
at the user’s home[.]” See Rovi Br. at 66, 99.
(a) Rovi i-Guide and Passport Systems
Rovi argues that “Rovi’s i-Guide or Rovi’s Passport
running on a [ ] set-top box meets this element.” Rovi
Br. at 99 (citing CX-0002C (Shamos WS) at Q/A 39394). Rovi further contends that “the local guide
includes user television equipment, but is not limited
to user television equipment” for the same reasons it
put forth in arguing that Comcast’s products infringe.
Id. at 100. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 element 1a also show that

411a
the following claim elements are met by
the Rovi systems: ’263 claim elements
14a, 14b, 14c, 17a; ’413 claim elements
1a, 10a; and ’801 claim elements 1a, 1b,
5a, 5b, 10a, 10b, 10c, 10d, 15a, 15b, 15c,
15d. CX-0002C (Shamos WS) at Q/A 43641, 446-47, 454-55, 476-77, 490-92, 49697, 506-09, 518-25, 534-41.
Rovi Br. at 100.
Comcast does not squarely address this limitation
in its post-hearing brief. See generally Resps. Br. at
114-116 (Section VIII(D)).
The evidence of record shows that the Rovi products
satisfy this limitation. Dr. Shamos testified that Rovi’s
i-Guide running on a [
] set top box generates a
display of TV program listings for display on a TV in
the home. See CX-0002C (Shamos WS) at Q/A 393-94.
(b) Verizon FiOS System
Rovi argues that the “Verizon [
] box, running
Verizon local guide, meets this element.” Rovi Br. at
100 (citing CX-0002C (Shamos WS) at Q/A 397). Rovi
concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1a also
show the following elements are met by
the Verizon system: ’263 claim elements
14a, 14b, 14c, 17a; ’413 claim elements
1a, 10a; and ’801 claim elements 1a, 1b,
5a, 5b, 10a, 10b, 10c, 10d, 15a, 15b, 15c,
15d. CX-0002C (Shamos WS) at Q/A 43641, 446-47, 454-55, 476-77, 490, 495-97,
506-09, 518-25, 534-41.

412a
Id. at 100.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
The evidence of record shows that the Verizon
products satisfy this limitation. Dr. Shamos testified
that Verizon local guide running on an [ ] set-top box
generates a display of TV program listings for display
on a TV in the home. See CX-0002C (Shamos WS) at
Q/A 397; CX-1663.
(3) Limitation 1b
The text for this limitation is: “a remote program
guide access device located outside of the user’s home
on which a remote access interactive television
program guide is implemented, wherein the remote
program guide access device is a mobile device, and
wherein the remote access interactive television
program guide[.]” See Rovi Br. at 71, 101.
(a) Rovi i-Guide and Passport Systems
Rovi argues that “Rovi’s i-Guide or Rovi’s Passport
running on a [ ] set-top box, and TotalGuide xD App
running on a mobile device meet this element.” Rovi
Br. at, 101 (citing CX-0002C (Shamos WS) at Q/A 399400). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1b also
show the following elements are met by
the Rovi systems: ’263 claim elements
14c, 17b; ’413 claim elements 1a, 10a,
10b; and ’801 claim elements 1a, 5a, 10a,
10c, 15a, 15c. CX-0002C (Shamos WS) at
Q/A 440-41, 448-49, 454-55, 476-79, 490-

413a
92, 506-07, 518-19, 522-23, 534-35, 53839.
Id. at 101.
Comcast does not dispute that the Rovi products
meets this limitation. See generally Resps. Br., Section
VIII(D) (this limitation is not addressed).
The evidence of record shows that the Rovi products
satisfy this limitation. As Dr. Shamos testified, a
mobile device running Rovi’s i-Guide or Rovi’s
Passport running on a [ ] set-top box, and TotalGuide
xD App running on a mobile device meet this element,
constitutes the claimed remote program guide access
device located outside of the user’s home. See CX0002C (Shamos WS) at Q/A 399-400.
(b) Verizon FiOS System
Rovi argues that a “mobile device, running Verizon
FiOS Mobile App, meets this element.” Rovi Br. at 101
(citing CX-0002C (Shamos WS) at Q/A 403). Rovi
concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1b also
show the following elements are met by
the Verizon system: ’263 claim elements
14c, 17b; ’413 claim elements 1a, 10a,
10b; and ’801 claim elements 1a, 5a, 10a,
10c, 15a, 15c. CX-0002C (Shamos WS) at
Q/A 440-41, 448-49, 454-55, 476-79, 490,
495, 506-07, 518-19, 522-23, 534-35, 53839.
Id. at 102.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).

414a
The evidence of record shows that the Verizon
products satisfy this limitation. Dr. Shamos testified
that a mobile device running Verizon FiOS Mobile App
constitutes the claimed remote program guide access
device located outside of the user’s home. See CX0002C (Shamos WS) at Q/A 403.
(4) Limitation 1c
The text for this limitation is: “generates a display
of a plurality of program listings for display on the
remote program guide access device, wherein the
display of the plurality of program listings is
generated based on a user profile stored at a location
remote from the remote program guide access
device[.]” See Rovi Br. at 72, 102.
(a) Rovi i-Guide and Passport Systems
Rovi argues that the “Rovi’s i-Guide or Rovi’s
Passport running on a [
] and TotalGuide xD App
running on a mobile device meet this element.” Rovi
Br. at 102 (citing CX-0002C (Shamos WS) at Q/A 40506).
Rovi argues that the purchased channel lineups,
favorite channels, and recording schedule indicators
(i.e., the red dot used to denote a recording has been
scheduled) form the foundation of a user profile. See
id. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1c also
show the following elements are met by
the Rovi systems: ’263 claim elements
14c, 17b; ’413 claim elements 1b, 1c, 3, 5,
9, 10b, 10c, 10d, 14, 18; ’801 claim
elements 1a, 5a, 10a, 10c, 10d, 15a, 15c.
CX-0002C (Shamos WS) at Q/A 440-41,

415a
448-49, 456-59, 464-66, 470-73, 478-87,
490-92, 506-07, 518-19, 522-25, 534-35,
538-39.
Id. at 103.
Comcast’s entire argument for the “generates a
display” limitations is:
Rovi has not shown that the DI remote
guides generate displays using user
profiles and that users use those
generated displays to select a program
for recording. Tr. 239:24-240:22. This is
the same issue as with infringement. RX0850C a Q/A 78, 233.
Resps. Br. at 115. Comcast also argues:
All of the asserted claims of the ’263 and
’413 patents require that favorite
channel lists (the asserted user profiles)
be used somewhere other than on the
remote device to generate a display
based on the favorite channels. Id. at Q/A
239. Rovi has not provided evidence that
the profiles are used at these other
locations to generate a guide and so has
failed to demonstrate a DI tech prong.
Tr. 240:23-242:3; see also RX-0850C at
Q/A 241.
Resps. Br. at 115-16.
The evidence of record shows that the Rovi products
satisfy this limitation. Dr. Shamos testified that Rovi’s
i-Guide or Rovi’s Passport running on a [
] set-top
box, and TotalGuide xD App running on a mobile

416a
device meet this element. See CX-0002C (Shamos WS)
at Q/A 405-06.
(b) Verizon FiOS System
Rovi argues that the “Verizon FiOS Mobile App,
running on a mobile device, meets this element.” Rovi
Br. at 103 (citing CX-0002C (Shamos WS) at Q/A 409).
Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1c also
show the following elements are met by
the Verizon system: ’263 claim elements
14c, 17b; ’413 claim elements 1b, 1c, 3, 5,
9, 10b, 10c, 10d, 14, 18; ’801 claim
elements 1a, 5a, 10a, 10c, 10d, 15a, 15c.
CX-0002C (Shamos WS) at Q/A 440-41,
448-49, 456-59, 464, 469-73, 478-87, 490,
495, 506-07, 522-25, 534-35, 538-39.
Rovi Br. at 103.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
The administrative law judge has determined that
the Verizon products meet this limitation. See CX0002C (Shamos WS) at Q/A 409.
(5) Limitation 1d
The text for this limitation is: “receives a selection
of a program listing of the plurality of program listings
in the display, wherein the selection identifies a
television program corresponding to the selected
program listing for recording by the local interactive
television program guide[.]” See Rovi Br. at 77, 104.
(a) Rovi i-Guide and Passport Systems

417a
Rovi argues that “Rovi’s i-Guide or Rovi’s Passport
running on a [ ] set-top box, and TotalGuide xD App
running on a mobile device meet this element.” Rovi
Br. at 104 (citing CX-0002C (Shamos WS) at Q/A 41112). Rovi adds:
. . . The TotalGuide xD App receives a
user’s selection of a program listing from
the TV Listings screen. The user may tap
the program listing for “America’s Court
With Judge Ross” airing at 1:30 PM on
channel 9, KCAL. CX-1595 (i-Guide
Screenshots for the ’801 Patent) at 1-11
is exemplary of a selection for recording
being observed at both the local and
remote guide (e.g., “Harry”). This is
further illustrated by CX-1610 (Passport
Screenshots for the ’801 Patent); CX1163C (Passport Server Operation and
Main Guide), CX-1662 (Rovi IPG
Screenshots);
CX-1591
(i-Guide
Screenshots for the ’263 Patent); CX1592 (i-Guide Screenshots for the ’413
Patent); CX-1595 (i-Guide Screenshots
for the ’801 Patent); CX-1607 (Passport
Screenshots for the ’263 Patent); CX1608 (Passport Screenshots for the ’413
Patent); CX-1610 (Passport Screenshots
for the ’801 Patent); CDX-0307C (CX0002C (Shamos WS) at Q/A 383-433).
Id. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1d also
show the following elements are met by
the Rovi systems: ’263 claim elements

418a
14c, 17b; ’413 claim elements 1b, 1c, 10c,
10d; and ’801 claim elements 1b, 5b, 10b,
10d, 15b, 15d. CX-0002C (Shamos WS) at
Q/A 440-41, 448-49, 456-59, 480-83, 49697, 508-509, 520-21, 524-25, 536-37, 54041.
Id. at 104.
Comcast argues:
As discussed above for infringement, all
of the asserted claims require that the
guide software must initiate the
recordings or scheduling of recordings.
Id. at Q/A 237. But Rovi has not
presented any source code or other
evidence that would demonstrate that
the guide software initiates the
recordings or scheduling of recordings.
Doing so requires a source code analysis
or equivalent evidence, none of which
has been provided. Id. at Q/A 238.
Resps. Br. at 115. 87
The evidence of record shows that the Rovi products
satisfy this limitation. Dr. Shamos testified that Rovi’s
i-Guide or Rovi’s Passport running on a [
] set-top
box, and TotalGuide xD App running on a mobile
device receives a show selection from programs listed
in the app, for recording by the local guide. See CX0002C (Shamos WS) at Q/A 411-12.
(b) Verizon FiOS System
Comcast does not point toward any evidence that would support
its no-domestic industry arguments. See RX-0850C (Wigdor
RWS) at Q/A 237-38.
87

419a
This is Rovi’s argument:
The Verizon FiOS Mobile App, running
on a mobile device, meets this element.
CX-0002C (Shamos WS) at Q/A 415. For
example, the Verizon FiOS Mobile App
receives a user’s selection of a - program
listing from the TV Listings screen. The
user may tap the program listing for
“Copper Chef’ to record. CX-1621
(Verizon FiOS Screenshots for the ’263
Patent); CX-1663 (Verizon FiOS IPG
Screenshots); CDX-0307C (CX-0002C
(Shamos WS) at Q/A 383-433).
Rovi Br. at 104-05. Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1d also
show the following elements are met by
the Verizon system: ’263 claim elements
14c, 17b; ’413 claim elements 1b, 1c, 10c,
10d; and ’801 claim elements 1b, 5b, 10b,
10d, 15b, 15d. CX-0002C (Shamos WS) at
Q/A 440-41, 448-49, 456-59, 481-83, 49697, 508-509, 520-21, 524-25, 536-37, 54041.
Id.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
The evidence of record shows that the Verizon
products satisfy this limitation. Dr. Shamos testified
that the Verizon FiOS Mobile App, running on a
mobile device receives a show selection from programs
listed in the app, for recording by the local guide. See
CX-0002C (Shamos WS) at Q/A 415.

420a
(6) Limitation 1e
The text for this limitation is: “transmits a
communication identifying the television program
corresponding to the selected program listing from the
remote access interactive television program guide to
the local interactive television program guide over the
Internet communications path[.]” See Rovi Br. at 80,
105.
(a) Rovi i-Guide and Passport Systems
Rovi argues that “Rovi’s i-Guide or Rovi’s Passport
running on a [ ] set-top box, and TotalGuide xD App
running on a mobile device meet this element.” Rovi
Br. at 105 (citing CX-0002C (Shamos WS) at Q/A 41718). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1e also
show the following elements are met by
the Rovi systems: ’263 claim elements
14c, 17b; ’413 claim elements 1d, 10d;
and ’801 claim elements 1c, 5c, 10e, 15e.
CX-0002C (Shamos WS) at Q/A 440-41,
448-49, 460-61, 482-83, 498-99, 510-11,
526-27, 542-43.
Id. at 105-06.
Comcast’s entire argument, which relies on its
reading of “communication,” is:
As discussed above for infringement,
under either construction, all of the
asserted claims require that the
communication sent by the remote
guides is the same as the communication
received by the local guide. Id. at Q/A

421a
235. But Rovi has not presented any
evidence that would demonstrate that
the transmitted “communication” is the
same as the “communication” received at
the STB and Rovi has not demonstrated
that anything other than the STB would
be the “local guide,” even under its
overbroad interpretation of its incorrect
construction.
Resps. Br. at 115.
The evidence of record shows that the Rovi products
satisfy this limitation. Dr. Shamos testified that the
TotalGuide xD App, running on a mobile device,
transmits a communication, e.g., a message, that
identifies the selection, via the internet. See CX-0002C
(Shamos WS) at Q/A 417-18.
(b) Verizon FiOS System
Rovi argues that the “Verizon FiOS Mobile App,
running on a mobile device, meets this limitation.”
Rovi Br. at 106 (citing CX-0002C (Shamos WS) at Q/A
421). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1e also
show the following elements are met by
the Verizon system: ’263 claim elements
14c, 17b; ’413 claim elements 1d, 10d;
’801 claim elements 1c, 5c, 10e, 15e. CX0002C (Shamos WS) at Q/A 440-41, 44849, 460-61, 482-83, 498-99, 510-11, 52627, 542-43.
Rovi Br. at 107.

422a
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
The evidence of record shows that the Verizon
products satisfy this limitation. Dr. Shamos testified
that the Verizon FiOS Mobile App, running on a
mobile device, transmits a communication, e.g., a
message, that identifies the selection, via the internet.
See CX-0002C (Shamos WS) at Q/A 421.
(7) Limitation 1f
The text for this limitation is: “wherein the local
interactive television program guide receives the
communication and records the television program
corresponding to the selected program listing
responsive to the communication using the local
interactive television program guide equipment[.]” See
Rovi Br. at 83, 106.
(a) Rovi i-Guide and Passport Systems
Rovi argues that the “Rovi’s i-Guide or Rovi’s
Passport running on a [
] and TotalGuide xD App
running on a mobile device meet this element.” Rovi
Br. at 106 (citing CX-0002C (Shamos WS) at Q/A 42324). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1f also
show the following elements are met by
the X1 system: ’263 claim elements 2,
14d, 17c; ’413 claim elements 1e; and
’801 claim elements 1d, 1e, 5d, 5e, 10f,
10g, 15f, 15g. CX-1659 (Xfinity IPG
Screenshots). CDX-0306C (CX-0002C
(Shamos
WS)
at
Q/A
216)
(demonstrating X1 and Legacy Guide
infringement); CX -1627, 1633, -1637 (X1

423a
Screenshots for the ’263 Patent); CX1886 (Xfinity TV Remote for Google
Play); CX-1887 (Xfinity TV Remote
Screenshot);
CX-1634,
-1638
(X1
Screenshots for the ’413 Patent); CX1636, -1641 (X1 Screenshots for the ’801
Patent). CX-0002C (Shamos WS) at Q/A
239, 252, 261, 273, 308, 310, 320, 322,
336, 338, 352, 354.
Id. at 107.
Comcast’s “communication” argument applies here.
See Resps. Br. at 92 (Section VIII(C)(2)(a)(iii)). The
administrative law judge has already rejected
Comcast’s communication argument. See Section
IV(B)(2)(c)(12).
The evidence of record shows that the Rovi products
satisfy this limitation. Dr. Shamos testified that a Rovi
i-Guide or Passport running on a [ ] and TotalGuide
xD App running on a mobile device, receives the record
message and records the selected TV program on
memory within the set-top box. See CX-0002C
(Shamos WS) at Q/A 423-24.
(b) Verizon Fios System
Rovi argues that a “Verizon local guide, running on
a [ ] set-top box, meets this element.” Rovi Br. at 107
(citing CX-0002C (Shamos WS) at Q/A 427). Rovi cites
to photographs evidencing that the system records a
selected program. See CX-1621 (recording “Copper
Chef’). Rovi concludes with the following:
The evidence and arguments made with
respect to ’263 claim element 1f also
show the following elements are met by
the . Verizon system: ’263 claim elements

424a
2, 14d, 17c; ’413 claim elements 1e; and
’801 claim elements 1d, 1e, 5d, 5e, 10f,
10g, 15f, 15g. CX-0002C (Shamos WS) at
Q/A 428, 433, 442-43, 450-51, 462-63,
500-03, 512-15, 528-31, 544-47.
Id. at 107.
Comcast does not present separate argument for the
Verizon products. See Resps. Br., Section VIII(D).
The evidence of record shows that the Verizon
products satisfy this limitation. Dr. Shamos testified
that a Verizon local guide, running on an [ ] See CX0002C (Shamos WS) at Q/A 427.
b) Comcast’s Additional Critiques
(1) Comcast’s “Meager Proof” Argument
Comcast’s entire argument on this point is:
For nearly every element of the Verizon
products, Rovi’s expert offers only
screenshots as the alleged proof that an
element is met. Such proof may be
enough to show that a guide is displayed
on the screen of either a TV or a mobile
device, but it is no substitute for a source
code or schematic analysis showing
where and how the guide is generated,
where the program listings came from,
where the favorite lists (if any) are
stored, and so on. This meager proof fails
to carry Rovi’s burden to prove that the
asserted claims read on the DI products.
Resps. Br. at 114-15.
Comcast’s unsupported argument does not provide
any evidentiary basis to rule in its favor. While Dr.

425a
Wigdor opined that “proving that it is the guide
software that is scheduling those recordings requires
a source code analysis, which Dr. Shamos has not
provided,” Comcast did not point toward any evidence
that would support its non-infringement and nodomestic industry arguments. See RX-0850C (Wigdor
RWS) at Q/A 237-38.
(2) Comcast’s Patent Marking Argument
Comcast argues that “Patent marking confirms
Rovi products do not practice the ’263, ’413, and ’801
patents.” Resps. Br. at 116. Comcast’s entire argument
for this point is:
Rovi technical manuals and documents
contain a patent marking notice, which
never includes the ’263, ’413, or ’801
patents. See, e.g., RX-0091C.0001; RX0106C.0033; RX-0125C.0002.
Id.
A complainant is not required to mark its product to
prevail on the domestic industry’s technical prong. See
19 U.S.C. § 1337. Indeed, 35 U.S.C. § 287 itself
indicates marking is optional: “Patentees, and persons
making, offering for sale, or selling within the United
States any patented article for or under them, or
importing any patented article into the United States,
may give notice to the public that the same is patented
. . . .” Thus, the administrative law judge declines to
find that “patent marking confirms Rovi products do
not practice the ’263, ’413, and ’801 patents.”
7. Patent Eligibility
Under step one of the Alice framework, Comcast
argues:

426a
The asserted claims of the Remote
Access Patents are directed to the
abstract idea of setting a recording on a
local guide from a remote guide via
communication over the Internet. For
example, claim 1 of the ’263 Patent,
which is representative recites four basic
steps:
1. generating displays of program
listings using a local or remote
program guide (which may be based
on a user profile);
2. receiving a user selection of a
program to record on a remote
device;
3. transmitting that user selection
over the Internet to the local guide
on user television equipment; and
4. recording the selected program on
the user television equipment in
response
to
the
received
communication.
These steps are purely functional
descriptions of using conventional
equipment to implement the idea of
setting a recording on a local guide from
a remote guide via communication over
the Internet. For example, the claims
recite using entirely conventional
equipment such as local interactive
television program guide equipment
(e.g., a STB and television), a remote
program guide access device (e.g., mobile

427a
phone), and conventional program
guides running on that equipment. . . .
Resps. Br. at 160-61. Comcast further argues that the
provisional applications for the ’263, ’413, and ’801
patents indicate that the inventions are an “abstract
idea implemented functionally on known technology.”
Id. at 161-62.
Under step two of the Alice framework, Comcast
argues that the asserted claims do not contain an
inventive concept:
[the asserted claims] do not require any
specific hardware or equipment for
practicing the claims, but simply and
generically
recite
conventional
“interactive program guides,” “local
interactive television program guides,”
“remote interactive television program
guides,” “remote devices,” “mobile
devices,” and a “remote link.” RX-0007C
(Wigdor WS) at Q/A 105-114.
Resps. Br. at 164. Comcast contends the specification
“discloses nothing novel” apparatus-wise. Id. at 16465. Comcast then addresses many recent § 101 cases.
Id. at 165-66.
Rovi argues:
The asserted claims of the ’263, ’413, and
’801 Patents recite a variety of specific
techniques to enable IPG users for the
first time to use a local guide in
communication with a remote guide to
identify and schedule recording of
programs and to generate a display of
program listings on the remote guide

428a
based on the program guide information
displaying on the local guide. This
innovation is a distributed enhancement
comparable
to
the
distributed
enhancement the Federal Circuit
emphasized in finding claims patenteligible in AmDocs. The asserted claims
are directed to a specific technological
improvement of a specific technological
system, and they are patent-eligible
under Alice. . . .
Rovi Br. at 128. Rovi then expands on this overview
and discusses several recent cases. Id. at 128-132. 88
In reply, Comcast argues that Rovi did not directly
address Comcast’s abstract-idea argument and that
Rovi’s comparison to Enfish overstates Rovi’s
contribution to the art. Resps. Reply at 49-50.
Rovi replies that Comcast’s arguments ignore claim
limitations, does not consider the claim limitations in
an ordered combination, and that Comcast has failed
to argue preemption. Rovi Reply at 44-46.
a) Alice Step One: Abstract Idea
The administrative law judge finds that the
asserted claims are directed toward an abstract idea.
Here, in summary, claim 1 pertains to:

The cases discussed include Bascom Glob. Internet Servs. Inc.
v. AT&T Mobility LLC, 827 F.3d 1341 (Fed. Cir. 2016); Enfish,
LLC v. Microsoft Corp., 822 F.3d 1327, 1327 (Fed. Cir. 2016);
McRO, Inc. v. Bandai Namco Games Am. Inc., 837 F.3d 1299
(Fed. Cir. 2016); DDR Holdings, LLC v. Hotels.com, L.P., 773 F.3d
1245 (Fed. Cir. 2015); and AmDocs (Israel) Limited v. Openet
Telecom, Inc., 841 F.3d 1288 (Fed. Cir. 2016).
88

429a
1) Generating program listings
television, via the local guide;

on

a

home

2) Generating program listings based on a user
profile, on a remote device, via a remote guide;
3) Receiving a program selection, at the remote
device;
4) Transmitting the program selection to the local
guide;
5) Recording the selected program with local
equipment.
While certain language and limitations add a degree
of particularity to claim 1, the predominant concept
embodied in claim 1 relates to scheduling a recording
from a remote device. This is an abstract idea, devoid
of a concrete or tangible application. See Ultramercial,
Inc. v. Hulu, LLC, 772 F.3d 709, 715 (Fed. Cir. 2014)
(“The process of receiving copyrighted media, selecting
an ad, offering the media in exchange for watching the
selected ad, displaying the ad, allowing the consumer
access to the media, and receiving payment from the
sponsor of the ad all describe an abstract idea, devoid
of a concrete or tangible application. Although certain
additional limitations, such as consulting an activity
log, add a degree of particularity, the concept
embodied by the majority of the limitations describes
only the abstract idea of showing an advertisement
before delivering free content.”); see also Netflix, Inc. v.
Rovi Corp., 114 F. Supp. 3d 927, 937 (N.D. Cal. 2015)
(finding interactive program guide claims “directed to
the abstract idea of filtering search results using
selectable categories” ineligible), aff’d, No. 2015-1917,
2016 WL 6575091 (Fed. Cir. Nov. 7, 2016) (Fed. Cir. R.
36); Tech. Dev. &, Licensing, LLC v. Gen. Instrument

430a
Corp., No. 07-cv-4512, 2016 WL 7104253, at *4-5 (N.D.
Ill. Dec. 6, 2016) (finding claims directed toward a
television control system for accessing favorite
channels lists was an abstract idea); Broadband iTV,
Inc. v. Hawaiian Telcom, Inc., 136 F. Supp. 3d 1228,
1237 (D. Haw. 2015) (finding patent directed to using
“hierarchical ordering based on metadata to facilitate
the display and locating of video content” in an
electronic program guide was an abstract idea), aff’d,
No. 2016-1082, 2016 WL 5361570 (Fed. Cir. Sept. 26,
2016).
b) Alice Step Two: Inventive Concept
“An inventive concept that transforms the abstract
idea into a patent-eligible invention must be
significantly more than the abstract idea itself, and
cannot simply be an instruction to implement or apply
the abstract idea on a computer.” Bascom Glob.
Internet Servs., Inc. v. AT&T Mobility LLC, 827 F.3d
1341, 1349 (Fed. Cir. 2016); see also Alice, 134 S. Ct. at
2357. “The inventive concept inquiry requires more
than recognizing that each claim element, by itself,
was known in the art. . . . an inventive concept can be
found in the non-conventional and non-generic
arrangement of known, conventional pieces.” Bascom,
827 F.3d at 1350; see also Amdocs (Israel) Ltd. v.
Openet Telecom, Inc., 841 F.3d 1288, 1304 (Fed. Cir.
2016) (“Although some of the components and
functions may appear generic, several limitations are
individually unconventional (e.g., completing depends
upon distributed enhancing) and the overall ordered
combination of all of the limitations was
unconventional. It produced the advantage over the
prior art by solving the technological problem at
stake.”). In analyzing patent-eligibility, courts have
analogized representative claims to those adjudicated

431a
in prior cases. See Amdocs, 841 F.3d at 1295 (“We
begin, then, with an examination of eligible and
ineligible claims of a similar nature from past cases.”).
The administrative law judge has determined that
Comcast has not met its burden of demonstrating that
the patents are directed toward ineligible subject
matter. 89
As an initial matter, Comcast does not
substantively compare claim 1 of the ’263 Patent to
any claims from cases finding patent-ineligibility.
Compare Resps. Br., Section VIII(E)(7) (this section
does not compare the asserted claims to any cases)
with Section X(E)(1) (this section compares the
challenged claims to cases finding ineligibility).
Rovi, on the.other hand, draws an analogy between
the challenged claims and Bascom. See Rovi Br. at 130132 (Rovi also draws analogies to Enfish, AmDocs,
McRO, DDR Holdings, and Bascom). In Bascom, the
Federal Circuit identified that the patent-eligible
inventive concept was “the installation of a filtering
tool at a specific location, remote from the end-users,
with customizable filtering features specific to each
end user. This design gives the filtering tool both the
benefits of a filter on a local computer and the benefits
of a filter on the ISP server.” Bascom, 827 F.3d at 1350.
Comcast’s attempt to distinguish Bascom focuses
solely on Bascom’s procedural posture and does not
engage with the actual comparison. See Resps. Br. at
166. Additionally, with regard to the ’263, ’801, and
’463 Patents, Comcast does not address AmDocs,
The administrative law judge finds Comcast has not met its
burden under both the preponderance-of-the-evidence and clearand-convincing standards.
89

432a
McRO or DDR Holdings in its post-hearing brief or
reply.
Second, although Comcast successfully argues that
the generic and conventional “interactive program
guides,” “local interactive television program guides,”
“remote interactive television program guides,”
“remote devices,” “mobile devices,” and a “remote link,”
see Resps. Br. at 164-66, it does not fully address “the
key question [of] whether the claims add something to
the abstract idea so that the patent covers a specific
application of the abstract idea, rather than the idea
itself.” Netflix v. Rovi, 114 F. Supp. 3d at 937 (citing
Accenture Global Services, GmbH v. Guidewire
Software, Inc., 728 F.3d 1336, 1341 (Fed. Cir. 2013));
Bascom, 827 F.3d at 1350 (“The inventive concept
inquiry requires more than recognizing that each
claim element, by itself, was known in the art.”). Here,
the particular arrangement of claimed elements
involves generating program listings on a remote
device, based on a user profile stored away from the remote device, receiving a program selection from that
user-specific list, and transmitting the selection to
prompt a recording by the local guide, on local
equipment. See JX-0002 at 17:37-47 (disclosing using
a user profile and data filtering “to limit the amount of
data provided . . . to minimize the bandwidth
requirements[.]”) This is more than using a remote
device and the internet for remote recording, as
Comcast argues. Accordingly, the administrative law
judge has determined that Comcast has not met its
burden of demonstrating that the ’263 Patent lacks an
inventive concept.

433a
8. Validity
Comcast contends that four different references
anticipate the ’263 Patent’s asserted claims. See
Resps. Br. at 116-154 (Section VIII(E)). The four
references are Kondo, Blake, Shteyn, and Sato. Id.
Comcast also argues that the ’263 Patent’s asserted
claims are obvious, and it presents prior art
combinations involving the four anticipatory
references in combination with Kondo with Killian,
Dedrick, and Young. Id. Comcast then argues that the
asserted claims are indefinite “hybrid” claims and that
the claims are directed to ineligible subject matter. Id.
a) Anticipation
(1) Kondo (RX-0245)
Comcast’s overview of its
concludes with the following:

Kondo

argument

The only features that are even arguably
missing from Kondo are the use of “user
profiles” to create the display on the
remote guide (for the ’263 Patent and
’413 patent) and providing program
guide information to the remote guide
from the local guide (for the ’801 patent).
These features, however, even if not
explicitly disclosed by Kondo, were well
known in the relevant art and would
have been obvious to apply to the system
of Kondo, as explained below.
Resps. Br. at 117.
Rovi succinctly argues:
Dr. Wigdor provides no opinion or
evidence that the Kondo reference

434a
discloses (expressly or inherently) his
summarized claim limitations of (a)
remote guide implemented on a mobile
device, RX-0007C (Wigdor WS) at Q/A
251; (b) user profile information received
over the Internet, id. at Q/A 258, 279; (c)
obtains user profile in response to a user
input, id. at Q/A 282; and (d) obtains
guide data based on the user profile, id.
at 284.
Rovi Br. at 112. 90 Thus, Rovi disputes that Kondo
discloses subject matter teaching limitations 1b and
1c.
For the “remote guide implemented on a mobile
device” limitation (1b), Dr. Wigdor testified:
Q251. How, if at all, were the
“remote guide implemented on a
mobile device” limitations taught by
Kondo?
A251. Given the teachings of Kondo
showing a terminal TAI outside the
home (RX-0245 at paragraph 0015), it
would have been obvious to one of
ordinary skill in the art at the time of the
alleged invention to implement the
remote program guide access device
(“TA1”) in a mobile device such as a
laptop computer.
RX-0007C. Dr. Wigdor’s testimony, which pertains to
obviousness, does not support Comcast’s anticipation
RX-0007C (Wigdor WS) at Q/A 279, 282 pertain to dependent
claims.
90

435a
argument because it applies the wrong legal standard.
Dr. Wigdor’s testimony at Q/A 258, 279, 282, 284
suffers from the same defect. Accordingly, Comcast
has not shown that Kondo anticipates claim 1 of the
’263 Patent.
(2) Blake (RX-0269)
Comcast’s overview of its Blake argument concludes
with the following:
The only claimed features that are even
arguably missing from Blake are the
“user profiles” to create the display on
the remote guide (for the ’263 Patent and
’413 patent) and providing program
guide information to the remote guide
from the local guide (for the ’801 patent).
These features, however, even if not
disclosed by Blake, were well known in
the relevant art and would have been
obvious to apply to the system of Blake,
as explained below.
Resps. Br. at 134.
Rovi succinctly argues:
Dr. Wigdor provides no opinion or
evidence that the Blake reference
discloses (expressly or inherently) his
summarized claim limitations of (a) user
profile received over the Internet, RX0007C (Wigdor WS) at Q/A 338; (b)
obtains user profile in response to a user
input, id. at Q/A 339; and (c) obtains
guide data based on the user profile, id.
at Q/A 340.

436a
Rovi Br. at 114.
For the “user profile received over [the] Internet”
limitation (1e), Dr. Wigdor testified:
Q338. How, if at all, were the “user
profile received over Internet”
limitations anticipated or rendered
obvious?
A338. This additional limitation would
have been obvious to a person of ordinary
skill in the art as of the date of invention
asserted by Rovi in view of Killian. In
discussing these limitations above, I’ve
already described how they were taught
by Killian in A281. Given those
teachings, it would have been obvious to
a person of ordinary skill in the art at the
time to have provided the user profiles
taught by Killian, Dedrick, and/or
Rzeszewski to the terminals of Blake
over the Internet.
RX-0007C. Dr. Wigdor’s testimony, which pertains to
obviousness, does not support Comcast’s anticipation
argument because it applies the wrong legal standard.
Dr. Wigdor’s testimony at Q/A 339, 340 suffers from
the same defect. Accordingly, Comcast has not shown
that Blake anticipates claim 1 of the ’263 Patent.
(3) Shteyn (RX-0265)
Rovi succinctly argues:
Dr. Wigdor provides no opinion or
evidence that the Shteyn reference
teaches
his
summarized
claim
limitations of (a) generates a display

437a
based on program guide information
received from the local guide, RX-0007C
(Wigdor WS) at Q/A 382; (b) user profile
received over Internet, id. at Q/A 386; (c)
obtains user profile in response to a user
input, id. at Q/A 387; and (d) obtains
guide data based on the user profile, id.
at Q/A 388.
Rovi Br. at 116.
For the remote guide “generates a display . . . based
on a user profile . . .” limitation (1c), Dr. Wigdor
testified:
Q382. How if at all, were the “remote
guide generates a display based on
program guide information received
from the local guide” limitations
taught by the prior art under a
proper view of the claim scope?
A382. Under a proper view of the scope
of the claims, this limitation would have
been obvious to a person of ordinary skill
in the art on the date of invention
asserted by Rovi in view of a combination
of Shteyn and Humpleman.
RX-0007C. Dr. Wigdor’s testimony, which pertains to
obviousness, does not support Comcast’s anticipation
argument because it applies the wrong legal standard.
Dr. Wigdor’s testimony at Q/A 386-88 suffers from the
same defect. Accordingly, Comcast has not shown that
Shteyen anticipates claim 1 of the ’263 Patent.
(4) Sato (RX-0264)
Rovi succinctly argues:

438a
Dr. Wigdor provides no opinion or
evidence that Sato teaches his
summarized claim limitations of (a) user
profile received over Internet, RX-0007C
(Wigdor WS) at Q/A 450; (b) obtains user
profile in response to a user input, id. at
Q/A 451; or (c) obtains guide data based
on the user profile, id. at Q/A 452.
Rovi Br. at 118-19.
For the “user profile received over [the] Internet”
limitation (1e), Dr. Wigdor testified:
Q450. How, if at all, were the “user
profile received over Internet”
limitations anticipated or rendered
obvious?
A450. This additional limitation would
have been obvious to a person of ordinary
skill in the art as of the date of invention
asserted by Rovi in view of Killian. In
discussing these limitations above, I’ve
already described how they were taught
by Killian in A281. Given those
teachings, it would have been obvious to
a person of ordinary skill in the art at the
time to have provided the user profiles
taught by Killian, Dedrick, and/or
Rzeszewski to the terminals of Sato over
the Internet.
RX-0007C. Dr. Wigdor’s testimony, which pertains to
obviousness, does not support Comcast’s anticipation
argument because it applies the wrong legal standard.
Dr. Wigdor’s testimony at Q/A 451-52 suffers from the

439a
same defect. Accordingly, Comcast has not shown that
Sato anticipates claim 1 of the ’263 Patent.
b) Obviousness
Comcast
presents
numerous
obviousness
arguments based on at least four primary references,
Kondo, Blake, Shteyn, and Sato. See Resps. Br. at 116154 (Section VIII(E)). 91
(1) Comcast Provides Insufficient
Rationale for Combining the Many
Obyiousness Arguments it Presents
Rovi argues that the administrative law judge
should not find the patents obvious because Comcast
did not present evidence that the identified primary
references could be combined with any other reference
to meet any asserted claim limitation. For example, for
the Kondo combinations, Rovi argues:
Dr. Wigdor did not provide explicit
opinions on why Kondo could be
combined with any other reference to
render obvious his summarized claim
limitations of (a) remote guide
implemented on a mobile device; (b) user
profile information received over the
Internet; (c) obtains user profile in
response to a user input; and (d) obtains
guide data based on the user profile that
Rovi has identified as missing expressly
and inherently from the disclosure of
The Examiner used Blake as the basis for a rejection, and Rovi
disclosed most of the references used in Comcast’s obviousness
combinations during prosecution. See generally JX-0002; JX-0009
(’263 Patent’s file history).
91

440a
Kondo. CX-1901C (Shamos RWS) at Q/A
75.
Rovi Br. at 113 (Section V(H)(2)(d)(iii)). The same
argument is repeated for combinations involving
Blake, Shteyn, and Sato. See id., Sections
V(H)(2)(e)(iii)
(Blake),
V(H)(2)(f)(iii)
(Shteyn),
V(H)(2)(g)(iii) (Sato), and V(H)(2)(i) (critiquing every
combination).
Comcast replies that it has “provided specific
reasons for each combination and Rovi never addresses
the substance of these arguments, such as explaining
why a POSITA would not have applied the user
profiles of Killian to other similar systems.” Resps.
Reply at 46 (emphasis in original). The testimony
Comcast cites, RX-0007C at Q/A 455-65, however,
identifies two references and then applies them to
multiple prior-art-combination permutations. For
example, Dr. Wigdor testified:
Q455. Why would a person of
ordinary skill in the art at the time
have combined the teachings the
references you discuss in this
Witness Statement?
A455. A person of ordinary skill in the
art at the time would have had a
multitude of reasons to combine the
teachings of Kondo, Blake, Shteyn,
Mizuno or Sato, on the one hand, with
Young, Humpleman, Killian, Dedrick,
and/or Rzeszewski, on the other,
including explicit and implicit reasons.
...

441a
Q457. What would a person of
ordinary skill in the art have
understood based on this teaching?
A457. This teaching of Shteyn would
have motivated a person of ordinary skill
in the art to combine references that
taught improvements in program guide
networking (like Kondo, Blake, Shteyn,
Mizuno, Sato, or Humpleman) with other
improvements in program guides that
made use of user profiles like Killian,
Dedrick, and Rzeszewski.
RX-0007C.
The administrative law judge has determined that
Comcast has failed to meet its burden of proving
invalidity with clear and convincing evidence. See
Microsoft Corp. v. i4i Ltd. P’ship, 564 U.S. 91, 95
(2011).
The Supreme Court has explained that “a patent
composed of several elements is not proved obvious
merely by demonstrating that each of its elements
was, independently, known in the prior art.” KSR Int’l
Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007).
Numerous Federal Circuit decisions have followed this
principle. 92 Vague and inarticulate expert testimony
Accord Probatter Sports, LLC v. Sports Tutor, Inc., No. 20161800, 2017 WL 785644, at *3 (Fed. Cir. Mar. 1, 2017) (after citing
KSR, the Federal Circuit explained that “[i]n the district court,
Sports Tutor did not adduce expert testimony or even present
attorney argument on why one of skill would have been motivated
to combine dynamic braking with the other prior art references
directed to pitching machines. Accepting Sports Tutor’s argument
would essentially eliminate the motivation to combine
requirement and essentially turn an obviousness analysis into an
92

442a
does not provide the rational underpinning to support
a conclusion of obviousness. See InTouch Techs., Inc.
v. VGO Commc’ns, Inc., 751 F.3d 1327, 1351 (Fed. Cir.
2014) (in finding that the defendant failed to meet its
burden of proving invalidity by clear and convincing
evidence, the Federal Circuit noted that the
defendant’s expert’s testimony “was vague and did not
articulate reasons why a person of ordinary skill in the
art at the time of the invention would combine these
references.”); ActiveVideo Networks. 93

anticipation analysis.”); Purdue Pharma L.P. v. Depomed, Inc.,
643 F. App’x 960, 965 (Fed. Cir. 2016) (in affirming a Patent Trial
and Appeal Board decision finding that the IPR petitioner had
not demonstrated the challenged claims were not patentable, the
Federal Circuit stated that “a patent challenger must
demonstrate that a skilled artisan would have had reason to
combine the teachings of the prior art references to achieve the
claimed invention, and that the skilled artisan would have had a
reasonable expectation of success from doing so.”); Tinnus
Enterprises, LLC v. Telebrands Corp., 846 F.3d 1190, 1207 (Fed.
Cir. 2017) (in affirming a non-obviousness finding, the Federal
Circuit stated that “[ajbsent a motivation to combine, Telebrands’
remaining obviousness arguments are unavailing.”); see also
Plantronics, Inc. v. Aliph, Inc., 724 F.3d 1343, 1354 (Fed. Cir.
2013) (“Where, as here, the necessary reasoning is absent, we
cannot simply assume that ‘an ordinary artisan would be
awakened to modify prior art in such a way as to lead to an
obviousness rejection.’”).
In ActiveVideo Networks, the Federal Circuit affirmed the grant
of a JMOL that reversed jury’s finding of obviousness after
finding that the expert’s “testimony is generic and bears no
relation to any specific combination of prior art elements. It also
fails to explain why a person of ordinary skill in the art would
have combined elements from specific references in the way the
claimed invention does” ActiveVideo Networks, Inc. v. Verizon
Commc’ns, Inc., 694 F.3d 1312, 1328 (Fed. Cir. 2012) (emphasis
in original). The insufficient expert testimony was: “The
motivation to combine would be because you wanted to build
93

443a
Dr. Wigdor’s testimony, RX-0007C at Q/A 455-65,
does not sufficiently explain why a person of ordinary
skill in the art would have applied the multitude of
asserted references—at least five primary references
(including Mizuno), five secondary references, and two
additional references (Young and Lawler)—to arrive at
any one, particular, discrete combination of references.
(2) Comcast’s Primary References,
Kondo (RX-0245), Blake (RX0269), Shteyn (RX-0265), and Sato
(RX-0264), Do Not Inherently
Teach a “Remote IPG Display
Based on Profile” (Limitation 1c)
For all obviousness combinations, Comcast argues
that the “Remote IPG Display Based on Profile”
(limitation 1c) “was either inherent . . . or would have
been obvious” over all of the combinations. See Resps.
Br. at 122 (Kondo), 136 (Blake), 143 (Shteyn), 150
(Sato). 94
Rovi argues that “Dr. Wigdor provides inherency
arguments as to his summarized claim limitations of
(a) remote guide generates a display of program
listings and (b) remote guide generates a display based
on remotely stored user profile. . . . Dr. Wigdor does
not provide any evidence that either of these

something better. You wanted a system that was more efficient,
cheaper, or you wanted a system that had more features, makes
it more attractive to your customers, because by combining these
two things you could do something new that hadn’t been able to
do before.” Id. at 1328.
Comcast acknowledges: “These issues are substantively the
same as discussed above in connection with the Kondo reference.”
Resps. Br. at 137, 143, 150.
94

444a
summarized limitations is necessarily present in the
reference.” Rovi Br. at 113. 95
The administrative law judge has determined that
Comcast has failed to meet its burden of proving
invalidity with clear and convincing evidence. See
Microsoft v. i4i, 564 U.S. at 95.
Although inherency is traditionally an anticipation
doctrine, it “may supply a missing claim limitation in
an obviousness analysis.” PAR Pharm., Inc. v. TWI
Pharm., Inc., 773 F.3d 1186, 1194-95 (Fed. Cir. 2014).
However, inherency “must be carefully circumscribed
in the context of obviousness.” Id. at 1195. The Federal
Circuit has explained that inherency
may not be established by probabilities
or possibilities. The mere fact that a
certain thing may result from a given set
of circumstances is not sufficient. If,
however, the disclosure is sufficient to
show that the natural result flowing from
the operation as taught would result in
the performance of the questioned
function, it seems to be well settled that
the disclosure should be regarded as
sufficient.

95
The full text of Comcast’s and Dr. Wigdor’s “remote guide
generates a display based on remotely stored user profile”
summarized limitation is: “wherein the display of the plurality of
program listings is generated based on a user profile stored at a
location remote from the remote program guide access device.”
See RX-0007C at Q/A 104. Within the context of claim 1, it is the
“remote access interactive television program guide” that must
display the program listings based on the user profile. Id.; (JX0002 at 28:42-43).

445a
Id. (quoting In re Oelrich, 666 F.2d 578, 581 (C.C.P.A.
1981) (emphasis added in PAR Pharm.). Here, Dr.
Wigdor’s inherency arguments rely on an inventor’s
deposition testimony pertaining to the Take3
application and “the XD” to opine that “all cable
systems” generate “a display based on remotely stored
user profile.” RX-0007C at Q/A 258-59. Neither
Comcast nor Dr. Wigdor indicates if the deponent was
shown Kondo, Blake, Shteyn, or Sato or asked
questions eliciting information that would show
whether these references, which are the foundation of
Comcast’s obviousness challenge, inherently disclose
information teaching the relevant claim limitation.
Accordingly, Comcast has not shown that the
“disclosure is sufficient to show that the natural result
flowing from the operation as taught would result in
the performance of the questioned function.” PAR
Pharm., 773 F.3d at 1194-95.
(3) Kondo (RX-0245, in view of Killian
(RX-0262)
Comcast argues Killian discloses “the use of user
profiles to generate displays of program listings.”
Resps. Br. at 124.
Rovi’s entire argument about Killian is:
Killian does not disclose a remote guide.
CX-1901C (Shamos RWS) at Q/A 49. The
guide of Killian receives program
information over the Internet, but no
recording instructions are conveyed over
the Internet. Id. Therefore, Killian does
not disclose a “system for selecting
television programs over a remote access
link
comprising
an
Internet
communications path” because no

446a
selection of a program is communicated
over the Internet.
See Rovi Br. at 120.
Dr. Wigdor, Comcast’s expert, testified, as follows:
Q265. What does Killian disclose
with respect to the use of user
profiles to generate displays of
program listings?
A265. Killian taught generating a listing
of programs (“schedule”) based on a
“viewer profile” and program listing
information. See RX-0262 at 2:5-11:
The electronic programming guide
includes a profile database that stores a
viewer profile and a suggest module that
is coupled to the profile database. The
suggest module accesses the viewer
profile and the program listing
information and, in response, generates
a preferred schedule according to the
viewer profile and the program listing
information.
RX-0007C. The evidence shows that Killian teaches
the use of user profiles recited in limitation 1c. See RX0007C at Q/A 265; RX-0262 at 2:5-11. However, as
explained in Section IV(B)(7)(c)(1), above, Comcast has
not provided sufficient rationale for combining Kondo
and Killian. 96 Accordingly, the administrative law
The Supreme Court has explained that “a patent composed of
several elements is not proved obvious merely by demonstrating
that each of its elements was, independently, known in the prior
art.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 418 (2007).
Numerous Federal Circuit decisions have followed this principle.
96

447a
judge finds that Comcast has not shown, through clear
and convincing evidence, that claim 1 would have been
obvious.
(4) Kondo (RX-0245), in view of
Killian (RX-0262), and further in
view of Dedrick (RX-0258)
With regard to Dedrick, Comcast argues that
“Dedrick disclosed permanently storing a user profile
on a removable storage device, that is, somewhere
other than on the device providing the guide, when it
was not in use.” Resps. Br. at 125.
For Dedrick, Rovi argues:
Dedrick does not disclose any program
guide, or the use of a profile in
generating a program guide, and
certainly does not disclose selecting a
program for recording using a remote
access link comprising an Internet
communication. CX-1901C (Shamos
RWS) at Q/A 55. The only reference to
“television” in Dedrick is that a
television set is one of the possible
devices that can be metered. RX-0258
(Dedrick) at col. 3, lns. 14-16, col. 5, lns.
26-29. There is no teaching that
anything displayed on the television
would be affected or influenced by a user
profile. Id.
Rovi Br. at 121.

Accord Probatter Sports, Purdue Pharma, Tinnus Enterprises,
InTouch Techs., ActiveVideo Networks, and Plantronics, supra.

448a
Dr. Wigdor, Comcast’s expert, testified, as follows:
Q268. What does Dedrick disclose
with respect to the use of user
profiles to generate displays of
program listings?
A268. Dedrick disclosed permanently
storing the user profile on a removable
storage device, that is, somewhere other
than the device, when it was not in use.
For example, Dedrick taught a “personal
profile database” containing “user profile
data,” which could be stored on a
removable nonvolatile storage device.
See RX-0258, Dedrick at 6:22-50:
In one embodiment, the information in
personal profile database 27 is protected
from access by anyone other than the
individual who is associated with the
information.
For
example,
the
information may be protected on a
computer by encrypting the profile when
it is not in use. Alternatively, the
information may be stored on a
removable nonvolatile storage device,
such as a PCMCIA Flash memory card.
Thus, an individual may remove the
Flash-based profile card from a computer
and thereby remove the risk of exposure
of private information to other
individuals operating in the network
system 10. In addition, since the profile
is removable, individual end users can
move a profile from computer to

449a
computer, such as between office and
home.
In yet another embodiment, a portion of
the user and profile information may be
stored on a removable nonvolatile
storage device, such as a smart card.
Although the smart card has limited
storage space, it is a much more
inexpensive alternative as compared to a
PCMCIA flash memory card. Minimum
user information such as user name,
address, telephone number and user
password may be stored in the smart
card. Other user profile information may
be retrieved from a user profile server
upon access by a user via the smart card.
The accessed user profile information
may then be transmitted back to the
computer in an encrypted form and
stored the PC’s volatile memory. Any
user profile information which has been
changed by the user may be transmitted
back to the network system 10 and the
personal profile may then be updated
with the new information.
RX-0007C.
The evidence shows that Dedrick discloses storing
user profiles remotely, as recited in limitation 1c. See
RX-0007C at Q/A 268; RX-0258 at 6:22-50. However,
as explained in Section IV(B)(7)(c)(1), above, Comcast
has not provided sufficient rationale for combining
Kondo, Killian, and Dedrick. 97 Accordingly, the
97

See n.92, supra.

450a
administrative law judge finds that Comcast has not
shown, through clear and convincing evidence, that
claim 1 would have been obvious.
(5) Blake (RX-0269), in view of Killian
(RX-0262)
The
administrative
law
judge
previously
determined that Killian taught user profilers as
recited in limitation 1c. However, as explained in
Section IV(B)(7)(c)(1), above, Comcast has not
provided sufficient rationale for combining Blake and
Killian. 98 Accordingly, the administrative law judge
finds that Comcast has not shown, through clear and
convincing evidence, that claim 1 would have been
obvious.
(6) Blake (RX-0269), in view of Killian
(RX-0262), and further in view of
Dedrick (RX-0258)
The
administrative
law
judge
previously
determined that Killian and Dedrick taught user
profilers as recited in limitation 1c. However, as
explained in Section IV(B)(7)(c)(1), above, Comcast has
not provided sufficient rationale for combining Blake,
Killian, and Dedrick. 99 Accordingly, the administrative
law judge finds that Comcast has not shown, through
clear and convincing evidence, that claim 1 would have
been obvious.
(7) Shteyn (RX-0265), in view
Killian (RX-0262)

98

See n.92, supra.

99

See n.92, supra.

of

451a
The
administrative
law
judge
previously
determined that Killian taught user profilers as
recited in limitation 1c. However, as explained in
Section IV(B)(7)(c)(1), above, Comcast has not
provided sufficient rationale for combining Shteyn and
Killian. 100 Accordingly, the administrative law judge
finds that Comcast has not shown, through clear and
convincing evidence, that claim 1 would have been
obvious.
(8) Shteyn (RX-0265), in view of
Killian (RX-0262), and further in
view of Dedrick (RX-0258)
The
administrative
law
judge
previously
determined that Killian and Dedrick taught user
profilers as recited in limitation 1c. However, as
explained in Section IV(B)(7)(c)(1), above, Comcast has
not provided sufficient rationale for combining Shteyn,
Accordingly,
the
Killian,
and
Dedrick. 101
administrative law judge finds that Comcast has not
shown, through clear and convincing evidence, that
claim 1 would have been obvious.
(9) Sato (RX-0264), in view of Killian
(RX-0262)
The
administrative
law
judge
previously
determined that Killian taught user profilers as
recited in limitation 1c. However, as explained in
Section IV(B)(7)(c)(1), above, Comcast has not
provided sufficient rationale for combining Sato and
Killian. 102 Accordingly, the administrative law judge
100

See n.92, supra.

101

See n.92, supra.

102

See n.92, supra.

452a
finds that Comcast has not shown, through clear and
convincing evidence, that claim 1 would have been
obvious.
(10) Sato (RX-0264), in view of Killian
(RX-0262) and Dedrick (RX0258)
The Joint Outline presents a combination based on
Sato, Killian, and Dedrick. See Joint Outline at 8.
Comcast’s brief does not clearly present this distinct
combination. See generally Resps. Br. at 149-53. To the
extent that this is a separate argument, the
administrative law judge finds that Comcast has fallen
short of its burden for this particular combination for
the same reasons articulated based on the
combinations involving (1) Sato and Killian (discussed
immediately above) and (2) Sato, Killian, Young, and
Dedrick (discussed immediately below).
(11) Sato (RX-0264), in view of Killian
(RX-0262), and further in view of
Young (RX-0253) and Dedrick
(RX-0258)
For the combination of Sato, Killian, Young, and
Dedrick, Comcast references Young in relation to
limitation 1b. See Resps. Br., Section VIII(E)(4)(b)(ii)
(limitation 1b is the only limitation where Young is
mentioned). Comcast argues:
. . . a POSITA, when using portable
computer 107 to control the computer
and video recorder 11 in the home would
have used an electronic IPG on portable
computer 11 to allow for the selections of
programs for recording, either based on
this teaching of Sato or based on Young,

453a
which taught the advantages of IPGs
long before the Remote Access Patents.
Id. Thus, it would have been obvious to
use the claimed remote IPG on computer
107. See RX-0007C (Wigdor WS) at Q/A
424.
Resps. Br. at 150.
Rovi references Young in its motivation-to-combine
arguments. See Rovi Br. at 124 (“Young does not
disclose responding to a communication from a remote
guide to a local guide. Dr. Wigdor offers no explanation
why one of skill in the art, even if motivated to combine
Sato with Young, would have combined them to yield
any Asserted Claim.”).
Accordingly, to the extent Sato does not teach
limitation 1b, the administrative law judge finds that
Young teaches the remote guide recited in limitation
1b. For the combination of Sato, Killian, and Young
and/or Dedrick, the administrative law judge
previously determined that Killian and Dedrick
taught user profilers as recited in limitation 1c.
However, as explained in Section IV(B)(7)(c)(1), above,
Comcast has not provided sufficient rationale for
combining Sato, Killian, and Young and/or Dedrick. 103
Accordingly, the administrative law judge finds that
Comcast has not shown, through clear and convincing
evidence, that claim 1 would have been obvious.
(12) Secondary Considerations for the
’263, ’801, and ’413 Patents
Rovi argues that the ’263, ’801, and ’413 Patents
were a commercial success and that a long-felt need
103

See n.92 supra.

454a
both support its argument that the patents are not
obvious. See Rovi Br. at 124-25.
Comcast argues that the evidence does not support
Rovi’s arguments and that “there is evidence of
simultaneous conception of the asserted claims, which
confirms that the claims would have been obvious to a
POSITA.” Resps. Br. at 155.
(a) Commercial Success
Rovi argues:
Products that embody the ’263, ’413, and
’801 Patents, including Comcast’s
infringing
devices,
have
been
commercially successful. CX-1905C
(Putnam RWS) at Q/A 113. Comcast
made $21.526 billion in 2015 from the
Accused Products, which are used by
more than 22 million Comcast
subscribers in the United States. CX0811C (Rovi Commercial Success
Charts);
CX-0816C
(Rovi
U.S.
Subscribers Chart). There is a nexus of
the invention to the success of these
embodying products. Comcast itself
must believe that its remote recording
feature influences consumer purchasing
decisions, as Comcast has widely
advertised the feature. . . . Comcast
advertises
the
remote
recording
capability with a feature video. CX-1697
(Xfinity DVR Cloud Video). A narrator
proclaims: “You can even schedule new
shows to record and download your DVR
recordings to watch anywhere, even
when you’re off line. It’s simple.” Id.

455a
Rovi Br. at 126-27.
Comcast argues:
Rovi has failed to demonstrate a nexus
between the alleged commercial success
of the products and the asserted claims.
Rovi’s reliance upon alleged praise for
the ’263, ’413, and ’801 patents fails. The
patentees did not invent remote
recording. See RX-0850C (Wigdor RWS)
at Q/A 74-75. Yet all of the cited evidence
discusses remote recording generally,
not the specific narrow inventions
recited in the asserted claims. See Tr.
1259:12-1260:12. Thus, it fails to
demonstrate a nexus.
Resps. Br. at 155 (Comcast does not dispute the
monetary values Rovi presents).
The administrative law judge has determined that
Rovi has made a showing that the ’263 Patent and the
’413 Patents were commercially successful, although
the showing is weak. As Rovi has not shown that any
products infringe or practice the ’801 Patent, the
administrative law judge finds that Rovi cannot
demonstrate that patent was a commercial success. 104
For the nexus requirement, the Federal Circuit has
explained that

In the alternative, if it is later found that the Comcast or
domestic industry products practice or infringe the ’801 Patent,
then the evidence shows that the ’801 Patent also has had weak
commercial success, as the products have enjoyed financial
success and the corresponding guides embodied the claimed
features.
104

456a
A nexus between commercial success and
the claimed features is required. . . .
However, if the marketed product
embodies the claimed features, and is
coextensive with them, then a nexus is
presumed and the burden shifts to the
party asserting obviousness to present
evidence to rebut the presumed nexus. . .
. The presumed nexus cannot be rebutted
with mere argument; evidence must be
put forth.
Brown & Williamson Tobacco Corp. v. Philip Morris
Inc., 229 F.3d 1120, 1130 (Fed. Cir. 2000) (citations
omitted). Here, the evidence shows that the Comcast
products have enjoyed financial success and that the
guides embodied the claimed features. See CX-1905C
(Putnam RWS) at Q/A 113; see generally CX-1903C
(Dr. Delp opines that various guides incorporate the
patented features). The advertising evidence, CX1697, also supports Rovi’s arguments. See also CX1905C (Putnam RWS) at Q/A 123-25.
However, Rovi’s showing is weak because it has not
shown that its success is not due to other factors, such
as advertising and marketing or “other economic and
commercial factors unrelated to the quality of the
patented subject matter.” See In re Huang, 100 F.3d
135, 140 (Fed. Cir. 1996) (rejecting argument where
patentee did not explain “that the product was
purchased due to the claimed features”); In re DBC,
545 F.3d 1373, 1384 (Fed. Cir. 2008). In particular,
Rovi has not shown that browse mode drove consumer
purchasing decisions rather than other factors (such
as demand for cable television itself).

457a
Accordingly, the administrative law judge finds that
while Rovi has shown that the ’263 and ’413 Patents
were commercially successful, that showing is weak.
(b) Licensing Success
The
Federal
Circuit
specifically
requires
“affirmative evidence of nexus where the evidence of
commercial success presented is a license, because it is
often cheaper to take licenses than to defend
infringement suits.” In re Cree, 818 F.3d at 703
(quotations omitted). The Federal Circuit has
explained that
When the specific licenses are not in the
record, it is difficult for the court to
determine if “the licensing program was
successful either because of the merits of
the claimed invention or because they
were entered into as business decisions
to avoid litigation, because of prior
business relationships, or for other
economic reasons.”
Id. (citing In re Antor Media Corp., 689 F.3d 1282,
1294 (Fed. Cir. 2012)). 105 In general, the existence of a

In Antor Media, 689 F.3d at 1294, the Federal Circuit criticized
evidentiary support that is similar to the present investigation:

105

Antor merely lists the licensees and their respective sales
revenue. The licenses themselves are not even part of the
record. Antor provides no evidence showing that the
licensing program was successful either because of the
merits of the claimed invention or because they were
entered into as business decisions to avoid litigation,
because of prior business relationships, or for other
economic reasons. The Board was thus correct in holding
that the existence of those licenses is, on its own,

458a
license alone is insufficient to show that the licensed
patent was a commercial success. See Iron Grip
Barbell Co. v. USA Sports, Inc., 392 F.3d 1317, 1324
(Fed. Cir. 2004) (“Without a showing of nexus, “the
mere existence of . . . licenses is insufficient to
overcome the conclusion of obviousness” when there is
a strong prima facie case of obviousness.”); see also
Amazon.com, 2016 WL 1170773 at *17 (“Mr.
Holtzman’s testimony lists patent family licenses and
revenue, but does not discuss the merits of the
challenged claim as they relate to any particular
license for the ’956 patent in the portfolio of licenses. .
. . [this] does not establish whether a specific license
(or licensing clause, etc.) for the ’956 patent occurred
because of the merits of the challenged claim, the
merits of unchallenged claims, for other patented
inventions, or for other economic reasons related to the
whole ’956 patent family.”).
The evidence shows that Rovi [ ] CX-0001C at Q/A
28, 31 (Rovi and licensees “[
] See id. at Q/A 35-36;
CX-1905C (Putnam RWS) at Q/A 67, 69-70. 106
The evidence does not show, however, that these
licenses are based on the merits of the patents as
opposed to a business decision to avoid litigation, a
prior business relationship, or other economic reason.
See In re Cree, 818 F.3d at 703; In re Antor Media, 689
F.3d at 1294. [ ] Accordingly, the administrative law
judge has determined that Rovi has not shown that
insufficient to overcome the prima facie case of
obviousness.
It is not readily apparent whether the licenses are in the record
or if Dr. Putnam read them. See generally CX-1905C (Putnam
RWS) at Q/A 75-79.

106

459a
licensing of these patents—apart from the portfolio—
has been a success.
(c) Long-Felt Need
Rovi’ s entire argument is:
The ’263, ’413, and ’801 Patents’ claims
fulfilled a long-felt need for an IPG that
permitted interaction with a remote IPG.
The inventions claimed in the ’263, ’801,
and ’413 Patents improved the user
experience, such as by remotely
browsing available programs and
selecting a program to be recorded. CX1904C (Williams RWS) at Q/A 103.
Rovi Br. at 254. Mr. Williams’s testimony follows:
Q102: What conclusions, if any, did
you
come
to
regarding
the
obviousness of the ’263, ’413, and ’801
Patents?
A102: I concluded that secondary
considerations support non-obviousness
of the ’263, ’413, and ’801 patents.
Q103: How did you come to this
conclusion?
A103: For one, I considered Rovi’s
contentions. I understand that Rovi
contends that the ’263, ’801, and ’413
Patents’ claims fulfilled a long-felt need
for an IPG that permitted interaction
with a remote IPG, as, for example, the
prior art required that the user be
physically present in the home to access
important program guide features such

460a
as program recording. I also understand
that Rovi contends that by providing a
user with access to an interactive
program guide at a remote location, the
inventions claimed in the ’263, ’801, and
’413 Patents improved the user
experience, such as by remotely
browsing available programs and
selecting a program to be recorded.
Q104: What is your opinion as to
these contentions?
A104: I agree with these contentions and
they are consistent with my experience.
Setting up one’s tuner and VCR for
recording was a cumbersome process
even from within the home. The
difficulty of ensuring that one recorded
the pop-up show or the one that they
forgot about while away from home was
quite difficult. With the transition to
digital Pay TV set-top boxes and DVRs,
growing Internet connectivity, and the
present inventions, these long-felt needs
could be finally solved.
CX-1904C at Q/A 102-04.
Long-felt need “is analyzed as of the date of an
articulated identified problem and evidence of efforts
to solve that problem.” Texas Instruments Inc. v. U.S.
Int’l Trade Comm’n, 988 F.2d 1165, 1178 (Fed. Cir.
1993).
Rovi’s evidence consists of conclusory expert
testimony. See, e.g., CX-1904C (Williams RWS) at Q/A
102-04. Mr. Williams did not identify the date when

461a
the long-felt need first began (i.e., Mr. Williams did not
analyze the need “as of the date of an articulated
identified problem and evidence of efforts to solve that
problem,” per Texas Instruments). 107 Id.
Accordingly, the administrative law judge has
determined that this testimony is insufficient to find a
long-felt need, and that this factor does not support
non-obviousness.
(d) Contemporaneous Invention by
Others
Comcast argues:
. . . there is evidence of independently
made, simultaneous inventions, made
within a comparatively short space of
time, which is evidence that the asserted
claims were obvious to those of ordinary
skill in the art at the time. As discussed
above, there were a number of
practitioners in the art who developed
IPG systems with remote recording and
user profile features around this time.
The existence of all of this simultaneous
development confirms that the asserted
claims would have been obvious to a
person of ordinary skill at that time. See
RX-0007C (Wigdor WS) at Q/A 480.
Resps. Br. at 288.

While Mr. Williams discussed the 1992, 1998, and 1999
timeframes, those discussions were not cited by Rovi, and the
discussions relate to the priority dates of the patents, not the
dates when the alleged need arose.
107

462a
The administrative law judge has determined that
Comcast’s contemporaneous inventions argument
provides only negligible support for a finding of
obviousness. While the prior art Comcast cites is close,
the combinations do not clearly and convincingly
evidence simultaneous invention in such a manner
that has a perceptible impact on the obviousness
calculus.
(e) Weighing
the
Secondary
Consideration Factors
On the whole, the administrative law judge has
determined that Rovi’s weak Showing of commercial
success provides weak support for finding that the ’263
and ’413 Patents are not obvious. The evidence cited
by Comcast is negligible and does not have a
perceptible impact on the obviousness calculus.
c) Indefiniteness
Comcast argues:
Claims 1 and 14 of the ’263 Patent, claim
1 of the ’413 patent, and claims 10 and 15
(‘Asserted System Claims”) are invalid
for indefiniteness because each of these
claims recite elements of an apparatus
and a method for using that apparatus. .
. . A single claim that recites both a
system and the method for using that
system is invalid under 35 U.S.C. § 112
because it does not apprise a POSITA of
its scope. See IPXL Holdings, LLC v.
Amazon.com, Inc., 430 F.3d 1377, 1384
(Fed. Cir. 2005).
Resps. Br. at 158.

463a
Rovi argues:
. . . The use of a “gerund (e.g.,
transmitting, receiving)” with an
apparatus claim does not inherently
make the claim indefinite. See Certain
Network Devices, Related Software &
Components Thereof Order No. 13,
USITC Inv. No. 337-TA-944 (July 28,
2015) (Shaw, ALJ). And, as the Federal
Circuit articulated, “apparatus claims
are not necessarily indefinite for using
functional language” and “if an
apparatus claim is clearly limited to a[n
apparatus] possessing the recited
structure and capable of performing the
recited functions, then the claim is not
invalid as indefinite.” UltimatePointer,
LLC v. Nintendo Co., Ltd., 816 F.3d 816,
826 (Fed. Cir. 2016) (internal quotations
omitted). . . .
Rovi Br. at 108.
The administrative law judge has determined that
claims 1 and 14 of the ’263 Patent, claim 1 of the ’413
patent, and claims 10 and 15 of the ’801 patent are not
indefinite “hybrid” claims. The phrases that Comcast
identifies modify the claimed systems rather than
activities of a user. See UltimatePointer, L.L.C., v.
Nintendo Co., 816 F.3d 816, 826 (Fed. Cir. 2016) (“If
an apparatus claim is clearly limited to an apparatus
possessing the recited structure and capable of
performing the recited functions, then the claim is not
invalid as indefinite.” (citation and quotationalteration brackets omitted); see also HTC Corp. v.
IPCom GmbH & Co., KG, 667 F.3d 1270, 1277 (Fed.

464a
Cir. 2012) (finding claims not indefinite where the
limitations established “the underlying network
environment in which the mobile station operates.”).
Thus, the administrative law judge finds that the
challenged claims are not indefinite hybrid claims.
C. U.S. Patent No. 8,046,801
1. Overview of the ’801 Patent (JX-0003)
The ’801 Patent, entitled “Interactive television
program guide with remote access,” issued on October
25, 2011. The ’801 Patent is a continuation of U.S.
Patent Application No. 09/354,344, and it claims the
benefit of U.S. Provisional Application No. 60/097,527,
filed August 21, 1998, and U.S. Provisional
Application No. 60/093,292, filed July 17, 1998. The
’801 Patent shares “essentially the same specification”
as the ’263 Patent and the ’413 Patent. See Resps. Br.
at 63; see also Rovi Br. at 41 (explaining the patents
“stem from a common, parent application filed on July
16, 1999”). The ’801 Patent relates to interactive
television guide programs that operate on local
devices, such as a set-top box, and remote devices, such
as a laptop or mobile phone.
2. Claim Construction
a) Level of Ordinary Skill in the Art
The parties address the level of ordinary skill for the
’263, ’801, and ’413 Patents together. See Rovi Br. at
42; Resps. Br. at 70.
The administrative law judge already determined
that a person having ordinary skill in the relevant art
would have a bachelor’s degree in computer science,
electrical engineering, computer engineering, or a
similar discipline and two to four years of experience

465a
or familiarity with computer networks, graphical user
interfaces, and the associated computer software. See
Section IV(B)(2)(a).
b) Disputed Claim Terms
(1) Recording by the local guide
The phrase “recording by the local guide” appears
only in the claims (i.e., claims 1, 5, 10, 15, 19, 23, 28,
33, 37, 41, 46, and 51). The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

recording by the local
interactive television
program guide
equipment on which the
local interactive
television program guide
is implemented

Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 52; Resps. Br. at 79-81.
Rovi’s argument, which is comingled with three
other disputed phrases, follows:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“recording by the local
interactive television program guide
equipment on which the local interactive
television
program
guide
is
implemented.” CX-0002C (Shamos WS)
at Q/A 121, 123. As discussed above at
Sections V(C)(2)(b)-(d), there is no

466a
geographic limitation regarding the local
guide. Rovi’s construction for this term is
consistent with its use in the
specifications of the Patents. See JX0002 (’263 Patent) at col. 11, lns. 4-44,
col. 12, lns. 10-13, col. 17, lns. 48-50, col.
24, lns. 36-39.
As with the “local” interactive television
program guide term, Respondents’
proposed construction again imposes a
geographical limitation by limiting the
recording to being “initiated” by the local
interactive program guide (which in
turn, according to Respondents, must be
located solely inside a user’s home).
Resps. P.H. Br. at 196-98. The word
“initiates” does not appear anywhere in
the intrinsic record of the Patents.
Moreover, there is no requirement that
the equipment within the users’ home
initiate the recording as Respondents’
construction would require. Within the
claims, it is: (a) the user of the remote
guide who requests a recording; (b) the
remote guide which communicates the
recording request to the local guide; and
(c) the local guide which records the
television program. See CX-0002C
(Shamos WS) at Q/A 122 (explaining
additional intrinsic evidence in support
of Rovi’s construction). Respondents are
improperly attempting to introduce
causal and geographical limitations into
the claims.
Rovi Br. at 53-54.

467a
Comcast’s entire argument, which is comingled
with five other disputed phrases, follows:
Comcast’s proposed constructions are
consistent with the intrinsic evidence. In
every embodiment disclosed in the
patent specification, it is the guide
software that initiates the recording.
See, e.g, JX-0002 (’263 Patent) at 12:1922, 17:54-59, 24:36-39, and 24:44-51.
This repeated aspect of the specification
is recognized in Comcast’s proposed
constructions.
Rovi takes issue with the word “initiates”
in Comcast’s constructions and argues
that the remote guide could also be said
to “initiate” a recording when it remotely
requests a recording. See, e.g., CX-0002C
(Shamos WS) at Q/A 122. While it is true
that the remote guide communicates a
scheduling request, in every embodiment
in the patent it is the local guide which
receives this request from the remote
guide and it is the local guide that
actually initiates the recording. See, e.g.,
JX-0002 at 12:19-22, 17:54-59, 24:36-39,
and 24:44-51.
Rovi’s constructions, on the other hand,
do nothing more than rearrange the
words of the limitation and, therefore, do
not explain their meaning. Further, for
the “recording by [a/the] local interactive
television program guide,” limitation
Rovi inserts the concept of the local guide
equipment to a limitation that otherwise

468a
did not contain it. By inserting the local
guide equipment into this construction,
Rovi excludes an embodiment described
in the specification where the local guide
records a program on a program guide
server. See id. at 24:44-51.
Furthermore, by changing the claim
term to only require that equipment
perform the recording, Rovi would
remove the local guide entirely from the
process of recording. In other words,
under Rovi’s construction, the local guide
need not be involved at all in the
recording, only the equipment on which
the local guide is implemented. This
changes the meaning of the claim term.
Resps. Br. at 79-81. 108
Comcast replies, for all of the “recording terms,” as
follows:

The six terms to which this argument applies are: “(1)
‘recording by [a / the] local interactive television program guide,’
(2) ‘records the television program corresponding to the selected
program listing responsive to the communication using the local
interactive television program guide equipment,’ (3) ‘records the
television program corresponding to the selected television
program listing using the local interactive television program
guide equipment,’ (4) ‘recording by the local guide,’ (5) ‘responsive
to the communication, scheduling, with the local guide, the
program corresponding to the selected program listing for
recording by the user equipment,’ and (6) ‘responsive to the
communication, schedules the program corresponding to the
selected program listing for recording at the appropriate time
using the television equipment’ [which] are provided in RDX-0839
to RDX-0841.”).

108

469a
Respondents’
constructions
merely
clarify what is clear from the claims: the
local guide, not something else, records
the programs. Each of the claims recites
either “recording by the local guide” or
“records . . . using the local interactive
television program guide.” This plain
language mandates a construction that it
is the local guide that initiates the
recordings.
Rovi has no meaningful response and
instead alleges that Respondents are
attempting to re-litigate the “inside a
user’s home” issue with these proposed
constructions. See Compl. PoHB at 5354. That is untrue. Respondents only
litigate the issue regarding the proper
meaning of “local guide” / “local
interactive television program guide”
once. If Respondents prevail, then of
course the meaning of “local guide” /
“local interactive television program
guide” in these recording terms would
have that same meaning. But if
Respondents do not prevail, there is not
a separate argument with these
constructions that the local guide must
be in the user’s home. The issue with
these constructions is whether the local
guide (wherever it may be) performs the
recordings. On that issue, Rovi presents
no meaningful response.
Resps. Reply at 21.

470a
The administrative law judge construes “recording
by the local guide” to mean “recording by the local
interactive television program guide equipment on
which the local interactive television program guide is
implemented.” Comcast has not presented a cogent
argument, with sufficient intrinsic (Comcast does not
cite the ’801 patent or its prosecution history) or
extrinsic support, to warrant construing the phrase
otherwise.
(2) Responsive to the communication,
scheduling, with the local guide, the
program corresponding to the selected
program listing for recording by the
user equipment
The phrase “responsive to the communication,
scheduling, with the local guide, the program
corresponding to the selected program listing for
recording by the user equipment” appears only in
claims 1 and 5 of the ’801 patent. The parties have
proposed the following constructions:
Rovi’s Proposed
Comcast’s Proposed
Construction
Construction
responsive to the
Comcast does not clearly
communication, scheduling present a construction in
for recording by the user its post-hearing brief.
equipment, using the local
guide, the program
corresponding to the
selected program listing
See Rovi Br. at 56; Resps. Br. at 79-81.
Rovi’s entire argument for this phrase and the
“responsive to the communication, schedules the

471a
program corresponding to the selected program listing
for recording at the appropriate time using the
television equipment” phrase is:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“responsive
to
the
communication, scheduling for recording
by the user equipment, using the local
guide, the program corresponding to the
selected program listing.” CX-0002C
(Shamos WS) at Q/A 135. Rovi’s
construction simply rearranges the
phrases in the term itself making the
intent of the original claim language
easier
to
understand.
CX-0002C
(Shamos WS) at Q/A 136 (explaining
additional intrinsic evidence in support
of
Rovi’s
construction).
Rovi’s
construction is also supported by the
specification of the Patents. JX-0003
(’801 Patent) at col. 38, lns. 29-33, col. 20,
lns. 32-46. As with the “recording by the
local guide terms,” Section V(C)(2)(h),
supra,
Respondents’
proposed
construction improperly introduces the
vague concept of “initiates” together with
the geographical limitation of where that
“initiation” occurs into the term.
Rovi Br. at 56.
Comcast does not brief this phrase separately.
Resps. Br. at 79-80 (this is one of the six comingled
arguments). In reply, Comcast adds:
The issues for these two terms are the
same as the issues for the recording

472a
terms, which is why Respondents briefed
all six together. See Resp. PoHB at 79-81.
Resps. Reply at 22.
The administrative law judge construes “responsive
to the communication, scheduling, with the local
guide, the program corresponding to the selected
program listing for recording by the user equipment”
to mean “responsive to the communication, scheduling
for recording by the user equipment, using the local
guide, the program corresponding to the selected
program listing.” The construction provides additional
context for understanding the phrase without
enlarging or narrowing the claim scope. Comcast has
not presented a cogent argument, with sufficient
intrinsic (Comcast does not cite the ’801 patent or its
prosecution history) or extrinsic support, to warrant
construing the phrase otherwise.
(3) Responsive to the communication,
schedules the program corresponding
to the selected program listing for
recording at the appropriate time
using the television equipment
The phrase “responsive to the communication,
schedules the program corresponding to the selected
program listing for recording at the appropriate time
using the television equipment” appears only in claims
10 and 15 of the ’801 patent. The parties have proposed
the following constructions:
Rovi’s Proposed
Construction
responsive to the
communication,
schedules the program

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in

473a
corresponding to the
selected program listing
for recording at an
appropriate time using
the television equipment

its post-hearing brief.

See Rovi Br. at 56; Resps. Br. at 79-81.
Neither Rovi nor Comcast brief this phrase
separately. See Rovi Br. at 56 (this phrase is briefed
with the “responsive to the communication,
scheduling, with the local guide, the program
corresponding to the selected program listing for
recording by the user equipment” phrase); Resps. Br.
at 79-80 (this is one of the six comingled arguments).
In reply, Comcast adds:
The issues for these two terms are the
same as the issues for the recording
terms, which is why Respondents briefed
all six together. See Resp. PoHB at 79-81.
Resps. Reply at 22.
The administrative law judge previously construed
“responsive to the communication, scheduling, with
the local guide, the program corresponding to the
selected program listing for recording by the user
equipment”
to
mean
“responsive
to
the
communication, scheduling for recording by the user
equipment, using the local guide, the program
corresponding to the selected program listing.”
Accordingly, the administrative law judge construes
the phrase “responsive to the communication,
schedules the program corresponding to the selected
program listing for recording at the appropriate time

474a
using the television equipment” to mean “responsive
to the communication, schedules the program
corresponding to the selected program listing for
recording at an appropriate time using the television
equipment.”
(4) Program guide information
The term “program guide information” appears
throughout the claims and the specification. The
parties have proposed the following constructions:
Rovi’s Proposed
Construction
information necessary
for remotely providing
program guide
functionality

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 55; Resps. Br. at 84.
Rovi’s entire argument follows:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“information
necessary
for remotely providing program guide
functionality.” CX-0002C (Shamos WS)
at Q/A 127. This construction comes
directly from the specification of the
Patents. JX-0003 (’801 Patent) at col. 15,
lns. 33-41; see also CX-0002C (Shamos
WS) at Q/A 129 (explaining additional
intrinsic evidence in support of Rovi’s
construction).
Rovi Br. at 55.

475a
Comcast’s entire argument follows:
The party’s [sic] proposed construction
[sic] of “program guide information” are
[sic] provided in RDX-0845. Comcast
acknowledges that Rovi has pulled its
construction
directly
from
the
specification, but the description Rovi
relies on is for one particular
embodiment where the local and remote
program guides are sharing the same
program guide information to enable the
remote guide to remotely schedule a
recording. Those of ordinary skill in the
art would recognize that “program guide
information” is also used by the local
guide to generate a display that allows a
user to locally schedule a program for
recording whether or not there is a
remote guide in the system. See RX0007C (Wigdor WS) at Q/A 197. Thus,
the
word
“remotely”
in
Rovi’s
construction improperly narrows the
plain and ordinary meaning of “program
guide information” to apply only to
remote devices.
Resps. Br. at 84.
Comcast replies:
Program guide information can be used
by either a local or a remote guide to
provide program guide functionality.
When used by a local guide, Rovi’s
construction would be nonsensical as the
program guide information is necessary,
but it is used to provide program guide

476a
functionality locally, not remotely as
required by Rovi’s constructions.
Resps. Reply at 22.
The administrative law judge construes “program
guide information” to mean “information necessary for
remotely providing program guide functionality.” The
construction provides additional
context
for
understanding the phrase without enlarging or
narrowing the claim scope. Comcast has not presented
a cogent argument, with sufficient intrinsic (Comcast
does not cite the ’801 patent or its prosecution history)
or extrinsic support, to warrant construing the phrase
otherwise.
(5) Remote server
The term “remote server” appears throughout the
claims and the specification. The parties have
proposed the following constructions:
Rovi’s Proposed
Construction
server that provides
program guide
information

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 55; Resps. Br. at 84.
Rovi’s entire argument follows:
One of ordinary skill in the art would
agree
with
Rovi’s
proposed
construction—“server that provides
program guide information.” CX-0002C
(Shamos WS) at Q/A 133. This
construction
is
based
on
the

477a
specifications. JX-0003 (’801 Patent) at
col. 3, lns. 34-38. The term “remote
server” is used to refer to “program guide
server 25” or “server 242” or “server 256”
because no other servers are mentioned
in the ’801 specification. CX-0002C
(Shamos WS) at Q/A 133 (explaining
additional intrinsic evidence in support
of Rovi’s construction). All three of those
servers, according to the specifications,
provide program guide information. Id.
Rovi Br. at 55.
Comcast’s entire argument follows:
The party’s [sic] proposed construction
[sic] of “remote server” are [sic] provided
in RDX-0846. There is no need to
construe this limitation. Those of
ordinary skill in the art would know that
a remote server is a server that is located
somewhere else. RX-0007C (Wigdor WS)
at Q/A 200. This conclusion is also clear
from the plain language of the claims. Id.
at Q/A 202.
Resps. Br. at 84.
Comcast replies:
There is no need to construe this term
and Rovi has not demonstrated why
construction is necessary or helpful.
Resps. Reply at 22.
The administrative law judge construes the term
“remote server” to mean “server that provides program
guide information.” The construction provides

478a
additional context for understanding the phrase
without enlarging or narrowing the claim scope.
Comcast has not presented a cogent argument, with
sufficient intrinsic (Comcast does not cite the ’801
patent or its prosecution history) or extrinsic support,
to warrant construing the phrase otherwise.
3. Literal Infringement
Rovi asserts claims 1, 5, 10, and 15. Rovi Br. at 42.
Rovi relies upon the same evidence and argument
presented for claim 1 of the ’263 Patent to argue that
claims 1, 5, 10, and 15 are infringed. See generally Rovi
Br., Section V(E)(1). For instance, the conclusion of
Rovi’s argument for the preamble of claim 1 of the ’263
Patent is typical for its allegations that the X1 and
Legacy products infringe the ’801 patent:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements
are met by the Legacy system: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 1a, 5pre, 5a, 10pre,
10a, 10c, 15pre, 15a, 15c. CDX-0306C
(CX-0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1599 (Legacy Guide
Screenshots for the ’413 Patent); CX1602 (Legacy Guide Screenshots for the
’801 Patent). CX-0002C (Shamos WS) at
Q/A 242, 255, 263, 284, 299, 302, 312,
314, 324, 326, 330, 340, 342, 346.”
See Rovi Br. at 66 (emphasis added).

479a
Comcast presents two separate arguments for the
accused X1 and Legacy products. See generally Resps.
Br., Sections VIII(C)(2)(a)(vii), VIII(C)(2)(b)(vi) (the
remaining
sub-headings
indicate
Comcast’s
arguments are directed toward the ’263, ’413, and ’801
Patents collectively or the ’263 and ’413 Patents
together).
a) Claim 1
Dr. Shamos, Rovi’s expert, presents his analysis for
claim 1 in relation to six alphanumeric limitations
(1pre, 1a, 1b, 1c, 1d, and 1e). See CX-0002C at Q/A 298309. The subparts are presented, as follows:
[1pre] 1. A method of enabling a user to
perform
recordings,
the
method
comprising:
[1a] generating, with a remote guide
accessible by a user of a remote device, a
display comprising a plurality of
program listings for display on the
remote device, wherein the display is
generated by the remote guide based on
program guide information received
from a local guide implemented on user
equipment via the Internet, wherein the
user equipment is remote to the remote
device, wherein the user equipment is
located at a user site, and wherein the
local guide generates a display of one or
more program listings for display on a
display device at the user site;
[1b] receiving, with the remote guide,
a user selection of a program listing from
the plurality of program listings,

480a
wherein the user selection identifies a
program corresponding to the selected
program listing for recording by the local
guide;
[1c] transmitting, with the remote guide,
a communication to the local guide
identifying the program corresponding to
the selected program listing via the
Internet;
[1d] receiving the communication
with the local guide; and
[1e] responsive to the communication,
scheduling, with the local guide, the
program corresponding to the selected
program listing for recording by the user
equipment.
See CX-0002C at Q/A 298-309.
(1) X1 System
Comcast argues:
Comcast’s X1 platform does not infringe
the limitations of every ’801 patent claim
related to receiving “program guide
information” from the local guide. Rovi
initially only alleged that the “program
guide
information”
constituted
information about scheduled recordings
(i.e., the “red dots”) that Rovi alleged was
received from the user’s STB. See, e.g.,
CDX-0328C.000157-161. As discussed
below, this infringement theory presents
multiple problems for Rovi and,

481a
therefore, Dr. Shamos has backpedaled
from it dramatically.
Resps. Br. at 99. Comcast then presents its “local
guide” claim construction arguments again and argues
that it does not infringe because its client applications
do not obtain program listings from the “local guide.”
Id. Comcast argues:
The archetecgture [sic] used by Rovi
providing program guide information to
the remote guide and the local guide
from a “centralized location” was
disclosed in the specification, but is an
unclaimed embodiment. Fig. 2a of the
patent shows that the program guide
information is transmitted from the
headend to the user equipment and from
the user equipment to the remote device.
Tr. 213:3-22. This is the embodiment
recited in the claims. See id. at 215:1-12.
Fig. 2b, on the other hand, discloses an
embodiment where the .program guide
information is transinitted directly not
only to the user equipment, but also to
the remote device. See id. at 213:23214:25. The important distinction here is
that in Fig. 2b, the remote device’s source
of the program guide information is not
the user equipment. See id. at 215:13216:6.
Id. at 102.
In claim 1, “program guide information” is found
only in limitation 1a. See CX-0002C at Q/A 300. Dr.
Shamos explained that the accused X1 products satisfy
limitation 1a, as follows:

482a
Q301. How is this element met by the
X1 system?
A. The same reasoning and evidence
cited for ’263 1pre, 1a, 1b, and 1c apply
here. In the X1 system, the program
guide information is received over HTTP
on the bottom row of the figure in CX1791 and CDX-305C.2. The remote guide
has no source of information other than
what it receives over HTTP.
Id. at Q/A 301.
The administrative law judge has determined that
claim 1 is not infringed. Limitation 1a requires, in
pertinent part, the remote guide to generate a display
using program guide information from a local guide
that is implemented on user equipment located at a
user site. See JX-0003 at 40:8-15. At the hearing, Dr.
Shamos testified that Figs. 2a and 2b were different
embodiments that differ in their relationship to user
television equipment (22). Tr. 213-219.
These are the figures:

483a

JX-0003 at 11-12.
Rovi has not sufficiently shown that the accused X1
system includes a remote device that receives program
guide information from a local guide implemented on
user equipment (e.g., a set-top box and television)
located at a user site, via the Internet. See generally
CX-0002C at Q/A 301 (the “reasoning and evidence
cited for ’263 1pre, 1a, 1b, and 1c” does not address
“program guide information” from a local guide located
at a “user site”). Accordingly, the administrative law
judge finds that the accused X1 system does not
infringe claim 1 of the ’801 Patent.

484a
(2) Legacy System
Rovi has not presented a separate argument for the
Legacy system. See generally Rovi Br., Section V(E)(1).
Rovi’s reply provides:
The parties agree that the disputes
regarding the X1 and Legacy Accused
Products are “essentially the same”
and/or “exactly the same.” Resps. Br. at
103-04. The parties also agree that the
disputes regarding the DI Products
contain “the same issue[s] as with
infringement.” Resps. Br. at 114-15.
Thus, because the X1 Accused Products
infringe, the Legacy Accused Products
should be found to infringe. Id. at 103-04;
Compls. Br. at 60-85 (discussing
infringement by both the X1 and Legacy
systems). Similarly, because the Accused
Products infringe, the DI Products
should be found to practice the Asserted
Claims. Resps. Br. at 114-15; Compls.
Br. at 95-108 (discussing the DI
Products’ practice of the Asserted
Claims).
Rovi Reply at 38-39.
Comcast argues:
Comcast’s Legacy platform does not
infringe any asserted claim of the ’801
patent because the remote guide does not
receive “program guide information”
from the lcal [sic] guide. The dispute here
is essentially the same as for the X1
system. See § VII.C.2.a.i.(7) [sic]. The

485a
only material difference between X1 and
Legacy STBs for this issue is that, in the
Legacy platform, the source of scheduled
recordings is the [ ] server, rather than
the [ ] But, in any event, the source is
still not the guide software or anything
on the STBs, and, is therefore not the
“local
guide”
under
Comcast’s
construction or the reasonable view of
Rovi’s construction of “local guide.”
Resps. Br. at 104.
Rovi has not sufficiently shown that the accused X1
system includes a remote device that receives program
guide information from a local guide implemented on
user equipment (e.g., a set-top box and television)
located at a user site, via the Internet. See generally
CX-0002C at Q/A 301-302 (the “reasoning and
evidence cited for ’263 1pre, 1a, 1b, and 1c” does not
address “program guide information” from a local
guide located at a “user site”). Accordingly, the
administrative law judge finds that the accused
Legacy system does not infringe claim 1 of the ’801
Patent.
b) Claims 5, 10, and 15
The administrative law judge determined that
Comcast does not infringe claim 1 (above). The
administrative law judge has determined that
Comcast does not infringe claims 5, 10, and 15. Neither
Rovi nor Comcast presents separate, substantive
argument as to whether Comcast does or does not
infringe claims 5, 10, and 15. Accordingly, the
administrative law judge finds that Comcast does not
infringe claim 5, 10, and 15 for the same reasons it
does not infringe claim 1.

486a
c) Comcast’s Additional NonInfringement Arguments
Comcast’s alternative designs arguments are
predominately directed to the ’263 and ’413 Patents.
See Resps. Br. at 104-06. For the ’801 Patent, Comcast
argues:
As a second alternative design, even
under Rovi’s view of the scope of “local
guide,” Comcast could also entirely
remove the ability to remotely schedule a
recording from the accused mobile/client
applications and thereby avoid Rovi’s
infringement allegations for all three of
the Remote Access patents. RX-0850C at
Q/A 221; Tr. 198:2-22. Removing this
entire feature could be eliminated as
easily as the other alternative designs.
RX-0850C at Q/A 222.
Id. at 105.
Assuming the ’801 Patent is found infringed, then
the administrative law judge’s determination with
respect to Comcast’s second alternative design from
Section IV(B)(c)(1) (i.e., that Comcast cannot avoid
infringement simply because there may be alternative
ways to use the accused products) also applies here.
4. Indirect Infringement
In the event that the accused products are found to
infringe the ’801 Patent, the administrative law judge
has analyzed Rovi’s inducement and contributory
infringement arguments.
Rovi does not present a separate argument for the
’801 Patent. See generally Rovi Br., Sections V(E)(4),

487a
V(F) (the ’263, ’801, and ’413 Patents are addressed
collectively).
Comcast generally presents a joint argument for the
’263, ’801, and ’413 Patents. See generally Resps. Br.,
Section VIII(C). For the ’801 Patent, Comcast adds:
For the ’801 patent, all of the claims
recite the “program guide information”
limitations. RX-0850C at Q/A 81. To
infringe any of the asserted claims of the
’801 patent, the “remote guide” must
“generate[] . . . a display . . . based on
program guide information received
from a local guide” or similar claim
language. Id. And the user must then
make a selection from the display
generated based on program guide
information received from the local
guide. Id. If Rovi is going forward with
its “red dot” infringement theory, which
they do not, the spreadsheets provided
by Peter Nush merely show that remote
recordings have occurred, not that there
were actually any scheduled recordings
visible on the display before the user
made a program selection. RX-0839C at
Q/A 42. Therefore, the Peter Nush
spreadsheets fail to demonstrate any
instance of direct infringement of the
’801 patent.
Resps. Br. at 108.
a) Knowledge of the ’801 Patent and
Specific Intent to Infringe

488a
The administrative law judge finds that Comcast
had the requisite intent and knowledge of the ’801
Patent for the same reasons provided in the discussion
of the ’263 Patent above. See Section IV(B)(5)(a).
b) Induced Infringement of the ’801
Patent
(1) Comcast’s Customers
Rovi has not sufficiently shown that customers
actually utilize the accused X1 or Legacy products in
an infringing manner. See Epcon Gas Sys., Inc. v.
Bauer Compressors, Inc., 279 F.3d 1022, 1033-34 (Fed.
Cir. 2002) (explaining the rule that “[u]pon a failure of
proof of direct infringement, any claim of inducement
of infringement also fails” and then reversing
summary judgment of no infringement based upon
evidence that the defendant demonstrated the product
to prospective buyers). In particular, Rovi has not
sufficiently shown that a customer uses a remote
device within the accused systems in a manner that
receives program guide information from a local guide
implemented on user equipment (e.g., a set-top box
and television) located at a user site, via the Internet.
See generally CX-0002C at Q/A 301-302 (the
“reasoning and evidence cited for ’263 1pre, 1a, 1b, and
1c” does not address “program guide information” from
a local guide located at a “user site”). Thus, the
administrative law judge finds that Comcast has not
induced its customers to infringe claims 1, 5, 10, and
15.
(2) Comcast’s Suppliers
Comcast has not argued or shown that ARRIS or
Technicolor practice the method recited in claim 1. See
generally Rovi Br., Section V(E)(4) (Rovi’s arguments

489a
focus on use of a remote device, which is not attributed
to manufacturers). Accordingly, the administrative
law judge finds that Comcast has not induced ARRIS
and Technicolor to infringe claims 1, 5, 10, and 15.
c) Contributory Infringement of the ’801
Patent
As with the ’263 Patent, the administrative law
judge has determined that Rovi has fallen short of
meeting its burden of showing that the accused
products have no substantial non-infringing uses;
rather, the evidence shows that there are many
substantial non-infringing uses of the accused set-top
boxes and their corresponding ecosystem. The
administrative law judge finds the ARRIS and
Technicolor do not contributorily infringe claims 1, 5,
10, and 15 of the ’801 Patent for the same reasons they
do not contributorily infringe the asserted claims of
the ’263 Patent. See Section IV(B)(5)(c).
5. Domestic Industry – Technical Prong
Rovi does not clearly identify which claims of the
’801 Patent are practiced by the domestic industry
products. See generally Rovi Br., Section V(G). Rather,
Rovi explains:
For purposes of brevity, Rovi refers to the
’263 Patent claim elements below and
indicate relevant claim elements of the
’413 and ’801 patents wherever the same
evidence is applicable in showing
whether the claim element has been met.
Relevant claim language as to all claims
is provided in full at CDX-0307C (CX0002C (Shamos WS) at Q/A 383-433).

490a
Rovi Br. at 97. For instance, the conclusion of Rovi’s
argument for the preamble of claim 1 of the ’263 Patent
is typical for the Rovi (i-Guide, Passport, and
TotalGuide xD) and Verizon FiOS domestic industry
products:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements
are met by the Rovi systems: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 1a, 5pre, 5a,. [sic]
10pre, 10a, 10c, 15pre, 15a, 15c. CX0002C (Shamos WS) at Q/A 434-35, 44445, 452-53, 474-75, 488-89, 490-92, 50407, 516-19, 522-23, 532-35, 538-39.
Rovi Br. at 98 (emphasis added).
For the ’801 Patent specifically, Comcast argues: [ ]
Resps. Br. at 116.
Mr. Thomas, who is also a named inventor on the
’263, ’801, and ’463 Patents, testified, as follows:
Q. [
A.
...
Q.
A.
Q.
A.
Q.
A.

491a
Q.
A.
...
Q.
A.
Q.
A.
Q.
A.
Q.
A.
Q.
A.
...
...
A.

]

JX-0118C at 39:11-41:18, 87:7-22, 88:9-89:25.
For the Verizon FiOS products, as with
infringement, Rovi relies upon the same evidence and
argument presented for claim 1 of the ’263 Patent to
argue that the Verizon FiOS products practice claims
1, 5, 10, and 15 of the ’801 Patent. See generally Rovi
Br., Section V(G)(2). The administrative law judge
finds that Rovi has not sufficiently shown that the
Verizon products include a remote device that receives
program guide information from a local guide
implemented on user equipment (e.g., a set-top box
and television) located at a user site, via the Internet.

492a
See generally CX-0002C at Q/A 391, 397 (the “remote
access link” is not explained in enough detail).
Accordingly, the administrative law judge finds that
the Verizon products do not practice claim 1 of the ’801
Patent.
In sum, the administrative law judge has
determined that the evidence shows that Rovi’s
domestic industry products (i-Guide and Passport) and
the Verizon FiOS system do not practice claims 1, 5,
10, and 15 of the ’801 Patent.
6. Patent Eligibility
Comcast does not present a separate § 101
argument for the ’801 Patent. See generally Resps. Br.,
Section VIII(E)(7) (arguing that claim 1 of the ’263
Patent is representative). The administrative law
judge finds that the asserted claims of the ’801 Patent
are not directed to ineligible subject matter for the
same reasons that claim 1 of the ’263 Patent is not
directed to ineligible subject matter.
7. Validity
a) Anticipation
For the avoidance of doubt that may arise from the
parties’ briefs, the administrative law judge notes that
Comcast does not argue that any of the many
references it presents anticipate the ’801 Patent. See
generally Resps. Br., Section VIII(E); see also Joint
Outline at 8-9. Rather, for the ’801 Patent, Comcast
argues:
•

“The asserted claims of the ’801 patent were at
least obvious in view of Kondo and
Humpleman.” Resps. Br. at 117 (citing RX0007C (Wigdor WS) at Q/A 232).

493a
•

“The asserted claims of the ’801 patent were at
least obvious in view of Blake and Humpleman.”
Resps. Br. at 133 (citing RX-0007C (Wigdor WS)
at Q/A 295).

•

“The asserted claims of the ’801 patent were at
least obvious in view of Shteyn and
Humpleman.” Resps. Br. at 142 (citing RX0007C (Wigdor WS) at Q/A 350).

•

“The asserted claims of the ’801 patent were at
least obvious in view of Sato, Young, and
Humpleman.” Resps. Br. at 148 (citing RX0007C (Wigdor WS) at Q/A 397).

Comcast’s obviousness arguments are addressed
below.
b) Obviousness
(1) Kondo (RX-0245), in
Humpleman (RX-0224)

view

Comcast argues:
The only features that are even arguably
missing from Kondo are the use of “user
profiles” to create the display on the
remote guide (for the ’263 Patent and
’413 patent) and providing program
guide information to the remote guide
from the local guide (for the ’801 patent).
These features, however, even if not
explicitly disclosed by Kondo, were well
known in the relevant art and would
have been obvious to apply to the system
of Kondo, as explained below.
Resps. Br. at 117. Comcast adds:

of

494a
Humpleman discloses a system where a
household contained several devices that
could communicate with each other
through accessing HTML pages. See RX0224.0021 at 1:21-25; 2:46-63. One of the
uses Humpleman envisioned for these
devices was sharing program guides
between the various devices. See RX0224.0031 at 22:50-23:39.
Rovi’s reply does not address Comcast’s argument, for
the ’801 Patent, for Kondo. See generally Rovi Reply,
Section VI(G).
The evidence shows that Humpleman teaches a
home network system that satisfies the “remote guide
based on program guide information received from a
local guide implemented on user equipment.” See RX0007C at Q/A 274-75, 335-36, 383-84, 447-48 (Dr.
Wigdor presents duplicative testimony about
Humpleman).
Dr. Wigdor, however, does not explain how or why
one of ordinary skill in the art would assemble Kondo
and Humpleman to solve a problem from the art, or
why one of ordinary skill in the art would modify
Kondo, the primary reference. See Plantronics, Inc. v.
Aliph, Inc., 724 F.3d 1343, 1354 (Fed. Cir. 2013)
(“Where, as here, the necessary reasoning is absent,
we cannot simply assume that ‘an ordinary artisan
would be awakened to modify prior art in such a way
as to lead to an obviousness rejection.’”). 109
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
109

See n.92, supra

495a
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the Kondo and Humpleman references.
(2) Blake
(RX-0269),
in
Humpleman (RX-0224)

view

of

As determined above, the evidence shows that
Humpleman teaches a home network system that
satisfies the “remote guide based on program guide
information received from a local guide implemented
on user equipment.” See RX-0007C at Q/A 274-75,
335-36, 383-84, 447-48 (Dr. Wigdor presents
duplicative testimony about Humpleman).
Dr. Wigdor, however, does not explain how or why
one of ordinary skill in the art would assemble Blake
and Humpleman to solve a problem from the art, or
why one of ordinary skill in the art would modify
Blake, the primary reference. See Plantronics, 724
F.3d at 1354 (“Where, as here, the necessary reasoning
is absent, we cannot simply assume that ‘an ordinary
artisan would be awakened to modify prior art in such
a way as to lead to an obviousness rejection.’”). 110
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the Blake and Humpleman references.
(3) Shteyn (RX-0265), in
Humpleman (RX-0224)

view

of

As determined above, the evidence shows that
Humpleman teaches a home network system that
satisfies the “remote guide based on program guide
110

See n.92, supra.

496a
information received from a local guide implemented
on user equipment.” See RX-0007C at Q/A 274-75,
335-36, 383-84, 447-48 (Dr. Wigdor presents
duplicative testimony about Humpleman).
Dr. Wigdor, however, does not explain how or why
one of ordinary skill in the art would assemble Shteyn
and Humpleman to solve a problem from the art, or
why one of ordinary skill in the art would modify
Shyten, the primary reference. See Plantronics, 724
F.3d at 1354 (“Where, as here, the necessary reasoning
is absent, we cannot simply assume that ‘an ordinary
artisan would be awakened to modify prior art in such
a way as to lead to an obviousness rejection.”’). 111
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the Shteyen and Humpleman references.
(4) Sato
(RX-0264),
in
Humpleman (RX-0224)

view

of

As determined above, the evidence shows that
Humpleman teaches a home network system that
satisfies the “remote guide based on program guide
information received from a local guide implemented
on user equipment.” See RX-0007C at Q/A 274-75,
335-36, 383-84, 447-48 (Dr. Wigdor presents
duplicative testimony about Humpleman).
Dr. Wigdor, however, does not explain how or why
one of ordinary skill in the art would assemble Sato
and Humpleman to solve a problem from the art, or
why one of ordinary skill in the art would modify Sato,
111

See n.92, supra.

497a
the primary reference. See Plantronics, 724 F.3d at
1354 (“Where, as here, the necessary reasoning is
absent, we cannot simply assume that ‘an ordinary
artisan would be awakened to modify prior art in such
a way as to lead to an obviousness rejection.’”). 112
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the Sato and Humpleman references.
(5) Sato (RX-0264), in view of Young (RX0253) and Humpleman (RX-0224)
As determined above, the evidence shows that
Humpleman teaches a home network system that
satisfies the “remote guide based on program guide
information received from a local guide implemented
on user equipment.” See RX-0007C at Q/A 274-75,
335-36, 383-84, 447-48 (Dr. Wigdor presents
duplicative testimony about Humpleman).
Dr. Wigdor, however, does not explain how or why
one of ordinary skill in the art would assemble Sato,
Young, and Humpleman to solve a problem from the
art, or why one of ordinary skill in the art would
modify Sato, the primary reference. See Plantronics,
724 F.3d at 1354 (“Where, as here, the necessary
reasoning is absent, we cannot simply assume that ‘an
ordinary artisan would be awakened to modify prior
art in such a way as to lead to an obviousness
rejection.’”). 113

112

See n.92, supra.

113

See n.92, supra.

498a
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the Sato, Young, and Humpleman references.
(6) Secondary Considerations
Neither Rovi nor Comcast have presented separate
secondary-consideration arguments, i.e., apart from
the ’263 and ’413 Patents, for the ’801 Patent. See
generally Rovi Br., Section V(H)(3); Resps. Br., Section
VIII(E)(5). Accordingly, neither Rovi nor Comcast
have shown that the secondary considerations support
or negate an obviousness determination.
c) Indefiniteness
The Joint Outline presents an issue of
indefiniteness for the ’801 Patent. See Joint Outline at
9. Comcast’s brief does not clearly address whether
claims of the ’801 Patent are indefinite. See generally
Resps. Br. at 158-60. If Comcast has not presented a
separate argument, then the claims of the ’801 Patent
are not indefinite for the same reasons the ’263
Patent’s asserted claims are not indefinite. To the
extent that this is a separate argument, the
administrative law judge finds that Comcast has fallen
short of demonstrating that the claims of the ’801
patent are indefinite.
D. U.S. Patent No. 8,566,871
1. Overview of the ’871 Patent (JX-0004)
The ’871 Patent, entitled “Multiple interactive
electronic program guide system and methods,” issued
on October 22, 2013. The application that would issue
as the ’871 Patent, Application No. 11/182,081, was

499a
filed on July 15, 2005. The ’871 Patent claims the
benefit of several applications, the earliest of which is
a provisional application, 60/094,564, which was filed
on July 29, 1998. See JX-0004 at 1:7-19. The ’871
Patent discloses a system for managing and displaying
multiple IPGs. Id. at 1:23-25.
Comcast has introduced the ’871 Patent as a patent
that “aggregates multiple types of events from
different IPGs . . . into a single listing.” See Tr. 37.
2. Claim Construction
a) Level of Ordinary Skill in the Art
Rovi’s entire argument is:
One of ordinary skill in the art would
have a bachelor’s degree in electrical
engineering, computer engineering, or
computer science, and two to three years
of experience relating to electronic
content delivery, such as experience with
cable or satellite television systems, settop boxes, multimedia systems or
electronic program guides, or any
equivalent knowledge, training, and/or
experience. CX-0004C (Delp WS) at Q/A
42-44.
Rovi Br. at 202-03.
Comcast’s entire argument is:
A POSITA of the ’871 Patent as of Rovi’s
proposed date of invention would have a
bachelor’s degree in computer science,
electrical
engineering,
computer
engineering, or a similar discipline, and
at least two to three years of experience

500a
or familiarity with electronic program
guides,
television
video
signal
processing, graphical user interfaces,
and associated computer software. In the
alternative, a POSITA of the ’871 Patent
could have equivalent experience either
in industry or research, such as
designing,
developing,
evaluating,
testing, or implementing the previously
mentioned technologies.
Resps. Br. at 232.
In view of the expert testimony and consensus
between the parties, the administrative law judge has
determined that a person having ordinary skill in the
relevant art would have a bachelor’s degree in
electrical engineering, computer engineering, or
computer science, and two to three years of experience
relating to electronic content delivery, such as
experience with cable or satellite television systems,
set-top boxes, multimedia systems or electronic
program guides, or any equivalent knowledge,
training, and/or experience. See CX-0004C (Delp WS)
at Q/A 42-44.
b) Disputed Claim Terms
(1) Preamble
The preamble of claim 12, the only claim asserted
from the ’871 Patent, is: “12. A system for displaying
interactive electronic program guides, the system
comprising[.]” JX-0004 at 26:32-33. The parties have
proposed that:

501a

Rovi’s Preamble
Proposal
The preamble is not
limiting. No
construction is
necessary.

Comcast’s Preamble
Proposal
“Comcast’s proposed
constructions for the
preamble and the terms
containing the phrase ‘in
the household,’ reflect
the understanding of a
POSTIA that the
claimed ‘interactive
electronic program
guides’ or ‘first and
second interactive
electronic program
guides’ within the
‘system’ referred to in
the preamble are
executed and embodied
in a household in a
single STB, and not on
remote hardware
located, in a cable
system headend.”

See Rovi Br. at 203-04; Resps. Br. at 235.
Rovi argues:
The preamble of claim 12—the only
independent claim of the ’871 Patent at
issue in this Investigation—is not
limiting. Presumptively, a preamble is
not limiting. . . . Here, the preamble of
claim 12 recites only: “A system for

502a
displaying
interactive
electronic
program guides, the system comprising .
. .” This language recites no “essential
structure or steps”—those are found in
the body of the claim. Instead, the claim
only recites the purpose of the
invention—displaying
IPGs—and
nothing more.
To the extent the preamble of claim 12 is
considered limiting, it should be
construed with its plain and ordinary
meaning. Respondents contend that the
preamble requires the claimed electronic
program guides to be “embodied in a
single set-top box.” But nothing in the
preamble (or elsewhere in the claim
language)
requires
the
multiple
electronic program guides to be
embodied in a single set-top box. CX0004C (Delp WS) at Q/A 97. To the
contrary,
the
intrinsic
evidence
expressly provides for IPGs residing in
more than one set top box. CX-0004C
(Delp WS) at Q/A 97; JX-0004 (’871
Patent) at col. 3, lns. 28-33 (“IPGs may
reside in multiple electronic devices
or set top boxes.”); Rinard Tr. 835.
Respondents and their expert dismiss
this clear disclosure of an embodiment
with multiple electronic program guides
in separate set top boxes by referring to
Figure IB and different preferred
embodiments. See RX-0849C (Rinard
RWS) at Q/A 36. But those embodiments
are exemplary, not mandatory, and the

503a
intrinsic evidence expressly discloses a
multiple set top embodiment, each with
its own program guide, which falls
within the plain language of the
preamble. CX-0004C (Delp WS) at Q/A
97; JX-0004 (’871 Patent) at col. 3, lns.
28-33, col. 6, lns. 22-24; Rinard Tr. 835.
If the term “interactive electronic
program guides” in the preamble is
construed, it should not be limited to
guides “embodied” in a single set top box.
Rovi Br. at 203-04 (emphasis added).
Comcast argues:
Comcast’s proposed constructions for the
preamble and the terms containing the
phrase “in the household,” reflect the
understanding of a POSTIA that the
claimed “interactive electronic program
guides” or “first and second interactive
electronic program guides” within the
“system” referred to in the preamble are
executed and embodied in a household in
a single STB, and not on remote
hardware located, in a cable system
headend. Rovi’s assertion that the
preamble to Claim 12 is not limiting and
needs no construction is incorrect. The
preamble sets forth the “interactive
electronic program guides” or “first and
second interactive electronic program
guides” limitations that are referred to
throughout the body of the claims. In the
body of the claims, the guides first
referred to in the claim preamble are

504a
further defined. Claim 12 confirms that
the IPG application must be executed
and embodied in the household instead
of on remote hardware located at a
headend: “the first and second
interactive electronic program guides in
the household.” Comcast’s construction
is not only supported by the claim
language but is supported by the
specification as well. The ’871 Patent
specification emphasizes that a multiple
IPG system with “first and second
interactive electronic program guides” is
embodied in a single STB. See, e.g., JX0004 at Abstract. In fact, the
specification distinguishes the prior art
and summarizes the “present invention”
on this basis. JX-0004 at 1:29-52, 1:6166. Fig. IB of the ’871 Patent shows all
elements of the claimed subject matter
within a single STB, and the
specification states, “Preferably, the
multiple IPGs are embodied in a single
STB.” JX-0004 at 3:20-21.
Dr. Delp’s witness statement cites the
JX-0004 at 6:20-24, apparently in
support of his position that the patent
encompasses multiple IPGs being
implemented in a multiple STB
configuration. JX-0004 at 6:20-24; CX0004C at Q/A 97. Contrary to Dr. Delp’s
position, this excerpt refers to a
configuration in which three, or more
generally, several, sources are all
delivered and distributed through a

505a
single STB. Each source has its own IPG,
with multiple IPGs on the same STB.
This excerpt, and the surrounding
context in the patent, support the
position that the invention is limited to
single STB configurations. Dr. Delp’s
also cites the ’871 Patent at 3:20-34. But
Fig. 1B of the ’871 Patent shows all
elements of the claimed subject matter
within a single STB, and the
specification states, “Preferably, the
multiple IPGs are embodied in a single
STB.” JX-0004 at 3:20-21. In other
words, despite Dr. Delp’s suggestion that
multiple sources correspond to multiple
STBs, the ’871 Patent makes clear that it
supports multiple sources in a single
STB.
The prosecution history shows that the
claims in the ’871 Patent application and
related applications were allowed only
when amended to restrict the claimed
subject matter to an architecture in
which the guides are each in a household
(instead of a headend) and are
incorporated in a memory and processor
that “reside in a single electronic device.”
In the PTO’s Notice of Allowance at page
2, the examiner expressly relied on and
highlighted these limitations in his
reasons for allowance: “the memory and
the microprocessor reside in a single
electronic device.” JX-0011.007323-7329
(Oct. 20, 2002, Notice of Allowance).

506a
Resps. Br. at 235-37 (JX-0011.007328 mentions a
“single device” and a “local network”).
Rovi replies that Comcast cited the wrong Notice of
Allowance114 and argues that there is “no support for
the proposition that the prosecution history of the ’871
Patent somehow limited the claims to multiple guides
embodied in a single STB.” Rovi Reply at 80-81.
The administrative law judge has determined that
the preamble is not limiting and that no construction
is necessary.
Comcast correctly notes that the Abstract describes
a single set-top box. See JX-0004 at Abstract.
Moreover, the Summary of the Invention also focuses
on a single set-top box embodiment:
The present invention relates to a
multiple IPG system. Embodied in a
single set-top box, the system provides
different TV programming and different
IPGs to several different users
respectively. The single set-top box is
capable of providing programming and
scheduling data to several different TV
sets. Moreover, each of the different IPGs
share some common data stored in a
common database with each other.
Therefore, a first IPG being viewed by a
first user can display data added or
modified via a second IPG by a second
The parenthesis in Comcast’s citation refers to an Oct. 20,
2002, Notice of Allowance. The preceding text, however, cites to
the June 24, 2013 Notice of Allowance (JX-0011.007323-7329).
The administrative law judge has reviewed the Notice of
Allowance that begins at page 7318 of JX-0004.

114

507a
user of the system. Furthermore, the
data added or modified by the second
user can influence the viewing rights of
the first user. Also, all the competing and
conflicting
requests
for
limited
resources, such as VCR scheduled
recordings, are brought to the users’
attention and displayed or prompted by
the system.
Id. at 3:61-4:7. Further, the Background of the
Invention offers that “there is a need for a multiple
IPG system in a single set-top box or a single computer
wherein the IPGs share some data and are capable of
notifying users of any competing and conflicting
resources. There is also a need for a centralized
parental control over the multiple IPGs.” Id. at 1:5357.
As Rovi correctly notes, however, the ’871 Patent
discloses an alternative embodiment where “the IPGs
may reside in multiple electronic devices or set top
boxes[.]”
Id. at 3:28-30. This weighs against
construing the preamble such that the system is
limited to a single set-top box. See SciMedLife Sys.,
Inc. v. Advanced Cardiovascular Sys., Inc., 242 F.3d
1337, 1344 (Fed. Cir. 2001) (finding disclaimer where
the patentee explained that “all embodiments of the
present invention” had a coaxial lumen (emphasis
added)); Liebel-Flarsheim Co. v. Medrad, Inc., 358
F.3d 898, 908 (Fed. Cir. 2004) (finding no disclaimer
where the patentee explained that “[a]ccording to the
principles of the present invention, there is provided
an angiographic injector . . . [that can be loaded]
through an opening that is provided in the front end of
the pressure jacket” did not “disclaim the use of the
invention in the absence of a pressure jacket.”).

508a
Further, Comcast’s arguments concerning the
prosecution history are not supported by the evidence
cited. Indeed, the Notice of Allowance cited does not
contain the word “reside” or the term “single electronic
device,” and Comcast’s errata to its post-hearing briefs
did not correct this error (despite having the benefit of
Rovi’s reply).
(2) Event
The term “event” appears in the claims (i.e., claims
1, 7-9, 11, 12, 18, 19, 20, 22, 23, 29-31, and 33) and
throughout the specification. The parties have
proposed the following constructions:
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, activity
related to one or more
programs.

Comcast’s Proposed
Construction
“a designation of a
scheduled function
related to a television
program, such as a
reminder, a recording, a
pay-per-view purchase,
an automatic tune, or a
show to be blocked”

See Rovi Br. at 204-05; Resps. Br. at 233.
Rovi’s entire argument for this term follows:
Rovi and Respondents both state that no
construction is necessary of the claim
term “event”; however, the alternative
constructions of the parties are different.
CX-1702C (Corrected Joint ID of
Disputed Claim Terms) at 37. Rovi’s
proposed alternative construction of

509a
“event” is “activity related to one or more
programs,” and Respondents’ proposed
alternative
construction
is
“a
designation of a scheduled function
related to a television program, such as a
reminder, a recording, a pay-per-view
purchase, an automatic tune, or a block.”
Id. Rovi’s proposed construction is
correct. No intrinsic evidence limits an
“event” to a “designation of a scheduled
function” such that actual activities are
excluded. To the contrary, the ’871
Patent teaches that the term event
encompasses
more
than
mere
designations, such as an actual activity
related to one or more programs. CX0004C (Delp WS) at Q/A 86-88; JX-0004
(’871 Patent) at col. 11, lns. 19-23. An
event is not an isolated function like
“record” or “purchase” that can be
applied to a show. It is a function or
“activity” applied to a particular show or
program. If this term is construed, Rovi’s
proposed alternative construction should
be adopted.
Rovi Br. at 204-05.
Comcast argues:
The ’871 Patent specification and
prosecution history support Comcast’s
proposed construction, that an “event” is
a designation of a scheduled function
related to a television program, such as a
reminder, a recording, a pay-per-view
purchase, an automatic tune, or a show

510a
to be blocked. Each and every relevant
mention of the word “event” in the ’871
specification is clearly directed at the
functions related to television programs
that can appear on the Scheduled Events
List. See, e.g., JX-0004 (’871 Pat.) at 3:3033 (“they would still share data such as
an Scheduled Events List including, for
example, an aggregate list for all
individual
recordings
and
series
recordings, future PPV purchases, and
scheduled tunes.”); JX-0004 at 11:19-22
(“Scheduled events (shows scheduled to
record, watch or blocked) for each IPG
can be stored in a single non-volatile
memory such as an EEPROM (not
shown) within the single STB.”).
The prosecution history shows that the
claims in the ’871 Patent application
were allowed only when amended to
restrict the claimed subject matter to
specific functions, such as scheduled
recording or watching, instead of the
transmission of data corresponding to
any “activity” related to programs. JX0011.005455-68
(June
23,
2009
Amendent [sic]) (amending claims 40
and 49 to replace receiving and
generating a list of “program guide
information” with receiving “events” and
generating a list of “scheduled events.”).
Thus, the language used by the applicant
to define “events” in the patent
specification and to distinguish prior art
based on this claim language is more

511a
precise
than
Rovi’s
proposed
construction of “activity related to one or
more programs, and should be used to
construe the term “event.”
Resps. Br. at 233.
Rovi replies:
Respondents’ proposed construction of
“event”
contradicts
the
intrinsic
evidence; therefore, it cannot be correct.
An “event” is not a designation of a
scheduled function related to a television
program, it is simply an activity related
to one or more programs. CX-0004C
(Delp WS) at Q/A 86-88; JX-0004 (’871
Patent) at col. 11, lines 19-22 (describing
“events” as “shows scheduled to record,
watch or blocked”), col. 27, lines 14-19
(claims 19 and 20). Respondents cite to
the prosecution history of the ’871
Patent, but neither the change in claim
language nor its discussion by the
applicant
supports
Respondents’
proposed construction. JX-0011 (’871
Patent File History) at 5466-67
(discussing the significance of the
relevant amendments as applied to Ellis
without
any
distinction
between
“program guide information” and
“events”).
Rovi Reply at 79.
The administrative law judge construes “event” to
mean “activity related to one or more programs.” The
claims indicate that “events” include:

512a
•

“programs scheduled to be recorded” (claims 8,
19, and 30);

•

“series
recordings,
future
pay-per-view
purchases, and auto-tunes” (claims 9, 20, and
31); and

•

“a purchased program” (claims 11, 22, and 33).

The specification indicates that “events” include
“individual recordings and series recordings,
future PPV purchases, and scheduled tunes.” JX-0004
at 3:32-33; 8:5-6 (emphasis added). The specification
also indicates that a scheduled event includes “shows
scheduled to record, watch or blocked[.]” Id. at 11:1920. The specification also explains that figure 31
depicts “a television screen displaying a Scheduled
Events List.” Figure 31 is reproduced immediately
below:

513a

Thus, the claims and the specification support Rovi’s
proposed construction that an event is an “activity
related to one or more programs.”
Comcast’s construction is unduly restrictive, as it
limits the claim scope only to examples provided in the
’871 Patent. Further, Comcast’s construction
unnecessarily introduces the word “function.” The
specification uses the word “function” differently than
the word “event.” For example, in general, the
specification uses the word “function” to describe
schemes for controlling the television experience:
•

“Each IPG includes a full menu system that
allows the user to set up the IPG functions
‘such as screen display position, and user
preferences. An example of an IPG screen

514a
function is the Adjust Display Position screen
function.’” JX-0004 at 5:5-8 (emphasis added);
•

“Decoding, error detection, and error correction
functions are performed by the decoder 2.” JX0004 at 7:15-17 (emphasis added);

•

“FIG. 33 shows an example of a UI in each IPG
for the VCHIP Plus+ functions. . . . The VCHIP
Plus+ screens are accessed from the Menu bar;
the user highlights the ‘VCHIP Plus+’ button on
the menu bar, and then scrolls down to select
from the menu of VCHIP Plus+ functions.” JX0004 at 10:44-58 (emphasis added);

•

“A UI allows the users (parents) to pick their
own passwords, and to disable the lockout when
the passwords are lost. The functions of this UI
include, but not limited to, the following:
(1) Fixed Overriding Password—This is
hardwired in the equipment, and can always
be used in case the user-defined password is
lost.
(2) Repeating entry X times establishes new
password—If the password is lost, the new
password can be made by repeatedly
entering the same password X number of
times, and at the end of the process
informing the user that the new password
has been established.
(3) Power interruption after certain length of
time allows new password to be entered—
This allows the parent to “pull the plug” of
the equipment and regain control after the
password has been lost.

515a
(4) Password
review/re-entry
through
special service mode—By restricting that
only the parents can access the special
service mode, the password can be viewed
safely in this way.”
JX-0004 at 11:48-67 (emphasis added); and
•

“FIG. 35 is a flow chart of the master password
operation. Obviously not all operations would
require a password. As shown in block 391, the
following operations have password protection:
changing the password, changing the V-Chip
ratings., deleting a ‘blocked’ program or deleting
a ‘blocked’ channel, changing the ‘Babysitter’
function, unblocking a program or a channel
within the ‘Babysitter’ function, changing the
clock (this is because a different clock causes
VCHIP Plus+ to block a different program), and
changing the channel map (this is because a
different channel map causes VCHIP Plus+ to
block a different channel).” JX-0004 at 12:4-14
(emphasis added).

Thus, the intrinsic evidence does not support
Comcast’s proposed construction.
(3) Interactive electronic program guide
The term “interactive electronic program guide”
appears only in the claims (i.e., claims 1-6, 10, 12-17,
21, 23-28, and 32). The parties have proposed the
following constructions:

516a
Rovi’s Proposed
Construction
guide that allows
navigation through
television program
listings and causes
display of program
information on user
television equipment 115

Comcast’s Proposed
Construction
application that, when
executed, causes
television program
listings to be presented
to the user and enables
the user to navigate
through the program
listings, to select an
individual listing, and to
select a function
associated with the
selected listing 116

See Rovi Br. at 205; Resps. Br. at 233-34.
Rovi’s entire argument for this term follows:
. . .The ’871 Patent describes an
“interactive electronic program guide” as
a specially-designed device with a user
interface the user can see on the screen
and interact with. CX-0004C (Delp WS)
at Q/A 89-90; see, e.g., JX-0004 (’871
Patent) at col. 4, lns. 20-24 (“Each IPG
provides the user with an interface.”).
There does not appear to be much
This proposed construction is identical to Rovi’s proposed
construction for the “local interactive television program guide”
claimed in the ’263 Patent.

115

This proposed construction is identical to Comcast’s proposed
construction for the “local interactive television program guide”
claimed in the ’263 Patent.

116

517a
substantive difference in the relevant
application of the parties’ constructions.
Rovi Br. at 205 (introductory text presenting the
constructions is omitted).
Comcast’s entire argument for this term follows:
With regard to the term “interactive
electronic program guide,” Rovi’s
proposed construction, “guide that
allows navigation through television
program listings and causes display of
program information on user television
equipment,” is too broad. Rovi’s expert
Dr. Delp has opined that the guide is not
software, but merely the user interface.
CX-0004C at Q/A 90. Rovi’s proposed
construction converts program guide
functionality into an abstract concept,
divorced from any particular apparatus
or system. This assertion by Rovi and its
expert is directly contradicted by the ’871
Patent specification, which describes the
guide as an “application,” i.e., computer
software that is implemented and
executed on a processor. Thus, Comcast’s
proposed construction of “interactive
program guide” as an “application that,
when executed, causes television
program listings to be presented to the
user and enables the user to navigate
through the program listings, to select
an individual listing, and to select a
function associated with the selected
listing” is correct.
Resps. Br. at 233-34.

518a
Rovi replies:
Respondents mischaracterize Rovi’s
position with regard to the claim term
“interactive electronic program guide.”
Respondents assert that Dr. Delp opined
that the guide is not software. Resps. Br.
at 233. Dr. Delp never makes such a
statement. Dr. Delp describes a guide as
a user interface, but does not say that the
user guide is not software. CX-0004C
(Delp WS) at Q/A 89-90; JX-0004 (’871
Patent) at col. 4, lns. 20-24 (“Each IPG
provides the user with an interface.”).
Rovi Reply at 79.
The administrative law judge construes the term
“interactive electronic program guide” to mean “guide
that allows navigation through television program
listings and causes display of program information on
user television equipment.”
Comcast’s proposed construction relies upon Rovi’s
expert and unsupported argument. Further,
Comcast’s proposal of the phrases “application that,
when executed, causes television program listings to
be presented to the user and enables the user to
navigate through the program listings, to select an
individual listing, and to select a function associated
with the selected listing” adds many unnecessary
words that could needlessly limit the claim.
(4) User television equipment devices
The term “user television equipment devices”
appears only in the claims (i.e., claims 1, 10, 12, 21, 23,
and 32). The parties have proposed the following
constructions:

519a
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

user device for receiving
remotely provided audiovisual television
programming

This term does not need
to be construed, but if it
is construed, the
evidence supports the
construction “devices
designed for viewing or
recording television
programs, such as TV
sets, STBs, and VCRs.”

See Rovi Br. at 206; Resps. Br. at 235.
Rovi’s entire argument for this term follows:
. . . As used in the ’871 specification, user
television equipment devices broadly
connotes any user device for receiving
remotely
provided
audio-visual
television
programming.
CX-0004C
(Delp WS) at Q/A 93-94; JX-0004 (’871
Patent) at col. 3, lns. 20-34.
Rovi Br. at 206 (introductory text presenting the
constructions is omitted).
Comcast’s entire argument follows:
This term does not need to be construed,
but if it is construed, the evidence
supports the construction “devices
designed for viewing or recording
television programs, such as TV sets,
STBs, and VCRs.” The ’871 Patent
specification is consistent in equating
user television equipment with devices

520a
located in a household with capabilities
for either displaying or recording
television programs for a user. As shown
in Figure 1A, user television equipment
must be in the household and is different
from any devices located at the headend,
such as download server 60. And user
equipment
includes
devices
for
displaying television programs. JX-0004
(’871 Pat.) at 3:23-28. The ’871 Patent
specification also indicates the user
equipment can include devices for
recording television programs, such as
VCRs. Id. at 2:5-7, 3:65-67.
Resps. Br. at 235.
Rovi replies that “[t]he competing constructions of
the parties are very similar; and, there does not appear
to be a material difference (for the purposes of this
Investigation) on the adopted construction.” Rovi
Reply at 80.
Based on the similarities in constructions, Rovi’s
assertion that there is not a material difference
between the constructions, and the fact that the
parties’ proposed constructions would not add
meaning to the plain claim language, the
administrative law judge has determined not to
construe the term “user television equipment devices.”
(5) Located in a household
The phrase “located in a household” appears only in
the claims (i.e., claims 1, 12, and 23). The parties have
proposed the following constructions:

521a
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, placeable
in a household.

Comcast’s Proposed
Construction
Comcast proposes that
no construction is
necessary, but if it is,
then the construction is
“kept and used at home.”

See Rovi Br. at 206-08; Resps. Br. at 232.
Rovi’s entire opening argument for this phrase
follows:
The primary dispute between the parties
is whether the claim phrases “located in
a household” and “in the household”
describe physical capabilities and
characteristics of the user television
equipment devices (as urged by Rovi) or
a physical location where infringement
occurs (as urged by Respondents). Rovi
proposes that “located in a household”
and “in the household” should be
construed to mean “placeable in a
household.” Respondents contend that
each phrase need not be construed, or in
the alternative, should be construed in
accordance with their plain and ordinary
meaning which is alleged to be “kept and
used at home.”
Intrinsic evidence makes clear (and
there is no dispute in the record) that the
patentee used the phrase “in the
household” in a particular manner with
a
clear,
articulated
meaning.

522a
Uncontroverted evidence shows that the
patentee added the “in the household” to
distinguish
between
head-end
distribution equipment and household
equipment like set top boxes. JX-0011
(’871 Patent File History) at 5466
(distinguishing between the receipt of
program guide information from a
television distribution facility and
interactive electronic program guides);
Delp Tr. 981, 1024-25 (“They were
talking about equipment that was
placeable in the household and not
equipment that was located at the cable
headend, or the distribution center.”).
The context of “in the household” phrase
confirms its usage by the patentee: “a
plurality of user television equipment
devices that are located in a household
and from which first and second
electronic program guides are accessible.”
JX-0004 (’871 Patent) at col. 26, lns. 3436 (emphasis added). Given the clear
statements in the intrinsic evidence, one
of ordinary skill in the art would
understand that the phrase “located in a
household” is akin to a statement of
intended use (i.e., the user television
equipment devices are placed or put or
used in the household) and is being used
to differentiate consumer equipment
(e.g., set-top boxes) from large scale
corporate
equipment
(e.g.,
cable
headends). CX-0004C (Delp WS) at Q/A
98; Delp Tr. 981, 1024-25. In other

523a
words, the recited system is designed to
provide IPGs accessible from equipment
designed to be used, i.e., placeable, in
homes regardless of the physical location
of the equipment at any given time. CX0004C (Delp WS) at Q/A 99.
Rovi Br. at 206-08.
Comcast’s entire argument follows:
Rovi’s proposed construction of “located
in a household,” merely requires the
claimed invention be “placeable in a
household,” as opposed to “located in” a
household. This proposed construction is
vague, overbroad, and completely reads
the term “located in” out of the claim. In
particular, Rovi’s proposed construction
is inconsistent with the express claim
language, the patent specification, and
the prosecution history because the
construction attempts to read on a
program guide system with functionality
that is implemented and executed
outside of a household, such as on remote
hardware in a headend. The ’871 Patent
claim 12 was distinguished over the prior
art by amending proposed claims 40 and
49 to include the requirement that the
guides “are in the household.” See, e.g.,
JX-0011.005458
(June
23,
2009
Amendment at 12). See also Tr. 980:9981:14.
In contrast, Comcast proposes that no
construction is necessary, but if it is,
then the construction is “kept and used

524a
at home.” This construction is more
consistent with the prosecution history
and specification of the ’871 Patent.
Simply put, the applicants were aware of
a system that included remote hardware,
for example data center headend 20
and/or network operator headend 30, but
did not claim it. See JX-0004 (’871
Patent) at Fig. 1A.
Resps. Br. at 232-33.
Rovi replies:
Rovi’s proposed construction of the terms
“located in a household” and “in a
household” gives the proper weight to the
applicant’s
statements
during
prosecution of the application resulting
in issuance of the ’871 Patent. Compls.
Br. at 206-08. While Respondents cite to
the proper part of the prosecution history
(JX-0011 (’871 Patent File History) at
5466), the applicant’s statements are not
applied in Respondents’ proposed
construction. The relevant statements in
the prosecution history have nothing to
do with where the relevant equipment is
“kept” or “used at.” There is also no
evidence that applicant intended to
differentiate between an IPG found
exclusively on a local device and an IPG
with distributed functionality. The
applicant differentiated between the
receipt of program listings and other
information from equipment typically
found at the headend (as was common in

525a
prior art systems including Ellis) and a
device such as a set-top box. CX-0004C
(Delp WS) at Q/A 98-100; Delp Tr. 102425.
Rovi Reply at 78.
The administrative law judge construes “located in
a household” to mean “kept and used at home.” A
portion of the prosecution history that the parties cited
follows:
The Examiner alleges that in Ellis the
receipt of information from a television
distribution facility is the same as
applicants’ claimed feature of receiving
program guide information from a first
and second one of a plurality of
interactive electronic program guides
(Office Action, page 3). Applicants
respectfully disagree.
Applicants’ claims 31, 40, and 49
patentably improve upon Ellis by
receiving scheduled events from a first
and second one of a plurality of
interactive electronic program guides
that are each in the household. In
particular, in Ellis, program listings and
other information (e.g., advertisements,
paid programming) (i.e., the alleged
program information received from
interactive program guides) are received
from one or more distribution facilities
that are outside of a household (Ellis ¶¶
63 and 67) and not from first and
second
interactive
electronic

526a
program guides that are in the
household.
JX-0011 at 5466 (emphasis added). By distinguishing
the equipment of pending claims 31, 40, and 49 from
equipment that is ordinarily maintained “outside of a
household”—e.g., a distribution facility—the applicant
characterized the claimed system such that the
equipment implementing the guides, i.e., set top boxes,
had to be kept and used in the household.
(6) In the household
The parties do not present separate argument for
the phrase “in the household.” Rather, the parties
present argument for “in the household” along with
the “located in a household” dispute. See Rovi Br.,
Section VII(C)(2)(e), Resps. Br., Section X(B)(2)(a).
Accordingly, the administrative law judge does not
construe this phrase separately.
(7) A processor configured to: receive, . . .;
receive, . . .; and generate . . ., wherein
the list of scheduled events is
accessible for display from any of the
first and the second interactive
electronic program guides in the
household;
The full text of the disputed phrase follows:
. . . the plurality of user television equipment
devices comprises a processor configured
to:
receive, from the first interactive electronic
program guide, a first event of a first type
scheduled with the first interactive
electronic program guide;

527a
receive, from the second interactive electronic
program guide, a second event of a second
type scheduled with the second interactive
electronic program guide; and
generate a list of scheduled events of the first
and second types by aggregating the first
and second scheduled events received from
the first and second interactive electronic
program guides, wherein the list of
scheduled events is accessible for display
from any of the first and the second
interactive electronic program guides in the
household; . . .
JX-0004 at 26:38-51 (indentation appears in the claim;
emphasis added). The parties have proposed the
following:
Rovi’s Proposed
Construction
No construction is
necessary. This term is
not subject to § 112(6).

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 208-09; Resps. Br. at 237.
Rovi argues:
Claim 12 includes the clause a “processor
configured to: receive . . .receive . . .and
generate[.]” JX-0004 (’871 Patent) at col.
26, lns. 38-51. No construction of this
clause is necessary. Respondents
incorrectly contend the clause is a
“means-plus-function” limitation. But
because the claim language does not use

528a
the term “means,” it is presumptively not
a
means-plus-function
limitation.
Williamson v. Citrix Online, LLC, 792
F.3d 1339, 1349 (Fed. Cir. 2015). To
overcome the presumption, Respondents
must “demonstrate[] that the claim term
fails to ‘recite sufficiently definite
structure’ or else recites ‘function
without reciting sufficient structure for
performing that function.’”
Id.
Respondents can demonstrate neither
exception:
First, to a person of ordinary skill in the
art, the term “processor” identifies the
well-defined structure of one or more
CPUs of an electronic device. CX-0004C
(Delp WS) at Q/A 101; CX-1903C (Delp
RWS) at Q/A 110-11; Rinard Tr. 786-89
(discussing processor limitations of
Claim 12) and 849-50 (confirming the
presence of processors in the accused
products); JX-0004 (’871 Patent) at col. 6,
lns. 58-67 (“The microprocessor 10
configures and coordinates the activities
of all other components in the set-top box
via two-way communication paths.”).
Second, by reciting a “processor,” the
claim language does not simply recite a
function without any structure for
performing that function. Id. at col. 6,
lns. 58-67, col. 7, lns. 38-45. The
limitations that follow in the claim—
receiving from a first IPG a first event of
a first type, receiving from a second IPG
a second event of a second type, and

529a
generating a list of scheduled events
wherein the list is accessible for display
to the first and second IPGs—define how
the processor is configured. Rinard Tr.
786-89 (discussing how the processor
must be configured); CX-1903C (Delp
RWS) at Q/A 111.
Rovi Br. at 208-09.
Comcast argues:
The “processor” element is a means-plusfunction limitation and is discussed
below in the section on invalidity.
Moreover, although Rovi proposes that
the term does not need to be construed,
Rovi’s expert Dr. Delp appears to be
uncertain of what the term means. He
says it would be understood to be “one or
more central processing unit(s), or
CPU(s), of an electronic device,” but cites
no references or authority to support his
argument. CX-0004C (Delp WS) at Q/A
101. In his infringement analysis, he
says “the user television equipment
devices (e.g., ARRIS XG1v3 and Pace
XiD) comprise a processor,” and points to
various schematics, but only of the XG1
and XG2 devices. CX-0004C at Q/A 189.
He makes no citation to the XiD device.
And he makes no analysis of the
“processors” he points to; rather, he
merely finds a CPU and claims that it
must be the required structure that
performs the specified function.
Resps. Br. at 237.

530a
Rovi replies:
The “processor configured to . . .” claim
element is not a means-plus-function
clause. See Smartflash LLC v. Apple Inc.,
2015 U.S. Dist. LEXIS 91669 at *7-10 (E.
D. Tex. 2015) (finding “processor” is not
a nonce word and connotes specific
structure to a person of ordinary skill in
the art). Because the clause does not
include the statutory “means” language,
it is Respondents’ burden to prove that
the clause recites function without
reciting
sufficient
structure
for
performing that function., Williamson v.
Citrix Online, LLC, 792 F.3d 1339, 1349
(Fed. Cir. 2015). Respondents’ Brief does
not cite any evidence on this question.
Rovi’s expert addressed the issue and
found that the term “processor” as used
in the claim corresponds to the well
understood structure of one or more
CPUs of an electronic device. CX-0004C
(Delp WS) at Q/A 101; CX-1903C (Delp
RWS) at Q/A 110-11; Rinard Tr. 786-89
(discussing processor limitations of claim
12) and 849-50 (confirming the presence
of processors in the Accused Products);
JX-0004 (’871 Patent) at col. 6, lns. 5867.
Rovi Reply at 81. Comcast replies in its invalidity
arguments. See Resps. Reply at 78, 93.
The administrative law judge has determined that
the disputed phrase is not a means-plus-function
limitation because persons of ordinary skill in the art

531a
understood the disputed phrase as having sufficiently
definite meaning for the claimed structure. The
administrative law judge has also determined that no
construction for this phrase is necessary because a
processor was well-understood and because Comcast
has not offered any alternative argument apart from
its § 112 ¶6 argument.
Rovi’s expert, Dr. Delp, offered the following
testimony:
Q101. Let’s turn to the “processor
configured to” term. What would a
person of ordinary skill in the art
have understood “processor” to
mean?
A. A person of ordinary skill in the art
would have understood that the recited
“processor” refers the logic circuitry that
processes the various instructions that
drive a computer. To a person of ordinary
skill in the art, the term processor
connotes the well-defined structure of
one or more central processing unit(s), or
CPU(s), of an electronic device.
CX-0004C (Delp WS) at Q/A 101.
Comcast does not cite the testimony of its own
expert, Dr. Rinard, who offered testimony on this topic.
See RX-0006C (Rinard WS) at Q/A 223-24. Dr. Rinard
oined that the patent “does not identify a well-known
structure that would have been well-understood
without resort to the specification. And the
specification does not provide sufficient structure.” Id.
at Q/A 224. However, Dr. Rinard also opined that:

532a
The ’871 Patent is generally directed to
receiving different types of scheduled
events and generating an aggregated list
of those events for display. As discussed
earlier, all of the technologies recited in
the claims were well known conventional
technologies as of July 29, 1998. Indeed,
the specification of the ’871 Patent
acknowledges that interactive electronic
program guides were well-known in the
art. For example, JX-0004 (’871 Patent)
at 1:29-43. The other physical
components recited in the claims,
including
memory,
processors,
systems, and machine readable
media are all generic components
used in connection with such
interactive
electronic
program
guides that were well known in the
industry and the specification. And
the specification simply references
conventional, well-known technologies
that operate in their conventional and
expected manner. For example, you can
see this in the ’871 Patent at 2:1-6 (VCR
recorders), 3:45-47 (data centers and
broadcasting equipment), 6:39-59 (settop boxes, TV receivers, monitors,
microprocessors, memory controllers and
devices, tuners and decoders).
Receiving event types and storing them
in a memory merely describes the
generic functions of collecting data and
storing it. The claims do not specify any
particular type of memory, and the

533a
specification teaches that any type of
“memory controller or direct memory
access (DMA) device” can be used in the
claimed invention. ’871 Patent 6:46-47.
Many types of memory were known in
the art. Likewise, a shared memory
that is accessible by multiple
processes and/or processors was a
well-known concept in the art prior
to the ’871 Patent and was disclosed
in textbooks such as, for example,
RX-0228 (Distributed Operating
Systems Concepts and Design by
Pradeep K. Sinha), and RX-0229 (The
Design of the Unix Operating System
by Maurice J. Bach).
Id. at Q/A 16 (emphasis added). This testimony, which
Dr. Rinard supports with citations to the specification
and textbooks, shows that words of the claim would
have been “understood by persons of ordinary skill in
the art to have a sufficiently definite meaning as the
name for structure.” See Williamson v. Citrix Online,
LLC, 792 F.3d 1339, 1348-49 (Fed. Cir. 2015).
(8) First and second interactive electronic
program guides
The phrase “first and second interactive electronic
program guides” appears in claims 1, 10, 12, 16, 17, 21,
23, 27, 28, and 32. The parties have proposed the
following constructions:

534a
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, a first
instance and a second
instance of interactive
electronic program
guide.

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 209-10; Resps. Br. at 235.
Rovi argues:
. . . Respondents’ proposed construction
is contrary to the plain and ordinary
meaning of the “first and second
interactive electronic program guides”
phrase because it relies on the incorrect
contention that the interactive electronic
program guides must be located in a
“single set-top box.” CX-0004C (Delp
WS) at Q/A 102-03. As discussed in
Section VII(C)(2)(a), supra, no limitation
is mandated by the ’871 Patent’s
intrinsic evidence.
Rovi Br. at 209-10 (introductory text presenting the
constructions is omitted).
Comcast argues:
No construction is required for the “first
and second” guides limitation. Any
construction, however, should be applied
consistently for purposes of both
invalidity and noninfringment analysis.

535a
Rovi’s expert Dr. Delp, however, has no
hesitation arguing that the Comcast
products have multiple guides, even
though he has not shown that Comcast
has multiple “instances” (under Rovi’s
proposed construction) or multiple
“guides with data specific to each
program guide” (under Comcast’s
construction). In contrast, he is quick to
argue that many asserted prior art
references do not have multiple guides,
even when they use the word “instance,”
such as RX-0074 (Ellis ‘292). Another
example is Alexander, which allows for
parent and child guides that Dr. Delp
argues are merely “user profiles,” and
not multiple guides, even though the ’871
Patent
specifically
describes
an
embodiment with parent and child
guides. JX-0004 at 1:49-51, 1:56-57, 5:1115, See also Tr. 1219:9-1220:25.
Resps. Br. at 234.
Rovi replies:
“First and second interactive electronic
program guides” should be construed by
the Court such that it is clear
Respondents’ proposed “embodied in a
single set-top box” limitation is excluded.
The multiple, different interactive
electronic program guides need not be
embodied on a single set-top box. JX0004 (’871 Patent) at col. 3, lns. 28-33
(“IPGs may reside in multiple electronic

536a
devices or set top boxes.”); Rinard Tr.
835.
Rovi Reply at 79.
Comcast replies:
Regarding the term “first and second
interactive electronic program guides,”
Rovi does not appear to take issue with
the requirement, in Comcast’s proposed
construction, that the guides must have
different data. As shown in the analysis
of the X1 system, each STB in the
accused configuration displays the same
guide information to each user.
Resps. Reply at 77.
The administrative law judge has determined that
this phrase does not need construction. The parties
have stated that it is not necessary to construe this
phrase. Further, neither party affirmatively advocated
for its own construction; rather, each party simply
critiqued its adversary’s construction. Accordingly, the
administrative law judge has not construed the
phrase.
(9) The first and the second interactive
electronic program guides in the
household
The phrase “the first and the second interactive
electronic program guides in the household” appears
in claims 1 and 12.
Rovi has not presented a separate argument for this
phrase. See Joint Outline at 15-16. Comcast’s entire
argument for this phrase follows:

537a
The evidence and argument presented in
the previous sections on “located in a
household”/ “in the household” and “first
and second interactive electronic
program guides” applies equally to the
construction of this limitation, and
supports Comcast’s construction.
Resps. Br. at 235.
The administrative law judge previously construed
“located in a household” to mean “kept and used at
home,” and the administrative law judge previously
determined that the phrase “first and second
interactive electronic program guides” does not need
construction.
The administrative law judge has determined it is
not necessary to construe the phrase “the first and the
second interactive electronic program guides in the
household” separately from its constituent parts,
which have already been addressed.
(10) A list of scheduled, events of the first
and second types
The phrase “a list of scheduled events of the first
and second types” appears only in the claims (i.e.,
claims 1, 12, and 23). The parties have proposed the
following constructions:
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, a list of
events, including events
of two different types,

Comcast’s Proposed
Construction
Comcast does not clearly
present a construction in
its post-hearing brief.

538a
scheduled to take place
in the future.
See Rovi Br. at 210; Resps. Br. at 237-39.
Rovi argues:
. . . Respondents propose a construction
of plain and ordinary meaning which is
alleged to be “a list of scheduled
functions including two different
categories of functions.” There is no basis
for equating “first and second types” with
“two different categories of functions” as
proposed by Respondents. CX-0004C
(Delp WS) at Q/A 105-06.
Rovi Br. at 210 (introductory text presenting the
constructions is omitted).
Comcast argues:
The ’871 Patent requires generation of a
list for display by aggregating events of
at least two different types. Rovi and Dr.
Delp contend this limitation is met if
accused
products
display
series
recordings and single recordings on a list
of scheduled events. According to Dr.
Delp, series recordings and single
recordings are different types of events.
As an initial matter, the ’871
specification treats series recordings and
single recordings as the same type of
event. See JX-0004 at 8:4-6 (“aggregate
list for all individual recordings and
series recordings, future PPV purchases,

539a
and scheduled tunes”). Moreover, Rovi
and Dr. Delp are trying to read the
claims of the ’871 Patent to capture
subject matter that the Patent Office has
repeatedly determined is unpatentable,
i.e., aggregating two different recording
requests from two different program
guides.
Dr. Delp points to claims 19 and 20 as
support for Rovi’s proposed construction.
Claim 20 merely makes clear that a list
includes a particular kind of recording (a
series recording). And claim 19 merely is
making clear that the list includes
recordings. There is nothing in either
claim that indicates that individual and
series recordings are different types of
events.
Resps. Br. at 237-39 (footnote omitted).
Rovi replies:
The claim terms “a list of scheduled
events of the first and second types,” “a
first event of a first type,” and “a second
event of second type” can be addressed
together. Rovi’s position on the
appropriate claim construction of these
terms is set forth in the Post-Hearing
Brief at 210-11 and need not be repeated
here. The dispute between the parties
regarding these claim terms is more
about the application of the parties’
proposed constructions than the actual
language of the constructions. In
particular, the parties dispute whether

540a
scheduling the recording of an individual
program is an event of a different type
than scheduling the recording of a series.
No
intrinsic
evidence
supports
Respondents’ claim that scheduling the
recording of an individual program and
scheduling the recording of a series is an
event of the same type. CX-0004C (Delp
WS) at Q/A 108. Col. 8, lines 4-6 of the
’871 Patent supports Rovi’s position that
individual
recordings
and
series
recordings (items included on the
aggregated scheduled list) are different
events of different types. Respondents
purport to rely on this passage, but then
ignore the specification’s distinction
between
individual
and
series
recordings. Compare JX-0004 (’871
Patent) at col., lines 4-6 (referring to
“individual recordings and series
recordings”) with Respondents’ proposed
construction
(referring
only
to
“recordings”). And Dr. Rinard admitted
at the hearing that “[a]n individual
recording is one of the kinds—one of the
types of recordings.” Rinard Tr. 795.
Respondents also argue that Rovi is
attempting to recapture subject that the
Patent Office has determined to be
unpatentable, but Respondents’ only
evidence is from file histories other than
the ’871 Patent for claims different than
those found in the ’871 Patent. See RX0237 (‘642 Patent File History); RX-0058
(14/046,200 App. File History). There is

541a
no authority cited for even considering
such unrelated file histories.
Rovi Reply at 82-83 (footnote omitted).
The administrative law judge construes the phrase
“a list of scheduled events of the first and second types”
to mean “a list of events, including events of two
different types, scheduled to take place in the future.”
The construction provides additional context for
understanding the phrase without enlarging or
narrowing the claim scope. Comcast has not presented
a cogent argument, with sufficient intrinsic or
extrinsic support to warrant construing the phrase
otherwise.
(11) A first event of a first type
The term “a first event of a first type” appears in
claims 1, 12, and 23. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction
No construction is
necessary.
Alternatively, a first
event having a first
functionality.

Comcast’s Proposed
Construction
“a designation of a
scheduled function of a
particular category of
functions, such as
reminders, recordings,
pay-per-view purchases,
automatic tunes, or
blocks”

See Rovi Br. at 211; Resps. Br. at 239.
Rovi’s entire argument for this term follows:

542a
. . . An example of events of different
types is a series recording and an episode
recording. [CX-0004C (Delp WS)] at Q/A
108. Claims 19 and 20, both dependent
on claim 12, support Rovi’s proposed
construction under the doctrine of claim
differentiation. Rinard Tr. 797-98
(acknowledging references in Claims 19
and 20 to “programs scheduled to be
recorded,” “series recordings,” “future
PPV,” and “auto tunes” as scheduled
events). Under that doctrine, a limitation
in a parent claim must be construed “at
least broad enough to encompass the
limitation in the dependent claim.”
TecSec, Inc. v. Adobe Sys., No. 20151686, 2016 U.S. App. LEXIS 15149, *17
(Fed. Cir. Aug. 18, 2016); Trs. of
Columbia Univ, in City of New York v.
Symantec Corp., 811 F.3d 1359, 1370
(Fed. Cir. 2016); CX-0004C (Delp WS) at
Q/A 108.
Rovi Br. at 211 (introductory text presenting the
constructions is omitted).
Comcast argues:
Rovi’s construction of “a first event of a
first type” is overly broad and is not
supported by the specification. For
example, the ’871 Patent lists “individual
recordings and series recordings, future
PPV purchases, and scheduled tunes” as
examples of types of functions. JX-0004
at 8:4-6. In contrast to Rovi’s overly
broad proposal of “a first event having a

543a
first functionality,” Comcast’s proposed
construction, “a designation of a
scheduled function of a particular
category of functions, such as reminders,
recordings, pay-per-view purchases,
automatic tunes, or blocks.” is consistent
with the specification.
Notably,
during
prosecution
the
applicants argued that the claims were
patentable over Ellis because it only had
one type of event. JX-0011.005808 (July
5, 2011 Amendment) (“At best, Ellis ‘292
and Ellis ‘527 disclose displaying events
of one type (e.g., a pay-per-view program)
separately from events of another type
but not aggregating the two types into a
single list.”). See also Tr. 983:6-984:2.
Resps. Br. at 239. In reply, Comcast adds:
Regarding the terms “first event of a first
type” and “second event of a second
type,” Rovi incorrectly states that a
series recording is a different type of
event from an individual recording.
Rovi’s claim differentiation argument
proves too much. Rovi is correct that “a
parent claim must be construed at least
as broad” as the dependent claim, and
that is indeed the case under Comcast’s
proposed construction. Under Comcast’s
construction claim 12 allows for a list
that has at least two of any of the
following
categories:
reminders;
recordings; pay-per-view purchases; auto
tunes; or blocks. Claim 19 requires that

544a
the list must include recordings. And
Claim 20 requires that the list must
include recordings that are series
recordings. Thus, each dependent claim
is narrower than claim 12, and no
different interpretation is required to
achieve
that
result.
Comcast’s
construction does not read into Claim 12
any limitation of the dependent claims,
and so there is no claim differentiation to
be made. Importantly, Rovi relies solely
on its own construction of the terms “first
event of a first type” and second event of
a second type” (wherein individual and
series recordings are different types) in
its alleged infringement arguments, and
a proper claim construction in which
recordings are of one type as described in
the patent is dispositive of the
infringement issue in Comcast’s favor.
Resps. Reply at 77-78.
The administrative law judge has determined that
it is not necessary to construe this phrase. The
specification uses the word “type” in a ordinary
manner. See JX-0004 at 9:65-10:1 (describing “the type
of TV” and the “user’s favorite types of programs” as
user-specific information); 13:33-39 (describing guide
formatting depends “on the type of guide being
displayed”); 16:28-33 (describing the use of “different
colors for several types of programming” and providing
an example that “Movies are displayed on a purple
background; sports are displayed on a green
background; and all other shows are displayed on a
blue background.”). Thus, the specification indicates

545a
the patentee used the word “type” to denote a
distinction.
(12) A second event of a second type
The term “a second event of a second type” appears
in claims 1,12, and 23. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

No
construction
necessary.

is “a designation of a
scheduled function of a
Alternatively, a second particular category of
such
as
event having a second functions,
reminders,
recordings,
functionality.
pay-per-view purchases,
automatic
tunes,
or
blocks”
See Rovi Br. at 211; Resps. Br. at 239.
Rovi’s argument for this phrase is presented with
its argument for the phrase “a first event of a first
type.” See Rovi Br. at 211.
Comcast’s argument for this phrase follows:
As discussed in the previous subsection,
the event of a second type must be “a
designation of a scheduled function of a
particular category of functions, such as
reminders, recordings, pay-per-view
purchases, automatic tunes, or blocks.”
As shown above in the subsection
regarding the first and second types of
events, the second event must be of a
different type than the first event of a

546a
first type. As explained in that
subsection, two recording events are not
of different types, and the evidence
supports
Comcast’s
proposed
construction, not Rovi’s.
Resps. Br. at 239. Comcast presents additional
argument in connection with the “first event of a first
type” term. See Resps. Reply at 77-78 (copied in the
section immediately above).
The administrative law judge has determined that
it is not necessary to construe this phrase. As
explained in relation to the “first event of a first type”
dispute, the specification uses the word “type” in a
ordinary manner, to denote a distinction. 117 The
phrase “a second event of a second type” maintains this
concept of denotation.
(13) A memory accessible to the first and
second
interactive
electronic
program guides
The phrase “a memory accessible to the first and
second interactive electronic program guides” appears
in claims 1, 12, and 23. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

117
See JX-0004 at 9:65-10:1 (describing “the type of TV” and the
“user’s favorite types of programs” as user-specific information);
13:33-39 (describing guide formatting depends “on the type of
guide being displayed”); 16:28-33 (describing the use of “different
colors for several types of programming” and providing an
example that “Movies are displayed on a purple background;
sports are displayed on a green background; and all other shows
are displayed on a blue background.”).

547a
No construction is
necessary.
Alternatively, a memory
that can be accessed by
the first and second
interactive electronic
program guides

Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 212; Resps. Br. at 240-41.
Rovi’s entire argument follows:
. . . No intrinsic evidence requires “a
memory accessible to the first and second
interactive program guides” to be limited
to a particular type of memory or
mechanism by which the IPG accesses
the memory. CX-0004C (Delp WS) at Q/A
110. Also, as noted above in Section
VII(C)(2)(a), there is no requirement in
Claim 12 for the two guides to be
embodied in a single set-top box.
Rovi Br. at 212 (introductory text presenting the
constructions is omitted).
Comcast’s entire argument follows:
With regard to the term “a memory
accessible to the first and second
interactive electronic program guides,”
Comcast’s expert Dr. Rinard has opined
that either construction, properly
understood,
is
acceptable.
The
disagreement between Dr. Rinard’s
opinion and that of Rovi’s expert Dr.
Delp is how to properly interpret Rovi’s

548a
construction. The “memory accessible to
the first and second interactive
electronic program guides” was added in
an amendment, in an attempt to
patentably improve on Ellis ‘292. JX0011.006686-6697 (Feb. 21, 2012
Amendment); RDX-0511. In that
amendment, the applicants argued that
the claim was patentable over Ellis
because Ellis “is silent on where changes
made on one guide and applied to
another guide are stored.”
JX0011.006695. See also Tr. 981:24-982:25.
The difference between accessible
memory and message-passing systems is
important in the interpretation of these
proposed constructions. As of July 29,
1998, the concept of distributed
consistency had been intensively
studied, and multiple methods and
techniques were developed, in multiple
areas of computer science such as
distributed systems, parallel systems,
computer architecture, and operating
systems. See RX-0006C (Rinard WS) at
Q/A 33-34. One well-known solution to
this problem was to have the different
guides access the same shared memory,
as disclosed and discussed, for example,
in prior art operating systems textbooks.
See, e.g., RX-0228.0135-136 (Pradeep
Sinha’s Distributed Operating Systems
Concepts and Design).
Regarding the shared memory approach,
one known way to implement the shared

549a
memory that the components access is to
execute the guides on the same device
and have the memory of that device be
shared. The guides simply access the
memory in the device directly. If the
guides execute on different devices that
do not directly share a single primary
memory, it is possible to use a
distributed shared memory system,
which was also well-known in the art.
Such a system enables guides executing
on different devices to access memory on
other devices using a distributed virtual
shared memory system, which gives an
abstraction that the different devices are
sharing a single memory. See RX0228.0254 (Sinha) at Fig 5.1. Under both
constructions, a key aspect of a memory
accessible to multiple program guides as
disclosed in the ’871 Patent is the use of
memory addresses - a read access
specifies a memory address to read,
while a write access specifies a memory
address to write to and the value to write
into that address. See, e.g., JX-0004 (’871
Pat.) at 6:64-67; see also RX-0204,
(“Yuen”) at 18:11-22 (incorporated by
reference in the ’871 Patent).
Under Comcast’s interpretation of the
claims, implementations that use some
kind of message passing to obtain data
would not satisfy the limitations of
Claim 12 and would therefore lie outside
the scope of the claims. Such
implementations may or may not

550a
literally satisfy the limitations under
Rovi’s proposed constructions. Under
Rovi’s apparent interpretation of its
constructions
for
purposes
of
infringement, however, use of a message
passing protocol to obtain event data
from a remote server literally falls
within the scope of the Asserted Claims.
Dr. Delp argues that the memory is
“accessible” even if the guide cannot read
and write to the memory in the manner
explained above. Under Dr. Delp’s
constructions and interpretations, the
claimed memory does not have to be
accessible to the guides, as long as the
guides manage to obtain the information
via some mechanism (whether that
mechanism involves accessible memory
or not). This interpretation of the claim
term directly contradicts Rovi’s proposed
construction of this term, which requires
the memory to be accessible to the
guides.
Resps. Br. at 240-41. In its reply, Comcast adds:
Regarding the term “a memory
accessible to the first and second
interactive program guides,” Rovi’s
proposed
construction
would
be
acceptable, if it were properly applied.
Yet Rovi applies it to systems in which
no memory is accessible to either guide,
as required by the ’871 Patent. See, e.g.,
JX-0004 (’871 Pat.) at 6:64-67; see also
RX-0204,
(“Yuen”)
at
18:11-22

551a
(incorporated by reference in the ’871
Patent). The intrinsic evidence requires
that the memory, whether it is shared or
not, is accessible—that is, can be read
from and written to.
Resps. Reply at 78.
The administrative law judge construes “a memory
accessible to the first and second interactive electronic
program guides” to mean “a memory that can be
accessed by the first and second interactive electronic
program guides.” The construction provides additional
context for understanding the phrase without
enlarging or narrowing the claim scope. Comcast has
not presented a cogent argument, with sufficient
intrinsic or extrinsic support, to warrant construing
the phrase otherwise.
(14) Generate a list of scheduled, events of
the first and second types by
aggregating the first and second
scheduled events received from the
first
and
second
interactive
electronic program guides
The phrase “generate a list of scheduled events of
the first and second types by aggregating the first and
second scheduled events received from the first and
second interactive electronic program guides” only
appears in claim 12. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

552a
No construction is
necessary.

Comcast does not clearly
present a construction in
Alternatively, generate a its post-hearing brief.
list of scheduled events
of the first and second
types by combining the
first and second
scheduled events
received from the first
and second interactive
electronic program
guides.
See Rovi Br. at 212-13.; Resps. Br. at 241-42.
Rovi’s entire argument for this term follows:
. . . There is no need to construe this
term, but Respondents’ proposed
alternative construction goes far beyond
the plain and ordinary meaning of
“generate.” CX-0004C (Delp WS) at Q/A
114. As discussed, supra Sections
VIII(C)(2)(e), (h), the “first and second
electronic program guides” need not be
“kept and used in the same home,” and
there is no intrinsic support for “a single
combined list” that includes “different
categories of requests.”
Rovi Br. at 213 (introductory text presenting the
constructions is omitted).
Comcast argues:
With regard to the term “generating a
list of scheduled events of the first and

553a
second types by aggregating the first and
second schedule events received from the
first and second interactive electronic
program guides,” the guides must be
located “in the household” (and not on a
server), and the first and second events
must be different types (instead of
recordings of two programs as part of a
series or as an individual episode). These
are the main points of contention
between the parties with respect to the
claim construction of this term. As
described above in the subsections on
first and second program guides and “in
the household,” the evidence supports
Comcast’s construction: “combining
separate scheduled events provided by
two different program guides (that are
kept and used in the same home) into a
single combined list that includes two
different categories of requests.”
Resps. Br. at 241-42. In reply, Comcast adds:
Regarding the term “generate a list of
scheduled events of the first and second
types by aggregating the first and second
scheduled events received from the first
and second interactive electronic,
program guides,” Rovi argues that there
is “no intrinsic support for ‘a single
combined list’ that includes ‘different
categories of requests.’” Compl. PoHB at
213. Respondents respectfully point to
the very intrinsic claim language itself,
which claims “a list of scheduled events of

554a
the first and second types by aggregating
the first and second schedule events . . . .”
Resps. Reply at 78 (emphasis in original).
The administrative law judge has determined it is
not necessary to construe this phrase separately from
its constituent parts, which have already been
construed. Indeed, the parties indicate that the
dispute over this phrase is an extension of the disputes
pertaining to the phrase’s constituent parts. Further,
the only new words in this phrase are “generate” and
“aggregating,” and the parties’ proposed constructions
with regard to these words are not debated in the
briefs. Thus, this phrase does not need to be construed.
3. Representative Products
Rovi’s entire argument is:
Accused X1 Guide Products for the ’871
Patent are models of set-top boxes
capable of running the X1 Guide that
meet the legal requirements of
importation, sale, or lease to Comcast or
Comcast’s customers in the United
States on or after April 1, 2016:
Pace/ARRIS XG1 v3 (X1) PX013ANM,
ARRIS XG1 v3 (X1) AX013ANM,
Pace/ARRIS XG1 v3 (X1) PX013ANC,
ARRIS XG1 v3 (X1) AX013ANC,
Pace/ARRIS XG2 v2 (X1) PX022ANM,
Pace/ARRIS XG2 v2 (X1) PX022ANC,
Pace/ARRIS XiD (X1) PXD01ANI-X1,
and
Technicolor/Cisco
XiD
(X1)
CXD01ANI (together, ’871 Patent
Accused Products). CX-0004C (Delp WS)
at Q/A 5, 117; Joint Outline at Table 1.

555a
Each set-top box running the X1 Guide
works in materially the same way for
purposes of infringement. CX-0004C
(Delp WS) at Q/A 118; see also CX-1885
(Xfinity on X1 Platform) (including same
set of instructions for the X1 Guide
without regard to the particular model of
set-top box). [
] Id.; JX-0081C
(Comcast/ARRIS
Master
Supply
Agreement) at 33; JX-0096C (Folk Dep.
Tr.) 95-98; JX-0105C (McCann Dep. Tr.)
84-85. There are no differences between
the X1 set-top boxes or X1 Guides
running on X1 set-top boxes relevant to
infringement of the ’871 Patent. CX0004C (Delp WS) at Q/A 118-20; JX0105C (McCann Dep. Tr.) 87-88. For
example, no difference between set-top
boxes related to the [ ] or model affects
the ’871 infringement analysis. CX0004C (Delp WS) at Q/A 120.
Throughout his testimony at the
hearing, Dr. Rinard made no distinction
between any models of, set-top box and
agreed that for the purposes of
infringement, the relevant devices
operated in the same manner. Rinard Tr.
801-03. Because there are no material
differences between the different X1 settop boxes, the ARRIS XG1 v3 (X1)
AXo013ANC is representative of the
operation of all such products. CX-0004C
(Delp
WS)
at
Q/A
120.
The
Technicolor/Cisco XiD (X1) CXD01ANI is

556a
representative of the non-DVR X1 settop boxes. Id. at Q/A 186.
Rovi Br. at 213-14.
Comcast argues:
The STBs that Rovi accuses of
infringement of claims 12, 17, and 18 of
the ’871 Patent are listed in JX0084C.000035-37. The Accused X1 STBs
use the following processors: [
]
Dividing
the
products
up
into
representative categories by the model of
processor used is necessary because the
“processor” element of the asserted
claims
is
a
means-plus-function
limitation. Rovi has not shown that these
various processors are representative of
each other.
Additionally, DVR functionality is a
fundamental element of the asserted
claims and Rovi has used examples of
DVR recordings extensively in its
infringement allegations. Rovi has not
made any showing that the combination
of the particular DVR and non-DVR
STBs analyzed in its infringement
analysis is representative of other
combinations. Specifically, the accused
products vary by DVR capabilities, as
follows: [ ]
Rovi has not shown that the combination
it has analyzed is representative of any
other combinations. . . .

557a
Resps. Br. at 230-31 (reproduction of RX-0870C.0006
omitted; emphasis in original). The two exhibits
Comcast cites to support its argument, JX-0084C and
RX-0870, were created by the parties’ counsel and do
not contain evidentiary support. Further, Comcast has
not pointed to any testimony to contest that the
products Rovi identified are representative.
Accordingly, the administrative law judge has
determined that Rovi has presented sufficient
evidence, and that Comcast has not rebutted this
evidence. See Sponsion, Inc. v. Int’l Trade Comm’n,
629 F.3d 1331, 1351-52 (Fed. Cir. 2010) (“Appellants
contend that the ALJ improperly shifted the burden to
Appellants to establish that the non-modeled accused
packages would behave differently than those that
were modeled. Rather than improper burden shifting,
the ALJ properly found that Appellants simply failed
to rebut the substantial evidence set forth by
Tessera.”); see also TiVo, Inc. v. EchoStar Commc’ns
Corp., 516 F.3d 1290, 1308 (Fed. Cir. 2008). Thus, the
administrative law judge finds that the ARRIS XG1v3
AX013ANC is representative of DVR-enabled set-top
boxes and that the Pace XiD (PXD01ANI) is
representative of the non-DVR X1 set-top boxes. 118 See
CX-0004C (Delp WS) at Q/A 117, 120, 186.
4. Literal Infringement
Rovi asserts Claims 12, 17, and 18 of the ’871 Patent
in this Investigation. Rovi Br. at 214; CX-0004C (Delp
WS) at Q/A 6. Claim 12 is an independent claim, claim
Rovi’s brief references the Technicolor/Cisco XiD (X1)
CXD01ANI, while Dr. Delp’s witness statement discusses the
Pace XiD (PXD01ANI). Compare Rovi Br. at 214 with CX-0004C
(Delp WS) at Q/A 186.
118

558a
17 is dependent on claim 13, which depends on claim
12. Claim 18 is dependent on claim 12.
a) Claim 12
Claim 12, with bracketed, alphanumeric claim
limitations provided by Rovi, follows:
[12pre] 12. A system for displaying
interactive electronic program guides,
the system comprising:
[12a] a plurality of user television
equipment devices that are located in a
household and from which first and
second interactive electronic program
guides are accessible, wherein the
plurality of user television equipment
devices comprises a processor configured
to:
[12b] receive, from the first interactive
electronic program guide, a first event of
a first type scheduled with the first
interactive electronic program guide;
[12c] receive, from the second interactive
electronic program guide, a second event
of a second type scheduled with the
second interactive electronic program
guide; and
[12d] generate a list of scheduled events
of the first and second types by
aggregating the first and second
scheduled events received from the first
and second interactive electronic
program guides, wherein the list of
scheduled events is accessible for display

559a
from any of the first and the second
interactive electronic program guides in
the household; and
[12e] a memory accessible to the first and
second interactive electronic program
guides for storing the received first and
second events.
JX-0004 at 26:32-54.
(1) Limitation 12pre
The text for this limitation is “12. A system for
displaying interactive electronic program guides, the
system comprising[.]” See Rovi Br. at 215.
Rovi argues:
To the extent the preamble is a
limitation, the ’871 Patent Accused
Products are systems for displaying
interactive electronic program guides.
CX-0004C (Delp WS) at Q/A 186. The
relevant system is Comcast’s AnyRoom
DVR system which includes a DVR
enabled set-top box (such as the ARRIS
XG1v3 (AX013ANC)) capable of running
an instance of the X1 Guide and a nonDVR set-top box (such as the Pace XiD
(PXD01ANI)) capable of running another
instance of the X1 Guide. Id. at Q/A 18687; Rinard Tr. 792; CX-1776C (described
by Dr. Rinard at Rinard Tr. 800 as a
representation of the X1 system); see also
CX-1296C (Xfinity X1 AnyRoom DVR
Overview); CX-1253C (X1 AnyRoom
DVR). An IPG instance on a DVR
enabled set-top box (e.g., the XG1) is

560a
shown at CX-1632 (X1 Screenshots for
the ’871 Patent) at 3, and an IPG
instance on a non-DVR enabled set-top
box (e.g., the XiD) is shown at CX-1632
(X1 Screenshots for the ’871 Patent) at 2.
Rovi Br. at 215 (footnote omitted).
Comcast argues that the “accused products do not
include the ‘first and second interactive electronic
program guides’ that are in every element of claim 12
(12pre-12e).” Resps. Br. at 245.
The
administrative
law
judge
previously
determined that the preamble is not limiting and that
no
construction
is
necessary.
See
Section
IV(D)(2)(b)(1).
However, if the preamble is found to be a limitation,
then the limitation is met because the accused
products constitute a system that displays multiple
electronic program guides, as discussed in relation to
limitation 12a.
(2) Limitation 12a
The text for this limitation is “a plurality of user
television equipment devices that are located in a
household and from which first and second interactive
electronic program guides are accessible, wherein the
plurality of user television equipment devices
comprises a processor configured to[.]” See Rovi Br. at
216.
Rovi argues:
. . . Comcast’s AnyRoom DVR system and
the ’871 Patent Accused Products include
at least two television equipment devices
(e.g., the ARRIS XG1v3 and Pace XiD)

561a
located and/or placeable in a household
and from which first and second X1 IPGs
are accessible. CX-0004C (Delp WS) at
Q/A 189. There is no dispute that the ’871
Patent Accused Products are placeable in
a household following importation.
Rinard Tr. 791-792 (testifying about the
intended use of the AnyRoom DVR
system), 800 (discussing CX-1776C as a
representation of the accused X1
system); CX-1776C (depicting the
presence of the ’871 Patent Accused
Products in a household).
Rovi Br. at 216.
Comcast argues that the accused products do not
contain even one interactive program guide, because
the program guides are [ ] See Resps. Br. at 245-47.
The administrative law judge has determined that
Rovi has shown that the accused products meet this
limitation, which requires that the system include (a)
user television equipment devices, (b) that are located
in a household, (c) which allow access to first and
second guides, and (d) a processor. Each sub-limitation
is discussed below.
(a) User television equipment devices
There is no substantive dispute that the XG1 and
XiD set-top boxes are the user television equipment
devices. See CX-0004C (Delp WS) at Q/A 186, 189
(identifying the AX013ANC and PXD01ANI boxes);
RX-0849C (Rinard RWS) at Q/A 88 (discussing the
XG1 and XiD, without contesting the “user television
equipment devices” requirement).

562a
The administrative law judge has determined that
the accused products meet this sub-limitation.
(b) Located in a household
There is no substantive dispute that the set-top
boxes themselves are located (kept and used) in a
household. See CX-0004C (Delp WS) at Q/A 189; Tr.
792 (Dr. Rinard testifies that a standard X1 system
includes multiple boxes in the home); See generally
Resps. Br., Section X(C)(2(b)(ii) (this section argues
that the processor is not “in the household;” the set-top
boxes are not addressed). Accordingly, the
administrative law judge has determined that the
accused products meet this sub-limitation.
(c) First and second guides
The parties disagree whether the accused products
include first and second guides.
The ’871 Patent explains that “a major advantage of
the IPG in the multi-source architecture” is “allowing
users to use multiple (three as an example) instances
of the IPG simultaneously.” JX-0004 at 8:49-52. The
patent also discloses “independent instances” of an
IPG and “interdependent IPGs.” Id. at 5:42-45. The
patent further explains that one advantage of
deploying three IPGs is that “users can view three
different channels simultaneously.” Id. at 8:53.
Dr. Delp opined that a user can access one guide
with the XG1 (DVR) set-top box and another instance
of the guide with a non-DVR set-top box. See CX-0004C
(Delp WS) at Q/A 189-90 (discussing CX-1632); CX0005C (J. Williams WS) at Q/A 114 (“CX-1632.000002
[is] a picture of the guide on the non-DVR STB; CX1632.000003 [is] a picture of the guide on the DVR
STB”); CX-1632 at 2-3; see also Tr. 853-54 (Dr. Rinard

563a
testified that users can schedule recordings from
different rooms in a household).
Accordingly, the evidence shows that first and
second guides are accessible from the set-top boxes,
which is all this sub-limitation requires. Thus, the
administrative law judge has determined that the
accused products meet this sub-limitation.
(d) A processor
There is no disagreement that a physical processor
is located in the XG1 set-top box, which is kept and
used in the household. Dr. Delp explained that the
accused products have a processor:
. . . Furthermore, the user television
equipment devices (e.g., ARRIS XG1v3
and Pace XiD) comprise a processor. This
is shown in CX-1305C (Pace-XG1v3
Multi-Tuner Video Gateway) at p. 2, CX1353C (XG1v3 Main Board Schematic) at
p.
2;
CX-1317C
(Comcast-HW
Specification for XG 1 and XG2 STB
Products) at p. 36.
CX-0930C provides detailed claim charts
with specific infringement evidence for
this limitation.
CX-0004C (Delp WS) at Q/A 189. Dr. Rinard testified
that Dr. Delp identified a processor in the XG1 set-top
boxes. RX-0849C (Rinard RWS) at Q/A 88 (“. . . The
processor in the XG1, which is the only processor Dr.
Delp appears to be pointing to, [ ] as I have testified
earlier.”). Dr. Rinard’s comments about [ ] pertain to
the “configured to” language and are addressed in
limitation 12d below. Accordingly, the administrative

564a
law judge has determined that the accused products
meet this sub-limitation.
In sum, the administrative law judge has
determined that the, accused products meet limitation
12a.
(3) Limitations 12b and 12c
The text for limitation 12b is “receive, from the first
interactive electronic program guide, a first event of a
first type scheduled with the first interactive
electronic program guide[.]” See Rovi Br. at 217. The
text for limitation 12c is “receive, from the second
interactive electronic program guide, a second event of
a second type scheduled with the second interactive
electronic program guide[.]” Id.
Rovi presents a joint argument for limitations 12b
and 12c. See Rovi Br. at 217-19.
Comcast also present a joint argument that
contends the accused products do not contain first and
second guides and that the processor in the set-top
boxes does not [
] See Resps. Br. at 248. Comcast
contends a “key press” from a remote control, a
recording command from the [
] and a graphics
command to display a recording screen are not
“events.” Id. at 248-51.
The language of limitations 12b and 12c is not
complex or detailed. See Resps. Br. at 262 (Comcast
argued that “Claim 12 of the ’871 Patent is
representative . . . and requires taking data from two
sources (a first and second interactive electronic
program guide) and combining them together to
“generate a [single] list of scheduled events.”). The
processor must receive events (e.g., recordings) from
first and second guides. Limitations 12b and 12c (and

565a
the ’871 Patent) involve generic, functional outcomes,
not particularized schemes used to achieve those
outcomes. The evidence shows that the processor
receives input associated with a recording. For
limitation 12b, Dr. Delp opined that:
The ARRIS XG1v3 contains a processor
that is [
] as shown, for example, by
CX-1410C (XCAL DVR Messaging
Functional Specification) at p. 13.
...
The recording command is [
]
Accordingly, the AnyRoom DVR system
meets this claim limitation.
CX-0004C (Delp WS) at Q/A 192. For limitation 12c,
Dr. Delp opined that:
The second X1 IPG is configured to [
as discussed in 12b above.

]

Id. at Q/A 196.
The administrative law judge has determined that
the accused products meet limitations 12b and 12c.
(4) Limitation 12d
The text for this limitation is “generate a list of
scheduled events of the first and second types by
aggregating the first and second scheduled events
received from the first and second interactive
electronic program guides, wherein the list of
scheduled events is accessible for display from any of
the first and the second interactive electronic program
guides in the household[.]” See Rovi Br. at 219.
Rovi argues that there is no dispute that the
AnyRoom DVR system generates and displays a single

566a
list or recordings and that the list can be seen from
“any of the subscriber’s devices.” Rovi Br. at 220.
Comcast argues, inter alia, that “the XG1 processor
[ ] Executing graphics commands to create an image
does not combine [i.e., generate by aggregating]
received events as Claim element 12d requires.”
Resps. Br. at 252.
The administrative law judge has determined that
Rovi has not shown that the accused products meet
this limitation, which requires (a) that the processor
generate a list of scheduled events by aggregating
events from the first and second guides, (b) that the
aggregated list is available for display by the first and
second guides, and (c) that the first and second guides
are in the household. Each sub-limitation is discussed
below.
(a) Generate a list of scheduled events
by aggregating events from the first
and second guides
Limitation 12d requires the processor to generate a
list of scheduled events. Dr. Delp opined that:
. . . scheduled recordings of single
episodes (purple) and series (red) start at
the STB, are relayed through Comcast’s
servers, and are ultimately sent back to
the STB, forming an aggregate list of
scheduled series and episode recordings.
The round-trip transmission of series
and episode recordings is the same,
regardless of whether the set-top that
instigates the scheduled recording is a
DVR or non-DVR set-top.

567a
CX-0004C (Delp WS) at Q/A 201. In Q/A 202, Dr. Delp
opined that “code flow for combining series and episode
recordings into one aggregate list in the Scheduler is
depicted in CDX-6063[.]” At the hearing, however, Dr.
Delp testified that this code [
Q.
A.
Q.
A.
Q.
A.

]

Tr. 989.
Further, the “screen shots” that Dr. Delp relies
upon, CX-004C at Q/A 203, simply shows that the X1
system [ ] not generating an aggregated list.
The administrative law judge has determined that
Rovi has not shown that the accused products meet
this sub-limitation.
(b) The aggregated list is available for
display from the first and second
guides
The claim language is not complex or detailed, nor
is it limited to a particularized scheme involving
recording commands, source code, and software
execution, as Comcast argues.
The evidence shows that the aggregated list is
available for display on both guides. See CX-0004C
(Delp WS) at Q/A 203; CX-0005C at Q/A 114-15; CX1632 at 12, 37.

568a
The administrative law judge has determined that
the accused products meet this sub-limitation.
(c) First and second guides are in the
household
Rovi argues that the first and second guides satisfy
this sub-limitation because “the list of scheduled
events is accessible for display in the household from
any of the first X1 IPG. (implemented on the ARRIS
XG1v3 set-top) and the second X1 IPG (implemented
on the Pace XiD set-top).” See CX-0004C (Delp WS) at
Q/A 201. This argument materially rearranges the
order of the claim language such that the first and
second guides would not be required to be “in the
household.” As explained above, during prosecution,
the applicant argued that:
Applicants’ claims 31, 40, and 49
patentably improve upon Ellis by
receiving scheduled events from a first
and second one of a plurality of
interactive electronic program guides
that are each in the household. In
particular, in Ellis, program listings and
other information (e.g., advertisements,
paid programming) (i.e., the alleged
program information received from
interactive program guides) are received
from one or more distribution facilities
that are outside of a household (Ellis
¶¶ 63 and 67) and not from first and
second
interactive
electronic
program guides that are in the
household.

569a
JX-0011 at 5466 (emphasis added). Rovi’s argument
conflicts with arguments made to obtain the ’871
Patent.
As Comcast repeatedly argued, and as the evidence
shows, the first and second program guides do not
reside and execute (e.g., are kept and used at home)
[
] See RX-0849C (Rinard RWS) at Q/A 78, 80, 83,
88, 111; Tr. 838-839.
The administrative law judge has determined that
Rovi has not shown that the accused products meet
this sub-limitation.
(5) Limitation 12e
The text for this limitation is “a memory accessible
to the first and second interactive electronic program
guides for storing the received first and second
events.” See Rovi Br. at 221.
Rovi argues that the “ARRIS XG1v3 set-top box
includes [
] Rovi Br. at 221 (citing CX-0004C (Delp
WS) at Q/A 206-07; CX-1632 (X1 Screenshots for the
’871 Patent) at 18, 21-22).
Comcast argues that [

] See Resps. Br. at 254.

The administrative law judge construed “a memory
accessible to the first and second interactive electronic
program guides” to mean “a memory that can be
accessed by the first and second interactive electronic
program guides.”
A “Product Overview” of Comcast’s AnyRoom DVR
explains that:
With AnyRoom DVR, all of the DVR
features become available on all of the X1
Platform devices in your home, even if
they aren’t all DVR devices. Both the

570a
primary DVR and companion boxes have
the ability to playback recordings
simultaneously, whether it is the same
program or up to 4 different programs.
Users can also actively manage the
settings of completed recordings as well
as delete them from any companion box
or the primary DVR.
CX-1253C at 1-2; see also CX-0004C (Delp WS) at Q/A
206. Thus, evidence shows that the accused products
have a memory that is accessible to more than one
guide.
The administrative law judge has determined that
the accused products meet this limitation.
b) Claims 13 and 17
Dependent claims 13 and 17 follow:
•

13. The system defined in claim 12, wherein a
given interactive electronic program guide in
the household is configured to allow a user to
select a program for recording.

•

17. The system defined in claim 13, wherein the
first and second interactive electronic program
guides that are in the household are configured
to allow the user to cancel the recording of the
selected program.

JX-0004 at 26:55-57, 27:7-10.
Rovi argues that the accused products allow the
user to select and cancel a recording from the first and
second guides. See Rovi Br. at 222.
Comcast relies on its arguments about claim 12 to
argue that claims 17 and 18 are not infringed. See

571a
Resps. Br. at 155 (“As discussed above with regard to
Claim 12, because the XG1 and XiD STBs [
]
The evidence shows that if claim 12 is infringed,
then claim 17 is also infringed. See Ferring, 764 F.3d
at 1411. 119 Comcast product literature explains that in
“AnyRoom DVR, you can use your RNG-150(s) [the
companion box] as a Digital Video Recorder (DVR).
Recording, deleting and playing back recorded
programs is as simple using your on-screen guide, just
like the XG1.” CX-1253C at 1; see also CX-0004C (Delp
WS) at Q/A 211.
c) Claim 18
Claim 18 recites “18. The system defined in claim
12, wherein the processor is configured to allow the
user to obtain additional information for any item on
the list of scheduled events.” JX-0004 at 27:11-13.
Rovi cites to CX-1632 at 28 as an example of a guide
showing “additional information.” The ’871 Patent
identifies “plot” as an example of additional
information. JX-0004 at 4:30-32 (“Each IPG can be
configured so that users can see additional
information, such as plot, actors, and rating for a
program by pressing the INFO or SELECT keys while
viewing a guide.”). CX-1632 at 28 shows a plot
summary of the “Swuit” episode of New Girl.
Accordingly, the evidence shows that if claim 12 is

In Ferring, the Federal Circuit found a dependent claim not
infringed because its corresponding independent claim was not
infringed. Ferring B.V. v. Watson Labs., Inc.-Florida, 764 F.3d
1401, 1411 (Fed. Cir. 2014) (“Because we hold that the asserted
independent claims of Ferring’s patents are not infringed, the
asserted dependent claims are likewise not infringed.”)).

119

572a
infringed, then claim 18 is also infringed. See Ferring,
764 F.3d at 1411.
d) Alternative Design
Comcast’s entire argument is:
Moreover,
Comcast
has
already
formulated an alternative software
design that cannot infringe the ’871
Patent
even
using
Dr.
Delp’s
constructions and interpretations. [ ]
RX-0849C (Rinard RWS) at Q/A 152.
Resps. Br. at 256.
The administrative law judge has determined that
the alternative design Comcast has identified is too
hypothetical to adjudicate. No testimony indicates
that the alternative design is a finalized product or
sufficiently described for consideration by the
Commission. See RX-0849C (Rinard RWS) at Q/A 152;
CX-0004C (Delp WS) at Q/A 244-49.
5. Indirect Infringement
In the event that the accused products are found to
infringe the ’871 Patent, the administrative law judge
has analyzed Rovi’s inducement and contributory
infringement arguments.
a) Knowledge of the ’871 Patent and
Specific Intent to Infringe
The administrative law judge finds that Comcast
had the requisite intent and knowledge of the ’871
Patent for the same reasons provided in the discussion
of the ’556 Patent above. See Section IV(A)(5)(a).
b) Induced Infringement of the ’871
Patent

573a
(1) Comcast’s Customers
Rovi has not sufficiently shown that customers
actually utilize the accused products—the XG1 and
XiD boxes—in an infringing manner. See Rovi Br. at
224 (citing CX-0004C (Delp WS) at Q/A 128-31 (Dr.
Delp’s testimony pertains to two patents and does not
specify what accused products he is addressing));
Epcon Gas Sys., Inc. v. Bauer Compressors, Inc., 279
F.3d 1022, 1033-34 (Fed. Cir. 2002) (explaining the
rule that “[u]pon a failure of proof of direct
infringement, any claim of inducement of
infringement also fails” and then reversing summary
judgment of no infringement based upon evidence that
the defendant demonstrated the product to prospective
buyers).
(2) Comcast’s Suppliers
Rovi argues that Comcast induces ARRIS and
Technicolor to infringe the asserted claims by
purchasing the boxes made by ARRIS and Technicolor
and by causing ARRIS and Technicolor to import the
accused boxes. See Rovi Br. at 223-24.
Comcast argues:
. . . the ARRIS and Technicolor
respondents cannot directly infringe the
asserted claims of the ’871 Patent, for all
of the reasons discuss above in the
analysis regarding direct infringement.
Moreover, Rovi has accused one
Technicolor product of infringement in
this matter, the Technicolor/Cisco XiD
(a/k/a XiD-Z/X1 or CXD01ANI, with
Product
Identification
ITQ8122PXIDKIT-K9)
(the
“XiD”).
Rovi’s

574a
infringement reads require more than
one product. Neither ARRIS nor
Technicolor import, or sell after
importation, the electronic program
guide for the X1 platform. The X1 STBs
provided by ARRIS and Technicolor only
[ ] which are not an electronic program
guide, because it does not contain the
intelligence for providing program
listings, or allowing users to select
programs for viewing or recording. As
described repeatedly, the X1 platform is
[ ] Claim 12 recites a processor as part
of the claimed system. Rovi and Dr. Delp
have not demonstrated that the
“processor” is imported, or sold after
importation by ARRIS or Technicolor. As
discussed above in the section on direct
infringement, the relevant functionality
is found on remote hardware, not on any
ARRIS or Technicolor STB.
Resps. Br. at 256.
The administrative law judge has determined that
ARRIS and Technicolor do not directly infringe the
asserted claims for the same reasons that Comcast
does not directly infringe the asserted claims.
c) Contributory Infringement of the ’871
Patent
To prevail on a contributory infringement claim, a
complainant must show that, inter alia, the accused
product is “not a staple article or commodity of
commerce suitable for substantial noninfringing
use[.]” See 35 U.S.C. § 271(c); Fujitsu, 620 F.3d at 1326
(“To establish contributory infringement, the patent

575a
owner must show the following elements relevant to
this appeal: 1) that there is direct infringement, 2)
that the accused infringer had knowledge of the
patent, 3) that the component has no substantial
noninfringing uses, and 4) that the component is a
material part of the invention.”). 120
The administrative law judge has determined that
Rovi has fallen short of meeting its burden of showing
that the accused products have no substantial noninfringing uses; rather, the evidence shows that the
accused X1 products have many substantial noninfringing uses, such as watching television programs.
See RX-0848C (Grimes RWS) at Q/A 152 (the last
paragraph of Dr. Rinard’s testimony about an
alternative design is afforded no weight).
Further, Rovi’s expert testified that having a single,
primary box alone would not support an infringement
claim:
Q. Isn’t it true that a Comcast subscriber
who has a DVR box alone can’t infringe
the ’871 Patent?
A. Well, the analysis I provided required
two boxes.
Q. So if a Comcast subscriber is in home
with only a DVR box, they don’t infringe?
A. I believe that’s correct.

See also Section III(C)(2)(b) (general principles of law) and
Section IV(A)(5)(b) (citing In re Bill of Lading Transmission, 681
F.3d at 1338; Vita-Mix Corp. v. Basic Holding, Inc., 581 F.3d at
1327; i4i Ltd. P’ship v. Microsoft Corp., 598 F.3d at 851), supra.

120

576a
Q. And if a subscriber in his house has a
non-DVR box alone, they don’t infringe?
A. I believe that’s correct. Although the
boxes are capable of infringing, sure.
Tr. 988. Thus, the sale of a primary set-top box alone
would not constitute contributory infringement.
6. Domestic Industry – Technical Prong
Rovi identifies the following DI products:
1) Rovi i-Guide combined with Rovi TotalGuide xD
system,
2) Rovi Passport system (including Rovi Passport
combined with Rovi TotalGuide xD system), and
3) Verizon FiOS system.
Rovi Br. at 230 (citing CX-0004C (Delp WS) at Q/A
330). The systems are addressed below in relation to
the “generate a list by aggregation” and “in the
household” limitations of claim 12. 121
a) Claim 12
(1) Limitation 12d – “generate a list . . . by
aggregating . . . events”
(a) Rovi i-Guide
Rovi has not shown that the Rovi i-Guide set-top
boxes include a processor that is configured to

With regard to the X1 system, the administrative law judge
determined that Rovi had not shown that the X1 products
infringed claim 12 because it had not shown the X1 products had
a processor configured to “generate a list of scheduled events by
aggregating events from the first and second guides” or that the
first and second guides were in the household.

121

577a
“generate a list of scheduled events . . . by aggregating
the first and second scheduled events[.]”
Rovi’s brief cites to CX-0004C (Delp WS) at Q/A 360,
which follows:
Q360. How is this element met by an
i-Guide and TotalGuide xD system?
A. [
] The aggregate list is accessible
for display from the i-Guide IPG and
TotalGuide xD IPG.
For example, the aggregate list is
displayed on an i-Guide IPG, as shown in
CDX-0680.11, below.

The TotalGuide xD also displays the
aggregate events, as shown in CDX0680.12, below. In the below example,
the series recording is identified by three

578a
overlapping red dots, while the episode
recording is identified by a single red dot.

This is further shown in CX-1596.
Additionally, CX-1768C and CDX-0680C
provide detailed claim charts with

579a
additionally specific domestic industry
evidence for this limitation.
The cited testimony does not explain how the processor
in the set-top boxes generates a list by aggregating
events from two guides. Indeed, Rovi’s argument
equates displaying an aggregated list, which is a
separate requirement of limitation 12d, with
generating the list. See RX-0849C (Rinard RWS) at
Q/A 160-61 (“Claim element 12d requires the processor
to be configured to generate a list by aggregating the
received events. . . . Dr. Delp provides no evidence that
any lists are aggregated from the received events[.]”
Thus, Rovi has not shown that the processor generates
the list by aggregating event selections from the first
and second guides.
(b) Rovi Passport
Rovi cites CX-0004C (Delp WS) at Q/A 361-62 in
support of its contention that the Passport system
(with and without TotalGuide xD) satisfies this
limitation. Q/A 361-62 essentially replicate the
testimony given for the i-Guide, albeit with a different
product name and pictures.
The administrative law judge has determined that
Rovi has not shown that the Passport products have a
processor that is configured to “generate a list . . . by
aggregating” event selections from the first and second
guides. The Passport products (with and without Total
Guide) do not satisfy this limitation for the same
reasons that the i-Guide products do not satisfy this
limitation.
(c) Verizon FiOS

580a
Rovi cites CX-0004C (Delp WS) at Q/A 365 in
support of its contention that the FiOS products
practice claim 12, limitation 12d. Q/A 365 follows:
Q365. How is this element met by a
Verizon FiOS system?
A. [

]

CX-1773C and CDX-0685C provide
detailed claim charts with specific
domestic industry evidence for this
limitation.
Furthermore,
CX-1626
provides screenshots of the list being
accessible for display from a FiOS IPG.
The cited testimony does not explain how the processor
in the set-top boxes generates a list by aggregating
events from two guides. Indeed, Rovi’s argument
equates displaying an aggregated list, which is a
separate requirement of limitation 12d, with
generating the list. See RX-0849C (Rinard RWS) at
Q/A 160-61 (“Claim element 12d requires the processor
to be configured to generate a list by aggregating the
received events. . . . Dr. Delp provides no evidence that
any lists are aggregated from the received events[.]”
Thus, Rovi has not shown that the processor generates
the list by aggregating event selections from the first
and second guides.
Thus, Rovi has not shown that the Verizon products
satisfy this limitation.
(2) Limitation 12d–“in the household”
(a) Rovi i-Guide
Rovi’s brief argues that the primary and companion
set-top boxes meet the “in a household / in the
household” requirements.

581a
As with the X1 products accused of infringement,
Rovi has not shown that the first and second program
guides reside and execute (e.g., are kept and used at
home) on the identified set-top boxes/iPads. Compare
RX-0849C (Rinard RWS) at Q/A 160-61 (“Because the
asserted claims involve aspects of the X1 system or
media that are not apparent in the user interface
alone, an analysis of the user interface, without an
analysis of the internal structure and behavior of the
system, is not sufficient to show that a system
practices the asserted claims.”) with RX-0849C
(Rinard RWS) at Q/A 78, 80, 83, 88, 111; Tr. 838-839
(Dr. Rinard’s non-infringement analysis for the X1
products, which analyzed the products beyond the user
interface).
(b) Rovi Passport
The administrative law judge has determined that
Rovi has not shown that the Passport products have
first and second guides that reside and execute (e.g.,
are kept and used at home) on the identified set-top
boxes/iPads. The Passport products (with and without
Total Guide) do not satisfy this limitation for the same
reasons that the i-Guide products do not satisfy this
limitation.
(c) Verizon FiOS
The administrative law judge has determined that
Rovi has not shown that the Verizon products have
first and second guides that reside and execute (e.g.,
are kept and used at home) on the identified set-top
boxes. The Verizon products do not satisfy this
limitation for the same reasons that the i-Guide and
Passport products do not satisfy this limitation.
b) Claims 13, 17, and 18

582a
Comcast has not challenged Rovi’s assertion that
the domestic industry products practice claims 13, 17,
and 18. See generally Resps. Br., Section X(D).
The evidence shows that if the domestic industry
products practice claim 12, then they also practice
claims 13, 17, and 18. See CX-0004C (Delp WS) at Q/A
374-76, 379, 381-83, 386, 388-90, 393; Cf Ferring, 764
F.3d at 1411.
7. Patent Eligibility
Under step one of the Alice framework, Comcast
argues:
The claims of the ’871 Patent are
directed to the abstract idea of receiving
different types of scheduled events and
then generating an aggregated list of
those events for display. RX-0006C
(Rinard WS) Q/A 16. Claim 12 of the ’871
Patent is representative of the asserted
claims and requires taking data from two
sources (a first and second interactive
electronic program guide) and combining
them together to “generate a [single] list
of scheduled events.”
The concept of receiving data and
organizing it is plainly directed to an
abstract idea. . . .
...
The ’871 Patent does not claim to have
invented a system for displaying
interactive electronic program guides,
but rather the claims are directed to an
idea for how to use such a system with

583a
generic computer technology. See
Certain Activity Tracking Devices, Inv.
No. 337-TA-963, Order No. 40 (Mar. 3,
2016) at 22-23. The Federal Circuit has
made clear that claiming the use of
existing devices in purely functional
ways, as the claims of this patent do, is
insufficient to meet the requirements of
§ 101. TLI Commc’ns LLC Patent Litig.,
823 F.3d 607, 612 (Fed. Cir. 2016)
(finding
claims
invalid
as
the
specification “[did] not describe a new
telephone, a new server, or a new
physical combination of the two” and
“fail[ed] to provide any technical details
for the tangible components, but instead
predominately describe[d] the system
and methods in purely functional
terms”). Likewise, the use of generic
computer technology, however “specific”
to a particular environment, will not
rescue a claim from ineligibility if the
functionality described constitutes an
abstract idea.
Resps. Br. at 262-64.
Under step two of the Alice framework, Comcast
argues:
. . . the asserted claims are directed to
nothing more than the idea of receiving
different types of scheduled events and
generating an aggregated list of those
events for display, and the claims do not
recite any additional limitations that
were not well known to a POSITA. RX-

584a
0006C (Rinard WS) Q/A 8, 16. Indeed,
the asserted claims do not require any
specific hardware or equipment for
practicing the claims, but simply and
generically recite a “processor,” “first and
second interactive electronic program
guides,” “user television equipment
devices,” and “a memory.”
...
Furthermore,
simply
reciting
a
“processor,” “user television equipment
devices” and “memory”—all of which
were well known in the art and are
simply generic components used to carry
out the claimed abstract idea (RX-0006C
at Q/A 16)—does not add “significantly
more” to the abstract idea of receiving
different types of scheduled events and
generating an aggregated list and does
not transform the claims of the ’871
Patent
into
a
patentable-eligible
invention. . . .
Resps. Br. at 265. Comcast cites Netflix v. Rovi, 114 F.
Supp. 3d 927, as an example of “claims in another Rovi
patent” that were found patent-ineligible. Id. at 266.
For Alice’s first step, Rovi argues that claim 12 is
not directed to an abstract idea:
. . . rather than claiming a broad,
abstract
idea
like
aggregating
recordings, the claims of the ’871 Patent
recite a specific combination of
technology—hardware and software
components including a plurality of user

585a
television equipment devices (e.g., settop boxes) and at least two different
interactive electronic program guides,
along
with
precise,
step-by-step
functions that the hardware and
software components must perform.
Rinard Tr. 787-89. Together, the claimed
system provides the capability of
selecting programs of different types for
recording from at least two different
interactive electronic program guides,
aggregates the collective recording
events requests from the at least two
different interactive electronic program
guides, and provides for the display of
those aggregated events on each of the
different interactive electronic program
guides. Id. at 3:5-8:17; Rinard Tr. 787789, 793.
Rovi Br. at 255. Rovi then argues that Comcast has
ignored claim the “detailed” requirements of claim 12,
that the claims are directed toward “specific
improvements to the prior art systems,” and that
“inventions claimed in the ’871 Patent enhance data
communications and interoperability within a multiIPG system[.]” Id. at 255-56. Rovi then analogizes the
claims to the claims in Enfish and McRO, which the
Federal Circuit found patent-eligible. Id. at 256 (citing
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 133637 (Fed. Cir. 2016); McRO, Inc. v. Bandai Namco
Games Am. Inc., 837 F.3d 1299 (Fed. Cir. 2016)).
For Alice’s second step, Rovi argues:
Each of the asserted claims of the ’871
Patent, taken as an ordered combination

586a
of elements, represents a patent-eligible
“application” of a specific solution – not a
claim to an idea itself. See Alice, 134 S.
Ct. at 2355. The ’871 Patent teaches a
particular way of improving the
conventional operation of IPGs by
describing a system that allows users to
separately schedule unique recordings
through multiple IPGs and user
television equipment (e.g., set-top boxes)
and aggregate a list of scheduled
recordings that can be displayed on any
of their devices. Thus, the elements of
each asserted claim, in combination,
represent a significant inventive concept
. . . Respondents have identified no prior
system or art that contained each
component and function of [claim 12’s]
ordered combination. . . .
Rovi Br. at 257. Rovi also argues that claim 12 does
not preempt “other program guides” and faults
Comcast for not arguing preemption. Id. at 258, 260.
Rovi then analogizes the contested claims to claims the
Federal Circuit found eligible in DDR Holdings, LLC
v. Hotels.com, L.P., 773 F.3d 1245, 1257 (Fed. Cir.
2014), Bascom Glob. Internet Servs., Inc. v. AT&T
Mobility LLC, 827 F.3d 1341, 1349 (Fed. Cir. 2016),
and AmDocs (Israel) Limited v. Openet Telecom, Inc.,
841 F.3d 1288 (Fed. Cir. 2016). Id. at 258-59.
In reply, Comcast argues, inter alia, that the claims
recite generic hardware and that the claims cover
activities that humans perform without computers.
Resps. Reply at 90-91. Comcast again relies upon
Netflix and argues that Rovi improperly “seeks to
patent the idea of aggregating different types of events

587a
from multiple guides, limited only by the use of a
‘processor’ and ‘memory,’ both of which are generic
computer components of the type rejected in Alice.” Id.
at 92.
Rovi replies that the claims have “precise, step-bystep functions” and that “they focus on a specific
improvement to such a programming guide system
itself.” Rovi Reply at 100. Rovi then faults Comcast for
not discussing AmDocs, although it does not address
Netflix. Id.
a) Alice Step One: Abstract Idea
In Netflix v. Rovi, the Northern District of
California found that one of Rovi’s patents directed to
locating programs of interest to a user, based on
categories, was ineligible. 122 In particular, the district
court focused on claim 11 of U.S. Patent No. 7,945,929,
which follows:
11. A system for locating programs of
interest to a user, the system comprising:
a receiver that receives a plurality of
program listings, wherein at least one of
the program listings is associated with
two or more simple categories; and
a processor that generates at least one
combination category by:
identifying the two or more simple
categories associated with the at least
one program listing; and
Netflix, Inc. v. Rovi Corp., 114 F. Supp. 3d 927, 937 (N.D. Cal.
2015), aff’d, No. 2015-1917, 2016 WL 6575091 (Fed. Cir. Nov. 7,
2016) (Fed. Cir. R. 36).

122

588a
combining at least a subset of the
identified
simple
categories
associated with the at least one
program listing into the at least one
combination category, wherein the
combination category comprises more
than one of the identified simple
categories.
114 F. Supp. 3d at 938-39.
The administrative law judge finds that the
asserted claims are directed toward an abstract idea.
Here, in summary, claim 12 pertains to an IPG system
that:
1) Receives a selection from a first guide;
2) Receives a selection from a second guide;
3) Generates a list by aggregating the selections;
4) Displays the aggregated list; and
5) Stores the selections in a memory.
Claim 12 predominately focuses on aggregating a list
from two different inputs. The claim achieves this
through function-oriented limitations that are
executed using generic, conventional equipment and
software. 123 This is an abstract idea, devoid of a
Like claim 12, dependent claims 13, 17, and 18 are directed
toward abstract ideas. Claim 13 pertains to a guide “configured
to” select a program for recording, claim 17 pertains to allowing a
user to “cancel the recording” selected in claim 12, and claim 18
relates to a processor “configured to allow the user to obtain
additional information” about a selection. See Affinity Labs of
Texas, LLC v. Amazon.com Inc., 838 F.3d 1266, 1269 (Fed. Cir.
2016), cert. denied, No. 16-1047, 2017 WL 844050 (U.S. Apr. 17,
2017) (“the claims do no more than describe a desired function or
outcome, without providing any limiting detail that confines the
123

589a
concrete or tangible application. See Netflix v. Rovi,
114 F. Supp. 3d at 939 (finding that claims directed to
“the idea of using composite categories to define shows
[are] indeed abstract”); Broadband iTV, Inc. v.
Hawaiian Telcom, Inc., 136 F. Supp. 3d 1228, 1237 (D.
Haw. 2015) (finding patent directed to using
“hierarchical ordering based on metadata to facilitate
the display and locating of video content” in an
electronic program guide was an abstract idea), aff’d,
No. 2016-1082, 2016 WL 5361570 (Fed. Cir. 2016);
Tech. Dev. &, Licensing, LLC v. Gen. Instrument Corp.,
No. 07-cv-4512, 2016 WL 7104253, at *4-5 (N.D. Ill.
Dec. 6, 2016) (finding claims directed toward a
television control system for accessing favorite
channels lists was an abstract idea).
b) Alice Step Two: Inventive Concept
The administrative law judge has determined that
Comcast has not met its burden of demonstrating that
the ’871 Patent’s claims are directed toward ineligible
subject matter. 124
Rovi compares the ’871 Patent’s claims to Enfish,
“where the court deemed claims that focused on a
specific improvement to computer functionality
patent-eligible, the asserted claims here focus on a
specific improvement—the aggregation of event
settings (received from at least two different IPGs) in
a local or remote database so that a user can view all
claim to a particular solution to an identified problem. The purely
functional nature of the claim confirms that it is directed to an
abstract idea, not to a concrete embodiment of that idea.”).
The administrative law judge finds Comcast has not met its
burden under both the preponderance-of-the-evidence and clearand-convincing standards.
124

590a
events set from any of the IPGs in the system. This is
in contrast to ‘economic or other tasks for which a
computer is used in its ordinary capacity.’” Rovi Br. at
257 (quoting Enfish, LLC v. Microsoft Corp., 822 F.3d
1327, 1336-37 (Fed. Cir. 2016). Rovi then argues that
“The ’871 Patent teaches a particular way of improving
the conventional operation of IPGs by describing a
system that allows users to separately schedule
unique recordings through multiple IPGs and user
television equipment (e.g., set-top boxes) and
aggregate a list of scheduled recordings that can be
displayed on any of their devices.” Id. at 257-58.
Rovi then also draws an analogy between the
challenged claims and Bascom. See Rovi Br. at 259. In
Bascom, the Federal Circuit identified that the patenteligible inventive concept was “the installation of a
filtering tool at a specific location, remote from the
end-users, with customizable filtering features specific
to each end user. This design gives the filtering tool
both the benefits of a filter on a local computer and the
benefits of a filter on the ISP server.” Bascom, 827 F.3d
at 1350. Rovi argues:
Just as the claims to a filtering tool that
worked in an unconventional way in
Bascom were an inventive concept, the
solution claimed in the ’871 Patent has
no conventional counterpart. The
claimed solution of the ’871 Patent
improves the conventional operation of
IPGs by allowing users to separately and
seamlessly schedule unique recordings
through multiple IPGs and user
television equipment such as set-top
boxes and aggregate a list of scheduled
recordings from the different IPGs for

591a
display on any of the devices. The ’871
Patent here, like the patent in Bascom,
is “claiming a technology-based solution
(not an abstract-idea-based solution
implemented with generic technical
components in a conventional way) to …
overcome[] existing problems with” prior
art systems. See Bascom, 827 F.3d at
1351.
Rovi Br. at 259.
Comcast argues that Rovi’s analogy to Bascom “is to
no avail” because claim 12 is directed toward
conventional concepts that seek to patent “the idea of
aggregating different types of events from multiple
guides, limited only by” a processor and memory. See
Resps. Reply at 91-92.
Here, the particular arrangement of claimed
elements involves a system that facilitates input from
multiple guides, aggregates that input into a useful
form that allows a first user to see a second user’s
activity. The invention allows users to avoid
duplicative purchases and also provides parents with
a tangible system that offers “control over whether
they wish their children to watch the potentially
objectionable content of some news and sports
programs.” See JX-0004 at 9:56-59, 9:1-17; Rovi Reply
at 99 (“The asserted claims of the ’871 Patent enhance
data communications and interoperability within an
IPG system by enabling set-top boxes to share
information from multiple IPGs within the same
household so that one IPG can display data added or
modified by another IPG in the system.”). This is more
than just aggregating recordings, as Comcast argues.
Further, the physical limitations in claim 12 are

592a
meaningful, as the administrative law judge found
that the accused X1 products did not infringe at least
because Rovi had not shown that the X1 set-top boxes
include guides that satisfy limitation 12d. See
generally Section IV(D)(4)(a)(4)(c).
Accordingly, the administrative law judge has
determined that Comcast has not met its burden of
demonstrating that the ‘817 Patent lacks an inventive
concept.
8. Validity
a) Anticipation
At the outset, Comcast explains:
The prior art in this case presents two
kinds of invalidating reads. The first
kind has the first and second guides
executing on different devices, with the
devices communicating via a home
network. References that disclose guides
executing on different devices and
communicating via a home network
include Akamatsu, which is RX-0223;
Humpleman, which is RX-0224; and the
Ellis applications, which include RX0057, RX-0074, RX-0075, and RX-0076.
The second kind has the first and second
guides executing on the same device,
with the guides sharing the memory on
the device. References that disclose a
first and second guide executing on the
same device include Humpleman (RX0224), Alexander, which is RX-0225, and
Browne, which is RX-0226.

593a
Resps. Br. at 267 n.38; see also RX-0006C (Rinard WS)
at Q/A 51.
(1) Akamatsu (RX-0223)
Comcast argues that Japanese patent application to
Akamatsu et al. (RX-0223) (Japanese Patent App. No.
H11-177919) (“Akamatsu”) anticipates the ’871
Patent’s asserted claims. See Resps. Br. at 267-68.
Akamatsu’s U.S. counterpart, which would issue as
U.S. Patent No. 7,224,886, is cited on page 4 of the ’871
Patent. See JX-0004 at 4; RX-0223 at 1 (field (21) lists
Application No. H09-336796); U.S. Patent No.
7,224,886 at 1 (field (30) shows a foreign priority claim
to JP 09-336796).
Comcast presents a “two-device read” for
Akamatsu. See Resps. Br. at 267 & n.38; see also RX0006C (Rinard WS) at Q/A 51. Comcast’s entire
argument is:
Akamatsu presents a system with two
satellite television receivers, a video
recording device, and a television
monitor (among other devices). RX-0223
(Akamatsu). As Dr. Rinard explained in
his testimony, the disclosure of
Akamatsu anticipages [sic] the asserted
claims under Rovi’s construction, in
which there is no “single device”
restriction. RX-0006C at Q/A 53-58. Each
guide runs on a different receiver, and
Figure 8 discloses a “Recording Device
Reservation Overview,” which is a list of
events generated by aggregating the
received scheduled events. RX-0223 at
Fig. 8; RDX-0540. The list is accessible
for display from both guides. Moreover,

594a
the events are stored in a memory in the
video recording device. Akamatsu
discloses that this memory can be read
and written by the satellite television
receivers.
Dr. Delp’s assertion that Akamatsu
discloses only the user interface to
separate interactive electronic program
guides is incorrect. CX-1903C (Delp
RWS) at Q/A 228. Dr. Delp himself
repeatedly asserts that infringement is
apparent from the use and operation
(i.e., the user interface) of the X1 system.
Tr. 1027:3-14; 1029:15-24; 1040:15-22.
Dr. Delp cannot consistently claim to
find infringement based only observing
the user interface while also taking the
position that Akamatsu does not
anticipate because, in his view, it only
discloses a user interface.
Id. at 267-68; see also RX-0006C (Rinard WS) at Q/A
53-58, 68, 75, 83, 90, 97, 104, 110, 116, 122, and 128
(Dr. Rinard discusses Akamatsu in at least these
portions of his witness statement).
Rovi argues that “Akamatsu is not prior art because
it was ‘laid open’ on July 2, 1999, almost one year after
the inventions claimed in the ’871 Patent were
conceived.” Rovi Br. at 240 (citing CX-1903C (Delp
RWS) at Q/A 226; RX-0223 at 1). Rovi also argues that
Akamatsu also does not disclose a system with two
guides.
Based upon the arguments and evidence presented
in the briefs, the administrative law judge has
determined that Akamatsu is prior art to the ’871

595a
Patent. Comcast has put forth a prima facie case of
invalidity, but Rovi has not identified sufficient
rebuttal evidence to prove entitlement to an earlier
invention
date.
See
Taurus
IP,
LLC
v.
DaimlerChrysler Corp., 126 F.3d 1306, 1322 (Fed. Cir.
2013) (“After an accused infringer has put forth a
prima facie case of invalidity, the burden of production
shifts to the patent owner to produce sufficient
rebuttal evidence to prove entitlement to an earlier
invention date.”). The testimony that Rovi relies upon
is conclusory. See, e.g, CX-0004C (Delp WS) at Q/A 30
(“Based on information in the file history, I believe
StarSight had a working system to demonstrate each
of the features by the July 15, 2005 filing date of the
application for the ’871 Patent, and the provisional
applications show that StarSight was diligent to the
filing date.”). Dr. Delp also confirmed that CX-1343
(StarSight Interactive Program Guide Product
Definition), which is U.S. Provisional Application No.
60/094,564, did not disclose recording programs or
autotunes as events. See Tr. 1209-1213; CX-0004C
(Delp WS) at Q/A 29 (discussing CX-1343, CX-0871,
and the ’871 Patent’s priority date).
Nevertheless, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that Akamatsu teaches
a second interactive program guide (limitations 12a,
12c, 12d, and 12e). In Q/A 227, Dr. Delp opined as
follows:
Q227. Dr. Rinard contends that
Akamatsu anticipates the ’871
Patent. What is your opinion of his
argument?

596a
A227. I disagree with Dr. Rinard. As I
said above, Akamatsu is not prior art. It
also does not disclose each of the ’871
claim limitations. Dr. Rinard asserts
that Akamatsu discloses “the two guides
run on satellite broadcast receivers 100a
and 100b.” RX-006C (Rinard Witness
Statement) at A53. Dr. Rinard is
incorrect. To the extent that Akamatsu
discloses a first interactive electronic
programming guide, it never discloses a
second
interactive
electronic
programming guide.
Dr. Rinard repeatedly cites to Figure 6
and accompanying text of Akamatsu to
show the multiple interactive electronic
programing guides claimed in the ’871
Patent. However, Figure 6, and the
corresponding disclosure in paragraph,
34 teach that “a program guide is
displayed.” This singular program guide
is only displayed on one screen (e.g., a
liquid crystal display or monitor).
Akamatsu ¶ 42, 117. As shown in Figure
1 of Akamatsu (which Dr. Rinard relies
upon), there is only one monitor
connected to Akamatsu’s system.
An AV system in which various
AV device such as satellite
broadcast receivers 100a, 100b,
and a monitor 120 are connected
by a control bus 10, and timer
reservation portions 104, 114,
including
reservation
data

597a
management portions 105, 115,
are disposed within each AV
device.
RX-0223 (Akamatsu) at p.2. Indeed,
“guide” and “monitor” are always
referred to in the singular in Akamatsu.
Thus, to the extent “a program guide”
disclosed by Akamatsu is at least a “first
interactive electronic program guide”
(it’s not clear that is), there is no
disclosure of a “second interactive
electronic program guide.”
CX-1903C (Delp RWS) at Q/A 227 (emphasis in
original).
While Akamatsu teaches a second satellite
broadcast receiver (100b), the reference is too vague
and equivocal with regard to where the second
interactive program guide resides, what the second
guide does, and how it interacts with the first guide to
satisfy the clear-and-convincing standard. See Pfizer,
Inc. v. Apotex, Inc., 480 F.3d 1348, 1360 n.5 (Fed. Cir.
2007) (Clear and convincing evidence provides ‘“the
ultimate factfinder [with] an abiding conviction that
the truth of its factual contentions are highly
probable.’”) (quoting Colorado v. New Mexico, 467 U.S.
310, 316 (1984)); ActiveVideo Networks, 694 F.3d at
1327 (Fed. Cir. 2012) (same); see also CX-1903C (Delp
RWS) at Q/A 227.
(2) Alexander (RX-0225)
Comcast argues that published International
patent application to Alexander et al. (RX-0225) (Int’l
Pub. No. WO 1999/04561) (“Alexander”) anticipates
the ’871 Patent’s asserted claims. See Resps. Br. at

598a
268. Alexander is cited on page 5 of the ’871 Patent.
See JX-0004 at 5.
Comcast presents a “one-device read” for Alexander.
See Resps. Br. at 267 & n.38; RX-0006C (Rinard WS)
at Q/A 51. Comcast’s entire argument is:
In the RX-0225 (Alexander) references
[sic], theres [sic] is a single devices [sic],
with the first guide as a parent guide and
a second guide as a child guide. Both
guides can display a Watch/Record list
that includes the first and second events
of different types. As Dr. Rinard
explained in his testimony, Alexander
invalidates the asserted claims of the
’871 Patent under both parties’ proposed
claim constructions since it is in a single
device. RX-0006C at Q/A 59-61.
Resps. Br. at 268; see also RX-0006C (Rinard WS) at
Q/A 59-61, 69, 76, 84, 89, 91, 98, 103, 113, 123, and 129
(Dr. Rinard discusses Alexander in at least these
portions of his witness statement).
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Alexander teaches guides that are
located in the household (limitations 12d / elements i
and vii). 125 See RX-0849C (Rinard RWS) at Q/A 34
(“Claim 12 confirms that the IPG application must be
executed and embodied in the household instead of on
remote hardware located at a headend: “the first and

The administrative law judge previously construed “located in
a household” to mean “kept and used at home.” See Section
VI(D)(2)(b)(5).

125

599a
second interactive electronic program guides in the
household.” (emphasis added by witness)).
Further, with respect to the “shared memories”
element (limitation 12e / element ix), Comcast has
collected quotations from Alexander and Yuen without
explaining how those portions teach a memory
accessible to two guides. These deficiencies prevent
Comcast from satisfying its clear and convincing
burden. See Pfizer, 480 F.3d at 1360 n.5 (Fed. Cir.
2007) (Clear and convincing evidence provides “‘the
ultimate factfinder [with] an abiding conviction that
the truth of its factual contentions are highly
probable.’”).
(3) Browne (RX-0226)
Comcast argues that published International
patent application to Browne and Yurt (RX-0226) (Int’l
Pub. No. WO 1992/22983) (“Browne”) anticipates the
’871 Patent’s asserted claims. See Resps. Br. at 268.
Browne is cited on page 5 of the ’871 Patent. See JX0004 at 5.
Comcast presents a “one-device read” for Browne.
See Resps. Br. at 267 & n.38; see also RX-0006C
(Rinard WS) at Q/A 51. Comcast’s entire argument is:
Browne discloses first and second guides
executing on a multi-user recorder
player device. RX-0226. As Dr. Rinard
explained in his testimony, Browne
invalidates the asserted claims of the
’871 Patent. RX-0006C at Q/A 62.
Resps. Br. at 268; see also RX-0006C (Rinard WS) at
Q/A 62, 70, 77, 85, 89, 92, 99, 103, 105, 117, and 124
(Dr. Rinard discusses Browne in at least these portions
of his witness statement).

600a
The administrative law judge has determined that
Comcast has not shown, through clear and convincing
evidence, that Browne teaches guides that are located
in the household (limitations 12d / elements i, ii, and
vii). 126 See RX-0849C (Rinard RWS) at Q/A 34 (“Claim
12 confirms that the IPG application must be executed
and embodied in the household instead of on remote
hardware located at a headend: “the first and second
interactive electronic program guides in the
household.” (emphasis added by witness)).
Dr. Rinard’s testimony RX-0006C (Rinard WS) at
Q/A 77, for “interactive electronic program guides,”
element ii, follows:
Q77. What does Browne disclose
with regard to this element?
A77. RX-0226 (Browne) Figure 6, shown
in RDX-0528 presents an example screen
from an interactive electronic program
guide.
This is a reproduction of Figure 6:

The administrative law judge construed the term “interactive
electronic program guide” to mean “guide that allows navigation
through television program listings and causes display of
program information on user television equipment.”

126

601a

Browne describes this as a “stored program list”
selected form the main menu control screen. See RX0226 at 7, 26 (pages 5 and 24 of the specification) (“The
stored program list screen 600 shown in Fig. 6, may
preferably include list of all stored programs.”).
Browne also describes a “user control program” that
differs from the stored program list shown in Figure 6:
Controller 105 is a microprocessor which
preferably runs a user control program
and allows a user to access and control
the multi-source recorder player 100.
The user control section, which is
described in greater detail with respect
to Figs. 2-11, preferably acts similarly to
the graphical interface provided by the
Windows product sold by Microsoft Inc.
Selections are made via remote control
with cursor positioning device such as
mouse or trackball.
RX-0226 at 15 (page 13 of the specification); see also
id. at 16 (page 14 of the specification, which discusses

602a
using “an Apple Macintosh computer with multiple
screens”). Comcast has not clearly and convincingly
shown that Browne teaches an interactive program
guide that “allows navigation through television
program listings and causes display of program
information on user television equipment,” because
there is no discussion of how the system allows a user
to navigate through television program listings.
Further, Comcast has not shown that Browne teaches
limitation 12d, because there has not been a sufficient
showing that the guides are kept and used in the
household. See RX-0006C (Rinard WS) at Q/A 109-10
(Browne is not identified as meeting the “in the
household” limitation).
b) Obviousness
Comcast has relied upon the following references in
its obviousness arguments:
1)

Akamatsu (RX-0223): Japanese Patent App.
No. H11-177919

2)

Browne (RX-0226):
1992/22983

3)

Alexander (RX-0225):
1999/0456

4)

Humpleman (RX-0224):
6,288,716

5)

Ellis Reference #1 (RX-0057): U.S. Pat.
Pub. No. 2005/0251827 (Ellis ‘827 application)

6)

Ellis Reference #2 (RX-0074): U.S. Prov.
App. No. 60/093,292 (Ellis ‘292 “UV-73”
provisional application)

Int’l Pub. No. WO
Int’l Pub. No. WO
U.S. Patent No.

603a
7)

Ellis Reference #3 (RX-0075): U.S. Prov.
App. No. 60/097,527 (Ellis ‘527 “UV-99”
provisional application)

8)

Ellis Reference #4 (RX-0076): U.S. Pat.
Pub.
No.
2005/0028208
(Ellis
‘208
application).

9)

LaJoie (RX-0222): U.S. Patent No. 6,772,433

10) Knudson / Knudson ‘968 127 (RX-0066): U.S.
Pat. Pub. No. 2005/0240968
11) Prevue (RX-0072C):
Prevue Interactive
Reference Guide - DCT 1000, VI.2
12) Usui (RX-0236): U.S. Patent No. 5,808,694
13) Ho (RX-0221): U.S. Patent No. 6,622,307
14) Byrne (RX-0227): U.S. Patent No. 5,990,883
15) Hatakeyama (RX-0369):
Home Information Server

A. Hatakeyama

16) Knudson ‘888 (RX-0832):
“Provisional
Application for Patent No. UV-56 Prov.”
17) Yuen (RX-0204): Int’l Pub. No. WO 96/07270
18) A “standard operating systems textbook”
(RX-0229):
“The Design of the UNIX
Operating System (1st Edition) by Maurice
Bach”
19) A “standard operating systems textbook”
(RX-0235): “Operating Systems Design and
Implementation (2nd Edition) by Tanenbaum
and Woodhull”

127

Comcast’s nomenclature varies.

604a
20) A “standard operating systems textbook”
(RX-0228): “Distributed Operating Systems
Concepts and Design”
See generally Resps. Br., Section X(E)(3); RX-0006C
(Rinard WS), Section VI(2). 128
When examining Dr. Rinard, Comcast’s counsel
divided claim 12 into the following elements:
i.

A system for displaying interactive
electronic program guides, the system
comprising a plurality of user television
devices located in the household;

ii.

Interactive electronic program guides;

iii.

First and second interactive electronic
program guides;

iv.

Receiving a first event of a first type and a
second event of a second type;

v.

Generating a list of scheduled events by
aggregating received scheduled events;

vi.

Lists of received scheduled
accessible for display;

events

vii. Home networks;
viii. Shared memories; and
ix.

Memories for storing received first and
second events.

See generally RX-0006C (Rinard WS) at i-ii (table of
contents), Q/A 66-130.

Comcast has also filed two petitions for inter partes review of
the ’871 Patent that rely upon overlapping references.
128

605a
For reference, the following table compares
Comcast and Rovi’s breakdown of the element
subdivisions for claim 12:
Comcast’s

Rovi’s

Subdivisions

Subdivisions

i.

12pre and 12a

ii.

12pre and 12a

iii.

12a (and 12b-e)

iv.

12b and 12c

v.

12d

vi.

12d

vii.

12d

viii.

12e

ix.

12e

(1) Alexander (RX-0225), in combinationwith Humpleman (RX-0224), the Ellis
references (RX-0057, RX-0074, RX0075, and/or RX-0076), or Akamatsu
(RX-0223) (and Sinha (RX-0228) and
Ho (RX-0221))
Comcast’s entire obviousness argument for this
combination of references is:
Alexander anticipates the asserted
claims, as described above. Dr. Rinard
testified that Alexander could also be
combined with other references to render
obvious the asserted claims. RX-0006C
at Q/A 135-145. These combinations

606a
used Alexander in combination with
other references and multiple devices in
a house - invalidating the asserted
claims of the ’871 Patent under Rovi’s
proposed claim constructions and
apparent interpretation of the asserted
claims. Id.
Resps. Br. at 286.
Dr. Rinard opined that “Alexander is combined with
the knowledge of a person of skill in the art” and then
refers to Ellis and Ho. RX-0006 (Rinard WS) at Q/A
135. Dr. Rinard does not identify which claim
limitations are taught by Ellis or Ho, why one of
ordinary skill in the art would assemble these
references—Alexander, the Ellis references, or Ho—to
solve the problems identified in the art, or why one of
ordinary skill in the art would modify Alexander, the
primary reference. See Plantronics, 724 F.3d at 1354
(“Where, as here, the necessary reasoning is absent,
we cannot simply assume that ‘an ordinary artisan
would be awakened to modify prior art in such a way
as to lead to an obviousness rejection.’”); see generally
RX-0006C (Rinard WS) at Q/A 8-16, 65 (discussing the
state of the art). 129 Although Dr. Rinard opined that a
person of ordinary skill in the art would be motivated
to combine the references in “all of the combinations”
he presented “to obtain a system that better satisfies
user needs,” RX-0006C (Rinard WS) at Q/A 217, this
testimony is deficient because it does not provide a
rational basis for combining a particular combination
The
of references. See ActiveVideo Networks. 130
129

See n.92, supra.

In ActiveVideo Networks, the Federal Circuit affirmed the
grant of a JMOL that reversed jury’s finding of obviousness after

130

607a
remainder of Dr. Rinard’s testimony about additional
Alexander combinations, RX-0006C (Rinard WS) at
Q/A 136 (discussing a combination involving
“Humpleman, Ellis, or Akamatsu,” an alternative
combination involving no references, and another
alternative combination involving one of the systems
textbooks, RX-0228 (Sinha)), suffers the same
deficiencies. See id.; see also CX-1903C (Delp RWS) at
Q/A 248-49.
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(2) Akamatsu (RX-0223), in combination
with LaJoie (RX-0222), Alexander
(RX-0225),
Browne
(RX-0226),
Knudson (RX-0066), or Prevue (RX0072C) and/or the Knowledge of a
Person of Skill in the Art
Comcast’s entire obviousness argument for this
combination of references is:
finding that the expert’s “testimony is generic and bears no
relation to any specific combination of prior art elements. It also
fails, to explain why a person of ordinary skill in the art would
have combined elements from specific references in the way the
claimed invention does” ActiveVideo Networks, Inc. v. Verizon
Commc’ns, Inc., 694 F.3d 1312, 1328 (Fed. Cir. 2012) (emphasis
in original). The insufficient expert testimony was:
“The
motivation to combine would be because you wanted to build
something better. You wanted a system that was more efficient,
cheaper, or you wanted a system that had more features, makes
it more attractive to your customers, because by combining these
two things you could do something new that hadn’t been able to
do before.” Id. at 1328.

608a
As
described
above,
Akamatsu
anticipates the asserted claims of the
’871 Patent. Akamatsu could also be
combined as a system reference
disclosing multiple guides with guide
functionality references that disclose the
remaining required guide features. As
disclosed in Akamatsu, a first guide
executes on a first satellite receiver and
a second guide executes on a second
satellite receiver. LaJoie, Alexander,
Browne, Knudson, or Prevue and/or
knowledge of a person of skill in the art
disclose remaining guide elements. RX0006 at Q/A 146-150.
Resps. Br. at 286.
Dr. Rinard opined, as follows:
Q146. I would like to direct your
attention to RX-0223, which is the
Akamatsu
reference.
What
references would a person of
ordinary skill combine with the
Akamatsu reference?
A146. My combination reads combine
Akamatsu as a system architecture
reference disclosing multiple guides with
a guide functionality reference or
references that disclose the remaining
required guide features. I discussed the
details of those elements[.] As disclosed
in Akamatsu, a first guide executes on a
first satellite receiver and a second guide
executes on a second satellite receiver.
LaJoie, Alexander, Browne, Knudson, or

609a
Prevue and/or knowledge of a person of
skill in the art disclose the remaining
guide elements. The received first and
second events are stored in the memory
of the recording device as disclosed in
Akamatsu. This memory is accessible to
both guides via the home network as
disclosed
in
Akamatsu.
The
combinations invalidate the asserted
claims of the ’871 Patent under Rovi’s
proposed claim constructions.
Specifically, Akamatsu discloses a
system with satellite receivers 100a and
100b, a monitor, and a recording device
110 among other devices. The satellite
receivers “have the same constitution”
and both run interactive electronic
program guides. The first guide rims on
receiver 100a and the second guide runs
on receiver 100b. Akamatsu discloses
how the user can use the first guide
executing on receiver 100a to schedule a
first event of a first type (for example, a
record event) and a second guide
executing on receiver 100b to schedule a
second event of a second type (for
example, a playback event). Akamatsu
also discloses a list that includes the
events, with the list accessible for
display from either guide as the claims
require, as I testified about earlier.
RX-0006C (Rinard WS) at Q/A 146.
Dr. Delp opined that:

610a
. . . with respect to LaJoie, Alexander,
Browne, Knudson or Prevue, Dr. Rinard
has failed to identify with specificity (1)
any basis for combining these references
with Akamatsu; (2) any disclosure
within any of these references reflecting
that it would have been combined with or
incorporated into the system of
Akamatsu; and (3) how any such feature
or disclosure from these references
would have been combined with or
incorporated into the system of
Akamatsu.”
CX-1903C (Delp RWS) at Q/A 254.
Dr. Rinard does not explain how or why one of
ordinary skill in the art would assemble these
references—Akamatsu, LaJoie, Alexander, Browne,
Knudson, or Prevue and/or the knowledge of a person
of skill in the art—to solve the problems identified in
the art, or why one of ordinary skill in the art would
modify Akamatsu, the primary reference. See
Plantronics, Inc. v. Aliph, Inc., 724 F.3d 1343, 1354
(Fed. Cir. 2013) (“Where, as here, the necessary
reasoning is absent, we cannot simply assume that ‘an
ordinary artisan would be awakened to modify prior
art in such a way as to lead to an obviousness
rejection.’”). 131
The remainder of Dr. Rinard’s
testimony about the Akamatsu combinations just
rehashes the anticipation argument. RX-0006C
(Rinard WS) at Q/A 147-50 (Akamatsu is the only
reference discussed).

131

See n.92, supra.

611a
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(3) Browne (RX-0226), in combination
with LaJoie (RX-0222), Alexander
(RX-0225), Knudson (RX-0066), or
Prevue (RX-0072C) references and/or
the Knowledge of a Person of Skill in
the Art (and Knudson ‘888 (RX-0832))
Comcast’s entire obviousness argument for this
combination of references is:
As noted above, Browne anticipates the
asserted claims of the 871 Patent. It can
also be combined as a system
architecture
reference
disclosing
multiple
guides
with
a
guide
functionality reference or references that
disclose the remaining required guide
features. Dr. Rinard described the
details of how this would have been
accomplished. RX-0006 at Q/A 151-162.
Resps. Br. at 287.
Dr. Rinard’s testimony about Browne as a primary
reference essentially substitutes “Browne” for
Akamatsu. Compare RX-0006 (Rinard WS) at Q/A 146
with id. at Q/A 151. Although Dr. Rinard opines about
“remaining guide elements” that are missing from
Browne, he does not identify which claim limitations
are taught by the four references “and/or” the
knowledge of a person of skill in the art. See id. at Q/A
151. Further, Dr. Rinard does not explain how or why

612a
one of ordinary skill in the art would assemble these
references—Browne, LaJoie, Alexander, Knudson, or
Prevue and/or the knowledge of a person of skill in the
art—to solve the problems identified in the art, or why
one of ordinary skill in the art would modify Browne,
the primary reference. See Plantronics, 724 F.3d at
1354 (“Where, as here, the necessary reasoning is
absent, we cannot simply assume that ‘an ordinary
artisan would be awakened to modify prior art in such
a way as to lead to an obviousness rejection.’”). 132 The
remainder of Dr. Rinard’s testimony about the Browne
combinations mostly rehashes the anticipation
argument, with an unexplained reliance on Knudson
‘888 (RX-0832). See RX-0006C (Rinard WS) at Q/A 15362 (Dr. Rinard never introduces Knudson ‘888 or
explains why he is relying on it).
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(4) Humpleman
(RX-0224),
in
combination with either Knudson
(RX-0066),
LaJoie
(RX-0222),
Alexander (RX-0225), Prevue (RX0072C), or Browne (RX-0226)
Comcast’s entire obviousness argument for this
combination of references is:
The relevant combinations combine
Humpleman as a system architecture
reference with a guide functionality
132

See n. 92, supra.

613a
reference or references disclosing the
remaining guide elements. As Dr. Rinard
testified, there are two ways these
references could be combined: a “two
HTML guides” read, and a “one HTML,
one native guide” read. RX-0006 at Q/A
163-173.
Resps. Br. at 287. 133
Dr. Rinard opined that:
. . . Combining Humpleman with any of
the interactive electronic program guides
disclosed in Knudson, LaJoie, Alexander,
Browne, and/or knowledge of a person of
ordinary skill in the art in any one of the
following ways, results in an obvious
system that meets every limitation of the
asserted claims under Rovi’s proposed
construction.
RX-0006C (Rinard WS) at Q/A 163. Dr. Rinard then
presents two “reads,” each of which involve
combinations with “LaJoie, Alexander, Browne,
Knudson, or Prevue.” See id. at Q/A 164-65. Dr.
Rinard does not explain how or why one of ordinary
skill in the art would assemble these references—
Humpleman, LaJoie, Alexander, Browne, Knudson, or
Prevue—to solve the problems identified in the art, or
why one of ordinary skill in the art would modify
Humpleman, the primary reference. See Plantronics,
724 F.3d at 1354 (“Where, as here, the necessary
reasoning is absent, we cannot simply assume that ‘an
ordinary artisan would be awakened to modify prior
Humpleman is cited on page 4 of the ’871 Patent. See JX-0004
at 4.

133

614a
art in such a way as to lead to an obviousness
rejection.’”). 134
Further, Dr. Rinard has not clearly identified a
memory accessible to the first and second guides in
Humpleman (limitation 12e). See generally RX-0006C
(Rinard WS) at Q/A 111-119 (Humpleman is not
among the references discussed as having memory).
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(5) The Ellis references (RX-0057, RX0074, RX-0075, and/or RX-0076), in
combination with LaJoie (RX-0222),
Alexander (RX-0225), Browne (RX0026), Knudson (RX-0066), or Prevue
(RX-0072C) and/or the Knowledge of
a Person of Skill in the Art
Comcast’s entire obviousness argument for this
combination of references is:
RX-0057 (Ellis ‘827 application), RX0074 (Ellis ‘292 “UV-73” provisional
application), RX-0075 (Ellis ‘527 “UV-99”
provisional application), and RX-0076
(Ellis ‘208 application) are the Ellis
references. The Ellis non-provisionals
benefit from the priority date of the
provisional applications because those
provisional support the subject matter of
the
non-provisionals.
Notably,
134

See n.92, supra.

615a
throughout the extensive prosecution of
the ’871 Patent, Rovi failed to show that
Ellis was not prior art.
As Dr. Rinard explained in his
testimony, in these combinations Ellis is
the system architecture reference. Ellis
discloses a first device running a first
program guide and a second device
running a second program guide,
communicating
over
an
in-home
network. LaJoie, Alexander, Knudson,
Browne, or the Prevue guide and/or
knowledge of a person of skill in the art
are
program
guide
functionality
references that disclose the remaining
guide elements. RX-0006C at Q/A 174188. In particular, it would have been
obvious to combine references and
products like LaJoie and Prevue, for
example, which were developed by the
same company.
Resps. Br. at 287-88. 135
Dr. Rinard opines, as follows:
Ellis ‘827 (RX-0057) and Ellis ‘208 (RX-0076), which were
considered by the Examiner, are cited on page 4 of the ’871
Patent. See JX-0004 at 4. Ellis ‘292 (RX-0074) and Ellis ‘527 (RX0075) were also before the Examiner. See RX-0006C (Rinard WS)
at Q/A 20 (explaining that the “The examiner took the position
that the provisionals that Ellis and Ellis ‘208 relied on,
specifically Ellis application No. 60/093292 (“Ellis ‘292”), which is
RX-0074 and Ellis application No. 60/097527 (“Ellis ‘527”), which
is RX-0075, supported the claim rejections.”). See also CX-1903C
(Delp RWS) at Q/A 275 (providing background on the Ellis
references).
135

616a
Q174. Next I would like to direct
your attention to RX-0057, RX-0074,
RX-0075, and RX-0076, which are the
Ellis references. What references
would a person of ordinary skill
combine with Ellis?
A174. In these reads Ellis is the system
architecture reference. Ellis discloses a
first device running a first program
guide and a second device running a
second program guide. The devices
communicate over an in-home network.
LaJoie, Alexander, Knudson, or the
Prevue guide and/or knowledge of a
person of skill in the art are program
guide functionality references that
disclose the remaining guide elements
(first and second events of first and
second types, aggregating events into a
list accessible for display from both
guides, storing the events in a memory
accessible to both guides). In particular,
it would have been obvious to combine
references and products like LaJoie and
Prevue, for example, which were
developed by the same company.
For example, Knudson discloses a first
event of a first type (specifically, a
reminder event) and a second event of a
second type (specifically, a record event).
Alternatively, Knudson also discloses
reminder, auto-tune, and recording
events for individual programs and for
series. Knudson also discloses a single

617a
list of events that includes all upcoming
and reminder events. This list is
generated by aggregating the first and
second events. Alternatively, the other
guide references (LaJoie, Alexander,
Browne, and Prevue) as well as the
knowledge of a person of ordinary skill in
the art similarly disclose the required
claim elements. For example, Figure 14
from LaJoie discloses an “Events
Summary,” which is a list of events
generated by aggregating the received
scheduled events. This is visible in RDX0557. These reads invalidate the
asserted independent claims of the ’871
Patent under Rovi’s proposed claim
constructions.
RX-0006C (Rinard WS) at Q/A 174.
Dr. Rinard has not identified which of the four Ellis
references is a primary reference for this obviousness
combination, why one of ordinary skill in the art would
assemble these nine references “and/or” ordinary
knowledge—the Ellis references, LaJoie, Alexander,
Browne, Knudson, or Prevue and/or the knowledge of
a person of skill in the art—to solve the problems
identified in the art, or why one of ordinary skill in the
art would modify the unspecified primary reference.
See Plantronics, 724 F.3d at 1354 (“Where, as here, the
necessary reasoning is absent, we cannot simply
assume that ‘an ordinary artisan would be awakened
to modify prior art in such a way as to lead to an
obviousness rejection.’”); See generally RX-0006C

618a
(Rinard WS) at Q/A 8-16, 65 (discussing the state of
the art). 136
Further, Dr. Rinard has not clearly identified where
Ellis explains aggregating a list of scheduled events
(limitation 12d). See CX-1903C (Delp RWS) at Q/A
284. Dr. Rinard opines, as follows:
Q180. Rovi contends that Ellis ‘292 is
silent on aggregating the list of the
received scheduled events. What is
your opinion of this argument?
A180. In my analysis of Ellis, this
limitation is disclosed in a program guide
functionality reference and/or knowledge
of a person of skill in the art combined
with Ellis.
RX-0006C (Rinard WS) at Q/A 179-80.
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(6) LaJoie (RX-0222), in combination
with either Alexander (RX-0225), Usui
(RX-0236), Byrne (RX-0227), Browne
(RX-0226) and/or the Knowledge of a
Person of Skill in the Art
Comcast’s entire obviousness argument for this
combination of references is:
LaJoie discloses a comprehensive set of
IPG features. As Dr. Rinard explained, it
136

See n. 92, supra.

619a
would have been obvious for a POSITA to
combine LaJoie with any number of
architecture references. RX-0006C at
Q/A 189-204.
Resps. Br. at 288. 137
Dr. Rinard does not identify which claim limitations
are taught by LaJoie, why one of ordinary skill in the
art would assemble these references—LaJoie,
Alexander Usui, Byrne, Browne, and/or the knowledge
of a person of skill in the art—to solve the problems
identified in the art, or why one of ordinary skill in the
art would modify LaJoie, the primary reference. See
Plantronics, 724 F.3d at 1354 (“Where, as here, the
necessary reasoning is absent, we cannot simply
assume that ‘an ordinary artisan would be awakened
to modify prior art in such a way as to lead to an
obviousness rejection.’”); see generally RX-0006C
(Rinard WS) at Q/A 8-16, 65 (discussing the state of
the art); CX-1903C (Delp RWS) at Q/A 287 (“Despite
Dr. Rinard’s assertions, he offers no evidence for why
a person of ordinary skill in the art, using only LaJoie,
would be motivated to combine LaJoie with a system
with multiple set-top boxes using a shared memory
system.”). 138
Further, Dr. Rinard has not clearly identified a
second guide in LaJoie (limitations 12a and 12c). See
CX-1903C (Delp RWS) at Q/A 288 (“neither Alexander
nor LaJoie disclose multiple interactive program
guides”); see generally RX-0006C (Rinard WS) at Q/A
LaJoie, which was considered by the Examiner, is cited on page
4 of the ’871 Patent. See JX-0004 at 4; CX-1903C (Delp RWS) at
Q/A 292.
137

138

See n. 92, supra.

620a
82-89 (LaJoie is not among the references discussed as
having first and second interactive electronic program
guides).
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(7) Hatakeyama
(RX-0369),
in
combination with LaJoie (RX-0222),
Alexander (RX-0225), Knudson (RX0066), or Prevue (RX-0072C) and/or
the Knowledge of a Person of Skill in
the Art
Comcast’s entire obviousness argument for this
combination of references is:
Hatakeyama can be combined with other
references as a system architecture
reference disclosing multiple guides with
a guide functionality reference or
references that disclose the remaining
required guide features. RX-0006C at
Q/A 205.
Resps. Br. at 288. This is the opinion relating to
Hatakeyama:
Q205. Next I would like to direct
your attention to RX-0369, which is
the Hatakeyama reference. What
references would a person of
ordinary
skill
combine
with
Hatakeyama?

621a
A205. My reads combine Hatakeyama as
a
system
architecture
reference
disclosing multiple guides with a guide
functionality reference or references that
disclose the remaining required guide
features. As disclosed in Hatakeyama,
the first guide executes on a first home
personal computer and the second guide
executes on a second home personal
RX-0006C (Rinard WS) at Q/A 205.
Comcast’s counsel did not directly ask Dr. Rinard
what Hatakeyama teaches or how Hatakeyama in
combination with four references “and/or” the
knowledge of a person of ordinary skill teaches each
and every limitation of claim 12. For instance, Dr.
Rinard has not explained how Hatakeyama, or
Hatakeyama in combination with these references,
teaches a memory accessible to the first and second
interactive electronic program guides or a system that
receives a second event of a second type (sent from a
second IPG). See RX-0006C (Rinard WS) at Q/A 20910. Thus, Comcast’s argument fails to analyze the
scope and content of the prior art or the differences
between the prior art and claim 12. See Graham v.
John Deere Co. of Kansas City, 383 U.S. 1, 17 (1966)
(“Under § 103, the scope and content of the prior art
are to be determined; differences between the prior art
and the claims at issue are to be ascertained; and the
level of ordinary skill in the pertinent art resolved.”);
KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 407 (2007)
(in addition to secondary considerations, these “factors
continue to define the inquiry that controls.”).
Accordingly, the administrative law judge has
determined that Comcast has not shown, through

622a
clear and convincing evidence, that the asserted
claims, as a whole, would have been obvious in view of
the above references.
(8) Secondary Considerations
Rovi argues that the ’871 Patent was a commercial
success and that a long-felt need both support its
argument that the ’871 Patent is not obvious. See Rovi
Br. at 250-54.
Comcast argues that “contemporaneous conception
of the claimed subject matter by others in the same
field” indicates that the ’871 Patent is obvious. Resps.
Br. at 288. Comcast also argues that “evidence and
factors cited by Rovi are conclusory, and the same
features were successful in the prior art” and that Rovi
has failed to meet the nexus requirement. Id. at 28889.
(a) Commercial Success
The administrative law judge has determined that
Rovi has not made a showing that the ’871 Patent was
commercially successful because it has not shown that
any products infringe or practice the ’871 Patent. 139
In the alternative, if it is later found that the X1 or domestic
industry products discussed above infringe or practice the ’871
Patent, then the evidence shows that the ’871 Patent has had
some commercial success, as the products have enjoyed financial
success and the corresponding guides embodied the claimed
features. See generally CX-0004C (Delp WS) and CX-1903C (Dr.
Delp opines that various guides incorporate the patented
features); CX-1905C (Putnam RWS) at Q/A 194-17 (testifying
about various guides and set-top boxes, their sales, and demand
for multi-room DVR). However, Rovi’s showing is weak, because
it has not shown that its success is not due to other factors, such
as advertising and marketing or “other economic and commercial
factors unrelated to the quality of the patented subject matter.”
139

623a
(b) Licensing Success
The
Federal
Circuit
specifically
requires
“affirmative evidence of nexus where the evidence of
commercial success presented is a license, because it is
often cheaper to take licenses than to defend
infringement suits.” In re Cree, 818 F.3d at 703 (Fed.
Cir. 2016) (quotations omitted). The Federal Circuit
explained that
When the specific licenses are not in the
record, it is difficult for the court to
determine if “the licensing program was
successful either because of the merits of
the claimed invention or because they
were entered into as business decisions
to avoid litigation, because of prior
business relationships, or for other
economic reasons.”
Id. (citing In re Antor Media Corp., 689 F.3d 1282,
1294 (Fed. Cir. 2012)). 140 In general, the existence of a
See In re Huang, 100 F.3d 135, 140 (Fed. Cir. 1996) (rejecting
argument where patentee did not explain “that the product was
purchased due to the claimed features”); In re DBC, 545 F.3d
1373, 1384 (Fed. Cir. 2008). In particular, Rovi has not
sufficiently shown that multi-room DVR drove consumer
purchasing decisions rather than other factors (such as demand
for cable television itself).
In Antor Media, 689 F.3d at 1294, the Federal Circuit criticized
evidentiary support that is similar to the present investigation:

140

Antor merely lists the licensees and their respective sales
revenue. The licenses themselves are not even part of the
record. Antor provides no evidence showing that the
licensing program was successful either because of the
merits of the claimed invention or because they were
entered into as business decisions to avoid litigation,
because of prior business relationships, or for other

624a
license alone is insufficient to show that the licensed
patent was a commercial success. See Iron Grip
Barbell Co. v. USA Sports, Inc., 392 F.3d 1317, 1324
(Fed. Cir. 2004) (“Without a showing of nexus, “the
mere existence of . . . licenses is insufficient to
overcome the conclusion of obviousness” when there is
a strong prima facie case of obviousness.”); see also
Amazon.com, 2016 WL 1170773 at *17 (“Mr.
Holtzman’s testimony lists patent family licenses and
revenue, but does not discuss the merits of the
challenged claim as they relate to any particular
license for the ’956 patent in the portfolio of licenses. .
. . [this] does not establish whether a specific license
(or licensing clause, etc.) for the ’956 patent occurred
because of the merits of the challenged claim, the
merits of unchallenged claims, for other patented
inventions, or for other economic reasons related to the
whole ’956 patent family.”).
[

] 141

The evidence does not show, however, that these
licenses are based on the merits of the patents as
opposed to a business decision to avoid litigation, a
prior business relationship, or other economic reason.
See In re Cree, 818 F.3d at 703; In re Antor Media, 689
F.3d at 1294.

economic reasons. The Board was thus correct in holding
that the existence of those licenses is, on its own,
insufficient to overcome the prima facie case of
obviousness.
It is not readily apparent whether the licenses are in the record
or if Dr. Putnam read them. See generally CX-1905C (Putnam
RWS) at Q/A 75-79.

141

625a
[ ] Accordingly, the administrative law judge has
determined that Rovi has not shown that licensing of
the ’871 Patent—apart from the portfolio—has been a
success.
(c) Long-Felt Need
Rovi argues:
The ’871 Patent satisfied a long-felt need
for coordination across IPGs in a
household. CX-1904C (Williams RWS) at
Q/A 98-101; CX-1903C (Delp RWS) at
Q/A 298-299; CDX-0205C (’871 Reviews).
Persons of ordinary skill in the art at the
time of the inventions would have
considered the networked whole home
DVR solutions too complex, costly, and
impractical. CX-1904C (Williams RWS)
at Q/A 101.
Rovi Br. at 254.
Long-felt need “is analyzed as of the date of an
articulated identified problem and evidence of efforts
to solve that problem.” Texas Instruments Inc. v. U.S.
Int’l Trade Comm’n, 988 F.2d 1165, 1178 (Fed. Cir.
1993).
Rovi’s evidence consists of conclusory expert
testimony. See, e.g., CX-1904C (Williams RWS) at Q/A
98-101; CX-1903C (Delp RWS) at Q/A 298-299. Mr.
Williams and Dr. Delp did not identify the date when
the long-felt need first began (i.e., Mr. Williams and
Dr. Delp did not analyze the need “as of the date of an
articulated identified problem and evidence of efforts

626a
to solve that problem,” per Texas Instruments). 142 Id.
Further, the exhibit cited, CDX-0205 (reviews for the
’871 Patent), discusses the ’556 Patent, not the ’871
Patent. (The “AnyRoom DVR” mentioned in Q/A 299 is
not discussed in CDX-0205.)
Accordingly, the administrative law judge has
determined that this testimony is insufficient to find a
long-felt need, and that this factor does not support
non-obviousness.
(d) Contemporaneous
Others

Invention

by

Comcast argues:
The objective facts showing the
obviousness of the Asserted Claims
include the contemporaneous conception
of the claimed subject matter by others
in the same field, including all of the
references discussed above. For example,
the Akamatsu reference, regardless of
whether it is prior art, shows
simultaneous creation of a solution. RX0223. These independent entities
developed and reduced to practice
similar subject matter in their products
and patent applications that were
developed before the filing of Rovi’s nonprovisional U.S. Patent application.
Resps. Br. at 288.
While Mr. Williams discussed the 1992, 1998, and 1999
timeframes, those discussions were not cited by Rovi, and the
discussions relate to the priority dates of the patents, not the
dates when the alleged need arose.

142

627a
The administrative law judge has determined that
Comcast’s contemporaneous inventions argument
provides only negligible support for a finding of
obviousness. To begin, many of the references Comcast
relies upon were disclosed to the Examiner during
prosecution. While Akamatsu is close prior art, it does
not
weigh
significantly
in
the
secondary
considerations analysis because the reference is too
vague and equivocal with regard to where the second
interactive program guide resides, what the second
guide does, and how it interacts with the first guide to
show that it was a simultaneous invention.
(e) Weighing
the
Secondary
Consideration Factors
On the whole, the administrative law judge has
determined that Rovi’s secondary considerations
arguments and the evidence cited therein is of
negligible probative value. The evidence cited by
Comcast is also negligible and does not have a
perceptible impact on the obviousness calculus.
c) Indefiniteness
Comcast argues:
Claim 12 includes the term “A processor
configured to: Receive, . . . ; Receive, . . . ;
and generate . . . , wherein the list of
scheduled events is accessible for display
from any of the first and the second
interactive electronic program guides in
the household.” Although it does not
contain the word means, it recites
“function without reciting sufficient
structure for performing that function.”
Williamson, 792 F.3d at 1349. [The] term

628a
does not identify a well-known structure
that would have been well-understood
without resort to the specification, and
the specification does not provide
sufficient structure. Simple recitation of
the function performed by the general
purpose computer is not an algorithm.
See Triton Tech of Texas, LLC v.
Nintendo of Am., Inc., 753 F.3d 1375,
1378-79 (Fed. Cir. 2014) (holding that
accumulating data by a numerical
“integrator means,” as a “conventional
microprocessor,” was invalid because
“merely using the term ‘numerical
integration’ does not disclose an
algorithm—i.e.,
a
step-by-step
procedure—for performing the claimed
function.”). So too with the “processor”
element of Claim 12. The parts of the
specification that discuss this element do
not discuss any code or algorithm. See,
e.g., JX-0004 (’871 Patent) at 1:53-65,
7:53-59. Figs. 1A-1C, and 31.
Resps. Br. at 289-90.
The administrative law judge construed the term
“processor” and addressed Comcast’s indefiniteness
argument in Section VI(D)(2)(b)(7), above. Claim 12 is
not indefinite.
E. U.S. Patent No. 8,578,413
1. Overview of the ’413 Patent (JX-0005)
The ’413 Patent, entitled “Interactive television
program guide with remote access,” issued on
November 5, 2013. The ’413 Patent is a continuation

629a
of the ’801 Patent. It claims the benefit of U.S.
Provisional Application No. 60/097,527, filed August
21, 1998, and U.S. Provisional Application No.
60/093,292, filed July 17, 1998. The ’413 Patent shares
“essentially the same specification” as the ’263 Patent
and the ’801 Patent. See Resps. Br. at 63; see also Rovi
Br. at 41 (explaining the patents “stem from a
common, parent application filed on July 16, 1999”).
The ’413 Patent relates to interactive television guide
programs that operate on local devices, such as a settop box, and remote devices, such as a laptop or mobile
phone.
2. Claim Construction
a) Level of Ordinary Skill in the Art
The parties address the level of ordinary skill for the
’263, ’801, and ’413 Patents together. See Rovi Br. at
42; Resps. Br. at 70.
The administrative law judge already determined
that a person having ordinary skill in the relevant art
would have a bachelor’s degree in computer science,
electrical engineering, computer engineering, or a
similar discipline and two to four years of experience
or familiarity with computer networks, graphical user
interfaces, and the associated computer software. See
Section IV(B)(2)(a).
b) Disputed Claim Term
(1) Records the television program
corresponding to the selected television
program listing using the local
interactive television program guide
equipment

630a
The parties dispute the meaning of the phrase
“records the television program corresponding to the
selected television program listing using the local
interactive television program guide equipment,”
which only appears in the claims 1 and 10 of the ’413
Patent. The parties have proposed the following
constructions:
Rovi’s Proposed
Construction
records using the local
interactive television
program guide
equipment the television
program corresponding
to the selected television
program listing

Comcast’s Proposed
Construction
Comcast does not
clearly present a
construction in its posthearing brief.

See Rovi Br. at 53; Resps. Br. at 79-81.
Rovi’s argument, which is comingled with three
other disputed phrases, appears above at Section
IV(B)(2)(c)(10). See Rovi Br. at 53-54 (Section
V(C)(2)(h)). Comcast’s argument, which is comingled
with five other disputed phrases, appears above at
Section IV(B)(2)(c)(10). See also Resps. Br. at 79-81
(Section VIII.B.3.c).
The administrative law judge construes the phrase
“records the television program corresponding to the
selected television program listing using the local
interactive television program guide equipment” to
mean “records using the local interactive television
program guide equipment the television program
corresponding to the selected television program
listing.” Comcast has not presented a cogent

631a
argument, with sufficient intrinsic (Comcast does not
cite the ’413 patent or its prosecution history) or
extrinsic support, to warrant construing the phrase
otherwise.
The above construction comports with the claim
language, neither expands nor narrows the claim
language, and is consistent with how one of ordinary
skill in the art would read the claims. See CX-0002C
at Q/A 126, 141.
3. Literal Infringement
a) Claims 1, 3, 5, 9, 10, 14, and 18
Rovi asserts claims 1, 3, 5, 9, 10, 14, and 18 of ’413
Patent. Rovi Br. at 60. Dependent claims 3, 5, 9, 14,
and 18 follow:
•

3. The system defined in claim 1 wherein the
remote access interactive television program
guide obtains the user profile over the Internet
communications path.

•

5. The system defined in claim 1 wherein the
remote access interactive television program
guide obtains the user profile in response to a
user input.

•

9. The system defined in claim 1 wherein the
remote access interactive television program
guide obtains program guide data based on the
user profile.

•

14. The method defined in claim 10 wherein the
remote access interactive television program
guide obtains the user profile in response to a
user input.

632a
•

18. The method defined in claim 10 wherein the
remote access interactive television program
guide obtains program guide data based on the
user profile.

JX-0005 at 40:52-42:34.
Rovi relies upon the same evidence and argument
presented for claim 1 of the ’263 Patent to argue that
claims 1, 3, 5, 9, 10, 14, and 18 are infringed. See
generally Rovi Br., Section V(E)(1). For instance, the
conclusion of Rovi’s argument for limitation 1c of the
’263 Patent is typical for its allegations that the X1 and
Legacy products infringe the ’413 patent:
The evidence and arguments made with
respect to ’263 claim element 1b [sic, 1c]
also show that the following claim
elements are met by the X1 system: ’263
claim elements 14c, 17b; ’413 claim
elements 1b, 1c, 3, 5, 9, 10b, 10c, l0d,
14, 18; and ’801 claim elements 1a, 5a,
10a, 10c, l0d, 15a, 15c. CDX-0306C (CX0002C (Shamos WS) at Q/A 216)
(demonstrating X1 and Legacy Guide
infringement); CX-1634, -1638 (X1
Screenshots for the ’413 Patent); CX1636, 1641 (X1 Screenshots for the ’801
Patent); CX-0002C (Shamos WS) at Q/A
250, 259, 267, 269, 275, 278, 281, 288,
290, 293, 295, 297, 301, 314, 324, 330,
332, 342, 346.
Rovi Br. at 76 (emphasis added; Rovi’s conclusion for
the Legacy products, see Rovi Br. at 77, correlates the
“evidence and arguments made with respect to ’263
claim element 1c” with the same limitations and
dependent claims listed for the X1 products).

633a
Similarly, Comcast has not presented any separate,
substantive non-infringement arguments for the ’413
Patent. See generally Resps. Br. at Sections
VIII(C)(2)(a), VIII(C)(2)(b) (the sub-headings indicate
Comcast’s arguments are directed toward the ’263,
’413, and ’801 Patents collectively or the ’263 and ’413
Patents together). In particular, Comcast’s arguments
do not distinguish between discrete claims or claim
limitations. For example, Comcast identifies the three
Remote Access patents in sub-headings and does not
identify any claim numbers or alphanumeric claim
limitations in its subsequent argument. Two
exemplary images follow:

See Resps. Br. at 92-97 (Sections VIII(C)(2)(a)(iii),
VIII(C)(2)(a)(iv)) (highlighting added). In reply,
Comcast adds:
The entirety of Rovi’s infringement
analysis addresses only claim 1 of the
’263 patent. There is no analysis of any

634a
dependent claim, nor is there any
analysis of any claim of the ’413 or ’801
patents. See Compl. PoHB at 62-84.
While Respondents agree that all of the
independent claims of the ’263 and ’413
patents are essentially identical and
Rovi’s approach is reasonable for those
five claims, Respondents do not agree
this is proper for the remaining claims.
. . . ’413 claims 3, 5, 9, 14, and 18 recite
limitations related to how the remote
guide receives a user profile. See JX-0005
(’413 patent) at 40:52-54, 40:58-60, 41:13, 42:22-24, and 42:29-31. There is no
discussion of these limitations in Rovi’s
discussion of ’263 element 1c. See Compl.
PoHB at 72-77. Given the complete
failure to even discuss these limitations,
the Commission should find that Rovi
has failed to carry its burden to prove
infringement of ’263 claim 2, ’413 claims
3, 4, 9, 14, and 18, and ’801 claims 1, 5,
10, and 15.
Resps. Reply at 27-28 (emphasis in original). The
evidence Rovi cites for limitation 1c (for the accused X1
and Legacy products) is sufficient to demonstrate
infringement for claims 3, 5, 9, 10, 14, and 18, and
besides stating that it disagrees, Comcast has not
explained (or cited any evidence demonstrating) how
the accused products do not infringe. Thus, Comcast
has not rebutted Rovi’s showing that claims 3, 5, 9, 10,
14, and 18 are infringed.
Accordingly, the administrative law judge finds that
Comcast infringes 1, 3, 5, 9, 10, 14, and 18 of ’413

635a
Patent for the same reasons it infringes claims 1, 2, 14,
and 17 of the ’263 Patent.
a) Comcast’s
Additional
Infringement Arguments

Non-

Comcast and Rovi both rely upon the same evidence
and arguments presented for the ’263 Patent to argue
that Comcast’s alternative designs do or do not
infringe claims 1, 5, 10, and 15 of the ’413 Patent. The
administrative law judge already determined that
Comcast cannot avoid infringement simply because
there may be alternative ways to use the accused
products, see Section IV(B)(c)(1), and that
determination also applies here.
4. Indirect Infringement
a) Induced Infringement of the ’413
Patent
Neither Rovi nor Comcast presents separate
argument, apart from the ’263 Patent, as to whether
Comcast does or does not induce infringement of
claims 1, 3, 5, 9, 10, 14, and 18 of ’413 Patent. See
generally Rovi Br., Section V(E)(4); Resps. Br., Section
VIII(C)(3). Accordingly, the administrative law judge
finds that Comcast induces infringement of claims 1,
3, 5, 9, 10, 14, and 18 of ’413 Patent for the same
reasons it induces infringement of claims 1, 2, 14, and
17 of the ’263 Patent.
b) Contributory Infringement of the ’413
Patent
Neither Rovi nor Comcast, ARRIS, or Technicolor
presents separate argument, apart from the ’263
Patent, as to whether ARRIS or Technicolor does or
does not contribute to the infringement of claims 1, 3,

636a
5, 9, 10, 14, and 18 of ’413 Patent. See generally Rovi
Br., Section V(F); Resps. Br., Section VIII(C)(4).
Accordingly, the administrative law judge finds that
ARRIS and Technicolor do not contributorily infringe
claims 1, 3, 5, 9, 10, 14, and 18 of ’413 Patent for the
same reasons does not contributorily infringe claims 1,
2, 14, and 17 of the ’263 Patent.
5. Domestic Industry - Technical Prong
Rovi does not clearly identify which claims of the
’413 Patent are practiced by the domestic industry
products. See generally Rovi Br., Section V(G). Rather,
Rovi explains:
For purposes of brevity, Rovi refers to the
’263 Patent claim elements below and
indicate relevant claim elements of the
’413 and ’801 patents wherever the same
evidence is applicable in showing
whether the claim element has been met.
Relevant claim language as to all claims
is provided in full at CDX-0307C (CX0002C (Shamos WS) at Q/A 383-433).
Rovi Br. at 97. For instance, the conclusion of Rovi’s
argument for the preamble of claim 1 of the ’263 Patent
is typical for the Rovi (i-Guide, Passport, and
TotalGuide xD) and Verizon FiOS domestic industry
products:
The evidence and arguments made with
respect to ’263 claim element 1pre also
show that the following claim elements
are met by the Rovi systems: ’263 claim
elements 14pre, 17pre; ’413 claim
elements 1pre, 10pre; and ’801 claim
elements 1pre, 1a, 5pre, 5a,. [sic] 10pre,

637a
10a, 10c, 15pre, 15a, 15c. CX-0002C
(Shamos WS) at Q/A 434-35, 444-45, 45253, 474-75, 488-89, 490-92, 504-07, 51619, 522-23, 532-35, 538-39.
Rovi Br. at 98 (emphasis added).
Comcast does not present a separate argument,
apart from the ’263 Patent, as to whether Rovi does or
does not satisfy the technical prong. See generally
Resps. Br., Section VIII(D) (Comcast even
acknowledges the similarities to its non-infringement
case: “The asserted claims do not read on the asserted
DI systems for many of the same reasons that the
claims do not read on Comcast’s. RX-0850C (Wigdor
RWS) at Q/A 231.” Resps. Br. at 114).
Accordingly, the administrative law judge finds that
the Rovi and Verizon products practice claims 1, 3, 5,
9, 10, 14, and 18 of ’413 Patent for the same reasons
those products practice claims 1, 2, 14, and 17 of the
’263 Patent.
6. Patent Eligibility and Validity
Comcast does not present any separate arguments,
i.e., arguments apart from the ’263 Patent, that
contend the ’413 Patent’s asserted claims are ineligible
or invalid. See generally Resps. Br., Section VIII(E).
The administrative law judge already determined
that claims 1, 2, 14, and 17 of the ’263 Patent are not
ineligible and not invalid. See Section IV(B)(7).
Accordingly, the administrative law judge has
determined that Comcast has not shown, through
clear and convincing evidence, that claims 1, 3, 5, 9,
10, 14, and 18 of ’413 Patent are ineligible or invalid.
F. U.S. Patent No. 8,621,512

638a
1. Overview of the ’512 Patent (JX-0006)
The ’512 Patent, entitled “Interactive television
program guide with simultaneous watch and record
capabilities,” issued on December 31, 2013. The
application that would issue as the ’512 Patent,
Application No. 13/280,215, was filed on October 4,
2011. The ’512 Patent claims the benefit of several
applications, the earliest of which is Provisional
Patent Application No. 60/089,487, which was filed on
June 16, 1998. The ’512 Patent discloses a television
guide that allow users to record a program while
simultaneously watching another program.
Comcast has introduced the ’556 Patent as
addressing “multi-tuner conflict resolution.” See Tr.
37.
2. Claim Construction
a) Level of Ordinary Skill in the Art
Rovi argues:
A person of ordinary skill in the art
relevant to the ’512 Patent would have a
bachelor’s degree in electrical or
computer engineering or computer
science, or equivalent experience, and
two to four years of experience relating to
computer
programming
and
user
interfaces. CX-0003C (Balakrishnan WS)
at Q/A 185; CX-1920C (Balakrishnan
RWS) at Q/A 19-22.
Rovi Br. at 134-35.
Comcast argues:
A POSITA of the ’512 patent as of Rovi’s
proposed date of invention would have a

639a
bachelor’s degree in computer science,
electrical
engineering,
computer
engineering, or a similar discipline, and
at least two to three years of experience
or familiarity with electronic program
guides, television video signal processing,
graphical user interfaces, and associated
computer software, or the equivalent
experience gained through work in
industry or research. See RX-0004C
(Bederson WS) at Q/A 48.
Resps. Br. at 170.
b) Disputed Claim Terms
(1) Preambles
The preamble of claim 1 is “A method for resolving
a conflict when multiple operations are performed
using multiple tuners controlled by an interactive
television program guide, the method comprising[.]”
JX-0006 at 18:35-37. The preamble of claim 13 is “A
system for resolving a conflict when multiple
operations are performed using multiple tuners
controlled by an interactive television program guide,
the system comprising!)]” Id. at 19:41-43.
The parties disagree on whether the preambles are
limiting. This is Rovi’s entire opening argument:
The preambles of claims 1 and 13 are not
limiting. CX-0003C (Balakrishnan WS)
at Q/A 191; see also, Rowe v. Dror, 112
F.3d 473, 478 (Fed. Cir. 1997).
Rovi Br. at 135. Dr. Balakrishnan opined:

640a
Q191. Do you have any opinions
regarding the preamble of claims 1
and 13?
A191. Yes, I do. In my opinion, when
reading the preamble of claims 1 and 13
in light of the claims, the specification,
and the file history of the ’512 Patent, one
of ordinary skill in the art would not have
understood the preamble to have been
limiting to either claim. I do not believe
that the preamble is necessary to the
scope of the claim, because the body of the
claim is complete without the preamble.
In other words, claim 1 could read, “A
method comprising: . . .” together with
the remainder of the steps of claim 1 and
would
have
been
completely
understandable to the person of ordinary
skill in the art. The same is true for claim
13. It could read, “A system comprising: .
. .” and it still would have been
understandable to a person of ordinary
skill in the art.
CX-0003C (Balakrishnan WS) at Q/A 191.
This is Comcast’s entire argument:
The preamble of a patent claim is
limiting when “breathes life and meaning
into the claim” In re Wertheim, 541 F.2d
257 (CCPA 1976). It does just that here.
The claims recite an alert that is provided
upon “determining neither a first tuner
nor a second tuner are available to
perform the requested tuning operation.”
This is the “conflict” condition described

641a
in the preamble, and explains why, when
the first tuner and second tuner are
occupied, the user must cancel a function
to free a tuner. This is disclosed clearly in
the specification. JX-0006 at 10:25-47,
Figs. 4(b), 4(c). The limitation imposed by
the “conflict” condition is consistent with
the opinions expressed by Rovi’s own
expert, who opined that the first and
second tuner are not occupied until the
“nth tuner” (i.e, the last tuner) is
occupied. Tr. 329:23 - 330:15.
Resps. Br. at 171.
Rovi’s entire reply is:
Respondents contend that the preambles
of claims 1 and 13 are limiting. Resps. Br.
at 170-71. Respondents, however, failed
to address the construction of the
preambles in their Pre-Hearing Brief and
have waived any argument that the
preamble is limiting. Resps. P.H. Br. at
510-47; G.R. 7. And, in any event, the
preamble is not limiting for the reasons
established in Rovi’s Post-Hearing Brief.
Compls. Br. at 135.
Rovi Reply at 46.
Comcast does not address the preambles in its
reply. See generally Resps. Reply at 50-76 (discussing
the ’512 Patent).
The parties have requested the administrative law
judge to construe subparts of the preambles (e.g.,
“resolving a conflict when multiple operations are
performed using multiple tuners” and “interactive

642a
television program guide”). The parties do not explain
why it is necessary to construe further the entire
preambles (the only words not separately construed
are “1. A method for . . . [resolving a conflict] . . .
controlled by an . . . [IPG] . . ., the method comprising:”
and “13. A system for . . . [resolving a conflict] . . .
controlled by an [IPG] . . ., the system comprising:”).
The administrative law judge has determined it is not
necessary to rule on the preambles where the
constituent parts are already addressed separately.
Cf. Sulzer Textil, 02 Micro, Biotec Biologische
Naturverpackungen, and U.S. Surgical Corp.
(2) Tuner
The term “tuner” appears throughout the claims
and specification. The parties have proposed the
following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

hardware and/or software “The term ‘tuner’ is used in
that obtains the portion of its plain and ordinary sense
the input signal that is
in the ’512 patent to refer to
requested by the user
a device that tunes or
selects a desired TV
channel, i.e. a desired
frequency out of an entire
frequency band: ‘[t]he
unprocessed television
signal on line 206 is
provided to set-top box 112.
The unprocessed television
input signal on line 206 is
then received by tuner 202
and tuner 204 which
process the signal by

643a
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction
decoding it and tuning to
desired television
channels’ JX-0006 (’512
patent) at 6:19-23
(emphasis added); RX0847C (Bederson RWS) at
Q/A 17.”

See Rovi Br. at 135; Resps. Br. at 171.
Rovi argues:
One of ordinary skill in the art would
have understood the claim term “tuner”
to mean “hardware and/or software that
obtains the portion of the input signal
that is requested by the user.” CX-0003C
(Balakrishnan WS) at Q/A 198-99; 20205. For example, Figures 2(a) and 2(b)
show two “tuners” having, as input, the
raw “television input signal” received
from the head end, and, as output,
“processed signals”—i.e., the portion of
the input signal requested by the user—
that are sent directly to the television or
the VCR for playback or recording. Id. at
Q/A 203. The ’512 Patent specifically
states that a digital tuner may include
additional components, such as a Q/AM
demodulator—a component essential for
creating the “processed signal” by
extracting information from the received,
and selected, raw television signal. JX-

644a
0006 (’512 Patent) at col. 5, lns. 36-58;
CX-0003C (Balakrishnan WS) at Q/A
202; RX-0847C (Bederson RWS) at Q/A 7;
Balakrishnan Tr. 369.
As shown in the ’512 Patent, the two
tuners, 202 and 204, “process” the
received and selected signal by “decoding
it and tuning to desired television
signals” which are then output as
“processed
signals”
to
television
equipment. JX-0006 (’512 Patent) at col.
6, lns. 20-23; CX-0003C (Balakrishnan
WS) at Q/A 39. The ’512 Patent
specification
discloses
numerous
examples of tuners, including, among
others, digital tuners, which may contain
an analog tuner, a decoder such as an
MPEG-2 decoder, a demodulator, such as
a quadrature amplitude modulation
(“Q/AM”)
demodulator,
and
a
demultiplexer such as a MPEG-2
demultiplexer that is used to extract the
portion of the television input signal that
is desirable to the user and corresponds
to a particular television program or
channel. JX-0006 (’512 Patent) at col. 5,
lns. 44-58; CX-0003C (Balakrishnan WS)
at Q/A 40. Thus, as understood from the
specification, the “tuner” obtains the
user’s desired television channel, outputs
a processed signal for that channel that
can be played back on a television or be
recorded, and may include other
components,
such
as
a
Q/AM
demodulator or MPEG-2 demultiplexer

645a
necessary for processing the received
signal into a signal viewable on a
television.
Respondents contend that “tuner” means
“an electronic circuit used to selectively
receive RF signals in a desired frequency
channel and convert them into audio and
video signals.” Respondents’ construction
is far too limiting with respect to the term
“electronic circuit” and “to selectively
receive RF signals in a desired frequency
channel.” CX-0003C (Balakrishnan WS)
at
Q/A
206
(emphasis
added).
Respondents’ construction also seeks to
impermissibly limit the claimed “tuner”
only to a device for selecting a signal;
excluding from the scope of the claimed
“tuner” (at least in their expert’s noninfringement opinions) the processing of
the signal—and the components (Q/AM
demodulator
and
MPEG-2
demultiplexers)—that do the processing.
Tuners, as used in the ’512 Patent, are
not limited solely to an electronic circuit
for receiving only in “a” (singular)
“desired frequency channel.” As relevant
to the infringement dispute, Respondents
contend—in direct contradiction to the
teachings of the ’512 Patent—that the
Q/AM demodulators in the accused
products cannot be part of the “tuner”
because the “tuner” and “Q/AM
demodulators” are separate electronic
circuits. But see JX-0006 (’512 Patent) at
col. 5, lns. 44-58 (discussing the “digital

646a
tuner”
as
including
a
“Q/AM
demodulator” among other components
necessary for “processing” the received
and selected raw television signal into a
signal viewable on television).
Rovi Br. at 135-137.
Comcast argues:
The term “tuner” is used in its plain and
ordinary sense in the ’512 Patent to refer
to a device that tunes or selects a desired
TV channel, i.e. a desired frequency out
of an entire frequency band: “[t]he
unprocessed television signal on line 206
is provided to set-top box 112. The
unprocessed television input signal on
line 206 is then received by tuner 202 and
tuner 204 which process the signal by
decoding it and tuning to desired
television channels.” JX-0006 (’512
Patent) at 6:19-23 (emphasis added); RX0847C (Bederson RWS) at Q/A 17. But
this meaning cannot encompass all
hardware or software “that obtains the
portion of the input signal that is
requested by a subscriber” as Rovi
contends. RX-0847C at Q/A 6. Rather, the
tuner performs the particular function of
selecting
a
particular
frequency
containing the desired channel. RX0847C at Q/A 14. The STB contains
additional equipment, beyond the tuner,
to process the selected channel. See JX0006 at 5:44-58; RX-0847C (Bederson
RWS) at Q/A 7. Rovi’s proposal sweeps in

647a
all of this additional equipment that is
used for extracting content for viewing
(i.e. anything that “obtains the portion of
the input signal”), rather than equipment
that tunes to the relevant channel. RX0847C at Q/A 6, 14. Video processing
software, as well as numerous pieces of
hardware (e.g., antennas, processors,
wiring) would all be swept in to Rovi’s
construction.
In contrast, Respondents’ construction is
fully supported by the specification and
the claims. The very disclosure that Rovi
relies upon makes clear that the tuner
must select a particular frequency, even
though the extended tuner architecture
may include additional components to
process the selected frequency, separate
from the tuner and that components such
as the demodulator (i.e. components
other than the “tuner”) are included and
necessary to extract/process the desired
signal, but are not used to select the
specific frequency required. See RX0847C at Q/A 7; JX-0006 at 5:44-58 (cited
by Dr. Balakrishnan in CX-0003C at Q/A
202).
“Tuner” is also defined, in the dictionary
definition used by Rovi’s own expert (see
CX-0003C (Balakrishnan WS) at Q/A
201), as a “circuit or device that can be set
to select one signal from a number of
signals in a frequency band.” RDX-1203
(RX-0307 (The Illustrated Dictionary of
Electronics, 7th Ed.) at 683); RX-0847C at

648a
Q/A 11. But despite relying on this
definition, Rovi still proposes a
construction that eliminates the concept
of (1) a circuit, or (2) selecting a signal
from the incoming range of frequencies.
In contrast, additional components, other
than the “tuner,” such as the
demodulator (such as the Q/AM
demodulator discussed in JX-0006 (’512
Patent) at 5:44-58) have the role of
recovering information from the selected
frequency. See RX-0846C (Garcia WS) at
Q/A 16-18. Rovi’s proposal of “obtains the
portion of the input signal,” appears
aimed at capturing these components,
which are not a “tuner.” For example, the
dictionary Dr. Balakrishnan cites also
defines a demodulator as “a circuit that
recovers the information from a
modulated analog or digital signal;” Dr.
Balakrishnan agreed to the same
definition during deposition. RX-0307
(The
Illustrated
Dictionary
of
th
Electronics, 7 Ed.) at 177; RX-0818
(Balakrishnan Dep, Ex. 13); RX-0847C at
Q/A 13. He also confirmed that the tuner
and
Q/AM
demodulator
are
fundamentally different components that
perform different steps. RX-0847C at Q/A
14. This raises greater questions about
the breadth of Rovi’s proposal.
Rovi’s construction also extends to
“software” tuners. But there is no
disclosure, either in the intrinsic or
extrinsic record, of any “software” tuners,

649a
and it is altogether unclear what such a
“software” tuner would be. CX-0003C
(Balakrishnan WS) at Q/A 204-205
(relying on his belief the patent does not
foreclose software tuners, rather than
any actual disclosure). In fact, Rovi’s
expert testified that software that
captures frames of video (e.g., performs a
freeze frame), would be swept into Rovi’s
construction of “tuner,” because it
“obtain[s] the portion of the input signal
that is requested by the user.” RX-0847C
(Bederson RWS) at Q/A 15. This breadth
is untenable. And of course, it ignores the
very dictionaries that Rovi cites, all of
which disclose a “tuner” at the time of the
invention as hardware (e.g., a circuit).
RX-0847C (Bederson RWS) at Q/All; RX0307 (The Illustrated Dictionary of
Electronics, 7th Ed.) at 683; RX-0862
(Mod. Dictionary of Elecs (1999)) at 807
(defining tuner as “[a] radio or TV
receiving circuit); RDX-1207 (RX-0817
(DTV Handbook) at 415-16 (2001
textbook describing a digital tuner as an
electronic circuit); RX-0847C at Q/A 17
(Rovi’s expert agreeing that the DTV
handbook was a text a POSITA might
reference to understand the term “tuner”
at the time of invention, as shown in
RDX-1208).
...
Resps. Br. at 171-74 (Comcast’s final paragraph about
a “tuning operation” is omitted).

650a
Rovi replies:
A “tuner” is “hardware and/or software
that obtains the portion of the input
signal that is requested by the user.”
Compls. Br. at 135-37. Respondents
contend that Rovi’s construction is
improper because, under Rovi’s proposed
construction, the tuner does more than
“perform[] the particular function of
selecting
a
particular
frequency
containing the desired channel.” Resps.
Br. at 171 (ignoring that under
Respondents’
proposed
“tuner”
construction the “tuner” also does more
than “select a particular frequency”—it
also “converts” the selected signals “into
audio and video signals.”). Specifically,
Respondents’ criticize Rovi’s use of the
word “obtaining” in its proposed
construction, because use of this word
improperly “sweeps in . . . additional
equipment that is used for extracting
content for viewing (i.e., anything that
‘obtains the portion of the input signal’),
rather than the equipment that tunes to
the relevant channel.” Id.
As a threshold, Rovi does not place any
particular emphasis on the word
“obtains” in its proposed construction of
“tuner.” Rovi would take no issue with
replacing the word “obtains” in its
proposed construction with the use of the
word “select” (as in Respondents’
proposed construction) or the use of the
word “extract” (as used in the ’512 Patent

651a
specification, JX-0006 (’512 Patent) at
col. 5, ln. 56). See generally Compls. Br.
at 136.
The crux of the dispute related to this
term comes down to its application in the
infringement analysis and whether the
“tuner”—in
addition
to
including
components necessary to “obtain” (or
“select” or “extract”) a portion of the input
signal—may also include components
(like “Q/AM demodulators”) necessary to
“process” the selected signal into the
portion of the signal “requested by the
user.” Compls. Br. at 135-37 (Rovi setting
forth evidence showing that the “tuner”
in the ’512 Patent may do more than
signal selection—it may also process the
signal into an output viewable by the
user); Resps. Br. at 171 (criticizing Rovi’s
construction for “sweep[ing] in . . .
additional equipment that is used for
extracting content [from the selected
signal] for viewing . . .”). But, and
contrary to Respondents’ criticisms, the
specification makes clear that in addition
to selecting a portion of the input signal,
the “tuner” may also “process” the
selected signal and may therefore contain
the “additional components” necessary to
perform this “processing.” Compls. Br. at
135-37 (explaining that the disclosed
embodiments in Figs. 2(a) and 2(b) show
a “processed” signal output by the
“tuners” and that the specification (JX0006 (’512 Patent) at col. 5, lns. 44-58)

652a
discloses an embodiment of a “digital
tuner”
including
the
components
necessary for this “processing” such as
“an MPEG-2 decoder,” a “quadrature
amplitude
modulation
(‘Q/AM’)
demodulator,”
and
an
“MPEG-2
demultiplexer.”).
That the “tuner” may additionally
“process” the obtained (or selected or
extracted) signal, and may therefore
contain the additional components (like
“Q/AM demodulators”) necessary for that
processing, is recognized by both parties’
constructions of this term. Rovi’s
construction requires that the “tuner”
“obtain” (or “select” or “extract”) the
“portion of the input signal that is
requested by the user.” See Compls. Br.
at 135 (Rovi explaining that the “portion
of the input signal requested by the user”
corresponds to what the user has
“requested” to view on his or her
television—i.e. it is the selected and
processed
signal).
Similarly,
Respondents’ construction requires that
the “tuner” “selectively receive RF
signals in a desired frequency channel
and convert them into audio and video
signals.” Id. (emphasis added). Without
additional components like the “Q/AM
demodulator,” there is no “conversion” of
the “selectively received RF signals. . . .
into audio and video signals” as
Respondents’ construction requires. Id.
at 159 (testimony by Comcast engineer

653a
Albert Garcia confirming that without a
Q/AM demodulator, there is no
“conversion” of the selected signal into
audio and video signals); id. at 135-37.
Thus, embodiments where the claimed
“tuner” additionally processes the
selected portion of the input signal—-and
the components that do that additional
processing
(such
as
a
Q/AM
demodulator)—should not be excluded
from the proper construction of this term
(or the application of this term to the
infringement dispute). Compls. Br. at
136-37.
Rovi Reply at 47-48.
Comcast replies:
Rovi declines to rely upon the dictionary
definition that its own expert, Dr.
Balakrishnan, identifies as the plain and
ordinary meaning of “tuner”: “circuit or
device that can be set to select one signal
from a number of signals in a frequency
band.” CX-0003C (Balakrishnan WS) at
Q/A 201-202. Respondents’ construction
however, is consistent with this
dictionary definition, and the ’512
disclosure, and makes clear the concept
that a tuner selects a single frequency out
of many. RX-0847C (Bederson RWS) at
Q/A 11, 16-17.
Rovi’s
criticism
of
Respondents’
construction, based on discussion
regarding Q/AM demodulators and

654a
“processing a signal,” is misguided. The
sole point of Respondents’ discussion on
this issue is that a Q/AM demodulator “by
itself cannot be a ‘tuner.’” Id. at Q/A 7-10,
13-14. This would eliminate the central
role of a tuner, as described in Dr.
Balakrishnan’s own cited dictionary
definition is “selecting a signal” (i.e., RF
frequency). Id. at Q/A 14; see also JX0006 (’512 Patent) at 5:44-58; 6:19-23.
And Rovi never addresses the overbreadth of its construction which can
encompass anything that obtains a
portion of the desired signal; this could
entail equipment before the tuner, such
as an antenna, and equipment after the
tuner, such as frame capture software.
RX-0847C at Q/A 6, 15.
Rovi’s argument that Respondents’
construction excludes “processing,” is
also incorrect. Respondents’ construction
recites “convert[ing] the [selected
frequency] into audio and video signals,”
which is a type of “processing.” And
further,
Rovi’s
argument
that
Respondents’
construction
excludes
“processing” is inconsistent with the
opinion of Rovi’s own expert, who argues
that Respondents’ construction requires
processing to create audio/video signals.
CX-0003C at Q/A 347 (“Each of the four
boxes, however, would not meet
Comcast’s construction for tuner, because
Comcast’s construction further requires
that the tuner convert the RF signal . . .”).

655a
Rovi’s arguments are mere distractors,
and fail to address the fundamental
shortcoming
of
its
proposal—it
eliminates “selecting of a frequency”
which is the core function of a “tuner.” In
fact, under Rovi’s construction, a
component that performs only the
processing (e.g., extraction of a signal,
such as performed by a Q/AM
demodulator) would constitute a “tuner.”
Id. RX-0847C at Q/A 8-10, 14-17. This
simply cannot be correct, as no POSITA
would understand a Q/AM demodulator
to be a “tuner” in any sense of the term.
See RX-0847C at Q/A 10, 14.
Resps. Reply at 50-51.
The administrative law judge construes “tuner” to
mean “an electronic circuit used to selectively receive
a desired frequency out of an entire frequency band.”
See RX-0847C (Bederson RWS) at Q/A 5; RDX-1203
(RX-0307 (The Illustrated Dictionary of Electronics,
7th Ed.) at 683); RX-0862, Mod. Diet, of Elecs. (1999)
at 807; RX-0817 (DTV Handbook, The Revolution in
Digital Video).
Rovi’s construction is unduly broad, insofar as it
replaces a known, discrete, physical component with a
broad conception of the term. 143 For example, Rovi’s
Although Rovi’s construction is predominately functional, that
alone is not necessarily improper. See Funai Elec. Co., Ltd. v.
Daewoo Electronics. Corp., 616 F.3d 1357, 1366 (Fed. Cir.2010)
(“The use of. . . functional language to construe and explain a
claim term is not improper. A description of what a component
does may add clarity and understanding to the meaning and
scope of the claim.”). However, construing the claim as Rovi

143

656a
construction offers that a tuner is essentially
“[anything] that obtains the portion of the input signal
that is requested by the user.” 144 This construction
would also categorize unrelated components, such as
an antenna, as a tuner. Rovi’s construction thus
impermissibly expands the meaning that one of skill
in the art would have attributed to a tuner at the time
of the invention, to include software tuners. See RX0847C (Bederson RWS) at Q/A 17-17.
Comcast’s construction comports with the
specification’s description of the tuner: “[t]he
unprocessed television signal on line 206 is provided to
set-top box 112. The unprocessed television input
signal on line 206 is then received by tuner 202 and
suggests would broaden the term in a manner that undermines
the public notice function. See Athletic Alternatives, Inc. v. Prince
Mfg., Inc., 73 F.3d 1573, 1581 (Fed. Cir. 1996) (“Where there is an
equal choice between a broader and a narrower meaning of a
claim, and there is an enabling disclosure that indicates that the
applicant is at least entitled to a claim having the narrower
meaning, we consider the notice function of the claim to be best
served by adopting the narrower meaning.”); see also White v.
Dunbar, 119 U.S. 47, 51-52 (1886) (“Some persons seem to
suppose that a claim in a patent is like a nose of wax, which may
be turned and twisted in any direction, by merely referring to the
specification, so as to make it include something more than, or
something different from, what its words express. The context
may, undoubtedly, be resorted to, and often is resorted to, for the
purpose of better understanding the meaning of the claim; but not
for the purpose of changing it, and making it different from what
it is. The claim is a statutory requirement, prescribed for the very
purpose of making the patentee define precisely what his
invention is; and it is unjust to the public, as well as an evasion
of the law, to construe it in a manner different from the plain
import of its terms.”).
With regard to extrinsic evidence, Rovi’s construction is only
supported by expert testimony.

144

657a
tuner 204 which process the signal by decoding it and
tuning to desired television channels.” JX-0006 (’512
Patent) at 6:19-23 (emphasis added); RX-0847C
(Bederson RWS) at Q/A 17 (Dr. Bederson explains that
“‘Tuner’ is used in its plain and ordinary sense in the
’512 patent, to refer to a device that tunes to a desired
frequency (i.e., that could be carrying a desired
television program).’”).
Further, the extrinsic evidence Rovi and Comcast
cite indicate that a tuner is a circuit:
•

“Tuner” is also defined, in the dictionary
definition used by Rovi’s own expert (see CX0003C (Balakrishnan WS) at Q/A 201), as a
“circuit or device that can be set to select one
signal from a number of signals in a frequency
bandy RDX-1203 (RX-0307 (The Illustrated
Dictionary of Electronics, 7th Ed.) at 683); RX0847C (Bederson RWS) at Q/A 11.

•

RX-0862, Mod. Diet, of Elecs. (1999) at 807
(emphasis added): “Tuner: in the broad sense, a
device for tuning. Specifically, in radio-receiver
practice: 1. A packaged unit capable of
producing only the first portion of the functions
of a receiver and delivering the rf, IF, or
demodulated information to some other
equipment. 2. That portion of a receiver that
contains the circuit that are tuned to a
resonance at the received-signal frequency and
those which are tuned to the local-oscillator
frequency. 3. A radio or TV receiving circuit;
a high-fidelity component containing such
circuits.”

•

See also RX-0817 (DTV Handbook, The
Revolution in Digital Video), which Dr.

658a
Balakrishnan agreed that was a text a person of
ordinary skill in the art might reference to
understand the term “tuner” at the time of
invention. The “tuner” description from RX0817 is reproduced below:

659a

(3) Multiple tuners
The term “multiple tuners” appears in claims 1 and
13 and in the specification. The parties have proposed
the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“multiple tuners” has its Comcast does not clearly
plain and ordinary
present a construction in its
meaning, where the
post-hearing brief.
plain and ordinary
meaning is “more than
one tuner.”
See Rovi Br. at 137; Resps. Br. at 182.
Rovi’s entire argument for this term follows:
One of ordinary skill would have
understood the term “multiple tuners” to
have its plain and ordinary meaning of
“more than one tuner.” CX-0003C
(Balakrishnan WS) at Q/A 207. The

660a
specification is consistent with this
meaning. Id.
Respondents contend that “multiple
tuners” does not need to be construed;
however, should construction be deemed
necessary, they contend that the term
should be construed as—”at least two
different tuners for selecting RF signals
in
different
frequency
channels.”
Respondents’ construction is redundant
and it unnecessarily and improperly adds
the word “different”—there is no
requirement that “multiple tuners” be
“different” electronic circuits that each
receive signals in “different frequency
channels.” CX-0003C (Balakrishnan WS)
at Q/A 207. See Linear Tech. Corp. v. ITC,
566 F.3d 1049, 1055 (Fed. Cir. 2009)
(affirming Commission holding that
ALJ’s claim construction that required a
second and third circuit “be entirely
distinct
without
common
circuit
elements” was too narrow, because the
second and third circuits could contain
overlapping components). Contrary to
this authority, and as applied by
Respondents’ expert in the infringement
dispute, Respondents contend that the
identified “tuners” must be entirely
distinct electronic circuits and that no
“tuner” can share any circuit or
component with any other “tuner.”
Rovi Br. at 137-38.
This is Comcast’s entire argument:

661a
During
prosecution
of
the
‘952
application, which is in the same family
as the ’512 Patent, the inventors
distinguished their invention from the
prior art by explaining the difference
between the multiple tuners of their
invention, and a single tuner used in
cited prior art. See RX-0360.483 (U.S.
Patent Application No. 11/147,952) (“the
‘952 Application”) (arguing past rejection
based on Banker, stating “In Banker,
‘multiple services provided on the
physical channel may be accessed using
only a single tuner . . . Banker never
discusses providing multiple services
using multiple tuners.”); see also RX0847C (Bederson RWS) at Q/A 42-45.
The applicant also acknowledged that
multiple services - such as video and text
- could be obtained using a single tuner,
and that this would fall outside the scope
of their invention. Id. The invention
required that the multiple programs
(services) be provided using multiple
tuners.
And while the parties’ constructions may
not seem far apart, Rovi somehow reads
their construction, of “more than one
tuner” (“multiple tuners”) and “a tuner
other than the ‘first tuner” (“second
tuner”) to encompass anything that
outputs multiple programs. This is an
impermissible attempt to recapture claim
scope in an attempt to read the asserted
claims on the accused products which,

662a
like Banker, contain a single tuner to
provide multiple services. Computer
Docking Station Corp. v. Dell, Inc., 519
F.3d 1366, 1379 (Fed. Cir. 2008)
(Patentee cannot “recapture claim scope
disavowed during prosecution to prove
infringement.”)
Resps. Br. at 182.
Rovi replies:
Having construed the term “tuner,” there
should be no real dispute between the
parties regarding the meaning of the
claim term “multiple tuners.” Compls. Br.
at 137 (explaining that under Rovi’s
construction ‘“multiple tuners’ has its
plain and ordinary meaning . . . [of] ‘more
than one tuner’” and that Respondents’
construction is, in relevant part, “at least
two different tuners.”). While the parties’
constructions are facially similar,
Respondents apply these constructions in
the infringement context to require that
the “multiple tuners” comprise wholly
different, and entirely separate, tuner
circuits—such that no one “tuner” can
share any components or circuits with
any other “tuner.” Resps. Br. at 182.
Thus, while not expressly stated within
their proposed construction for this
term—Respondents’ application of these
claim terms in the infringement context
is tantamount to adding a requirement to
both constructions that “multiple tuners”
requires “at least two wholly different

663a
tuners where those at least two wholly
different tuner circuits do not overlap at
all and do not share any components.” Id.
Any such addition to either parties’
proposed construction (or application as
such in the infringement context) is
inconsistent with how the term “multiple
tuner” is used in the ’512 Patent as well
as binding Federal Circuit case law.
Compls. Br. at 152-160 (explaining why
the Accused Products have “multiple
tuners.”); see also id. at 137 (citing the
Federal Circuit’s Linear Technologies
case, and explaining that the Federal
Circuit reversed a finding that required
that the claimed “second circuit” and
“third circuit” be entirely separate and
non-overlapping
circuits
to
find
infringement, just as Respondents’
incorrectly argue here), 159 (same)).
Moreover, and in support of their attempt
to exclude the X1 Accused Products from
infringement, Respondents point to a
statement made by the applicants in the
‘952 application that they assert shows
that Rovi has “disclaimed” infringement
by circuits— like the Broadcom RF Front
End SoCs in the Accused Products.
Resps. Br. at 182. In support of their
“disclaimer” assertion, Respondents
mischaracterize
the
patentees’
statements during the prosecution of the
‘952 application regarding the Banker
reference. Id.

664a
As the patentees correctly explained
during the prosecution of the ‘952
application: “Banker focuses on a system
that combines video signals into a
composite video signal and creates
virtual channels, so that only a single
tuner is necessary.” RX-0360 (App. No.
11/147,952) at 483 (emphasis in original).
The single tuner in Banker does not
output multiple separate television
channels (or multiple separate streams of
“converted audio and video signals”), as
Respondents contend. Resps. Br. at 182.
Instead, and entirely unlike the claims of
the ’512 Patent (and entirely unlike the
Broadcom RF Front End SoC contained
in each of the X1 Accused Products) the
single tuner in Banker outputs a single
video channel that is a composite of four
channels. RX-0150 (Banker) at col. 15, ln.
41 - col. 16, ln. 12; RX-0360 (App. No.
11/147,952) at 483. In Banker there is
only one tuner (not multiple tuners) and
that one tuner outputs only one channel
that is a composite of four different
channels:

665a

RX-0150 (Banker) at 3 (Figs 1(B) and
1(C); see also col. 8, ln. 36 - col. 9, ln. 12).
Thus,
the
patentees’
statements
regarding Banker in the prosecution of
the ‘952 application are not “clear and
unambiguous” disavowals of claim scope
and do not prevent a claim construction
broad enough to encompass the
Broadcom chips in the X1 Accused
Products. Compls. Br. at 152-60; Inline
Plastics Corp. v. EasyPak, LLC, 799 F.3d
1364, 1369 (Fed. Cir. 2015).
Rovi Reply at 49-51 (footnote omitted).
Comcast replies:
Rovi misrepresents Linear Tech. Corp. v.
ITC to argue that it is improper to
construe “multiple tuners” as consisting
of “different” circuits. Linear Tech, does
not stand for the broad proposition for
which Rovi offers it; it has distinct facts
and its holding is inapplicable to this
Investigation.

666a
In Linear Tech, the asserted claim recited
a “second circuit” and “third circuit” that
each had different functions. Linear
Tech. Corp. v. ITC, 566 F.3d 1049, 1055
(Fed. Cir. 2009). The asserted patent in
Linear Tech, “expressly disclose[d] that
the ‘second circuit’ and ‘third circuit’ can
share common components.” Id. at 1055.
And this was uncontested. Rather, the
proposal of “different” circuits was
intended to advocate that “the distinct
component[s] [of the second circuit and
third circuit] must aid in the function of
the [respective] claims circuits.” Id. at
1055-56. But the Federal Circuit found
this distinction unnecessary, because the
claim language already required the
components of the second circuit and
third circuit aid in performing each
circuit’s respective function. Id. In
contrast, Rovi’s ’512 Patent recites a
“first tuner” and “second tuner,” wherein
“both [tuners are] capable of performing
the tuning operation.” Unlike Linear
Tech., the first/second tuner of the ’512
Patent do not recite different functions
that may share common components, but
are each explicitly required to be able to
perform the same function, and the
specification of the ’512 consistently
teaches the use of two distinct tuners.
See, e.g., JX-0006 (’512 Patent) at Fig. 2b
(annotated to show the two distinct
tuners):

667a

FIG. 2(b)
In addition, the Federal Circuit in Linear
Tech. made clear that the “second circuit”
and “third circuit” of the asserted patent
should be accorded their full scope due to
the absence of any limiting disclosure or
prosecution history. See Linear Tech.,
566 F.3d at 1055. In contrast, the
applicants for Rovi’s ’512 Patent
disavowed
claim
scope
during
prosecution when arguing past the
Banker reference. In particular, the ’512
applicants distinguished Banker because
it used a single tuner to output multiple
channels rather than multiple tuners. See
RX-0847C (Bederson RWS) at Q/A 43-45;
RX-0360.0483 (‘952 file history) (“In
Banker, ‘multiple services provided on
the physical channel may be accessed
using only a single tuner.’ . . . Banker
never discusses providing multiple
services
using
multiple
tuners.”).
Allowing each of the multiple tuners (e.g.,
the first tuner and second tuner) to share

668a
even the components responsible for
tuning, as Rovi contends, would render
the limitation, and the applicants’
statements
during
prosecution,
meaningless. And it would allow Rovi to
recapture claim scope that the inventors
clearly ceded when arguing past Banker.
Further, Rovi’s expert never addressed
either the Banker reference or the
applicant’s remarks to argue past
Banker, and, as such, Dr. Bederson’s
opinions regarding Banker, and the
limitations it must impose on the claims
of the ’512 Patent, stand unrebutted.
Resps. Reply at 52-53.
The administrative law judge construes “multiple
tuners” to mean “more than one tuner.” The patent
uses the word “multiple” in a plain and ordinary
manner, and Rovi’s proposed construction comports
with the claim language, and does not expand or
narrow the claim language. The administrative law
judge already construed “tuner” to mean “an electronic
circuit used to selectively receive a desired frequency
out of an entire frequency band.”
(4) A second tuner
The term “second tuner” appears principally in the
claims and occasionally in the specification. The
parties have proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

669a
“a second tuner” has its
plain and ordinary
meaning, where the
plain and ordinary
meaning is “a tuner
other than the ‘first
tuner.’”

Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 138; Resps. Br. at 182.
Rovi’s entire argument for this term follows:
One of ordinary skill in the art would
have understood that the term “a second
tuner” has its plain and ordinary
meaning of “a tuner other than the ‘first
tuner.’” CX-0003C (Balakrishnan WS) at
Q/A 208. The ’512 Patent specification
refers to the “second or ‘other’ tuner.” JX0006 (’512 Patent) at col. 10, lns. 28-34,
col. 10, lns. 49-54.
Rovi and Respondents agree that the
meaning of “second tuner” is not limited
to any particular tuner, such as, for
example, the “last allocated” tuner (a
concept Respondents introduce in their
proposed construction of “cancel the
function of the second tuner” discussed
below). CX-0003C (Balakrishnan WS) at
Q/A 208. Both sides agree that the
“second tuner” is simply another or a
“different” tuner, without any further
limitations. Both side’s constructions for
“a second tuner” are therefore consistent
with the rule that “[t]he use of the terms

670a
‘first’ and ‘second’ is a common patentlaw convention to distinguish between
repeated instances of an element or
limitation.” 3M Innovative Props. Co. v.
Avery Dennison Corp., 350 F.3d 1365,
1371 (Fed. Cir. 2003). Thus, in the
context of the claims of the ’512 Patent,
the use of the terms “first tuner” and
“second tuner” is equivalent to a
reference to “tuner A” and “tuner B,” and
does not impose any serial or temporal
limitation onto the claims - something
the parties appear to agree to as to, the
term “a second tuner” (but dispute as to
the “cancel a function of the second tuner”
term discussed below).
Rovi Br. at 138.
Comcast presents its argument for this term along
with the “multiple tuners” term. See Resps. Br. at 182.
Rovi’s entire reply is:
Respondents group their arguments
regarding the construction of “a second
tuner” together with their arguments for
“multiple tuners.” Resps. Br. at 182.
Nonetheless, and importantly (because it
relates to the construction of “cancel a
function of the second tuner” discussed
below), Respondents’ ignore the fact that
both sides agree that the “a second tuner”
is simply another or a “different” tuner—
without any further qualification or
limitation. See id.
Rovi Reply at 51.

671a
Comcast presents its reply for this term along with
the “multiple tuners” term. See Resps. Reply at 52-53.
The administrative law judge construes “second
tuner” to mean “a tuner other than the first tuner.”
The administrative law judge construed “tuner” to
mean “an electronic circuit used to selectively receive
a desired frequency out of an entire frequency band.”
The remaining dispute thus focuses on the word
“second.” The patent uses the word in a plain and
ordinary manner, and Rovi’s proposed construction
comports with this usage. See also Linear Tech. Corp.
v. Int’l Trade Comm’n, 566 F.3d 1049, 1055 (Fed. Cir.
2009) (“We agree with the Commission’s construction
of ‘second circuit’ and ‘third circuit,’ defining the terms
broadly to not require entirely separate and distinct
circuits. Indeed, there is nothing in the claim language
or specification that supports narrowly construing the
terms to require a specific structural requirement or
entirely distinct ‘second’ and ‘third’ circuits.”); 3M
Innovative Properties Co. v. Avery Dennison Corp., 350
F.3d 1365, 1371 (Fed. Cir. 2003) (“The use of the terms
‘first’ and ‘second’ is a common patent-law convention
to distinguish between repeated instances of an
element or limitation. . . . In the context of claim 1, the
use of the terms ‘first. . . pattern’ and ‘second . . .
pattern’ is equivalent to a reference to ‘pattern A’ and
‘pattern B,’ and should not in and of itself impose a
serial or temporal limitation onto claim 1.”).
(5) Cancel the function of the second tuner
to permit the second tuner to perform
the requested tuning operation
The phrases “cancel the function” and “cancel a
function” only appear in the claims. The full text of the

672a
disputed phrase only appears in claim 11. The parties
have proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

Stop a function utilizing
a signal tuned to by the
second tuner in order to
permit the requested
function utilizing a
signal tuned to by the
second tuner to be
performed.

Comcast does not clearly
present a construction in
its post-hearing brief.

See Rovi Br. at 142; Resps. Br. at 174-78.
Rovi argues:
One of ordinary skill in the art would
have understood the phrase “cancel the
function of the second tuner to permit the
second tuner to perform the requested
tuning operation” to mean “stop a
function utilizing a signal tuned to by the
second tuner in order to permit the
requested function utilizing a signal
tuned to by the second tuner to be
performed.” CX-0003C (Balakrishrian
WS) at Q/A 228-229.
Respondents contend that the phrase
“cancel the function of the second tuner to
permit the second tuner to perform the
requested tuning operation” should be
construed as “terminate a function being
performed by the last allocated tuner

673a
so it can perform the requested tuning
operation.” (emphasis added). The
parties’
primary
dispute
involves
whether “second tuner,” in this phrase
only, is limited to the “last allocated
tuner” (as in Respondents’ proposed
construction). As discussed above in
Section VI(C)(2)(d), the parties agreed
that “second tuner” refers to a tuner that
is not the first tuner, without any other
limitations with respect to time or
sequence. “A word or phrase used
consistently throughout a claim should be
interpreted consistently.’’ Epcon Gas Sys.,
Inc. v. Bauer Compressors, Inc., 279 F.3d
1022, 1031 (Fed. Cir. 2002) (emphasis in
original) (quoting Phonometrics, Inc. v.
Northern Telecom Inc., 133 F.3d 1459,
1465 (Fed. Cir. 1998)).
In addition to being inconsistent with
Respondents’ construction of “second
tuner,” Respondents improperly place a
temporal limitation on the second tuner
that does not exist in the intrinsic
evidence. Respondents appear to be
relying on the term “second” to connote
sequence or time: “last allocated,” which
violates the rule that “[t]he use of the
terms ‘first’ and ‘second’ is a common
patent-law convention to distinguish
between repeated instances of an
element or limitation.” 3M Innovative
Props., 350 F.3d at 1371.
Further, there is no support in the
intrinsic record for requiring that the

674a
second tuner be the “last allocated” tuner.
The claims refer to a “first tuner” and a
“second tuner,” i.e., two instances of a
tuner, not to a “last allocated” tuner; no
other claim term imposes any time or
sequence limitation on the “first” and
“second”
tuners.
CX-0003C
(Balakrishnan WS) at Q/A 230;
Balakrishnan Tr. 370. The term “first”
does not mean “first in time” or “first
allocated” and the term “second” does not
mean “second, in time” or “second
allocated” or even “last allocated.” Id.
Said differently, the claim could just as
easily have said “tuner A” and “tuner B”
and meant the same thing. Id., see also
3M Innovative Props., 350 F.3d at 1371.
Indeed, and consistent with the intrinsic
record, the “second tuner” can be utilized
first in time to record or view television
programming and the “first tuner” can be
utilized second in time.
The specification likewise does not
support limiting the “second tuner” to be
the “last allocated tuner.” Respondents
rely on Figure 3(b) as their sole support
for their read-in “last allocated” addition.
RX-0847C (Bederson RWS) at Q/A 26.
However, Figure 3(b) is not the sole
embodiment of the invention; it is
nothing more than an example or
illustration, as it is referred to in JX-0006
(’512 Patent) at col. 2, lns. 49-53, and it is
even further limited to only the
configuration of Figure 2(a), which is

675a
itself merely an example. JX-0006 (’512
Patent) at col. 2, lns. 34-38; CX-0003C
(Balakrishnan WS) at Q/A 230. The mere
fact that in one example in the
specification the “second tuner” is
utilized second in time as opposed to first
in time does not, as a matter of law,
mandate that the claims be limited in all
instances to utilizing the tuners in this
sequence. Phillips, 415 F.3d at 1320.
Figure 3(b) therefore is not limiting at all,
but even if it were, Respondents cannot
read-in limitations from an exemplary
embodiment that do not appear in the
’512 Patent claims. Id. Nowhere in the
specification or elsewhere in the intrinsic
evidence is there any disclaimer or
disavowal that would require that the
“second tuner” be limited to the “last
allocated”
tuner.
CX-0003C
(Balakrishnan WS) at Q/A 230.
Rovi Br. at 142-44 (footnote omitted).
Comcast presents arguments for the phrases
“cancel a function of the second tuner to permit the
second tuner to perform the requested tuning
operation” / “cancel a function” / “function of the second
tuner” together:
There is a substantial difference in the
parties’ constructions. Rovi treats “first
tuner”
and
“second
tuner”
as
interchangeable, and essentially states
that as long as the function of any tuner
is offered for cancelation, that tuner can
be the “second tuner.” RX-0847C

676a
(Bederson RWS) at Q/A 22 (discussing
Dr.
Balakrishnan’s
deposition
testimony). Respondents’ construction
treats the “second tuner” as the “last
allocated tuner,” which is the nth tuner
set in a n tuner system. Id. at Q/A 19-21.
Even Rovi’s expert admits that a conflict
arises when the nth tuner becomes
occupied. Tr. 329:23-330:15; RX-0847C at
Q/A 26. Respondents’ construction
comports with this most fundamental
purpose of the invention, and with the
intrinsic record. In contrast, Rovi’s
litigation inspired construction lacks any
support in the intrinsic record, and has
the effect of doubling the scope of the
asserted claims. And it would have the
effect of leaving POSITA’s without any
clear indication of whether they are
practicing the claim. RX-0847C at Q/A 22
- 24.
The ’512 Patent discloses a two tuner
system, as displayed in Fig. 2(b), and
discussed in the flow chart of Fig. 3(b).
The first tuner may be occupied by
displaying or recording a television
program, such as in the box with the text
“user has selected a program to view on
television and first non-busy tuner is
used.” RX-0847C at Q/A 26; RDX-1237
(JX-0006 at Fig. 3(b) (annotated); JX0006
(’512
Patent)
at
8:17-32.
Subsequently, the “other tuner,” which is
the “second tuner” in the two tuner
system disclosed becomes occupied. For

677a
example, by either displaying or
recording a second program (e.g., element
308, “program guide uses other tuner to
record program”), or element 309,
“program guide uses other tuner to
provide secondary function”). RX-0847C
at Q/A 26; RDX-1238 (JX-0006 at Fig 3(b)
(annotated)); JX-0006 at 8:33-65, 9:44-59.
When a third function is requested, such
as in either elements 310 or 311 of Fig.
3(b), the IPG alerts the user with an
option to cancel the function of the “other
tuner” (elements 312 or 316 respectively).
RX-0847C at Q/A 26; RDX-1239 (JX-0006
at Fig 3(b) (annotated)); JX-0006 at 9:936, 9:44-59. Elements 312 or 316 of Fig.
3(b) do not apply until there all the
tuners are occupied. RX-0847C at Q/A 26.
Because the “last allocated tuner” is
occupied, the program guide provides an
alert to the screen notifying them of the
conflict. Id. As is logical, the tuners are
allocated in serial fashion (tuner 1, tuner
2, until tuner n), and the conflict is
identified when the last-allocated tuner
(in this scenario, tuner 2) has been
allocated and a new tuning request
arrives. JX-0006 at 9:44-59; RX-0847C at
Q/A 20.
In contrast, Rovi’s construction is an
improper attempt to double the scope of
the claims. Rovi’s proposal eliminates the
specificity of this claim language, and
treats the “first tuner” and “second tuner”
as interchangeable for resolving the

678a
conflict. RX-0847C at Q/A 21. In essence,
Rovi’s construction is premised on the
concept that in a two tuner system containing tuner A and tuner B - that
either tuner A or tuner B could be the
“first” tuner, regardless of when they
were allocated a tuning operation. See
RX-0847C at Q/A 22. Rovi’s expert
testified repeatedly that in a multi-tuner
system, any tuner can be the “first
tuner,” and any other tuner can be the
“second tuner.” RDX-1209C (RX-0810
(Balakrishnan Dep., Ex. 5)); RX-0847C at
Q/A 22.
For purposes of “canceling the function of
the second tuner,” Dr. Balakrishnan’s
testimony makes clear, that in his
opinion, “the second tuner” as found in
the “displaying. . .” limitation, does not
derive its antecedent basis from “a second
tuner” in the “determining. . .” limitation
of claims 1 and 13. RX-0847C at Q/A 22;
RDX-1253 (showing ’512, cl. 1 and
antecedent basis for “the second tuner”).
Dr.
Balakrishnan
testified
that
whichever tuner has its operation
canceled, that could be considered the
second tuner; even if there is a system
with 100 tuners, any two could be the
“first tuner” and the “second tuner.” RX0847C at Q/A 22; see also, RDX-1254C
(RX-0813 (Balakrishnan Dep., Ex. 8)).
Dr. Balakrishnan even testified that, in
his opinion, the “first tuner,” and “second
tuner,” do not have to be the same “first

679a
tuner” and “second tuner” for each of the
limitations of the asserted claims. See
RX-0847C at Q/A 22 (citing to
Balakrishnan Dep. Tr.). The effect of Dr.
Balakrishnan’s opinion - that whichever
tuner’s function is offered for cancelation
can be the “second tuner,” - can be
diagrammatically shown in RDX-1212
(JX-0006 at Fig. 2(b) (annotated)); RX0847C at Q/A 22.
All of this has the impact of doubling the
claim scope of the patent. And, in fact,
Rovi’s expert agreed that under Rovi’s
proposed construction, the claim could be
read as “canceling a function of the first
tuner or second tuner” or any tuner in
an n-tuner system, instead of canceling
only a “function of the second tuner.” RX0847C (Bederson RWS) at Q/A 25 (citing
to Balakrishnan Dep. Tr.); RDX-1213C
(RX-0814 (Balakrishnan Dep., Ex. 9))
(marked by Rovi’s expert to acknowledge
his agreement that this revised version of
claim 1 accurately reflects his opinion
regarding the scope of claim 1 of the ’512
Patent); RX-0847C at Q/A 25 (citing to
Balakrishnan Dep. Tr.); RDX-1216C (RX0815 (Balakrishnan Dep., Ex. 10))
(marked by Rovi’s expert to acknowledge
his agreement that this revised version of
claim 1 accurately reflects his opinion
regarding the scope of claim 1 of the ’512
Patent)); see also Tr. 331:13-18
(acknowledging exhibit contained Dr.

680a
Balakrishnan’s
testimony).

initials

to

confirm

And if rewriting the claim was not
enough, Rovi’s proposed construction also
attempts to recapture a claim that was
canceled earlier in prosecution. The
applicants for the ’512 Patent attempted
to obtain claims that would encompass
canceling a function of any tuner to
resolve a conflict. For example, original
claim 56 provided the user the option of
canceling “one of the prior requests” to
“handle the current user request.” In
short, original claim 56 covered canceling
the function of the first tuner or the
second tuner to resolve a tuner conflict.
See RX-0847C at Q/A 27 (referencing RX0195.0042 (File History for U.S. Pat.
Appl. 11/154,065) (original claim 1),
.0047-48 (original claim 35), .0051

681a
(original claim 56)). It is clear the
applicants knew the difference between
canceling the function of “any tuner” as
Rovi now proposes, and the second tuner,
as claimed by the ’512 Patent.
Resps. Br. at 174-178 (footnote omitted).
Rovi replies:
Contrary to the parties’ proposed
constructions for the term “a second
tuner” discussed above (where neither
construction of “second tuner” is limited
to
the
“last
allocated
tuner”),
Respondents now contend that the term
“the second tuner,” in the claim phrase
“cancel the function of the second tuner to
permit the second tuner to perform the
requested tuning operation,” is limited to
the “last allocated tuner.” See Resps. Br.
at 174. Respondents provide no basis for
construing “the second tuner” in this
phrase as “last allocated” while also
agreeing that the term “a second tuner”
standing alone simply refers to a tuner
other than the “first tuner.” Compls. Br.
at 142 (further explaining Respondents’
inconsistent arguments and setting forth
authority that the same claim term
should be constructed consistently
throughout the patent— especially
where, as here, the claim term “the
second tuner” has an antecedent basis.”).
Respondents
argue
that
Rovi’s
construction is improper, because Rovi
“treats [the] ‘first tuner’ and ‘second

682a
tuner’ as interchangeable” which has the
“effect of doubling the scope of the
asserted claims.” Resps. Br. at 174-75. In
claims 1 and 13, and consistent with the
parties’ constructions for “a second
tuner,” any tuner may be “the second
tuner,” so long as “the first tuner” and
“the second tuner” refer to different
tuners. Compls. Br. at 142-44.
In addition, binding Federal Circuit
precedent holds that Rovi’s construction
is proper— “the use of the terms ‘first’
and ‘second’ [in a patent claim] is a
common patent-law convention to
distinguish between repeated instances
of an element or limitation.” Id. at 143
(quoting 3M Innovation Props.); see also
id. at 138 (same). Further, this same
authority holds—-just as Rovi proposes—
that “first” and “second” in claim
language is ordinarily understood to
mean “instance A” and “instance B” of the
same item. Id. Respondents’ present no
authority
that would require—as
Respondents’ assert—that the “first
tuner” be limited to the tuner used first
in time and that the “second tuner” be
limited to the tuner “last allocated” in
time. Compls. Br. at 142-44; Resps. Br. at
174-77. There is no basis to import any
temporal limitation. Id.
In support of its attempt to import a “last
allocated” limitation into the claims,
Respondents point to Figure 3(b) and
argue that because, in this example, the

683a
tuner whose function is canceled
happened to be the tuner that was used
second in time, that the claims must
necessarily and always be limited to
canceling the function of the “last
allocated” tuner. Resps. Br. at 175.
Figure 3(b) is, however, merely an
example of one way the invention could
work when using the two-tuner
configuration of Figure 2(b).
Compls. Br. at 142-44; see also Phillips v.
AWH Corp., 415 F.3d 1303, 1323 (Fed.
Cir. 2005) (holding that it is improper to
limit claims based on one exemplary
embodiment).
The
example
is
illustrative, not limiting. JX-0006 (’512
Patent) at col. 2, lns. 45-48.
Additionally, Respondents contend that
Rovi’s construction—which as discussed
previously uses “first” and “second” to
refer to multiple instances of the same
item (as in 3M Innovative Props.) – is
attempting to “recapture a claim
[prosecution claim 56] that was canceled
earlier in prosecution.” Resps. Br. at 177.
Canceled prosecution claim 56, required,
among many other limitations, “a
plurality of tuners” and contained a
requirement that the user be provided
the option of canceling “one of the prior
requests” to “handle the current user
request.” RX-0195 (App. No. 11/154,065)
at 42, 48, 51. There is no evidence
demonstrating that the patentees’
cancelation of claim 56 and inclusion of

684a
claims 1 and 13 limits claims 1 and 13 to
only canceling the function of the “last
allocated” tuner or that Rovi is
impermissibly attempting to recapture
disavowed claim scope by applying “first”
and “second” in their ordinarily
understood (and non-temporally limited)
manner. Compls. Br. at 142-44.
Rovi Reply at 52-54 (footnote omitted).
The administrative law judge construes “cancel the
function of the second tuner to permit the second tuner
to perform the requested tuning operation” to mean
“stop a function utilizing a signal tuned to by the
second tuner in order to permit the requested function
utilizing a signal tuned to by the second tuner to be
performed.”
Figures 4(b) and 4(c), reproduced below, depict
program guide viewer options for cancelling a second
tuner function:

FIG. 4(b)
The specification explains:

FIG. 4(c)

685a
FIG. 4(b) is an illustrative interactive
television program guide. viewer option
selection screen for use in canceling a
picture-in-picture function or other
secondary user functions in accordance
with the present invention. FIG. 4(c) is an
illustrative
interactive
television
program guide viewer option selection
screen for use in the cancellation of a
scheduled recording in accordance with
the present invention.
JX-0006 at 2:60-67. In the summary of the invention,
the specification explains about tuner allocation:
If the set-top box is equipped with
multiple
tuners,
the
interactive
television program guide will allocate one
of the tuners for recording, the program
when it is time for the program to start.
However, if all of the tuners are in use,
which may be the case if the viewer is
watching one program and using a
picture-in-picture (“PIP”) feature to view
another program or to display additional
text or graphics by using some other
secondary tuner function feature that
requires a tuner to operate, the
interactive television program guide
may allocate a tuner for the
recording function if the user
indicates that he is no longer
interested in using the PIP or
another secondary tuner function or
if the tuner allocation scheme
dictates it do so. Alternatively, if the

686a
set-top box is equipped with two tuners,
one may be dedicated for television
viewing and interactive television
program guide user features, while the
other tuner may be dedicated for
recording use only.
Id. at 1:65-2:13 (emphasis added).
Rovi’s construction is consistent with the claim
language, and is supported by the specification and
figures, because it ties the action (cancelling the
function) to the second tuner.
(6) Tuning operation
The term “tuning operation” only appears in the
claims. The parties have proposed the following
constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

performing an operation
utilizing a tuned-to
signal

Comcast does not
clearly present a
construction in its posthearing brief.

See Rovi Br. at 139; Resps. Br. at 171-74.
Rovi’s entire argument for this term follows:
One of ordinary skill in the art would
have understood that the term “tuning
operation” refers to the “tuning
operation” requested by the user and
means “performing an operation utilizing
a
tuned-to
signal.”
CX-0003C
(Balakrishnan WS) at Q/A 209. One of

687a
ordinary skill would have understood
that the term “tuning operation” refers to
operations that are performed on a
tuned-to signal, not to the act of tuning to
the signal. CX-0003C (Balakrishnan WS)
at Q/A 209.
Rovi Br. at 139.
Comcast presents its arguments for this term along
with the “tuner” term. The lone paragraph directed to
“tuning operation” follows:
Consistent with these dictionaries, the
term “tuning operation” should be given
its plain and ordinary meaning as well.
Rovi seeks to limit the meaning of
“tuning operation” to “performing an
operation utilizing a tuned-to signal”
based on the usage of “tuning operation”
in dependent claims 4 and 16, which
recite tuning operations (e.g., displaying,
recording) the entail operations on the
tuned to signal. But claims 4 and 16
depend from claims 1 and 13. These
dependent claims contain additional
limitations (i.e., require particular
“tuning operations” such as setting a
recording) when compared to the
independent claims from which they
stem. See CX-0003C at Q/A 209. Rovi’s
argument, that usage in the dependent
claim narrows usage in the independent
claim, contradicts the basic law of claim
construction. Tr. of Columbia Univ. in
City of New York v. Symantec Corp., 811
F.3d 1359, 1370 (Fed. Cir. 2016) (terms

688a
used in both independent claim and
dependent claim are not restricted in
scope by the additional limitations of the
dependent claim). And Rovi also ignores
that each of the “tuning operations”
recited in these dependent claims, and
throughout
the
specification,
are
consistent with Respondents’ proposal.
Each of these “tuning operations”
requires selectively receiving RF signals
in a desired frequency channel. Rovi’s
proposal eliminates this concept. This is
also consistent with the purpose of the
invention - the tuning conflict, as
disclosed in the ’512 Patent, and
acknowledged by Rovi’s expert, results
when all the tuners are in use, and
therefore cannot select the requested
frequency. See also id. at 8:66-9:8; Tr.
290:15-25.
See Resps. Br. at 171-74.
Rovi replies:
Respondents
argue
that
Rovi’s
construction for “tuning operation”—
”performing an operation on a tuned-to
signal”—is incorrect. Resps. Br. at 17374. Contrary to Respondents’ assertions,
Rovi’s construction is consistent with, but
not limited to, the tuning operations
listed in claims 4 and 16. See id.; Compls.
Br.
at
139.
Specifically,
Rovi’s
construction properly equates the
claimed “tuning operation” with an
operation that utilizes a “tuned-to

689a
signal,” e.g., viewing or recording
television programming. Id. Simply
tuning to a signal, as required by
Respondents’ construction, does not
indicate whether that signal should be
viewed and/or recorded, which as
expressed by claims 4 and 16, is a
requirement of a “tuning operation.” Id.
Rovi Reply at 51.
Comcast replies:
Rovi relies entirely on Dr. Balakrishnan’s
opinion that a “‘tuning operation’ is
separate from actually tuning to the
particular program.” Compl. PoHB at
139. And this opinion is actually
consistent
with
Respondents’
construction which requires performing
an operation (“function performed by”)
that involves “tuning” (“selectively
receiving RF signals in a desired
frequency channel”). Rovi’s construction,
like its construction for “tuner,” attempts
to avoid defining the actual function that
constitutes “tuning.”
Resps. Reply at 59 (footnote omitted).
Claims 4 and 16 of the ’512 patent explain that a
tuning function includes at least “viewing television
programming, recording television programming, and
performing a secondary tuner function.” JX-0006 at
18:60-65; 20:14-19 (claiming “a tuning function
selected from the group consisting of viewing
television
programming,
recording
television
programming, and performing a secondary tuner

690a
function.” (emphasis added)). Figure 3(c), reproduced
below, depicts secondary tuner functions:

Apart from the claims, the specification uses the
word “operation” just once:
. . . In contrast to the set-top box
embodiment shown in FIG. 5, where settop box output 508 is directed to VCR 114
and full interactive television program
guide use is not possible while in the

691a
watch and record mode, this single-tuner
RF-bypass-switch embodiment does not
interfere with the functionality of the
interactive television program guide
when VCR 114 recording function is in
operation because set-top box tuner
output 508 is directed to television 116
and not VCR 114.
JX-0006 at 13:33-42 (emphasis added). This excerpt
indicates that “operation” is the act of executing a
function.
The administrative law judge construes “tuning
operation” to mean “performing an operation utilizing
a selected signal.” Rovi’s construction, which requires
“utilizing,” generally comports with the claims and
specification.
(7) Neither a/the first tuner nor a/the
second tuner are available to perform
the requested tuning operation
The phrase “available to perform the requested
tuning operation” appears only in claims 1 and 13. The
parties have proposed the following constructions:
Rovi’s Proposed
Construction

Comcast’s Proposed
Construction

“neither a/the first tuner
nor the second tuner are
available to perform the
requested tuning
operation” has its plain
and ordinary meaning
where the plain and
ordinary meaning is “the
first and second tuners

“In this condition,
consistent with
Respondents’ proposed
construction, all the
‘tuners capable of
performing the requested
operation are in use.’”

692a
cannot perform the
requested tuning
operation.”
See Rovi Br. at 139; Resps. Br. at 178.
Rovi’s entire argument for this term follows:
One of ordinary skill would have
understood the phrase “neither a/the first
tuner nor the second tuner are available
to perform the requested tuning
operation” to have its plain and ordinary
meaning—”the first and second tuners
cannot perform the requested tuning
operation.” That is, the tuners are not
available or capable of performing the
requested tuning operation. CX-0003C
(Balakrishnan WS) at Q/A 216-17.
Respondents contend that this term does
not need to be construed; however, should
construction be deemed necessary, they
contend that it should be construed as—
”all tuners capable of performing the
requested operation are in use.”
Respondents’ construction is problematic
for two reasons. First, it improperly
equates the “first” and “second” tuners
with “all tuners,” which may—under the
plain meaning of the claims—be more
than just two tuners. Second, it
improperly equates “unavailable” with
“in use” (and the requirement that “all
tuners” be “in use”). CX-0003C
(Balakrishnan WS) at Q/A 218. Just

